<html>
<title> - FEDERAL MEASURES OF RACE AND ETHNICITY AND THE IMPLICATIONS FOR THE 2000 CENSUS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  FEDERAL MEASURES OF RACE AND ETHNICITY AND THE IMPLICATIONS FOR THE 
                              2000 CENSUS
=======================================================================

                                HEARINGS

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                  APRIL 23; MAY 22; AND JULY 25, 1997

                               __________

                           Serial No. 105-57

                               __________

Printed for the use of the Committee on Government Reform and Oversight






                       U. S. GOVERNMENT PRINTING OFFICE
45-174                         WASHINGTON : 1998
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
PETE SESSIONS, Texas                 CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
JOE SCARBOROUGH, Florida             MAJOR R. OWENS, New York
MARSHALL ``MARK'' SANFORD, South     ROD R. BLAGOJEVICH, Illinois
    Carolina                         DANNY K. DAVIS, Illinois
JOHN E. SUNUNU, New Hampshire
ROB PORTMAN, Ohio

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                 John Hynes, Professional Staff Member
                Joan McEnery, Professional Staff Member
                          Andrea Miller, Clerk
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 23, 1997...............................................     1
    May 22, 1997.................................................   247
    July 25, 1997................................................   507
Statement of:
    Akaka, Hon. Daniel K., a U.S. Senator from the State of 
      Hawaii.....................................................   261
    Cantu, Norma, Assistant Secretary for Civil Rights, U.S. 
      Department of Education; Edward J. Sondik, National Center 
      for Health Statistics, U.S. Department of Health and Human 
      Services; and Bernard L. Ungar, Associate Director, Federal 
      Management and Work Force Issues, U.S. General Accounting 
      Office.....................................................   135
    Douglass, Ramona, president, Association for Multiethnic 
      Americans; Helen Hatab Samhan, executive vice president, 
      Arab-American Institute; Jacinta Ma, legal fellow, National 
      Asian Pacific American Legal Consortium; Joann Chase, 
      executive director, National Congress of American Indians; 
      and Nathan Douglas, Interracial Family Circle..............   382
    Farnsworth Riche, Martha, Director, Bureau of the Census, 
      accompanied by Nancy M. Gordon, Associate Director for 
      Demographic Programs.......................................   115
    Graham, Susan, president, Project RACE; Carlos Fernandez, 
      coordinator for law and civil rights, Association of 
      Multiethnic Americans; Harold McDougall, director, 
      Washington bureau, NAACP; and Mary Waters, department of 
      sociology, Harvard University..............................   546
    Graham, Susan, president, Project RACE; Ryan Graham, Project 
      RACE; Harold McDougall, director, Washington bureau, NAACP; 
      and Eric Rodriguez, policy analyst, National Council of La 
      Raza.......................................................   282
    Katzen, Sally, Administrator, Office of Information and 
      Regulatory Affairs, Office of Management and Budget, 
      accompanied by Katherine Wallman, Chief Statistician of the 
      United States..............................................    45
    Katzen, Sally, Administrator, Office of Information and 
      Regulatory Affairs, Office of Management and Budget; 
      Isabelle Katz Pinzler, Assistant Attorney General for Civil 
      Rights, Department of Justice; and Nancy Gordon, Associate 
      Director for Demographic Programs, Bureau of the Census....   590
    Sawyer, Hon. Thomas, a Representative in Congress from the 
      State of Ohio; Hon. Thomas Petri, a Representative in 
      Congress from the State of Wisconsin; and Hon. Carrie P. 
      Meek, a Representative in Congress from the State of 
      Florida....................................................   215
    Sawyer, Hon. Thomas, a Representative in Congress from the 
      State of Ohio; Hon. Thomas Petri, a Representative in 
      Congress from the State of Wisconsin; Hon. Maxine Waters, a 
      Representative in Congress from the State of California; 
      and Hon. John Conyers, Jr., a Representative in Congress 
      from the State of Michigan.................................   517
    Waters, Mary C., Department of Sociology, Harvard University; 
      Harold Hodgkinson, Center for Demographic Policy, Institute 
      for Educational Leadership; and Balint Vazsonyi, director, 
      Center for the American Founding...........................   439
Letters, statements, etc., submitted for the record by:
    Akaka, Hon. Daniel K., a U.S. Senator from the State of 
      Hawaii:
        CRS study................................................   270
        Prepared statement of....................................   264
    Cantu, Norma, Assistant Secretary for Civil Rights, U.S. 
      Department of Education, prepared statement of.............   138
    Chase, Joann, executive director, National Congress of 
      American Indians, prepared statement of....................   422
    Conyers, Hon. John, Jr., a Representative in Congress from 
      the State of Michigan, prepared statement of...............   535
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statements of.................41, 253
    Douglas, Nathan, Interracial Family Circle, prepared 
      statement of...............................................   430
    Douglass, Ramona, president, Association for Multiethnic 
      Americans, prepared statement of...........................   385
    Farnsworth Riche, Martha, Director, Bureau of the Census:
        Information concerning ignored 1990 census questions.....   116
        Information concerning penalties.........................   115
    Fernandez, Carlos, coordinator for law and civil rights, 
      Association of Multiethnic Americans:
        Prepared statement of....................................   571
        Prepared statement of June 30, 1993, hearing.............   558
    Forgione, Dr., Commissioner of NCES, prepared statement of...   141
    Gingrich, Hon. Newt, Speaker, U.S. House of Representatives, 
      prepared statement of......................................   661
    Gordon, Nancy M., Associate Director for Demographic 
      Programs:
        Information concerning ancestry..........................   130
        Information concerning classifying data on the Hawaiian 
          population.............................................   131
        Information concerning followup interviews...............   608
        Information concerning industrial countries censuses.....   128
        Information concerning the degree to which census data 
          collection policies apply to State data collection on 
          relevant Federal programs..............................   129
        Prepared statements of.................................119, 632
    Graham, Susan, president, Project RACE:
        Information concerning followup comments.................   332
        Prepared statements of.................................286, 553
        Short comments from Project RACE members.................   548
        Written statements from legal experts....................   342
    Graham, Ryan, Project RACE, prepared statement of............   299
    Hodgkinson, Harold, Center for Demographic Policy, Institute 
      for Educational Leadership, prepared statement of..........   464
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Background information on Directive 15...................     6
        California list based on public policy...................   112
        Chart, ``Modernizing the U.S. Census''...................   133
        Dissent..................................................   487
        Information concerning the effect of Directive 15 on 
          States and localities..................................   116
        Prepared statements of..............................4, 250, 510
    Katzen, Sally, Administrator, Office of Information and 
      Regulatory Affairs, Office of Management and Budget:
        Information concerning legislative and judicial 
          determinations.........................................    84
        Prepared statements of..................................49, 596
    Ma, Jacinta, legal fellow, National Asian Pacific American 
      Legal Consortium, prepared statement of....................   414
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated October 1994................................   377
        Prepared statements of..................................36, 257
    McDougall, Harold, director, Washington bureau, NAACP:
        Article dated May 17th entitled, ``Danish Mother Free to 
          Take Child Home''......................................   305
        May 17th Washington Post article.........................   303
        Prepared statements of.................................307, 582
    Meek, Hon. Carrie P., a Representative in Congress from the 
      State of Florida, prepared statements of.................233, 537
    Petri, Hon. Thomas, a Representative in Congress from the 
      State of Wisconsin, prepared statements of...............225, 524
    Pinzler, Isabelle Katz, Assistant Attorney General for Civil 
      Rights, Department of Justice, prepared statement of.......   619
    Rodriguez, Eric, policy analyst, National Council of La Raza, 
      prepared statement of......................................   320
    Samhan, Helen Hatab, executive vice president, Arab-American 
      Institute:
        List of members of working group.........................   398
        Prepared statement of....................................   406
    Sawyer, Hon. Thomas, a Representative in Congress from the 
      State of Ohio, prepared statements of....................218, 519
    Sondik, Edward J., National Center for Health Statistics, 
      U.S. Department of Health and Human Services, prepared 
      statement of...............................................   156
    Ungar, Bernard L., Associate Director, Federal Management and 
      Work Force Issues, U.S. General Accounting Office, prepared 
      statement of...............................................   176
    Vazsonyi, Balint, director, Center for the American Founding, 
      prepared statement of......................................   478
    Waters, Hon. Maxine, a Representative in Congress from the 
      State of California, prepared statements of..............228, 527
    Waters, Mary C., Department of Sociology, Harvard University, 
      prepared statements of...................................442, 644


  FEDERAL MEASURES OF RACE AND ETHNICITY AND THE IMPLICATIONS FOR THE 
                              2000 CENSUS

                              ----------                              


                       WEDNESDAY, APRIL 23, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Maloney, and Davis of 
Illinois.
    Staff present: J. Russell George, staff director; Joan 
McEnery and John Hynes, professional staff members; Andrea 
Miller, clerk; David McMillen and Mark Stephenson, minority 
professional staff members; and Ellen Rayner, minority chief 
clerk.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order.
    Since the founding of the Republic and the first census in 
1790, every decennial census has included a question about race 
and, beginning in 1970, about ethnicity. The 1790 census 
classified individuals according to three categories: free 
white male, free white female, and slave.
    Two hundred years later, the 1990 census offered six 
possible categories, five racial, and one ethnic: black, white, 
American Indian or Alaskan Native, Asian or Pacific Islander, 
and ``Other'' with a write-in response, as well as Hispanic 
ethnicity.
    High rates of immigration and intermarriage between people 
of diverse racial backgrounds are rapidly changing the 
composition of our Nation's population. An increasing number of 
individuals feel uncomfortable putting themselves or their 
children into one of the current categories. Some people feel 
they fall outside these categories.
    Other people fall between the current categories. An 
individual with parents from two different categories may not 
wish to choose one parental identity over the other. The 
children of two such individuals could conceivably belong to 
all of the current categories and feel that to choose just one 
is meaningless or offensive. It is difficult to resist pointing 
out the example of Tiger Woods here.
    The questions on race and ethnicity currently in use have 
been designed in compliance with the provisions of the Office 
of Management and Budget's ``Directive No. 15: Race and Ethnic 
Standards for Federal Statistics and Administrative 
Reporting.'' This directive provides standard classifications 
for recordkeeping, collection, and presentation of data on race 
and ethnicity in Federal programs, administrative reporting, 
and statistical activities.
    The race and ethnic classifications under Directive 15 are 
vital to the implementation of numerous Federal laws and 
regulations. Data on race and ethnicity are required by Federal 
statutes covering issues such as voting rights, lending 
practices, provision of health services, employment practices, 
and funding programs at historically black colleges. The data 
are also utilized by State and local governments for 
legislative redistricting and compliance with the Voting Rights 
Act, as amended.
    The purpose of this hearing is to provide an informational 
overview of the measurement of race and ethnicity in the 
Federal Government and to review the proposed changes to 
Directive 15. This is the first of a series of hearings to 
examine this issue prior to the finalization of the use of race 
and ethnic questions on the 2000 census.
    We want an overview of the issues, historical information, 
and actions taken in the current review process. We want to 
hear about the use of race and ethnic data by Federal agencies 
and the potential impact of proposed changes.
    This is a difficult issue. It can be very personal and 
emotional at the same time that it has far-reaching 
implications for Federal law and for important statistical 
measures in our society. If one thing is clear, it is that this 
issue needs careful consideration. No changes should be made in 
the current categories, nor should the status quo be 
reaffirmed, without a full and open public debate about what is 
at stake.
    We welcome our distinguished witnesses. Sally Katzen will 
represent the Office of Management and Budget. She is 
Administrator of OMB's Office of Information and Regulatory 
Affairs. Martha Farnsworth Riche, Director of the Bureau of the 
Census, will testify on the second panel. She is accompanied by 
Nancy Gordon, the Associate Director for Demographic Programs.
    The third panel will give us more detail on the collection 
of race and ethnicity data at the State and local levels. Norma 
Cantu, Assistant Secretary for civil rights at the Department 
of Education, and Edward Sondik, Director of the National 
Center for Health Statistics at the Department of Health and 
Human Services, will each testify, providing a departmental 
perspective.
    Some of the most important statistics organized by race and 
ethnicity are on education and health. Furthermore, along with 
the Bureau of the Census, these two departments are at the 
front lines of gathering the data. Perhaps the two most 
critical points for gathering data at the local level are when 
a child is born and when he or she is enrolled in school.
    Also on the third panel is Bernard Ungar, Associate 
Director for Federal Management and Work Force Issues at the 
General Accounting Office. He will complement Norma Cantu and 
Edward Sondik by focusing on compiling data at the State and 
local level.
    Our fourth panel will feature several distinguished Members 
of the House of Representatives: Thomas Petri, Republican of 
Wisconsin; Thomas Sawyer, Democrat of Ohio; Carrie P. Meek, 
Democrat of Florida; and Maxine Waters, Democrat of California.
    We welcome all of our witnesses and look forward to their 
testimony.
    Without objection, I will include, after my opening 
remarks, a memorandum that was sent by me to members of the 
subcommittee, which provides background information and detail 
on Directive 15 and some of the categories since 1790.
    [The prepared statement of Hon. Stephen Horn and the 
background memorandum follow:]
[GRAPHIC] [TIFF OMITTED] 45174.001

[GRAPHIC] [TIFF OMITTED] 45174.002

[GRAPHIC] [TIFF OMITTED] 45174.003

[GRAPHIC] [TIFF OMITTED] 45174.004

[GRAPHIC] [TIFF OMITTED] 45174.005

[GRAPHIC] [TIFF OMITTED] 45174.006

[GRAPHIC] [TIFF OMITTED] 45174.007

[GRAPHIC] [TIFF OMITTED] 45174.008

[GRAPHIC] [TIFF OMITTED] 45174.009

[GRAPHIC] [TIFF OMITTED] 45174.010

[GRAPHIC] [TIFF OMITTED] 45174.011

[GRAPHIC] [TIFF OMITTED] 45174.012

[GRAPHIC] [TIFF OMITTED] 45174.013

[GRAPHIC] [TIFF OMITTED] 45174.014

[GRAPHIC] [TIFF OMITTED] 45174.015

[GRAPHIC] [TIFF OMITTED] 45174.016

[GRAPHIC] [TIFF OMITTED] 45174.017

[GRAPHIC] [TIFF OMITTED] 45174.018

[GRAPHIC] [TIFF OMITTED] 45174.019

[GRAPHIC] [TIFF OMITTED] 45174.020

[GRAPHIC] [TIFF OMITTED] 45174.021

[GRAPHIC] [TIFF OMITTED] 45174.022

[GRAPHIC] [TIFF OMITTED] 45174.023

[GRAPHIC] [TIFF OMITTED] 45174.024

[GRAPHIC] [TIFF OMITTED] 45174.025

[GRAPHIC] [TIFF OMITTED] 45174.026

[GRAPHIC] [TIFF OMITTED] 45174.027

[GRAPHIC] [TIFF OMITTED] 45174.028

[GRAPHIC] [TIFF OMITTED] 45174.029

[GRAPHIC] [TIFF OMITTED] 45174.030

    Mr. Horn. We are delighted to now welcome the ranking 
minority member for an opening statement. A quorum is present, 
and as others come in, we will ask them to make their 
statements before swearing in the witnesses.
    Mrs. Maloney of New York.
    Mrs. Maloney. Thank you very much, Mr. Chairman, for 
holding this hearing on the census and how we measure race in 
the year 2000, the next century.
    Today's Washington Post, in describing Tiger Woods, who 
made history winning the Master's, puts a personal identity on 
the issue before us today. He has been described as the first 
African-American to win the Master's. He, on the other hand, 
describes himself as having a mixed race identity. It is very 
difficult to ask a biracial couple to choose one race over 
another, but that is what is happening when we have to fill out 
the race question for their child.
    At the same time, we live in a country where discrimination 
is a very real part of our world. We cannot do anything that 
makes it more difficult for our laws against discrimination to 
be enforced. I fully understand the difficulty facing the 
biracial couple when asked to choose ``white'' or ``black'' to 
identify their child. Such a choice flies in the face of the 
racial harmony their marriage symbolizes.
    Today we will hear from many Members and experts on the 
issue. I particularly want to comment that Representatives 
Sawyer and Petri will be testifying, who worked very hard on 
this issue in the last Congress, and also Carrie Meek and 
Maxine Waters.
    OMB Directive 15 provides the standards for the collection 
and presentation of data on race and ethnicity in all Federal 
programs and statistical activities. These categories are used 
for civil rights compliance, administrative reporting, and 
personal recordkeeping. The categories are also used in 
statistical reporting and surveys, like the current population 
survey, which provides employment and unemployment statistics.
    If we look back to the record created by Representative 
Sawyer, it is clear that there are many people who are not 
happy with the race and ethnic categories we use today. Some 
question why ``Hispanic'' is not one of the race categories. 
Others question and want ethnicity left as a separate question, 
but want changes to the race category. The Hawaiian delegation 
wants Native Hawaiians counted as Native Americans and not as 
Asians. Some would have us drop the questions completely.
    The record from the 103d Congress also shows that many 
people would prefer that the categories in Directive 15 be left 
unchanged. Some argue that the historical continuity is 
necessary for tracking progress in remedying discrimination. 
Others contend that all categories are arbitrary, and changing 
the categories would not solve anything. Others point out that 
the categories we use today are designed to be used in the 
enforcement of laws, like the civil rights law, the voting 
rights law, and that the proposed changes would make enforcing 
those laws impossible.
    Whatever decision OMB makes, some people will be very 
unhappy with them. Part of the problem we are faced with is a 
riddle identified by Justice Harry Blackmon when he said, and I 
quote, ``In order to get beyond racism, we must first take a 
count of race.'' We must measure race in order to determine 
where and when discrimination exists.
    We must measure race because discrimination still exists 
today. There are banks that continue to redline, insurance 
companies that continue to redline, and employers who refuse to 
hire or promote minorities. We read about it every day in the 
papers.
    The task is made more difficult because there is no 
scientific basis for defining racial groups. Recent studies in 
genetics show that there is more variation within race groups 
than between them. If you pick two people at random within one 
of these groups, their genetic structure is more likely to be 
similar to someone in another racial group than to be like each 
other.
    However as lawmakers, we are faced with the responsibility 
of making sure that our laws are enforced. Without clear, 
accurate, and consistent race categories, it is difficult, if 
not impossible, to prove that discrimination exists. Without 
data, it is impossible to provide a remedy.
    I look forward to the panels today, and I thank the 
chairman for holding this hearing.
    [The prepared statements of Hon. Carolyn B. Maloney and 
Hon. Danny K. Davis follow:]
[GRAPHIC] [TIFF OMITTED] 45174.031

[GRAPHIC] [TIFF OMITTED] 45174.032

[GRAPHIC] [TIFF OMITTED] 45174.033

[GRAPHIC] [TIFF OMITTED] 45174.034

[GRAPHIC] [TIFF OMITTED] 45174.035

[GRAPHIC] [TIFF OMITTED] 45174.036

[GRAPHIC] [TIFF OMITTED] 45174.037

[GRAPHIC] [TIFF OMITTED] 45174.038

[GRAPHIC] [TIFF OMITTED] 45174.039

    Mr. Horn. As you know, we have a tradition on the 
Government Reform and Oversight Committee of swearing in all 
witnesses. I understand you are accompanied by Katherine 
Wallman. If you will identify her title, we will swear you both 
in. What is her title?
    Ms. Katzen. Chief Statistician of the United States.
    Mr. Horn. Very good. If you would raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that both witnesses have 
affirmed.
    The usual routine, as you know, Dr. Katzen, is to file your 
statement and then summarize it. Now, we're conscious of your 
time and that you have to leave at 10:30, so other opening 
statements of Members will be put in the record as if read, 
because we want to get to your testimony. So if you would 
summarize your statement in about 10 minutes or so, 15, then 
let's get to the questions.

STATEMENT OF SALLY KATZEN, ADMINISTRATOR, OFFICE OF INFORMATION 
   AND REGULATORY AFFAIRS, OFFICE OF MANAGEMENT AND BUDGET, 
  ACCOMPANIED BY KATHERINE WALLMAN, CHIEF STATISTICIAN OF THE 
                         UNITED STATES

    Ms. Katzen. Thank you very much, Mr. Chairman, and members 
of the subcommittee.
    I, too, would like to thank you for holding this hearing on 
what I think is a very important and sensitive issue. I 
appreciate very much your inviting me to testify today about 
our review of OMB's Directive 15 on race and ethnic standards 
for Federal statistics and administrative reporting.
    As you mentioned, accompanying me is Katherine Wallman, who 
serves as our Chief Statistician at OMB. And, again, I would 
like to thank you for accommodating my schedule so that I can 
appear at another hearing in this building later this morning.
    As has been mentioned this morning, the standard in 
Directive 15 sets forth a minimum set of categories that are 
used across the Federal agencies for recordkeeping, collection, 
and presentation of data on race and ethnicity. As I outlined 
in my testimony to the House of Representatives in 1993, OMB 
adopted these categories in 1977, to facilitate, in some 
consistent fashion, the compilation of population data for 
statistical purposes, as well as for program administrative 
purposes.
    The development of the categories at that time was largely 
influenced by legislative priorities of the 1960's and 1970's. 
In particular, the standard was designed to reflect the major 
population groups in this country that had historically 
experienced discrimination because of their race or ethnicity. 
The categories are thus a product of this Nation's political 
and social history, and they should not be viewed as having any 
anthropologic or scientific origin.
    There are, as you mentioned, four categories for the 
collection of data on race: American Indian or Alaskan Native, 
Asian or Pacific Islander, black, and white. There are two 
categories for the collection of data on ethnicity: ``Hispanic 
origin'' and ``Not of Hispanic origin.''
    While these categories represent the broad major population 
groups, the directive does not preclude the collection of more 
detailed data, as long as the additional information can be 
aggregated into the basic set of categories.
    During the past 20 years, the common language provided by 
the categories has served the Federal agencies well, in terms 
of meeting their statistical, program, and more specialized 
needs for data on race and ethnicity in such areas as medical 
research. Yet, during the past 20 years, our country's 
population has become more racially and ethnically diverse, 
largely as a result of the growth in immigration and 
interracial marriages.
    Consequently, the question has been raised as to whether 
the categories continue to produce useful information about our 
population. To answer that question, OMB committed, in 1993, to 
carrying out a comprehensive review of the categories, in 
cooperation with the Federal agencies that are the users and 
producers of data on race and ethnicity.
    The review process has had two major parallel tracks: 
First, reflecting your view as well, the importance of public 
comment, we have had a process for obtaining public comment on 
the present standards, which has produced numerous suggestions 
for changing the standards; and second, research and testing 
related to assessing the possible effects of suggested changes 
on the quality and usefulness of the resulting data.
    Our focus on research and testing should not obscure or 
detract from our clear understanding that this is a very 
sensitive subject. For some people, our directive does not 
simply represent a set of data categories for classifying 
characteristics of the population. The meaning and importance 
of the categories become very personal matters, when people 
provide data about their own or their family members' race and 
ethnicity on the decennial census or when registering their 
children for school.
    Now, with respect to the first track, OMB has solicited 
public participation and comment by means of two Federal 
Register notices and four public hearings across the country, 
as well as many meetings and conferences. We also include in 
that category the hearings held by Congressman Sawyer in 1993 
and would like to include these, as well, as contributing to 
our enlightenment.
    This process, to date, has been very helpful in identifying 
more clearly several categories of concerns. The first, and the 
one that has received the most media attention, is the issue on 
how multiracial persons should be classified.
    Currently, persons who are of mixed race and or racial 
origin are asked to select the category that most closely 
reflects the individual's recognition in his or her community. 
The one exception to this is, for the last decennial census, 
there was also the inclusion of the term ``Other'' for this 
purpose. That was designed to enable us to better understand 
those who previously had been nonresponsive on the question.
    Public comment has included a request for a specific 
category called ``Multiracial.'' Some want to specify the races 
and some do not, while others have requested an opportunity to 
identify one or more races, but not using a category called 
``Multiracial''. In other words, an option to check several 
boxes but not have a separate ``Multiracial'' box.
    Second, we have received a number of requests to expand the 
minimum set of categories by adding categories for population 
groups such as Arabs or Middle Easterners, Cape Verdans, 
Creoles, European-Americans, and German-Americans.
    Third, as you mentioned, the Native Hawaiians have 
indicated that they no longer want to be included in the Asian 
or Pacific Islander category. Some are asking that they be 
included in the same category as American Indians and Alaskan 
Natives, so that all indigenous peoples would be in the same 
category. Others have requested a separate category for Native 
Hawaiians alone. Based on the comments we have received, the 
American Indian and Alaskan Native organizations are opposed to 
the inclusion of Native Hawaiians in their category.
    Fourth, we have received requests to eliminate the racial 
and ethnic categories from those who believe that the 
collection of such data serves to perpetuate an overemphasis on 
race in America and contributes to the fragmentation of our 
society.
    The variety and range of suggestions for changing Directive 
15 underscored to us the importance of having a set of general 
principles to govern the review process and to guide final 
decisions. The general principles that we are following are 
attached to my written testimony and include such items as 
emphasis on self-identification and respect for a person's 
dignity in the collection process; having concepts and 
terminology that are generally understood and accepted by the 
American people; having categories that are comprehensive in 
their coverage of the population; recognizing that there are 
burdens imposed on respondents and implementation costs, not 
only to the Federal agencies but also to State and local 
entities and to the private sector, from changes in the 
standards; and having a standard that is usable, not only for 
the decennial census, which is where we hear about this most 
frequently, but also for surveys and administrative records, 
including those data collections using observer identification.
    With respect to the second track, several major national 
tests were developed, in cooperation with the Interagency 
Committee, to research and test a number of the suggested 
changes. Some of that research has been completed, and the 
highlights are discussed in my written testimony. You will be 
hearing from others testifying today about the issues that were 
addressed and what the results indicate about the possible 
impact on the population counts for the current categories.
    We are awaiting a very important piece of research, the 
results of the Census Bureau's Race and Ethnic Targeted Test. 
When those findings become available, in early May, the 
research phase of the review will be completed. It will then be 
the task of the members of the Interagency Committee to take 
into account the substantial amount of public comment, evaluate 
that research results, and make recommendations to OMB that 
reflect their best professional and technical advice.
    There will be one more opportunity for public input, 
because OMB will publish, for public comment, in the Federal 
Register the Interagency Committee's report and 
recommendations. This is targeted for early July 1997. We will 
then consider this round of public comment and announce our 
decision in mid-October 1997, so that changes, if any, in the 
racial and ethnic categories can be included in the spring 1998 
dress rehearsal for the year 2000 decennial census.
    I would like to emphasize that we have made no interim 
decisions with respect to any of the requests or suggestions 
for changing how the Federal Government meets its needs for 
data on race and ethnicity. Further, the option remains open to 
retain the current minimum set of data categories, given that 
they have produced useful and consistent information for 20 
years.
    During the final phase of the review process, OMB, together 
with the Interagency Committee, will have to consider and 
assess how much of an improvement in the accuracy and relevance 
of the data may result from changes versus the impact of the 
changes on the historical comparability of data, the burden 
imposed on respondents, and the possible implementation cost to 
the Federal agencies, as well as to those at the State and 
local level, in the business community, and private sector 
organizations.
    Finally, it is important to make clear what OMB is doing 
and not doing in carrying out our responsibilities under the 
Paperwork Reduction Act for standards and guidelines for 
classifying statistical data. OMB's role is not to define how 
an individual should identify himself or herself when providing 
data on race or ethnicity. Rather, we are trying to determine 
what categories for aggregating data on race and ethnicity 
facilitate the measuring and reporting of information on the 
social and economic conditions of our Nation's population 
groups, for use in formulating public policy.
    In arriving at a decision, OMB will need to balance 
statistical issues that relate to the quality and utility of 
data, the Federal needs for data on race and ethnicity, 
including statutory requirements, and social concerns.
    We truly welcome your interest in the review of the current 
set of categories. We appreciate having an opportunity to brief 
you on the events of the past 4 years, and we hope that we can 
count on your continuing interest and support as we arrive at a 
decision.
    I would be happy to answer any questions you may have.
    [The prepared statement of Ms. Katzen follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.040
    
    [GRAPHIC] [TIFF OMITTED] 45174.041
    
    [GRAPHIC] [TIFF OMITTED] 45174.042
    
    [GRAPHIC] [TIFF OMITTED] 45174.043
    
    [GRAPHIC] [TIFF OMITTED] 45174.044
    
    [GRAPHIC] [TIFF OMITTED] 45174.045
    
    [GRAPHIC] [TIFF OMITTED] 45174.046
    
    [GRAPHIC] [TIFF OMITTED] 45174.047
    
    [GRAPHIC] [TIFF OMITTED] 45174.048
    
    [GRAPHIC] [TIFF OMITTED] 45174.049
    
    [GRAPHIC] [TIFF OMITTED] 45174.050
    
    [GRAPHIC] [TIFF OMITTED] 45174.051
    
    [GRAPHIC] [TIFF OMITTED] 45174.052
    
    [GRAPHIC] [TIFF OMITTED] 45174.053
    
    [GRAPHIC] [TIFF OMITTED] 45174.054
    
    [GRAPHIC] [TIFF OMITTED] 45174.055
    
    [GRAPHIC] [TIFF OMITTED] 45174.056
    
    [GRAPHIC] [TIFF OMITTED] 45174.057
    
    [GRAPHIC] [TIFF OMITTED] 45174.058
    
    [GRAPHIC] [TIFF OMITTED] 45174.059
    
    [GRAPHIC] [TIFF OMITTED] 45174.060
    
    [GRAPHIC] [TIFF OMITTED] 45174.061
    
    [GRAPHIC] [TIFF OMITTED] 45174.062
    
    [GRAPHIC] [TIFF OMITTED] 45174.063
    
    [GRAPHIC] [TIFF OMITTED] 45174.064
    
    [GRAPHIC] [TIFF OMITTED] 45174.065
    
    [GRAPHIC] [TIFF OMITTED] 45174.066
    
    Mr. Horn. We thank you for that summary. We are going to 
have 10 minutes per Member here on questions, and then, if we 
have time for a second round, we will do that, too.
    In your written testimony, you noted that additional 
categories of race and ethnicity, which could provide a more 
complete picture of the Nation's population, might also be 
burdensome and costly. Do you have any estimates as to the 
possible costs and burden? In addition, let me just go with the 
next question, because I think it relates to the first one: Is 
there a rule of thumb that you would care to articulate as to 
the size of a group in the population before an additional 
category would provide useful information?
    I note that in your written testimony you stated the 
studies conducted, presumably by OMB or the Census Bureau, have 
led you to conclude that approximately 1 to 1.5 percent of the 
persons surveyed would identify themselves as ``Multiracial,'' 
if given the chance. Is a total of less than 2 percent large 
enough to justify the costs associated with the new category? 
We think it's important to remember that adding new categories 
does not only impact the Federal Government but the States, 
localities, and individuals, too.
    So I would just like to have a feel. I realize you don't 
know where you are yet; you have got more surveys to do but as 
far as a rule of thumb, statistically, perhaps your Chief 
Statistician would like to answer that also, as to when are we 
hitting pay dirt that's relevant, and thinking of the various 
laws that have triggers based on certain racial categories, 
whether it be historically black colleges, enrollment, and all 
the rest?
    Ms. Katzen. Well, I think that's a very important question, 
and I may seem to be rambling, but I will try to be responsive.
    On costs and burdens, we know that there will be some 
additional direct and some indirect costs as a result of any 
changes that might be made. I'm speaking now, not only from the 
point of view of adding a question to a form, which is a cost 
to the respondents, but also the implementation costs that may 
be involved, not only for the Federal agencies, but for all who 
maintain records.
    There are a number of partnerships between Federal agencies 
and State and local agencies. There are also private sector 
businesses and organizations which maintain records now. For 
them to change their current record system is not simply to add 
something; it's normally to retrain and refocus, and there are 
those costs.
    There are also what I was referring to as indirect costs, 
which is a diminishment in the historical comparability of the 
data. This turns out to be something which, in some instances, 
may be easily accommodated through crosswalks, but we have a 
lot of different uses for this information, for very legitimate 
purposes of study, research, et cetera.
    The ability to use existing data in the face of changed 
categories will require additional effort, that translates into 
time and resources for those who are using it. Many of the 
individual agencies from which you will have representatives 
testifying after me have actually looked at this for their 
particular programs and will be in a better position to comment 
on those kinds of costs.
    The Interagency Committee will be pulling this material 
together in their report and recommendations. At this point, we 
do not have a dollar figure or even a range of dollar figures, 
but we are aware that there are, indeed, costs.
    With respect to the second part of that question, which is 
the threshold, we are not approaching this as if there is any 
magic number that will trigger one response different from 
another response. Part of that is, I think, a result of the 
perpetual balancing act that we always have under the Paperwork 
Reduction Act.
    We are looking at the utility of the information in light 
of the burden, and obviously, one of the factors in the utility 
of the information is the size of the population that will be, 
in effect, enrolled or identified under that.
    At the same time, as Mrs. Maloney noted, we're not talking 
about just now or even the year 2000. I would expect that 
decisions that we make will last at least for the two decades 
that our last set of standards survived. So it would be a 
matter of considering trends that are developing, and looking 
to see how we can best accommodate the American people in the 
next century.
    Mr. Horn. What is the difficulty that OMB and the Bureau of 
the Census have really had with the current racial categories? 
Is there a lot of confusion when people self-identify here, 
based on, say, grandparents and parents? Some of them I find 
don't even know the particular race of their grandparents. It's 
just sort of a blur; no one ever talked about it. A lot of them 
can be part Native American and not realize it.
    How do you handle that?
    Ms. Katzen. Well, you've touched on something which is a 
much broader question, and that's the whole issue of self-
identification. It's actually easier, I think, for somebody on 
the census to put down what he or she thinks he or she is. They 
don't have to go back and trace for the objective is not to 
reflect if there is one drop of something. It's to identify 
what you believe you are.
    The problem comes not from a lack of understanding or 
confusion. The problem--and I think this is most acute in the 
multiracial area--is for those who do not identify with a 
single category. As you said in your opening remarks, if a 
child is the child of two people of different racial 
backgrounds, to choose one box may be perceived by that child 
as denying the other parent. And that is asking them to choose 
between their parents.
    One of the very first pieces of correspondence that I saw 
after I took office in 1993 was a letter from a woman that was 
very simple and straightforward: ``Enclosed is a picture of my 
child. Why does she have to choose?'' The picture was of a 
beautiful young girl who was very dark-skinned and had Asian 
features. And I remember looking at the picture and being 
affected by that. So it is not a matter of confusion, but 
rather the more personal aspect of the amount of choice that 
may be available to you in responding to these questions.
    Now, it is compounded where it is not self-identification. 
For where you have a situation of someone else designating--and 
this happens most frequently in enrollment in schools, and I 
believe also on death certificates, et cetera--somebody else is 
saying what they think you are.
    That is more complicated if there are multiracial 
characteristics or features and somebody else is designating a 
category for you. That is why one of our principles was to 
elevate dignity, because for somebody to tell me what I am is, 
I think, very different from my saying who I think I am.
    So those issues all get involved in this.
    Mr. Horn. I noticed in your presentation that you listed 
several, Creole and so forth, that wanted their own 
identification. One of them happened to be German-Americans. 
Since I'm half German and half Irish, I always said I've got 
German humor and Irish efficiency, so there might be a 
subcategory under that. But I was curious, where were the 
Irish-Americans here? They are usually active in politics.
    Ms. Katzen. And we had a public hearing in Boston, too.
    Mr. Horn. Are these simply categories you picked up in 
public hearings?
    Ms. Katzen. Most of these suggestions came out of either 
the first round of public comments or in the public hearings. 
Some of them, I believe, were motivated by perhaps a 
misunderstanding of either the basis for or significance of 
having categories, because in some of the public testimony the 
comments were made that, ``We would like to be included so that 
we have our identity confirmed, validated.'' But some also 
said, ``We might be able to qualify for benefits or 
protections,'' as though the inclusion of a category would 
drive the public policy consideration to either accord benefits 
or afford protection against discrimination.
    In fact, it was sort of the reverse, in that OMB originally 
developed the categories to reflect legislative determinations 
of what groups warranted special protections or special 
benefits. We were simply using categories to track those groups 
to discern whether or not agencies were carrying out their 
responsibilities and citizens were carrying out their 
responsibilities.
    Mr. Horn. What's the penalty if a person doesn't fill in 
the category? Are we compelled to fill in that category?
    Ms. Katzen. It depends on what kind of form and for what 
purposes. Again, some of the representatives from the agencies 
may be in a better position to respond, but my understanding is 
that, for example, in the field of education, the principal or 
some administrative person at the school will fill in the 
forms.
    With respect to the census, as you know, when a respondent 
does not fill in the census and return the questionnaire, there 
is a followup which is quite costly and burdensome for the 
Census Bureau. I do not know whether, in some instances, for 
some programs, a benefit would be denied if the application 
included this and it did not have it, or on a monitoring form, 
this information was not included.
    Mr. Horn. Well, if we just say it's none of the Census' 
business and it's none of Big Brother's business, is there a 
penalty?
    Ms. Katzen. I would direct that question to Marty Riche 
from the Census Bureau.
    Mr. Horn. All right. Fine.
    Ms. Katzen. Because each of these surveys, each of these 
questionnaires is based on the laws and the regulations of the 
individual agency. Our directive is to ensure comparability 
across agencies so that they are all using the same categories. 
We do not set the requirements, the sanctions, or any 
privileges that attach thereto.
    Mr. Horn. The reason I ask is, at one point in our recent 
history--in the sense of my lifetime--we've had a President 
that was dead wrong and a general that was dead wrong, when 
Franklin Roosevelt and General Dewitt rounded up Japanese-
Americans who were citizens and put them in relocation camps.
    Now, they thought about rounding up German-Americans, in 
which case I would have joined Norm Manetta in a relocation 
camp, and also Italian-Americans. But there were just too many 
of us, so they decided that wasn't a good idea. In Hawaii, they 
never rounded up anybody. Japanese-Americans stayed in Hawaii 
all during the Second World War. Yet, in California, 2,500 
miles further east, they round up people.
    Now, I can see why some people would say, ``Why should I 
give Big Brother any indication of what my ancestry is, should 
somebody go a little nutty next time.'' Got any feelings on 
that?
    Ms. Katzen. Well, as I think I mentioned earlier, there are 
a lot of different motivations, and certainly there is concern. 
People of different ancestry that have experienced oppression 
or harassment in their past--I'm in this country because my 
grandfather fled from Russia in the pogroms that were there.
    Mr. Horn. Sure.
    Ms. Katzen. We all are, I think, quite nervous about 
revealing too much of ourselves under any circumstances. And I 
think that those are very legitimate concerns. One of the 
objectives that we have in undertaking this review is hopefully 
to reflect those concerns and dispel the sense that this is to 
define somebody or categorize someone. I keep emphasizing over 
and over again, this is for statistical purposes; this is for 
program administrative purposes; this is for enforcement of 
laws. But I am sure that there are many who listen to me and 
say, ``Yeah. Been there; done that.''
    Mr. Horn. Sure; 11 minutes to Mrs. Maloney, since we ran 
over a little.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I would like to yield my time to Mr. Davis, because he has 
a conflict and has to leave the subcommittee. But I would like 
to ask one brief question that follows up on the point that you 
were raising.
    I have been discussing with Mr. Davis, members of the 
subcommittee staff, and others--we've been looking at the 
possibility of using the census long form for further 
investigation into the interplay between race, ethnicity, and 
ancestry. I would like to note that Connie Morella has 
introduced a resolution, Resolution 38, which talks about the 
importance of collecting ancestry data on the census, and I 
certainly support that resolution and hope that other members 
of the committee will, likewise, support it.
    Perhaps, in the context of asking ancestry on the long 
form, we could ask a series of questions that help us 
understand the mix of race, ethnicity, and ancestry that really 
make up the self-identity of many of us. I would just simply 
like to ask if OMB would be willing to work with us on a set of 
questions that would focus on the interplay of race, ethnicity, 
and ancestry--for the long form.
    Ms. Katzen. Mrs. Maloney, a lot of what we have learned in 
the past came from the long form. There's a lot of debate about 
what's on the long form, what's on the short form. But a lot of 
what we have learned in the past has come from analysis of 
census data. We would be, I think, very willing, with our 
colleagues at the Census Bureau, to explore alternatives with 
you and the subcommittee on additions to the long form.
    Mrs. Maloney. Thank you. I yield to Mr. Davis.
    Mr. Davis of Illinois. Thank you very much. Let me, first 
of all, thank the ranking member, Mrs. Maloney, for yielding. I 
also want to thank you, Mr. Chairman, and it's certainly good 
to have the panel.
    I have listened intently to your testimony, and I 
appreciate it. I'm trying to determine, does OMB have a 
position relative to the proposed change?
    Ms. Katzen. No. Our objective was to conduct an open, 
comprehensive review and to receive as much information as 
possible. I've learned that it's better to withhold judgment 
until you have all the information, and have a chance to 
analyze it and think it through, rather than reach a 
preliminary conclusion, only to be presented with different 
information. So we have assiduously avoided any 
predeterminations on these questions, notwithstanding a lot of 
people trying to convince us otherwise.
    Mr. Davis of Illinois. So this is strictly being viewed by 
OMB as a management tool where one just sort of takes a 
position. It's time to review where we are and how we're doing 
certain things, so let's just take a look at it to see whether 
or not any changes or additions or directions might be 
beneficial?
    Ms. Katzen. I may have misunderstood your first question. 
Our decision to conduct the review, in the first instance, was 
the result of a number of questions that were raised, and we 
thought that 20 years after the setting of the first directive, 
it was timely to review it. But we went into it with the very 
clear conviction that it was a review and that one possible 
outcome of that review was that there would not be any changes, 
there would be no revisions, there would simply be a review 
and, in effect, a confirmation that these categories serve our 
needs.
    Mr. Davis of Illinois. Were any of the questions based upon 
individuals' desires to be able to more directly pinpoint their 
heritage, individuals who wanted to say, ``Well, let me just be 
as explicit as I can possibly be, in terms of the category in 
which I fit''?
    Ms. Katzen. Among the questions that were raised, there was 
sufficient concern that the data sets that we had are not truly 
representative and an accurate reflection of the American 
population and the broad population groups. That is a question 
that we hoped to explore.
    There was no one that I'm aware of, in the White House, 
OMB, or in any of the agencies, who came into this with a 
hidden or not-so-hidden agenda to fix a problem. It was much 
more a matter of exploring the situation.
    Mr. Davis of Illinois. No, I really meant public questions, 
not internal, but an expression from individuals in the public 
who may have made inquiries.
    Ms. Katzen. There are a number of individuals who have 
pursued a number of these areas. For example, there are several 
organized groups on the multiracial question that we have heard 
from with some frequency.
    Mr. Davis of Illinois. Just in terms of that, the 
multiracial question, are there terms we are familiar with that 
could be used synonymously to describe the heritage of a group 
of individuals in a multiracial group, more than one term, that 
there might be three or four terms that could be used to 
describe those individuals pretty accurately?
    Ms. Katzen. I'm not sure I'm understanding your question, 
in terms of suggestions that have been made for additions or 
terms that are used in slang or in jargon?
    Mr. Davis of Illinois. Well, I don't know if I'd say jargon 
perhaps, not so much slang, but a group that may be identified 
by more than one term.
    Ms. Katzen. I think what the test results have shown, from 
the two tests that have been conducted, is that there are 
various combinations of multiracial. You will hear more about 
this, I believe, from some of the other witnesses.
    But one of the tests showed that if you added a multiracial 
category, there was no discernable change in the number of 
blacks or whites. There was a statistically significant change 
with respect to Native Americans and Alaskan Natives, and I 
believe, it also affected the incidence of people checking the 
``of Hispanic origin'' box.
    This led me to believe that the multiracial people are of a 
large number of combinations. You will have combinations of 
different components, and as the chairman said in his opening 
remarks, it is possible that a child today could qualify for 
all four of our racial categories, if he or she could choose to 
so identify with their heritage.
    Mr. Davis of Illinois. And that would not alter our ability 
to know who they were, or where they fit, or where they came 
from? Would that be correct?
    Ms. Wallman. Mr. Davis, I just would like to go back to the 
point that was made earlier. In some cases, we are talking 
about a category that might bring together all persons of 
multiple races in something called a single ``multiracial'' 
category. In other cases, we're talking about the ability to 
report one's multiple racial heritages.
    I think, when we get to the second alternative, if you 
will, that there would be much more opportunity to have better 
historical comparability, and so on, in terms of the question 
that you raise.
    Mr. Davis of Illinois. Do we find, sociologically, that 
there is any significant correlation between individuals of 
mixed heritage, notwithstanding who they are?
    Ms. Wallman. Not to my personal knowledge. And I'm not sure 
if any of our colleagues from the agencies will have more light 
to shed on that question at this hearing this morning. If they 
have additional research that pertains to that, I'm sure they 
would be happy to share it with you.
    Mr. Davis of Illinois. That's a question that just cropped 
up in my mind. I'm thinking that, if we had this one category, 
there may be some real differences in terms of the experiences 
of individuals, the needs of individuals, how the rest of 
society perceives those individuals, and what their experiences 
are in this country. I think that, too, becomes one of the 
things that I think we would want to make sure that we were 
using the information for.
    The other question--you mentioned the gathering of 
information for the purpose of having and the purpose of 
knowing, and also for management utilization. Now, we know that 
information is generated for lots of other reasons. Would one 
suspect that some of those reasons--for example, States use the 
information to review redistricting approaches and plans, or to 
evaluate affirmative action in some places and in some 
instances, or to monitor access to certain kinds of resources 
for certain groups, or to determine whether or not certain 
groups are being, let's say, redlined still in some areas and 
some communities.
    Would this--and I know you may not be able to place a value 
judgment, in terms of where it might fit--but would this kind 
of information or this kind of utilization be as important as 
the management awareness or the management tool?
    Ms. Katzen. I think it is very important. In both my 
written and my oral statements I tried to emphasize that the 
Federal needs for data are what we are primarily focusing on. 
The directive, as I mentioned, came in 1977 on the heels of the 
civil rights legislation of the 1960's and early 1970's, and it 
is very important to be able to continue to monitor compliance 
with the law. That is a Federal need for data which is 
statutorily imposed and is something which drives much of this 
discussion and those needs are very real.
    There are other kinds of needs that are less in the news, 
if you will. HHS and CDC do a lot of research, medical 
research, which is beneficial to identify certain racial or 
ethnic susceptibility to particular types of diseases, or 
responsiveness to certain types of treatments for different 
types of illnesses. That's also a very legitimate and current 
need.
    It is for that reason that our process is being conducted 
through an Interagency Committee, which consists of many of the 
people you will hear after me this morning. Indeed, 30 Federal 
agencies are represented on the Interagency Committee, and they 
are asked to bring to the table their unique needs, their 
program needs, whether it be enforcement, monitoring, or 
research.
    Federal needs take various forms, and all of these are to 
be part of the interagency discussion. That kind of information 
informs public policy in the broadest sense and is also of use, 
I believe, to the Congress in determining its priorities and 
its legislative preferences.
    Mr. Davis of Illinois. Well, let me thank you very much. I 
don't want to jump the gun. I think it's going to be very 
interesting as we continue to try and flesh this out. But I may 
as well be up front, I've got some real concerns and 
reservations about what appear to be sort of the direction or 
the implications of possible changes and what those could, in 
fact, mean.
    It appears to me that the discussions that I've been 
hearing sort of relate to the development of microscopic or 
micro groupings that may very well take away some of the 
changes that we've generated over the years. For example, I 
still find it difficult to find African-Americans who are 
elected to public office in political subdivisions that are not 
designated majority African-American, or to find large numbers 
of Hispanic Americans or individuals of Spanish origin elected, 
again, in subdivisions.
    We are making some breakthroughs, and I think we've come a 
long way, but I certainly don't think that we've come far 
enough to start toying too seriously with the way in which 
we've been designated in these categories over the years. So I 
thank you for your testimony.
    Mr. Chairman, I would like to submit, for the record, a 
statement, and I'm sure that we'll be talking with you later.
    Ms. Katzen. Thank you very much.
    Mr. Horn. The gentleman's opening statement will be put in 
the record following Mrs. Maloney's, at the beginning of the 
hearing, as if read, without objection.
    We have about 10 more minutes. Let me just ask you, in 
testimony, you stated that the current standards issued by OMB 
do allow for the collection of more detailed information by 
population groups, which was part of that exchange. Does that 
mean the agencies could include questions about the person's 
multiracial, multiethnic background? For example, national 
origin is protected in some laws passed by Congress. The Civil 
Rights Commission, on which I served for 13 years, has that 
jurisdiction, among others, including women, race, and so 
forth. I remember the time we got a tongue-lashing from many 
national origin groups, particularly East European, Polish-
Americans, Hungarian-Americans, and so forth, that we were 
doing all these things about everybody else in America, why 
weren't we paying attention to the discrimination that still 
exists against them?
    So that leads me to the question as to, do we possess the 
ability to collect information on our citizens or noncitizens 
of multiethnic background, and to what laws is that still 
relevant? Is it either OMB or Census?
    I would like one of you to get in the record a display that 
is up to date as to the various categories Congress has 
enacted, or some are constitutionally based, by which you look 
at discrimination, and put those in, and then ask ourselves the 
question, to what extent and to what generation do we need to 
know that information in order to enforce the law?
    Ms. Katzen. We would be happy to work with Census to 
provide the information for the record, in terms of legislative 
determinations already on the books.
    Mr. Horn. And judicial. See, Lau v. Nichols;  a judicial 
decision that was then followed by legislation. That's L-a-u, 
N-i-c-h-o-l-s, I believe. And that ought to be in the record at 
this point. Without objection, it will be.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.067
    
    [GRAPHIC] [TIFF OMITTED] 45174.068
    
    [GRAPHIC] [TIFF OMITTED] 45174.069
    
    [GRAPHIC] [TIFF OMITTED] 45174.070
    
    [GRAPHIC] [TIFF OMITTED] 45174.071
    
    [GRAPHIC] [TIFF OMITTED] 45174.072
    
    [GRAPHIC] [TIFF OMITTED] 45174.073
    
    [GRAPHIC] [TIFF OMITTED] 45174.074
    
    [GRAPHIC] [TIFF OMITTED] 45174.075
    
    [GRAPHIC] [TIFF OMITTED] 45174.076
    
    [GRAPHIC] [TIFF OMITTED] 45174.077
    
    [GRAPHIC] [TIFF OMITTED] 45174.078
    
    [GRAPHIC] [TIFF OMITTED] 45174.079
    
    [GRAPHIC] [TIFF OMITTED] 45174.080
    
    [GRAPHIC] [TIFF OMITTED] 45174.081
    
    [GRAPHIC] [TIFF OMITTED] 45174.082
    
    [GRAPHIC] [TIFF OMITTED] 45174.083
    
    [GRAPHIC] [TIFF OMITTED] 45174.084
    
    [GRAPHIC] [TIFF OMITTED] 45174.085
    
    [GRAPHIC] [TIFF OMITTED] 45174.086
    
    [GRAPHIC] [TIFF OMITTED] 45174.087
    
    [GRAPHIC] [TIFF OMITTED] 45174.088
    
    [GRAPHIC] [TIFF OMITTED] 45174.089
    
    [GRAPHIC] [TIFF OMITTED] 45174.090
    
    Mr. Horn. So if you could do that, I would appreciate it. I 
think we need to narrow this down.
    Ms. Katzen. In response to the first part of the question, 
agencies can, on their surveys or forms, et cetera, assuming a 
legitimate purpose and a minimum burden on respondents, they 
can use disaggregated groups under the racial and ethnic 
categories, so long as they can be aggregated to the categories 
set forth in the directive.
    With respect to national ancestry, that can be added as 
something which the agencies can do--again, if they can 
otherwise justify it--there would be no prohibition on that 
additional information being obtained.
    Mr. Horn. Well, let's get in the record, at this point, 
then, an exhibit between OMB and Census as to how many of those 
questionnaires exist, what information are they asking of a 
racial, national origin, ancestral, however put, origin, to 
carry out some aspect of their program. Just so we know the 
extent of this, I think we need to get it in one place.
    We also need to know the basis for the question. Let's not 
go back beyond the 1990 census. What questions in the 1990 
census can you take and figure out the person's multiracial 
background, if any? Do we ask where their parents came from? Do 
we ask where their grandfathers and grandmothers came from? And 
so forth.
    On the delay, due to, as I remember, the experiments you 
were having as to how people answered some of these categories, 
what is our time line? Is it May? I think I heard May is when 
some of these will be given?
    Ms. Katzen. Yes, we expect to have the results in early 
May. I think it's targeted for the end of the first week or the 
beginning of the second week. As with the other tests that have 
been conducted, the results will be made publicly available. At 
that point, then, our research phase will be completed and the 
very hard work of rolling up our sleeves and sifting through it 
all will begin. We hope to have the interagency report and 
recommendation to us in time for its publication in the Federal 
Register in early July.
    Mr. Horn. Then that will wait for what, 60 days' comment?
    Ms. Katzen. Sixty-day public comment period.
    Mr. Horn. And then what?
    Ms. Katzen. And then the final decision will be made at 
OMB, and will be publicly announced. Hopefully, if there are 
any changes, they will be able to be used in the dress 
rehearsal for the year 2000 census, which will be taking place 
in the spring of 1998.
    Mr. Horn. If Congress doesn't like it, they can add a 
prohibition in your appropriations bill, I assume?
    Ms. Katzen. Congress has a variety of ways of making known 
its clear intent.
    Mr. Horn. Thank you.
    Ms. Katzen. To which we are always respectful.
    Mr. Horn. Mrs. Maloney, 5 minutes or so. We're trying to 
get Ms. Katzen over to Mr. McIntosh's subcommittee, where she 
has a lot of fun.
    Mrs. Maloney. Thank you.
    First of all, you have repeatedly emphasized that the 
current categories are derived from the need to provide 
information for enforcing laws against discrimination; 
specifically, the Voting Rights Act of 1973, and the Civil 
Rights Act of 1964, I believe.
    Would the addition of another category, such as a 
multiracial category, require changes to any of these laws; and 
if so, could you provide for the record, in writing, the kinds 
of changes that would be needed, if we added that category to 
the antidiscrimination laws?
    Ms. Katzen. I would be happy to work to try to provide that 
information. The answers reside in the agencies who have the 
responsibility for monitoring or enforcing those laws, rather 
than in OMB. Several of the witnesses that you will hear from 
after me may be able to more readily give you answers to those 
questions.
    Not surprisingly, the laws are written with different words 
and different phrases, and have different intent. Therefore, 
there is no single answer that I could give you here. It would 
be program by program, law by law. We will be happy to try to 
work to get that information for you.
    Mrs. Maloney. I think that, as you mentioned, it's very 
fragmented. You have an interagency task force involving many 
agencies. You are the one that is pulling this together. I 
think it would be good if someone, specifically OMB, since you 
are spearheading this, could pull together that information of 
what the impact would be on existing laws.
    Second, you have reported today and said many times through 
your testimony how it has evolved and changed over history, the 
categories on the forms. How do you balance the need for 
reflecting the changes in our society with the need for 
consistency, so that we can enforce our laws and track our 
success of lack thereof in our antidiscrimination laws?
    Ms. Katzen. That is a difficult process; again, unique to 
each of the inquiries that we may be presented with. It's 
inherent in almost every data collection request that we 
receive from an agency, whether it involves race and ethnicity 
questions or other questions.
    It is a balance to be achieved between the utility of the 
information--the importance of that information or the use of 
that information, both within the Federal Government and in a 
more expanded area--and the burdens that are imposed. In 
effect, here it would be a potential detriment to the ability 
to carry out Federal responsibilities.
    Again, this is one in which we have asked the agencies to 
explore their own programs and report back to us. I think it's 
comparable to the issue you mentioned earlier and one that we 
hope to get at in the interagency process.
    Mrs. Maloney. If we add a multiracial category, what do I 
say to my constituents who say to me, ``You have made it 
impossible to enforce the laws against discrimination''?
    Ms. Katzen. As we explore the alternatives--and as we 
mentioned earlier, there are a variety of ways of addressing 
the multiracial question, some of which may have little, if 
any, effect on our ability to enforce--certainly we would not 
want to take any step that would preclude a Federal agency from 
being able to enforce the law.
    Our objective here is to facilitate enforcement of the law, 
facilitate the implementation of programs, not to make either 
more difficult. Therefore, as we think about the ways of 
approaching this issue, I hope that we will provide you with an 
answer, so that you can say, ``There will not be any diminution 
in our ability to do what we have to do.''
    Mrs. Maloney. Likewise, if we do not add a multiracial 
category, what would you suggest that we say to our 
constituents, to a mother who says to me, ``Please do not make 
my child choose between one race and another''?
    Ms. Katzen. That is the issue that I was presented with, 
that I found so compelling, and the reason why we are exploring 
the different ways of framing or asking the multiracial 
question.
    Again, it is possible to consider a variety of approaches. 
One would be a simple multiracial line or box. Another is to 
ask respondents or enable respondents to check a series of 
boxes, so that no one would have to deny any part of his or her 
heritage. A third is a totally open-ended question in which 
people could identify themselves as they choose to, without 
restrictions.
    Now, these all have tradeoffs. For some, agencies can more 
easily administer the collection of the data, and more easily--
going back to your first point--enforce the law; others are 
more difficult in that context. And that is what it is that we 
will be struggling with.
    I don't have the answers now. I'm not sure I even know all 
the questions right now, but I know for sure I don't have the 
answers.
    Mrs. Maloney. Well, helping us to get those answers are 
probably some of the target tests that you are doing?
    Ms. Katzen. Yes.
    Mrs. Maloney. How important will the race and ethnicity 
target test be in determining the final categories proposed by 
OMB, and when do you propose to finish with this target test?
    Ms. Katzen. Well, we think the target test is very 
important, because, unlike some of the other tests which used 
nationwide bases, this is specifically targeted to areas where 
we expect to see a large number of the different population 
groups and a large number of multiracial groups.
    Those results are expected in the early part of May and 
will be made publicly available at that time. I think they will 
be very important. At this point, I have no idea how they are 
going to come out, so I can't tell you which way they will tip 
the scales, if at all. But we are awaiting the results of those 
tests so that we can have the benefit of them.
    Mrs. Maloney. Well, my time is up. Thank you very much, and 
I wish you luck. You're going to need it. You have a difficult 
task before you.
    Ms. Katzen. Thank you very much.
    Mr. Horn. One last question just for the record: Under what 
circumstances do State and local governments have to follow 
OMB's Directive 15? Does that apply to State government 
collection at all?
    Ms. Katzen. Yes and no. There are some instances where the 
State governments can do their own thing, so to speak. But in 
areas where there is Federal-State partnership and cooperation, 
then the information would ordinarily be aggregated into the 
five categories before it is transmitted to the Federal 
Government.
    In some instances, that's required; in some instances, it's 
simply encouraged, depending, again, upon the particular 
program involved, the particular statutory requirements that 
guide that program, and the regulations that implement it. Some 
of the witnesses who follow me actually work in these programs 
and can give you more precise information.
    Mr. Horn. California has some more detailed categories than 
OMB. I want in the record, at this point, the California list 
on which they base public policy. Without objection, that will 
be put in, and we will pursue it with Census on the other.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.091
    
    [GRAPHIC] [TIFF OMITTED] 45174.092
    
    [GRAPHIC] [TIFF OMITTED] 45174.093
    
    Mr. Horn. Thank you very much for coming. We appreciate 
your testimony and wish you well in the next panel.
    Ms. Katzen. Thank you very much, Mr. Chairman, Mrs. 
Maloney.
    Mr. Horn. If you would stand and raise your right hands, 
Ms. Riche, Ms. Gordon.
    [Witnesses sworn.]
    Mr. Horn. Both witnesses have affirmed, the clerk will 
note.
    We are conscious of your time situation, Ms. Riche, and we 
would appreciate it, if you could summarize your statement, and 
then we will have a chance for questions.

 STATEMENT OF MARTHA FARNSWORTH RICHE, DIRECTOR, BUREAU OF THE 
CENSUS, ACCOMPANIED BY NANCY M. GORDON, ASSOCIATE DIRECTOR FOR 
                      DEMOGRAPHIC PROGRAMS

    Ms. Riche. Thank you very much, Mr. Chairman, for inviting 
the Census Bureau to testify on this important initiative of 
the Office of Management and Budget.
    The Office of Management and Budget developed the schedule 
for this initiative to coincide with Census 2000. As you may 
know, our procedures for collecting data on race and ethnicity 
have been in compliance with the OMB directive since it was 
issued in 1977. We plan to continue this compliance with Census 
2000. We believe it is essential that Federal agencies observe 
such standards to keep our data consistent and comparable 
across the Government.
    I would like to thank both the chairman and the ranking 
member for their interest in and support of Census 2000. Today, 
however, we are here in a secondary role, and that is to share 
with you the research that we have done and continue to conduct 
for OMB, in relation to OMB Directive 15.
    So, to that end, I would like to turn over the next part of 
the summarizing of our testimony to Dr. Nancy Gordon. She is 
the Associate Director for Demographic Programs in the Census 
Bureau. Dr. Gordon and her staff are responsible for our 
contribution to this important effort.
    So we thank you very much, again, for the opportunity to 
testify. I'm sorry I have a prior commitment, but I'm going to 
put you in the hands of the expert.
    Mr. Horn. Well, let me ask you, before you leave, then, 
what are the penalties if one does not answer the racial or 
ethnic questions?
    Ms. Riche. I would have to check into that to give you a 
definitive answer, but it is my belief that there are no 
penalties.
    [The information referred to follows:]

    Section 221 of Title 13 United States Code provides for a 
penalty of up to $100 for refusing to respond to questions in 
the decennial census.

    Mr. Horn. Yes. Because I can see a lot of people saying, 
``I'm not going to tell Big Brother, looking down my shoulder, 
what I am.''
    Ms. Riche. Yes. People don't always fill in all of the 
questionnaires, and some questions are more sensitive than 
others. This is probably one of them.
    Mr. Horn. Do we know by analyzing the data from the 1990 
census whether this question is ignored more than most? And if 
so, what accuracy do we have left with the census?
    Ms. Riche. The question actually that is ignored most is 
the question on income, and that stands out by far. I don't 
know if research has been done on how much this question was 
ignored, but if there is some, we would be happy to provide it 
for you.
    Mr. Horn. I would like in the record, at this point, 
without objection, the data that is within the Census Bureau 
that shows the degree to which any question in the 1990 census 
was ignored. Income, you say, is No. 1. What is No. 2, No. 3, 
and No. 4?
    Ms. Riche. Very good. Thank you very much.
    [The information referred to follows:]

    During data collection operations for the 1990 census, 
questionnaires were reviewed by census clerks for omissions and 
inconsistencies. A telephone or personal visit followup was 
made to try to obtain missing information. After these field 
operations were completed, remaining incomplete or inconsistent 
information on the questionnaires was imputed using allocation 
procedures during the final automated edit of the collected 
data. Reports from the 1990 census include statistical tables 
that show data before allocation (i.e., after field followup) 
and after allocation in considerable detail. The highest 
allocation rates were for the following:

    Income in 1989 for households--18.9
    Weeks worked in 1989 for persons 16 years and over--14.9
    Income in 1989 for persons 15 years and over--14.2
    Origin (whether or not of Hispanic origin)--10.0
    Occupation for employed persons 16 years and over--7.1
    Industry for employed persons 16 years and over--5.9

    Mr. Horn. What I'm interested in now is the question I last 
asked to Dr. Katzen on the degree to which the law that applies 
to the census also applies to the States, and how do you work 
that out in their data collection? She mentioned the joint 
partnership legislation. I just wondered, is this a problem?
    Ms. Riche. That's not something that I'm aware of. We 
basically follow the OMB's directive in our data collection, 
and I'm not sure how much leeway States have. I know they have 
some leeway.
    Mr. Horn. OK. We will get an exhibit in the record, at this 
point, between counsel at OMB and counsel in Commerce and 
Census, as to what effect, if any, Directive 15 has on States 
and localities in data collection related to Federal programs 
or federally subsidized programs through State action.
    [The information referred to follows:]

    The Census Bureau/Commerce Department defers to the OMB on 
matters regarding interpretation of Directive 15.

    Mr. Horn. Very good. We thank you, and we will count, then, 
on Ms. Gordon to explain the testimony.
    Ms. Riche. Thank you very much.
    Ms. Gordon. Thank you very much, Mr. Chairman.
    It has been mentioned before that the Census Bureau is 
undertaking two tests of alternative versions of questions 
relating to reporting race and Hispanic origin. The one that 
has been completed is a portion of the National Content Survey. 
There were four panels of that survey, each with approximately 
6,000 households participating, that were focused particularly 
on analyzing options for reporting data on race and Hispanic 
origin.
    That test was not designed to collect data for relatively 
small population groups such as American Indians and Alaskan 
Natives, or detailed Asian and Pacific Islander categories such 
as Chinese and Vietnamese, or detailed Hispanic origin groups 
such as Puerto Ricans and Cubans.
    Instead, the survey tested questions on race and Hispanic 
origin in order to examine two areas that some have proposed be 
changed: first, the addition of an option for multiracial 
classification; and second, the sequencing of the questions on 
race and Hispanic origin. The test also enabled us to look at 
the effects of combining both those changes.
    There has been a considerable amount of discussion of the 
underlying reasons for raising the option of a multiracial 
classification. Let me just note why there is interest in 
reversing the sequencing of the race and Hispanic origin 
questions.
    There have been two persistent problems identified in 
decennial census evaluations. First, some people see those two 
questions as asking for the same information, and thus they do 
not answer one of them. And second, research from the 1990 
census has shown that some Hispanics view themselves racially 
as Hispanic and do not identify with one of the specific racial 
categories identified in Directive 15, or that they find the 
question about race to be confusing.
    I would like to concentrate on the findings of the National 
Content Survey, looking first at the option for adding a 
category for people who view themselves as multiracial or 
biracial. First, about 1 percent of persons reported themselves 
as multiracial when given that opportunity. Second, the 
presence of the multiracial response category did not have 
statistically significant effects on the percentages of people 
who reported as white, as black, or as Asian and Pacific 
Islander.
    But that last statement needs to be taken with some 
caution. Although the apparent decline in the proportion of 
persons who reported as Asian or Pacific Islander was not 
statistically significant, a substantial proportion of the 
write-in responses to the multiracial category included 
detailed categories of the Asian and Pacific Islander 
population. Consequently, we cannot rule out the possibility 
that adding a multiracial category would affect how this 
population reports race.
    Finally, including a multiracial category reduced the 
percentage of people reporting in the ``Other'' race category 
of the race question.
    The major findings on reversing the sequencing of the 
questions on race and Hispanic origin are two: first, placing 
the Hispanic origin question before the race question 
significantly reduced nonresponse to the Hispanic origin 
question. In other words, more people answered that question. 
Second, placing the Hispanic origin question first reduced the 
percentage of people reporting in the ``Other'' race category.
    The second major test that we are conducting of questions 
on race and ethnicity is referred to as the Race and Ethnic 
Targeted Test. That test has a sample of about 112,000 housing 
units, drawn from census tracts with high concentrations of 
racial and ethnic populations, including American Indians, 
Alaskan Natives, Asian and Pacific Islanders, blacks, and 
Hispanics.
    Because of the targeted design, this test is not 
representative of the total population. Instead, it is designed 
to detect differences in responding to questionnaire variations 
among particular populations, including the American Indian and 
Alaskan Native populations, that could not be addressed by the 
National Content Survey.
    Results from this test are currently being evaluated in 
order to address a number of issues: adding a multiracial or 
biracial category, using a ``check one or more category'' 
approach to reporting race, placing the Hispanic origin 
question before the race question, combining the questions on 
race and Hispanic origin and then asking about ancestry in the 
second part of that same question, and several variations in 
terminology and placement of some of the categories.
    As has been noted a number of times, we plan to release the 
results from that study early in May.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions you may have.
    [The prepared statement of Ms. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.094
    
    [GRAPHIC] [TIFF OMITTED] 45174.095
    
    [GRAPHIC] [TIFF OMITTED] 45174.096
    
    [GRAPHIC] [TIFF OMITTED] 45174.097
    
    [GRAPHIC] [TIFF OMITTED] 45174.098
    
    [GRAPHIC] [TIFF OMITTED] 45174.099
    
    [GRAPHIC] [TIFF OMITTED] 45174.100
    
    [GRAPHIC] [TIFF OMITTED] 45174.101
    
    [GRAPHIC] [TIFF OMITTED] 45174.102
    
    Mr. Horn. Thank you very much.
    Let me ask you about the Cambodian population. I happen to 
come from a city that has the largest number of Cambodians 
outside of Cambodia. Now, one of the problems here is, many of 
them came over along in their years, those that survived the 
murderous 1 million deaths of Pol Pot, who unfortunately is 
still alive. Some of them probably went to Cambodia in the 
1890's, and were overseas Chinese and moved into Cambodia, but 
are now Cambodians.
    We face the problem, with a lot of these who came here as 
refugees and or immigrants, as to how well they are served by 
some Federal programs. Now, how do we deal with a population 
like that, on the census? Do we ask for refugee status? Do we 
ask for country of origin, if they are immigrants to the United 
States? We did at one time; I don't know what your plans are 
for the year 2000.
    I would like to hear a little elaboration on how we 
pinpoint that type of a population to see the degree to which 
they are served by relevant Federal programs.
    Ms. Gordon. The general approach the Census Bureau is 
taking to designing the questionnaire for Census 2000 is to ask 
questions that are required by law or by judicial decisions. 
That includes questions on ancestry, race, and Hispanic origin, 
as we have discussed before.
    I think the question, in terms of the data that will be 
collected, really gets back to how those people view 
themselves. If they view themselves as Cambodian, that would 
determine how they would respond to the questionnaire. If they 
viewed themselves as Chinese, then they would answer in that 
way.
    One of the alternatives that is being tested, namely to add 
a multiracial category, then recognizes the need for additional 
detailed information in a number of circumstances. The 
respondent is asked to write in the categories that the 
respondent identifies with. That's a somewhat different 
approach from the other alternative that is being tested, which 
is to mark one or more boxes.
    Mr. Horn. How many industrial countries, such as we, Japan, 
Germany, France, Italy, Great Britain, use similar racial and 
ethnic questions in any census they might make?
    Ms. Gordon. I must confess, I really am not informed on 
that topic, but I could get you some information for the 
record.
    Mr. Horn. Could we put an exhibit in the record? I 
remember, when I was in the Department of Labor many years ago, 
our International Labor Bureau used to know all this, as to 
what labor laws were in other countries, and I assume somewhere 
in the Census Bureau there's an expert on that buried.
    Ms. Gordon. I must confess, that although those experts are 
actually in my portion of the Census Bureau, they know so much 
more than I do.
    Mr. Horn. Fine. Let's get a little exhibit that notes these 
categories for the United States, and what are the categories 
of both race and ethnicity advanced industrial countries ask, 
and how often do they ask them?
    [The information referred to follows:]

    Based on a few censuses taken around 1990, industrialized 
countries outside the United States have not included a 
question on race, but sometimes have included a question on 
ethnicity. Japan, Germany, France, and Italy did not include 
either item.
    Great Britain included a question on ethnic group. The 
categories included Black-Caribbean, Black-African, and Black-
Other, and the instruction mentions ethnic or racial group; in 
other words, the question on ethnic group includes a racial 
component.
    Canada included a question on ethnic origin. In addition, 
the following question was asked: ``Is this person a registered 
Indian as defined by the Indian Act of Canada?''

    Mr. Horn. This question was asked earlier, but I want to 
ask you, since you are here on behalf of the director: Is there 
a rule of thumb that you would care to articulate as to the 
size of a group in the population before an additional category 
would provide useful information?
    I note that, in your written testimony, you stated that 
studies conducted, presumably by OMB or the Census Bureau, have 
led you to conclude that approximately 1 percent to 1.5 percent 
of persons surveyed would identify themselves as multiracial if 
given a chance. Is a total of less than 2 percent large enough 
to justify the costs associated with imposing a new category?
    Ms. Gordon. To the best of my knowledge, there is no rule 
of thumb to answer your question. That is one of the issues 
that the Interagency Committee and the OMB will have to wrestle 
with.
    Mr. Horn. Then, of course, the question was the degree to 
which census data collection policies, presumably reflected in 
OMB Directive 15 or vice-versa, the degree to which they apply 
to State data collection on relevant Federal programs, where 
there is a partnership between State and Federal Governments. 
What is your reaction on that?
    Ms. Gordon. We will be happy to work with your staff, and 
probably a number of other agencies within the Government, to 
try to identify that information for you.
    [The information referred to follows:]

    The Census Bureau, being a federal statistical agency, is 
not directly involved in data collection by states. The data 
that the Census Bureau collects on race and ethnicity in 
censuses and surveys, which are used by state and local 
governments as well as by the federal government, are 
consistent with the guidelines in Directive No. 15 from OMB.

    Mr. Horn. In a footnote to your written testimony, you 
noted, as Sally Katzen did, in response to an earlier question, 
that Directive 15 already allows data on race to be collected 
in more detail than the five categories. Why has not the Census 
used this ability to address the issue of adding a multiracial 
category?
    Ms. Gordon. Under the current version of Directive 15, one 
is required to be able to aggregate the answers to more 
detailed categories into the categories that are specified by 
OMB. For example, in the Asian and Pacific Islander population, 
we have a very large list of different possibilities, but those 
can be aggregated back.
    If someone were to check a multiracial box, that might not 
be possible. For example, suppose that the person checked 
``multiracial'' and wrote-in two categories, both of which were 
on the list of the four major categories from OMB. We would not 
know which category into which to place the data about that 
person, so, in that sense, we would not be able to aggregate to 
the OMB categories.
    Mr. Horn. On country of origin, I assume that's a separate 
question somewhere in the census; is that checked?
    Ms. Gordon. Yes, that's correct.
    Mr. Horn. Is that checked against what they have checked in 
these categories?
    Ms. Gordon. I would have to check to see if we currently 
are planning to ask country of origin. I know that ancestry is 
being asked. That's a closely related concept but not quite 
identical.
    Mr. Horn. Well, we have, for example, a large Samoan 
population in California. If there is a question on where were 
they born, Samoa would show up. And if there's a question on 
various categories, you could list Micronesian, Macronesian, 
Hawaiian, whatever. There are all sorts of different groups in 
the Pacific that want to be identified one way or the other. 
Filipinos do not want to be called Pacific Islanders. Under 
California law, I believe there is a separate collection for 
Filipinos.
    So what is your thinking on that?
    Ms. Gordon. Again, I think I will have to supplement my 
answer for the record. When we are asking about ancestry, I 
believe that it is the person who is responding who gets to 
make the decisions about what information to provide. There is 
an opportunity for that person to write in an answer.
    [The information referred to follows:]

    In addition to the question on ancestry, there is a 
question on place of birth in which the respondent is asked to 
report U.S. state of birth or foreign country of birth.

    Mr. Horn. The last question I have is, how will the delay 
in OMB's decision on Directive 15 impact the Census Bureau's 
dress rehearsal in 1998? Is there a gap as a result of the late 
decision in OMB?
    Ms. Gordon. I must confess that it would be difficult for 
me to say that OMB is late, considering that it's our analysis 
of the Race and Ethnic Targeted Test that is an integral part 
of their decisionmaking process, and we have not yet completed 
it. But to the best of my knowledge, assuming we stay on the 
timetable that we have worked out with the people doing the 
dress rehearsal, the OMB, and the Interagency Committee, there 
will not be a problem.
    Mr. Horn. OK.
    Mrs. Maloney, 10 minutes.
    Mrs. Maloney. Thank you very much.
    There appears to be some confusion about what the Census 
Bureau can do or cannot do in adding categories before they run 
afoul of OMB directives. I would just like to specifically and 
just clearly ask, could the Census Bureau add a multiracial 
category? Could the Census Bureau, on your own, change the way 
that the Bureau classifies Native Hawaiians?
    Ms. Gordon. I believe those are two separate questions. To 
the former, I believe not; to follow Directive 15, we could 
not.
    Mrs. Maloney. You could not add multiracial on your own?
    Ms. Gordon. I believe that to be true. Again, I do want to 
check all of these answers for the record, to make sure that 
they are correct. I am not clear on whether we are directed, in 
terms of the phrasing of the question on Hawaiians. I know we 
are testing it, and it may be that those decisions are ones 
that are to be made by the Director of the Census Bureau.
    [The information referred to follows:]

    The answer given during the hearing is correct.
    With regard to classifying data on the Hawaiian (or Native 
Hawaiian) population into one of the OMB racial categories, the 
Census Bureau follows Directive No. 15, which includes persons 
``having origins in any of the original peoples of the Far 
East, Southeast Asia, the Indian subcontinent, or the Pacific 
Islands'' in the Asian or Pacific Islander category.

    Mrs. Maloney. Well, as you mentioned, you are conducting 
several tests. Have you tested a question similar to the one 
that is done in Canada, where race, ethnicity, and ancestry are 
inter-mixed? Have you tested that?
    Ms. Gordon. Yes. In the Racial and Ethnic Targeted Test, 
there is a question which has two parts to it. In the first 
part, race and Hispanic origin are asked together, so that one 
can choose to mark, for example, only Hispanic, or one can 
choose to mark Hispanic and black. One has a multitude of 
options there, but Hispanic is in the list of races that are 
given in the first part of the question.
    In the second part of the question, we ask for information 
about ancestry, and that is provided by the respondent as a 
write-in. So it's not a list where they check it off, but they 
write in what their choices are.
    Mrs. Maloney. Could a question like that be included on the 
long form?
    Ms. Gordon. I think that if the Office of Management and 
Budget were to direct that that was the way that racial and 
ethnic data were to be collected, we would have to use it on 
the short form. At the moment, race and Hispanic origin are 
asked on the short form, and ancestry is asked only on the long 
form.
    Mrs. Maloney. In some of your earlier testing, the 
inclusion of a multiracial category, your results showed that 
only about 1 percent chose that category. So I would just like 
to know, if we include, based on your research, if we include a 
multiracial category in our surveys, will it provide data that 
we can use, since the response was only 1 percent in your test?
    Ms. Gordon. If the OMB were to make that decision, there 
would be information provided in the larger of the surveys. For 
example, the Bureau of Labor Statistics tested this option 
using the Current Population Survey. But, the Federal 
Government does conduct a number of different surveys, and in 
some of them, the sample size would probably be quite small, 
just because the survey itself is so small.
    Mrs. Maloney. Some people have suggested that the 
controversy over the race question will increase the undercount 
of minorities. Is there any evidence to support this position?
    Ms. Gordon. I'm not aware of any evidence to support that 
position. I know that the Census Bureau is putting a great deal 
of effort into devising a variety of approaches to encourage 
everyone to participate in the census. I'm sure you've heard 
many times about the importance of getting people to mail back 
their questionnaires, in terms of keeping costs down.
    Mrs. Maloney. I have a number of other technical questions, 
Mr. Chairman. I would like to present them to Ms. Gordon in 
writing so that she could get back to us in writing. In the 
interest of time--I see Congressman Sawyer here and other 
Members of Congress who wish to testify, and I know their time 
is valuable--I would like to really yield back the balance of 
my time and submit the remainder of my questions in writing.
    Mr. Horn. Without objection, they will be submitted by 
staff to the director for the answer and to coordinate within 
census.
    Two last questions: Discussion has focused a lot on OMB 
Directive 15 and the 1980 and 1990 census. As the directive is 
only 20 years old, the subcommittee is curious: How did the 
Census Bureau measure race and ethnicity prior to 1980? Do we 
have any data? I think one of the earlier questions suggested 
by members of the panel was the degree to which you can get 
consistency in a series when the question is changed, and how 
does the census adapt for that?
    Ms. Gordon. My own personal expertise is not as a 
historian, but I had some advance notice of the subcommittee's 
interest in this topic. Your staff has a table that was 
prepared by the National Research Council that goes back only 
to 1850, but that gives you a flavor of some of the different 
ways that the question on race has been asked.
    Mr. Horn. Because we were interested, and we will put these 
in the record. If you could make sure that it relates to that 
chart. How were the categories decided? Were the questions 
consistent with those posed today, for example, in terms of the 
census language?
    Then, notwithstanding the current debate about Directive 
15, what changes do you foresee the Census Bureau to the form 
it will use in the 2000 census? Are we going to change these 
questions substantially, do we know that yet, or do we all have 
everything up in the air until these field hearings and all the 
rest are over?
    Ms. Gordon. The specific questions will be submitted to the 
Congress by April 1 of next year, and those questions will 
track with the directives that we have from OMB.
    Mr. Horn. Very good. Without objection, we are going to put 
in the chart, ``Modernizing the U.S. Census,'' and this is 
Table 7.1, Census Race Categories, 1850 to 1990.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.103
    
    [GRAPHIC] [TIFF OMITTED] 45174.104
    
    Mr. Horn. Well, we thank you very much for coming, Ms. 
Gordon. You've got a tough job, and you've handled the 
questions very well.
    Ms. Gordon. Thank you very much for including us.
    Mr. Horn. Now I would like to ask the gentleman from Ohio, 
Mr. Sawyer, do you wish to testify now, or would you like to 
wait till your other colleagues arrive--what is your pleasure?
    Mr. Sawyer. I'm happy to do whatever serves the 
subcommittee.
    Mr. Horn. It's whatever you would like.
    Mr. Sawyer. Why don't we hang here for a few minutes.
    Mr. Horn. Fine. OK.
    We now have the next panel, which is panel III: Norma 
Cantu, Edward Sondik, Bernard Ungar. Please come forward.
    Ms. Cantu and gentlemen, if you would stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Horn. All three witnesses have affirmed, the clerk will 
note.
    We will begin with you. Norma Cantu is the Assistant 
Secretary for Civil Rights, U.S. Department of Education. We 
are glad to have you here, Ms. Cantu.

   STATEMENTS OF NORMA CANTU, ASSISTANT SECRETARY FOR CIVIL 
    RIGHTS, U.S. DEPARTMENT OF EDUCATION; EDWARD J. SONDIK, 
   NATIONAL CENTER FOR HEALTH STATISTICS, U.S. DEPARTMENT OF 
  HEALTH AND HUMAN SERVICES; AND BERNARD L. UNGAR, ASSOCIATE 
   DIRECTOR, FEDERAL MANAGEMENT AND WORK FORCE ISSUES, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Ms. Cantu. Thank you. Good morning, Mr. Chairman, members 
of the subcommittee.
    I am pleased to be with you today representing the 
Secretary of Education. I welcome this opportunity to be with 
you today because we all realize the timeliness of the OMB 
responsibility to review the status of racial and ethnic 
categories used throughout Government. Certainly, the shape and 
configuration of our country is different from 20 years ago, 
when the last changes were made to racial and ethnic categories 
for use across the breadth of our Government.
    Today you have heard from the Office of Management and 
Budget regarding the work during the last 4 years in studying 
the many complex and interrelated issues regarding racial and 
ethnic categories, and you understand the administrative 
process OMB is using to develop recommendations for revising 
these categories. Accordingly, the Department of Education 
feels it is premature to comment one way or the other until 
definitive recommendations are released by OMB for public 
comment.
    While reconsideration of racial and ethnic categories is 
certainly appropriate in 1997, it is necessary to consider 
carefully how specific changes may affect accuracy of 
reporting, facilitate implementation of any changes that may be 
adopted by OMB, and preserve the reliability of longitudinal 
trend data.
    Careful consideration of these three factors, accuracy, 
implementation, and trends, is critical, not only for Federal 
agencies, but for our local and State partners who work with 
the Department of Education to collect these data and use the 
data to evaluate the condition of their communities and their 
programs. While, in this context, I am talking about education 
matters, I know that many other Federal agencies and programs 
have very well developed partnerships with a wide range of 
local government and State government programs and services.
    In this testimony, I would like to briefly discuss with you 
the three factors I identified above and to discuss with you 
the results of a study conducted in 1995 by the National Center 
for Education Statistics, in consultation with our Office for 
Civil Rights.
    So let me begin with the three factors: first, accuracy. In 
the Office for Civil Rights, we need the most accurate data 
possible on race and ethnicity, so that our continuing 
evaluations of past discriminatory practices are appropriate, 
our current and future investigations of alleged discriminatory 
practices are focused, and our ongoing work to identify 
emerging civil rights concerns and issues is relevant.
    Of course, we need to provide parents and guardians 
appropriate racial and ethnic categories, so, when requested, 
they may make appropriate decisions, decisions which may be 
regarding multiracial children. It is of interest to note that 
census data tells us that the number of children in interracial 
families grew from less than one-half million in 1970 to about 
2 million children in this country in 1990. Even if there are 
questions about the accuracy of these numbers, no one can 
contest the significant growth of interracial families as we 
reach the end of the 20th century.
    Second, implementation. First, careful consideration should 
be given to the possible effect that revisions will have to 
racial and ethnic categories across a variety of programs in 
the Department of Education. For example, a thorough review 
should be made in all department programs regarding the 
possible effect of revised categories where the result might be 
that the number of students in one or more present categories 
might decrease.
    Second, we need to carefully consider the effects of any 
revisions to racial and ethnic categories on existing civil 
rights settlement agreements and on our ongoing monitoring of 
those agreements.
    Third, we need to ensure that our partners at local 
education and State education agencies are, wherever possible, 
using the same categories we use.
    Fourth, we need to consider any increased reporting burden 
and the implementation cost of adding new or revised racial and 
ethnic categories. The question we ask is the question you all 
have asked: Is the increased burden justified relative to new 
information we would expect to gain?
    Our third concern is trend data. Integrity in longitudinal 
trend information is a critical component in all programs in 
the Department of Education, including the Office for Civil 
Rights. If and when any changes are implemented and put into 
effect, there needs to be a bridge. And we agree with OMB on 
the principle that there need to be bridge studies to determine 
that data continuity is ensured.
    Now I want to address the NCES study, and that is a 1995 
study conducted by the National Center for Education 
Statistics, in consultation with our Office for Civil Rights. 
This was part of the research that you heard described by OMB's 
review of Directive 15. I understand that copies of the study 
have already been submitted to your subcommittee.
    The study asked what methods schools used to classify race 
and ethnicity, what categories they used, and how they reported 
that information to the Federal Government. This study used a 
stratified sampling design of 500 public elementary schools and 
500 public secondary schools across the country.
    Let me summarize the main results: 55 percent of all public 
schools that the students' race and ethnicity is collected when 
students initially register for schools in the district. 
Another 17 percent collect this information at initial 
registration and whenever the students change schools within 
the district, and about a quarter of public schools collect 
data on an annual basis.
    About 41 percent of public schools reported there are 
students in their districts for which the five categories were 
not accurately descriptive for them, and 83 percent of the 
schools reported that this represents 5 percent of their 
students who are affected by a lack of accuracy in the current 
five categories.
    The majority of public schools, that 73 percent, reported 
that they use only the five standard categories the Federal 
Government uses. Additional categories, such as Filipino, are 
being used by 7 percent of all schools, and this is 
predominantly in the western States and also in urban 
districts.
    Public schools typically ask their parents to identify the 
race of the children, and about half of the information comes 
in from parents. But it is interesting to note that we also 
have a good section of identification that is done by the 
teachers. About 22 percent responded that the teachers or 
administrators observed the race or ethnicity of the students. 
A majority of the respondents said that the current categories 
are not a problem, that they were not a problem at all or a 
very minor issue to them.
    To close, I want to offer a written statement by Dr. 
Forgione, the Commissioner of NCES, which further explains the 
study in greater detail. And I ask that that statement be made 
a part of the record of this hearing.
    Thank you for the opportunity to make this presentation. I 
would be pleased to answer any questions.
    Mr. Horn. Without objection, it will be put in at this 
point in the record.
    [The prepared statements of Ms. Cantu and Mr. Forgione 
follow:]
[GRAPHIC] [TIFF OMITTED] 45174.105

[GRAPHIC] [TIFF OMITTED] 45174.106

[GRAPHIC] [TIFF OMITTED] 45174.107

[GRAPHIC] [TIFF OMITTED] 45174.108

[GRAPHIC] [TIFF OMITTED] 45174.109

[GRAPHIC] [TIFF OMITTED] 45174.110

[GRAPHIC] [TIFF OMITTED] 45174.111

[GRAPHIC] [TIFF OMITTED] 45174.112

[GRAPHIC] [TIFF OMITTED] 45174.113

[GRAPHIC] [TIFF OMITTED] 45174.114

[GRAPHIC] [TIFF OMITTED] 45174.115

[GRAPHIC] [TIFF OMITTED] 45174.116

[GRAPHIC] [TIFF OMITTED] 45174.117

[GRAPHIC] [TIFF OMITTED] 45174.118

[GRAPHIC] [TIFF OMITTED] 45174.119

    Mr. Horn. We thank you. That's very helpful information, 
and we will pursue a lot of that in the question period.
    Next is Edward Sondik, Director, National Center for Health 
Statistics, U.S. Department of Health and Human Services.
    Dr. Sondik.
    Mr. Sondik. Thank you very much, Mr. Chairman.
    I am very pleased to be here. I also serve as the senior 
advisor to the Secretary on health statistics, providing 
technical and policy advice on statistical and health 
information.
    I am very pleased to be here. We have taken a great 
interest in the OMB process to review the adequacy and 
usefulness of Directive 15. My specific focus today will be on 
the use of race and ethnicity in health research and 
statistics, and a necessarily brief discussion of the impact of 
a few of the changes that have been discussed.
    Let me turn first to the use of race and ethnicity in 
health research and statistics. Collecting data on health 
status, on our use of health services, on the relationship 
between risk factors and disease, are all crucial components of 
the National Center for Health Statistics' mission and that of 
many of the other department components, including the NIH, 
especially as applied to vulnerable or disadvantaged population 
groups.
    Directive 15 has proven very valuable in fostering data 
comparability across these different sources. For example, we 
work closely with the census to assure that their population 
data can be used with our national vital statistics system to 
calculate death rates.
    Although the directive does not require the collection of 
race and ethnicity data, our health statistics data systems, 
and virtually all of those of the department as a whole, do 
collect such data. Nearly all of our data systems follow the 
standards established in Directive 15, and many collect 
substantially more detail, as has already been mentioned in 
this hearing, than called for. Equally important, many State, 
local, and nongovernmental entities have voluntarily followed 
this standard.
    A strong health data system is essential to identify health 
problems and find ways to maximize the health status of all 
Americans. Indeed, over the last decade, we have devoted 
considerable attention to improving the level of health 
information about specific racial and ethnic populations.
    It is important, however, that we maintain a clear focus on 
the limitations of race and ethnicity data, because these 
designations often conceal more than they reveal. Although data 
show that groups do differ in health status and the use of 
health services, such as, for example, the use of mammography, 
these differences depend, in a very complex way, on many 
factors.
    For example, education, occupation, income, community 
environment, culture, and individual behaviors and values, as 
well as discrimination and racism, all of these may play a role 
in effecting differences. In short, race and ethnicity are 
important analytic tools, but are only part of the picture.
    Reconsideration of Directive 15 is a key issue to the 
health and statistical agencies, and also to the human services 
and civil rights components throughout Health and Human 
Services. We in health statistics, along with many of our 
colleagues elsewhere in HHS, have appreciated the opportunity 
to be actively involved in the open and very participatory 
process that OMB has established.
    Our involvement has included considering the impact of the 
proposed changes across the Department's various programs and 
providing formal comments in response to the initial Federal 
Register notice. We also have attended public hearings and 
encouraged and facilitated input into the process from many of 
our partners in the States and in nongovernmental 
organizations.
    Making changes as fundamental as those under consideration 
can be difficult and potentially disruptive. We appreciate the 
priority that OMB and the statistic community have placed on 
sound research as a basis for these decisions.
    Let me turn to a few of the proposed revisions to 
illustrate a health research and statistics perspective. Let's 
consider first one of the most challenging methodological 
issues, multiracial identification. We recognize the need to 
capture information on the full range of cultural and racial 
diversity in our Nation's population. However, we do not 
routinely have information that identifies individuals of 
multiple races, and this limits our ability to take a more 
complex view of race into account in our analyses and research. 
However, establishing a new category presents several practical 
and methodological challenges, and we will not have a sound 
basis for reaching definitive conclusions until research now 
underway, that you have already heard about, is completed and 
fully analyzed.
    If the category ``multiracial'' is to be included as one of 
the new response categories, there are important considerations 
in how this would be done. These include the need for 
understanding changes in trends and preserving the rich detail 
on multiple individual race groups with which a person may 
associate. Losing the detail to a single category could be a 
threat to our ability to monitor and protect the health of 
communities at risk.
    One way to maintain continuity and comparability is to 
augment a multiracial category with information about the 
multiple individual races that a person would report. Another 
possibility is to not use the multiracial category itself, but 
simply allow the individual to associate themselves with more 
than one racial group, which allows a number of options for 
followup questions, coding, and analysis.
    We believe that such potentially major changes should be 
made only after careful research. We have conducted one of 
several studies carried out by statistical agencies to explore 
the impact of certain approaches to collecting this data, and I 
have included a summary of the findings in my written 
statement.
    I would also like to mention the issue with respect to 
Native Hawaiians and to point out that redefining the category 
``Hawaiian'' as Native Hawaiians, and suggestions that have 
been made to shift this newly defined Native Hawaiian category 
to either a new or separate category or a Native American 
category, would very likely disrupt our ability to monitor 
trends in these populations. Again, research is very important 
to understanding this.
    With respect to Hispanic origin, there is a question of 
whether Hispanic origin should continue to be maintained as a 
separate ethnic category or included as one of the race 
categories. We in health statistics have collected race and 
Hispanic origin separately, and many have found this useful for 
analytic purposes. We recognize, however, that many respondents 
have difficulty distinguishing these two concepts and, 
therefore, difficulty in responding to separate questions.
    Some studies have shown that changing our current practice, 
that is, moving away from separate race and ethnic questions 
toward a single question that includes both, will result in a 
smaller number of persons who report that they are Hispanic. 
Moreover, when individuals report themselves as Hispanic 
without the additional option of designating a race, studies 
have shown that there are unpredictable shifts in the estimates 
of the other racial categories. Further research, again, is 
important to understanding these shifts and to maintaining 
continuity between the current and any new standard.
    I see my time has expired. Let me just summarize and say 
that not only are we concerned with interview surveys where the 
questions are answered directly, we also have to be concerned 
with records and form-based systems, administrative record 
systems, and systems designed to collect data to protect 
against discrimination.
    In conclusion, we at the National Center for Health 
Statistics and the Department of Health and Human Services 
recognize the need to carefully consider these changes, and 
have worked with OMB, and will do that in the future. We have a 
very strong partnership with States and other governmental 
organizations, and we intend to work with them to assure an 
orderly transition for both our data sources and our data 
users.
    I, too, will be happy to answer any additional questions.
    [The prepared statement of Mr. Sondik follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.120
    
    [GRAPHIC] [TIFF OMITTED] 45174.121
    
    [GRAPHIC] [TIFF OMITTED] 45174.122
    
    [GRAPHIC] [TIFF OMITTED] 45174.123
    
    [GRAPHIC] [TIFF OMITTED] 45174.124
    
    [GRAPHIC] [TIFF OMITTED] 45174.125
    
    [GRAPHIC] [TIFF OMITTED] 45174.126
    
    [GRAPHIC] [TIFF OMITTED] 45174.127
    
    [GRAPHIC] [TIFF OMITTED] 45174.128
    
    [GRAPHIC] [TIFF OMITTED] 45174.129
    
    [GRAPHIC] [TIFF OMITTED] 45174.130
    
    [GRAPHIC] [TIFF OMITTED] 45174.131
    
    [GRAPHIC] [TIFF OMITTED] 45174.132
    
    [GRAPHIC] [TIFF OMITTED] 45174.133
    
    [GRAPHIC] [TIFF OMITTED] 45174.134
    
    [GRAPHIC] [TIFF OMITTED] 45174.135
    
    [GRAPHIC] [TIFF OMITTED] 45174.136
    
    Mr. Horn. Well, we appreciate that very much. That's a very 
thorough presentation, and I'm sure we have a lot of questions.
    Our last panelist on panel III is Bernard L. Ungar, the 
Associate Director for Federal Management and Workforce Issues, 
U.S. General Accounting Office, which is part of the 
legislative branch. We look forward to your testimony. Please 
proceed.
    Mr. Ungar. Thank you, Mr. Chairman, and Mrs. Maloney. I am 
pleased to be here today.
    I would like to focus my summary statement on two topics: 
one is GAO's prior work in the area of collection of data, 
federally, on race and ethnicity, including the decennial 
census; and the second is the collection of data at the State 
and local areas on health and education.
    I would first like to point out or just highlight the 
pervasiveness of OMB Directive 15. If it is changed, it would 
certainly suggest there would need to be a change in the way 
data is collected throughout the country, and that would 
include probably many State agencies, many local agencies, all 
the schools in the country, and probably all of the employers 
in the country. So a change in Directive 15 could certainly 
have a wide implication.
    In terms of Federal data collection, in 1992 we did a 
survey of eight Federal agencies to determine the extent to 
which they were complying with the standards in OMB Directive 
15. Fortunately, we found that they all were using the 
directive for the operations that we reviewed.
    We also looked, in the early 1990's, at issues concerning 
how the 1990 census was conducted, and there were really two 
issues we focused on. First, was the extent to which the Census 
Bureau was able to achieve a consensus on the race and 
ethnicity questions, and then, too, as now, it was quite 
controversial. The second issue related to the accuracy of the 
data.
    In the 1990 census, the major issue was the formatting of 
the question on Asian and Pacific Islander populations. 
Unfortunately, the Bureau had a late start in addressing that 
issue and, at least partly due to that late start, was not able 
to achieve a consensus. It therefore ended up using a question 
that it did not feel was quite as accurate or would produce as 
accurate a result as its preferred route.
    Fortunately, for the 2000 census, the Bureau and OMB did 
get an earlier start on their planning and involvement of 
advisory committees. However, with the controversy, I'm not so 
sure that that's going to help a great deal in the end.
    In terms of an accuracy problem that the Census Bureau 
experienced with the 1990 census, as was indicated, many folks, 
particularly of Hispanic origin, had a problem answering the 
question on ethnicity and race. As a result, the Bureau ended 
up with inconsistent answers. Of course, that is one of the 
issues that it has been testing for the 2000 census.
    In terms of State collection of data, I would like to start 
with a little context. That is, there are at least five States 
that do have laws that pertain to the collection of race and 
ethnicity data that specifically identify the multiracial 
category as one that should be used. Now, these five States 
don't all have the same type of legislation. They don't all 
cover the same agencies, and they all have not been 
implemented.
    I would like to start with the health area. What we focused 
on in the health area was the collection of data on births and 
deaths. This data is collected by the States and sent to the 
National Center for Health Statistics under a cooperative 
arrangement that the National Center has with the States. As 
part of that arrangement, the Center has worked out, in 
consultation with the States, some guidance that includes model 
forms and instructions.
    We did check with nine States and found that, by and large, 
they were using the model forms, and they say they were 
following the instructions. In the case of collecting the data, 
the model form calls for a question on ethnicity, ``Are you 
Hispanic?'' Yes or no, followed by a block for the write-in of 
a racial category.
    There the person responding, for example, on a birth 
certificate--it would usually be the mother or the father of 
the child--is asked to identify race. The person responding 
could put in ``multiracial,'' although the instructions would 
say, if they are, they are asked to identify the specific 
components or the specific races or ethnicities that he/she 
would identify with.
    It is interesting to note that, on the birth certificate, 
the race or ethnicity of the infant is not called for, or is 
not asked for. When the data is tabulated by NCHS, it's the 
race or ethnicity of the mother that is tabulated. That was 
changed maybe about 10 years or so ago, as a result of some 
problems, I believe, that NCHS was having in getting the race 
and ethnicity of the infant in a consistent manner.
    Two States, Georgia and Indiana, have implemented laws that 
require the collection of data on multiracial categories across 
all State agencies, including health agencies. However, because 
these laws basically say that that multiracial information 
would be collected in those cases where there is a list 
enumerated of choices to choose from, they don't apply to the 
birth and death certificates directly, because there is a 
write-in space; there is not a list, in general, that is used.
    In terms of education, again, the data that is collected by 
the States and at the local level on student enrollment is 
collected under a cooperative agreement or arrangement with the 
Department of Education's, National Center for Education 
Statistics. Also, this data is collected as part of compliance 
with the civil rights rules that the department has issued.
    Like the National Center for Health Statistics, the 
National Center for Education Statistics has published guidance 
in concert with the States. However, there is no model form for 
the collection of data, and there is no suggested protocol for 
the aggregation of the data on the education side as there is 
on the health side.
    Now, contrary to the health side, we found quite a diverse 
range of practices at the local level in collecting data on 
race and ethnicity at the school level or at the school 
district level. Some schools use the five categories that are 
specified in OMB Directive 15; some use less; some use more. 
Some schools have a write-in block. Most schools ask parents to 
fill in the information; other schools have that information 
recorded by an observer, a school employee. It could be the 
principal, a clerk, or a teacher. There are some schools that 
have the multiracial category.
    I would like to point out that there is a big difference 
between the way the data is collected and the way it is 
reported nationally. There are many variations to the way the 
data is collected, and I would like to give some examples of 
those.
    Just in this area, for example, the District of Columbia, 
on its school enrollment form, uses a write-in category where 
the parent writes in the race or ethnicity, and then the school 
aggregates that data using the five categories. If there is 
another category used, the school may allocate the other 
category across the five.
    On the other hand, in the city of Alexandria, VA, the 
school system prelists the five categories and asks the parent 
to check which category applies. If the parent doesn't, a 
person from the school will do that by observation, and the 
observation, we are told, is based on the parent who is 
registering the child. It may be the father or the mother.
    Another difference would be Fairfax County, VA, which, by 
administrative order, has established a multiracial category on 
its school enrollment form. Basically, it uses the five OMB 
categories plus the multiracial category. Fairfax County 
officials tell us that that category was included as a result 
of concern expressed by residents of the county. They say that 
they have been doing it for a couple of years, and it has not 
caused any problem. When they do report to the State, they 
allocate the folks who have checked ``multiracial'' to the 
other categories, and that's in compliance with the State of 
Virginia requirement that the data must be reported to it in 
accordance with the five categories.
    Another and the last example would be the State of 
California, which you mentioned. It requires 7 categories, but 
I would like to point out an example, which would be the city 
of San Diego. This city collects data on 19 categories, most of 
which are subgroupings of the five, plus it has a multiracial 
category. Its protocol calls for a parent to select 1 of the 
19. If the child is multiracial, one can designate 
``multiracial'' and then write in the specific races or 
ethnicities that apply.
    There are three States that have laws that require the use 
of the multiracial category in school registration. We looked 
at a number of counties or local school systems in those States 
and found that they were actually collecting that data using 
the multiracial category.
    Finally, there are some States that have administrative 
orders in this area, but not laws. North Carolina is one of 
those. It has implemented the order. We did find that, in some 
cases, the local school systems actually use the category 
``multiracial.'' In a couple of other cases there is a write-in 
space.
    That concludes my summary, Mr. Chairman. I will be happy to 
answer any questions.
    [The prepared statement of Mr. Ungar follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.137
    
    [GRAPHIC] [TIFF OMITTED] 45174.138
    
    [GRAPHIC] [TIFF OMITTED] 45174.139
    
    [GRAPHIC] [TIFF OMITTED] 45174.140
    
    [GRAPHIC] [TIFF OMITTED] 45174.141
    
    [GRAPHIC] [TIFF OMITTED] 45174.142
    
    [GRAPHIC] [TIFF OMITTED] 45174.143
    
    [GRAPHIC] [TIFF OMITTED] 45174.144
    
    [GRAPHIC] [TIFF OMITTED] 45174.145
    
    [GRAPHIC] [TIFF OMITTED] 45174.146
    
    [GRAPHIC] [TIFF OMITTED] 45174.147
    
    [GRAPHIC] [TIFF OMITTED] 45174.148
    
    [GRAPHIC] [TIFF OMITTED] 45174.149
    
    [GRAPHIC] [TIFF OMITTED] 45174.150
    
    [GRAPHIC] [TIFF OMITTED] 45174.151
    
    [GRAPHIC] [TIFF OMITTED] 45174.152
    
    [GRAPHIC] [TIFF OMITTED] 45174.153
    
    [GRAPHIC] [TIFF OMITTED] 45174.154
    
    [GRAPHIC] [TIFF OMITTED] 45174.155
    
    [GRAPHIC] [TIFF OMITTED] 45174.156
    
    [GRAPHIC] [TIFF OMITTED] 45174.157
    
    [GRAPHIC] [TIFF OMITTED] 45174.158
    
    [GRAPHIC] [TIFF OMITTED] 45174.159
    
    [GRAPHIC] [TIFF OMITTED] 45174.160
    
    [GRAPHIC] [TIFF OMITTED] 45174.161
    
    [GRAPHIC] [TIFF OMITTED] 45174.162
    
    [GRAPHIC] [TIFF OMITTED] 45174.163
    
    [GRAPHIC] [TIFF OMITTED] 45174.164
    
    [GRAPHIC] [TIFF OMITTED] 45174.165
    
    [GRAPHIC] [TIFF OMITTED] 45174.166
    
    [GRAPHIC] [TIFF OMITTED] 45174.167
    
    [GRAPHIC] [TIFF OMITTED] 45174.168
    
    [GRAPHIC] [TIFF OMITTED] 45174.169
    
    Mr. Horn. Well, that's an excellent presentation and 
summary, as I would expect from the General Accounting Office.
    Let me ask you--and all three of you are welcome to answer 
this question--which Federal laws would benefit someone or the 
agency that is collecting the data if they mark certain racial 
or ethnic categories out of proportion to the actual numbers in 
the room? In other words, do local school districts gain money? 
I want to know the greed factor.
    I am worried when I see people are checking the race and 
ethnicity in a school, if the principal is out to get more 
money for that school. Now, I'm curious, No. 1, from GAO, have 
we looked at some of these programs with regard to that? No. 2, 
I'm curious, from the agencies, if the Inspectors General have 
done a random sample of this to go back and check data, and see 
if there is fraud being committed by school administrators?
    Mr. Ungar, can you start on the overall picture, and then 
we will work our way backward.
    Mr. Ungar. Sure. Mr. Chairman, we recently have not looked 
at that in the manner in which you have asked. We were told by 
a number of school officials, in our current inquiry, that it 
is not uncommon for a parent to want to change the racial or 
ethnic designation of their child, for example, when they want 
to apply for college scholarships or admission. But we 
certainly did not look at any effort or any manipulation of the 
data at the school level.
    Mr. Horn. Well, there is no question we have seen some of 
that in college scholarship applications. If they can check 
Hispanic or Latino or whatever the category, and feel that 
that's a benefit they will and that is a problem, obviously.
    Mr. Ungar. Right. Yes, sir.
    Ms. Cantu. Mr. Chairman.
    Mr. Horn. Yes.
    Ms. Cantu. We do have, at the Department of Education, a 
very thorough check by our Inspector General of any 
misrepresentations in any type of data. The program my office 
is responsible for verifying is the magnet school applications. 
We did not notice a greed factor, as you mentioned.
    But, as I mentioned, one of our first principles was 
accuracy. We do not want to see either an overcount or an 
undercount in any of the racial categories, so we do compare 
data reported by districts to other data bases, such as the 
census and reports that they file with our agency over time. So 
if there is an aberrant number, if all of a sudden a school 
looks very minority where in past years it was not, we will 
pick up the phone, we will verify, and we will check our 
sources.
    Mr. Horn. Has the Inspector General in Education done any 
reports in this area?
    Ms. Cantu. I'm not aware of that, but I can check for the 
subcommittee.
    Mr. Horn. Yes, please, and have the staff also followup on 
that, because you implied in a comment there that the Inspector 
General did look at the data.
    Ms. Cantu. The Inspector General looks at all reports. They 
are interested in any fraud, so they look at all reports. They 
would not exclude a category such as race; they would treat it 
like they would treat every other category.
    Mr. Horn. Well, I just wondered. In other words, they don't 
seem to have done any work. They have looked at them, but 
either their suspicions were not aroused or there were no tips, 
or whatever, I guess. But I am curious as to whether a random 
sample is done of any data collection to see to what extent 
it's really accurate.
    Ms. Cantu. I will check that for you.
    Mr. Horn. OK. Thank you very much.
    How about health statistics? That's vitally important.
    Mr. Sondik. I must say I can't think of a law where the 
greed factor comes in.
    Mr. Horn. I can't think of the greed thing, but I can think 
of inaccurate conclusions from data on various diseases.
    Mr. Sondik. I don't think there's any question about that. 
All of this data, at least all that I can think of, is asked on 
a self-report basis. And I can't think of a situation really 
where it would relate to something along the lines, if you 
will, of greed, or something along those lines. But it 
certainly may relate, since it is self-reported, to an 
individual's desire to put themselves in one group or another.
    That's one of the reasons why I think it's so important 
that we have the research, and I'm very pleased that the 
research is currently underway.
    Mr. Horn. Then the question comes, who should make that 
judgment? I gather we have some where the mother is asked to 
make the judgment. I would simply ask, on the health side, is 
there any genetic information, as to recessive characteristics 
and all, that come through the mother and might not have come 
through the father? And does that affect the data in any way?
    Mr. Sondik. Well, actually, Mrs. Maloney said something--I 
believe it was Mrs. Maloney--early on concerning the variation 
in genetics between peoples. The figures, as I understand them, 
are that if we look at differences between races, we see about 
15 percent of the genome representing those differences. But 
within a particular race, we see an 85 percent variation.
    So there's no question, of course, that factors are 
inherited, and we are concerned about particular genes that may 
be inherited that relate to particular diseases. But 
fundamentally, as is stated in the OMB directive, this is, in 
effect, a cultural anthropological, if you will, concept that 
is up to the individual to specify.
    As I mentioned in my testimony, though, when we use this 
information in health research, we need to couple it with all 
sorts of other factors to really make sense out of what is 
causing these differences.
    Mr. Horn. I yield 10 minutes to Mrs. Maloney.
    Mrs. Maloney. Thank you.
    I would like to ask each of you to respond to this 
question, if you would like. One of the proposals on the table 
before us is to let each person check all the boxes they think 
apply. What is your reaction to that suggestion? Just go down 
the panel. Do you think it's a good idea, a bad idea, and why?
    Mr. Sondik. Well, we conducted a study that asked questions 
about birth certificates. We asked mothers of children less 
than 3 years old, particularly multiracial mothers and Hispanic 
mothers, as to how comfortable they felt with filling out the 
boxes in various ways. And they seemed to be most comfortable 
with not checking a single multiracial box but choosing from a 
list or putting in a series of categories.
    Mrs. Maloney. Mr. Ungar.
    Mr. Ungar. Mrs. Maloney, I think there are two things that 
come to my mind. One is, the State of Michigan has legislation 
that would require the use of a multiracial category across 
State agencies, and the State put together a working group to 
sort through how to implement this. I think the group's 
recommendation was to identify the specific categories and then 
add a separate box for multiracial, allowing the parent or the 
person to choose one category or check multiracial, and then 
identify what the races or ethnic composition would be.
    As I mentioned, the city of San Diego does something 
comparable to that, too. I think the whole issue in education 
has arisen from concern by parents; when they go to register 
their child, they feel there is not a box there that the child 
fits into. So this might be one way to accommodate that concern 
as well as address the concern about being able to aggregate 
the data into the categories that the Federal agencies need to 
have it.
    Ms. Cantu. Not taking a position either pro or con, but let 
me walk you through the pros and cons that I noted. The pros 
agree that it may assist in more reporting, because people will 
be able to check all the boxes. You get closer to accuracy, 
because you will get more responses. It may also help with 
keeping longitudinal data, because it will help you cross-walk 
it to earlier responses.
    The cons are, as far as civil rights enforcement, we will 
need a designation. Are they white or black; are they Asian or 
white? We will need a designation in order to be able to tell 
if we're making progress with the Civil Rights Act, and 
checking all the boxes may not give us that information that we 
need to measure progress.
    And we would need to study that phenomenon. We would need 
to study ``multiracial'' as a group, because we hear in our 
office from individuals, several times a month, that they 
believe they are discriminated against because they are 
multiracial. One keen example was in the South where the high 
school principal would not allow biracial couples to come to a 
prom. And a young woman who was the product of a biracial 
marriage said, ``What about me? I can't come at all?'' She was 
very offended by that principal's decision. So we would need to 
collect information on that.
    Mrs. Maloney. Mr. Ungar and Ms. Cantu, in your testimony 
today you highlighted the different ways that different school 
districts in America are compiling information on race and 
ethnicity, and it is very different. Even within one State, 
it's compiled in a very different way. So, therefore, it's not 
reliable, and I would think, statistically, it's probably not 
dependable in many ways.
    Why doesn't the Department of Education issue guidelines to 
school districts on how to do self-identification or 
observation, or issue guidelines to help make the responses 
uniform and therefore more usable in our country?
    Ms. Cantu. I'm speaking for our office. If we can 
supplement with other parts of the department, I will be happy 
to do that. But we're trying to meet several interests here. 
We're trying to, one, preserve students' privacy, because there 
is a Federal student privacy act. So we don't want to single a 
child out and say, ``You answered this incorrectly,'' or 
``We're going to follow you up and somehow hound you until we 
get the right answer from you.'' So we're meeting the interest 
of student privacy.
    We also do believe the data is reliable, because we sample 
large enough groups. For example, our elementary and secondary 
survey samples one-third of the student population every 2 
years, so at the end of 6 years we will have gotten a full 
universe. And that's a big sample, considering how large the 
student population is in this country. So that's quite 
reliable.
    We are trying to meet the interest of civil rights, too, in 
that perception matters. How a student is viewed by his 
teachers or her administrators counts here. So a student may 
come in with a self-concept that ``I am biracial, half white, 
half black,'' but the teacher treats her as if she were black, 
and puts her at the back of the class, and gives her a watered 
down curriculum compared to her white peers. So it matters, and 
so we're trying to serve that interest, too, of collecting 
perception data, as well.
    Mrs. Maloney. Would you care to comment, Mr. Ungar, because 
you did touch quite in depth on the disparity of this data?
    Mr. Ungar. Yes, Mrs. Maloney. I don't know if I can 
comprehensively answer your question. I think it's a little 
tougher in the school situation than it is in the health 
situation to have a standard form, perhaps. I think there are a 
lot of different practices at different schools, in terms of 
how this information is collected.
    I think it might be possible to come up with some standard 
categories and to have subgroupings of those along with the 
multiracial category. To a great extent, I believe that's going 
to depend upon OMB Directive 15, though. I think that the 
States really do take their signals from OMB Directive 15 to a 
great extent. So, I think that the extent to which that is 
changed would basically heavily influence what is done at the 
State level.
    Mrs. Maloney. Many biracial couples have written my office 
expressing the agony that they have in choosing between the 
race description for their child. They are asking Congress and 
OMB to do something about it. I would like to ask each of you, 
if you were sitting in this chair, what would you do about the 
multiracial question, the multiracial category? What is your 
wisdom on this issue?
    Dr. Sondik.
    Mr. Sondik. Well, in some sense, I'm glad I'm not sitting 
in that chair. But in this chair, I look at it from a health 
statistics and, in particular, the chronicling of our social 
fabric and health research points of view. In doing that, what 
I guess I'm most concerned about, based on the fundamental 
notion, that this is a self-reported concept, is that we 
develop trends that are consistent, or that we are able to 
maintain trends.
    One of the areas where we learn the most about our health 
and our social fabric is in looking at these trends and how 
they have changed over time, and understanding the reasons for 
those. So I prize, I guess, and I would consider one of the key 
factors here, consistency, so that in any change that is made, 
that change be made in such a way that we can understand how 
the country has changed over time.
    That could mean a variety of options, and I don't think all 
of the data, if you will, is in yet. That's what OMB is 
currently considering. At this point, I'm not sure that I see 
enough to be able to make a specific choice.
    Mrs. Maloney. You did testify earlier about the need for 
accurate data for the health measurements that you need for 
your research. How would the addition of a multiracial category 
affect the measurements that you are taking for health 
research?
    Mr. Sondik. Well, it really depends on how it's done. If it 
did not allow us to maintain the trends, it would damage our 
efforts. There's no question about it.
    Mrs. Maloney. You say it would damage your efforts?
    Mr. Sondik. If it were done in such a way that we could not 
maintain the trends. For example, we're looking at a particular 
racial group, if you will, and at some point in time we 
couldn't continue to track what happens to that group over 
time, its response to risk factors, its morbidity, its 
mortality. That would be very difficult for us.
    But there are a variety of ways, of course, that this 
proposal could be done that would allow trends to be 
maintained.
    Mrs. Maloney. Mr. Ungar, your wisdom.
    Mr. Ungar. Well, personally, I think I would strongly 
consider the Michigan recommendation and proposal. I believe 
that that is one that the Census Bureau is testing. I don't 
know what those test results are, so I don't know what the 
testing has shown. But in the final analysis, I believe the 
decision will probably be based, at least partly on judgment 
and not totally on objective data.
    Mrs. Maloney. Thank you.
    Ms. Cantu.
    Ms. Cantu. I would try to offer a human response rather 
than a bureaucratic--Well, we have to have statistics, and they 
have to be accurate. The difficulty of this question is here 
because it involves human beings, not just ciphers.
    When they do call our office, we do empathize. We do tell 
them, if it is painful to respond, you are under no obligation 
to respond. There's no penalty for declining to cooperate and 
fill in a box that you don't think is telling the truth.
    We do explain why the information is being collected, that 
it is important for us to measure if the job is done in serving 
all students and helping all students reach their full 
potential. We try to humanize. There is a reason why the 
Federal Government does what it does, not because it's always 
done that way, but because we have a current need for that kind 
of information, and it is presently valuable to the taxpayer.
    Mrs. Maloney. How would a change, with a multiracial 
category, affect the implementation, the monitoring, the 
effectiveness of the Voting Rights Act, the Civil Rights Act, 
and other antidiscrimination laws that we have put in place?
    Ms. Cantu. Not speaking for Department of Justice and other 
Federal agencies like EEOC and U.S. Commission, I do not 
believe you need to change any of the civil rights laws, 
because they have been interpreted by the courts in ways that 
pick up all types of discrimination.
    You mentioned the Lau case, that was a Supreme Court case 
involving Chinese-speaking children. Well, Chinese-speaking is 
not a category within the civil rights laws, but because it is 
a characteristic of national origin, it was picked up under 
coverage by the civil rights laws.
    So I am personally confident that the civil rights laws we 
have in place right now would continue offering protections to 
children, regardless of how we collect data. We have, however, 
testified that there needs to be an orderly process for phase-
in so as not to be disruptive of civil rights monitoring. The 
same need we have is the need that the people who are 
conducting surveys and analysis need to be able to do that 
cross-walk, to connect data to prior historical information.
    I have full confidence in OMB moving forward in that 
orderly way. It's one of their stated principles that they will 
not disrupt current data gathering, and I trust in that.
    Mrs. Maloney. Thank you very much. My time is up.
    Mr. Horn. Well, we thank you very much for that line of 
questioning. That's very helpful. We are going to submit 
additional questions to each of you, and if you don't mind, we 
will put them in the record at this point. We have a number of 
Members here, and we want to start with that panel.
    You have provided some very valuable testimony, each one of 
you, and we appreciate that. There will be maybe 10 or 12 
questions we will send down. Please fill them out, and we will 
put them in the record, without objection, at this point.
    Thank you all for coming.
    Mrs. Maloney. Mr. Chairman.
    Mr. Horn. Yes.
    Mrs. Maloney. Another Member who was supposed to be part of 
this panel unfortunately will not be able to be here, Maxine 
Waters.
    Mr. Horn. That's the coming panel. We are not on this panel 
yet.
    Mrs. Maloney. OK. Please, put it in the record.
    Mr. Horn. We will, eventually. We have two very 
distinguished gentlemen to join us, and possibly some others. 
Mrs. Meek, I believe, is also here. So Mr. Sawyer, Mr. Petri, 
Mrs. Meek, if you would come to the table. We appreciate your 
coming.
    You two are the House of Representatives experts on the 
census, based on your past incarnation. When there was a Post 
Office and Civil Service Committee, you were chairman, Tom, of 
the Census Subcommittee, I believe. So it's a great pleasure to 
have you here. We hope we didn't keep you waiting too long, but 
I assumed you were absorbing the current thinking in this area 
before your own testimony. So we are looking to both of you and 
Mrs. Meek to integrate it for us, and take all the time you 
would like.
    We don't swear in Members. We assume they are telling the 
truth. I did swear all Members till last year's chairman said, 
you might be insulting some of them, because we know once they 
lie to us once, we never listen to them again. So that's the 
punishment around here.
    OK. Mr. Sawyer, since you were the former chairman, and Mr. 
Petri was the former ranking member, why don't we start with 
you, Tom.

STATEMENTS OF HON. THOMAS SAWYER, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF OHIO; HON. THOMAS PETRI, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF WISCONSIN; AND HON. CARRIE P. MEEK, 
     A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Sawyer. Thank you very much, Mr. Chairman.
    Tom and I know what you and Mrs. Maloney are going through. 
Frankly, thank you for undertaking these hearings. The work 
that is embodied here is inevitably more complex than it 
appears on first blush, and important in the lives of millions 
and millions of Americans.
    As you may recall, in 1993, the Subcommittee on Census, 
Statistics, and so forth, held hearings on Directive 15 and 
racial and ethnic data, and I think perhaps the best that I can 
do at this point is to try to recap what we learned at that 
point.
    The ideas that I would like to share with you today, if I 
could, basically fall into the groupings of what categories are 
and what they really are not, the purposes for which the data 
is collected, why race and ethnicity is a difficult matter to 
measure, how it fits with the desire for--and I suspect growing 
desire for--a multiracial category, and how to reconcile those 
important differences.
    First, let me suggest, above and beyond all, that OMB's 
primary consideration in putting together Directive 15 to bring 
about consistency and comparability of data over time is 
important. It is perhaps the single most important element in 
establishing the categories. But in looking at that, I think 
it's also important to understand what the categories are and 
what they are not.
    Clearly, they are not deeply grounded in genetic or 
scientific, anthropological bases. In fact, there is a specific 
disclaimer to that in Directive 15. Nor are they fixed and 
unchanging. As your questions earlier, Mr. Chairman, suggested, 
these categories have ranged widely over time, from a period of 
a time in the 1790's, where they tracked questions of taxation 
and a variety of other measures of humanity, as a Nation, to 
questions of race and color, and then, in this century, 
ultimately, national origin.
    Categories are, in the end, largely culturally determined 
descriptors that reflect societal concerns and perceptions, and 
often the bias of a particular age. Categories, however, at 
least under Directive 15, are not used for determination for 
eligibility for any kind of Federal assistance, and there is a 
specific prohibition against that.
    The example that you raise of where private sector uses may 
be determinants of eligibility, for example, for scholarships 
is a consideration, but perhaps ought not to define what we are 
doing with Directive 15 and with Federal categories. Rather, as 
you have heard today, the Federal Government collects data for 
three main purposes: to enforce law, the Civil Rights Act of 
1964 and the Voting Rights Act of 1973 being primary among 
them; to measure differential outcomes throughout society, in 
terms of incidence of disease and better health statistics, 
life expectancy, assimilation of immigrants, residential and 
economic segregation, educational attainment, and a variety of 
other important measures. And maintaining continuity and 
comparability from one decade to the next becomes important to 
Governments on all levels, for purposes of policymaking, and in 
the private sector for targeting investment.
    There is another reason, and that is to measure and 
understand change itself, which may be, in fact, the 
fundamental characteristic of our age. It is a key component of 
that kind of change to recognize that people's view of 
themselves is changing. It's one of the things that leads me to 
my third point, and that is why race and ethnicity is 
difficult.
    That kind of accounting is hard because it is imprecise in 
its character and highly subjective. OMB categories have sought 
to achieve a variety of goals that the categories that they use 
be discrete, that they be few in number, that they be easy to 
use, that is to say, convenient, that they are broadly 
understood and yield a consistent response.
    In doing that, you raised the question earlier of the 
Hispanic question and how that question itself might migrate 
and evolve over time, but, clearly, that's not the kind of 
broad-based change that we are talking about when we are 
talking about multiracial questions.
    There are a number of different dimensions, though, when we 
ask the question about the multiracial, multiethnic category. 
You mentioned one: who makes the identification? Directive 15 
allows for a self- or observer-made identification.
    In the census, over 60 percent of the households returned a 
completed form, but in most cases, only one person in that 
household made that identification, and that identification may 
vary, particularly from one generation to the next. Having 
consistency within that identification becomes very difficult.
    It is even more difficult when you recognize that the 
remainder of those identifications may be made by an external 
observer, outside the household. We're not even talking about 
hospital personnel or school personnel; we're talking about the 
census itself. We're talking about asking at the door or asking 
a neighbor, or sometimes doing what is loosely referred to as 
``curbstoning,'' where you just take the best guess that you 
can.
    It is important that we try to recognize that precision may 
not be possible, but that accuracy is diminished if we have too 
many categories or that they not have a shared understanding.
    Let me just mention one that has been in the news recently 
a great deal. Tiger Woods is a gentleman of diverse background. 
And I'm not going to suggest that we or I or any of us ought to 
suggest how he might answer a particular question, but rather 
only to recognize that his parents might have answered the 
question for him differently, that an outside observer might 
answer a question differently, and that he, himself, might have 
answered the question differently this year, 10 years ago, or 
10 years before that.
    Trying to develop consistency, continuity, in longitudinal 
terms, is very important. In the end, I guess it comes down to 
this: that the concept of multiracial is not easily or 
uniformly understood, and therefore is unlikely to yield a 
consistent response in current terms.
    If we were to add a multiracial category, the question 
becomes, how far back would we draw the baseline? Would we ask 
individuals to trace their roots from the beginning of the 
Nation, from the end of the Civil War, the turn of the century, 
World War II, last year, 2000? I don't know the answer to that 
question, but it's a dimension that we all need to recognize, 
because the desire for self-identification, as real and as 
human as it is, has changed over time and must be weighed 
against ensuring the usefulness of data for enforcing law and 
making policy.
    It is important to recognize that we are changing in ways 
that are not easy to measure or define, but that that change 
may be one of the most important characteristics of our age. To 
that end, I would strongly recommend that, first of all, as 
much as possible, we not try to make this decision by a show of 
hands on the floor of the House of Representatives, that you 
have a number of very scholarly people who have worked on this 
and tested these measurements for some time, and I hope that we 
can rely on them.
    I would hope, second, that we would be able to use the 2000 
census itself, perhaps in the long form, to explore ways to 
measure change, to enable tracking of the way in which we 
define ourselves in racial and ethnic terms and in multiracial 
terms. To do this without disruption of continuity or 
comparability, and that we recognize that we, as a Nation, are 
on the edge of becoming sometwhether hing that may not have 
existed before.
    You asked the question about other industrial nations. I 
have spoken with the demographic bureaucrats of the former 
Soviet Union, which may be the only other nation on earth that 
has had the ethnic and traditional concepts of racial mix that 
the United States has had. But they were different in many 
ways, and perhaps the most fundamental of those is that they 
were not evolving and changing as rapidly as we are.
    We may be becoming, in real terms, the world's first 
transethnic, transracial nation. It has gone beyond the 
limitations of region and geography, and found that what we 
heard reported about the genetic content of humanity really is 
true, that there are only fine gradations among the more than 5 
billion of us.
    You have undertaken an important question, Mr. Chairman, 
one that will affect policy and practice for the next decade. I 
look forward to working with you in trying to resolve the 
dilemmas.
    [The prepared statement of Hon. Thomas Sawyer follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.170
    
    [GRAPHIC] [TIFF OMITTED] 45174.171
    
    [GRAPHIC] [TIFF OMITTED] 45174.172
    
    [GRAPHIC] [TIFF OMITTED] 45174.173
    
    [GRAPHIC] [TIFF OMITTED] 45174.174
    
    Mr. Horn. Well, we appreciate that.
    Now I am glad to lead with your partner in the once 
Subcommittee on the Census, of Post Office and Civil Service 
Committee, Mr. Petri of Wisconsin.
    Welcome, Tom.
    Mr. Petri. Thank you, Mr. Chairman. I am delighted to be 
here again.
    The only change that I really notice between appearing last 
year on some of these questions before your subcommittee and 
this year, is that Representative Meek is no longer sitting up 
on the platform to your right, but is here to my left 
testifying. I am delighted that she is continuing to be active, 
even though she has ascended to the appropriators' group in the 
Congress.
    As you mentioned, I first became interested in the issue of 
the racial classification question on the census and other 
Government forms, and specifically the lack of a category by 
which people of mixed race ancestry can adequately define 
themselves, when I was ranking minority member on the Census 
Subcommittee of the old Post Office and Civil Service 
Committee, that was so ably chaired by my colleague from Ohio, 
Tom Sawyer.
    As our committee reviewed the results of the 1990 census 
and heard from many points of view on its merits and defects, I 
felt that the lack of a multiracial category was an oversight 
which should not be repeated in the 2000 census. This may seem 
to be a small matter to some, but if you think about it, one of 
the great sources of strength in our country is the melding of 
many great cultures and traditions from around the world into 
one. As each of us can take pride in being an American, we can 
also take pride in our own ancestral heritage and its 
contribution to American society. When we exclude an entire 
category of people on a Government form such as the census, we 
are denying these people recognition of their unique place in 
society.
    Here we have an official form of the U.S. Government 
telling them that they don't quite fit in. In the case of 
multiracial individuals, we are asking them to choose between 
one part of their heritage and another, between one parent and 
the other, or possibly between four different grandparents. 
When Tiger Woods fills out his census form, why should he have 
to choose between his African-American father and Asian-
American mother? I am sure he is proud of both parents and both 
heritages. The current categories force him to deny half of his 
heritage.
    This principle is not dependent on the size of the group in 
question, and I would support including a multiracial category 
regardless of the number of people involved. But I do think 
it's worth noting that this group, which is not recognized as a 
distinct category, is, in fact, growing by leaps and bounds.
    Interracial marriages doubled in the 1960's and tripled in 
the 1970's. By 1990, the Census Bureau counted 1.5 million 
interracial couples. Naturally, with more interracial couples, 
we have more interracial offspring. Whereas there were less 
than a half million children of interracial couples in 1970, 
there are believed to be over 2 million today. This may be 
small, as a percentage of the entire population, but it is 
obviously a significant number of people.
    I don't think the choice of ``Other'' is an acceptable 
option. These individuals don't think of themselves as an 
``Other,'' and it suggests some type of second-class 
citizenship, almost an afterthought, in the population.
    Some have suggested allowing people to check more than one 
category if they are multiracial. While this comes a bit closer 
to addressing the issue, I think it would be problematic, 
myself. The statistics generated from this question on the 
census form are used in all types of research and assist public 
policymakers. These statistics will not be reliable if the 
categories add up to more than 100 percent.
    For example, when developing social policy, we might want 
to know how those people living in poverty are divided along 
racial lines, or when considering health policy, we may want to 
know if a given disease has a disparate effect on one race or 
another. If the percentages of the races add up to more than 
100 percent, it will cause confusion, and policymakers will not 
get a clear picture of the problem at hand.
    Since I introduced my bill in the last Congress to require 
the inclusion of the multiracial category, which has been 
reintroduced in this Congress as H.R. 830, I have had the 
opportunity to work with a number of organizations and 
individuals in the multiracial community.
    As I understand it, the subcommittee is planning on another 
hearing next month, and at that hearing you will hear testimony 
from some of the individuals who are active in these 
organizations. You will be hearing from some very sincere and 
dedicated people to whom this is a crucial issue. It's about 
full recognition as an integral part of the American tapestry, 
the melting pot, that makes our Nation unique in the world.
    Thank you very much for allowing me the opportunity to make 
this statement, Mr. Chairman.
    [The prepared statement of Hon. Thomas Petri follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.175
    
    [GRAPHIC] [TIFF OMITTED] 45174.176
    
    Mr. Horn. Well, we thank you very much. Have you put in 
your bill in this Congress yet?
    Mr. Petri. H.R. 830, and we are thinking of renaming it the 
``Tiger Woods Appreciation and Recognition Act.'' In any event, 
we would invite people's review and co-sponsorship.
    Mr. Horn. Mr. Davis, the gentleman from Illinois, do you 
have any questions you would like to ask the panel? I want to 
get to Mrs. Meek. I want to make sure, before you have to 
leave, are you OK? Can we wait?
    Mr. Davis of Illinois. I can wait, but I do have a 
question.
    Mr. Horn. OK. Our last witness this morning, Ms. Waters, 
cannot make it. Without objection, her testimony will go in the 
record at this point.
    [The prepared statement of Hon. Maxine Waters follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.177
    
    [GRAPHIC] [TIFF OMITTED] 45174.178
    
    Mr. Horn. We are delighted, Mrs. Meek, the gentlewoman from 
Florida, is here with us. Please proceed.
    Mrs. Meek. Chairman Horn, thanks for giving me the 
privilege of being here today.
    I am glad to be here with two of my colleagues who have 
helped me, over the years since I've been here, with this 
question of the census. If I am not well educated, part of it 
is their fault. I served with you, Mr. Chairman, last session, 
in the 104th Congress, on the Government Reform Committee, in 
which I had strong interest in the census.
    I have some personal experiences with both sides of this 
issue. I have a son-in-law who is Japanese, and I have a 
granddaughter who is in a similar situation to that of Tiger 
Woods: one parent of one race, and the other parent of another 
race. I can understand the difficulty that will force these 
children to choose between parents when responding to a census 
question, but I want to remind you that that census question 
will not occur until 3 years from now, and it is extremely 
important that we realize that. As it is at this point, I have 
two things I want to bring before the subcommittee.
    On the other hand, I grew up in a very strongly segregated 
part of the country, and I went to graduate school in the State 
of Michigan, paid for by the State of Florida, because I could 
not go to any graduate school in Florida because of my race. 
They had graduate schools, but because of my race, I could not 
attend them.
    I know that Congress has passed several civil rights laws 
to try to end this horrible legacy of slavery, which we still 
face, and it was because of one of these laws, the Voting 
Rights Act, that I and two other Members of this Congress are 
here today, and perhaps more from other States, other southern 
States. But I know there are three of us from Florida that 
would not be here if it weren't for that.
    These same civil rights laws which the Congress has passed 
protect other racial groups. While they may not be the 
descendants of slaves, they have suffered and still suffer from 
discrimination. These civil rights laws can act as Congress 
intended only with accurate and consistent information.
    I was glad to hear the former testimony regarding the 
slowness that this process should take. I also heard my other 
colleague say that, the Congress needs more information in 
order to make an informed decision on this. I commend OMB for 
its careful process. It has solicited comments, just as you are 
doing. It has held public hearings, such as you are doing. It 
has commissioned research. Administrator Katzen has testified 
today that OMB will publish its preliminary conclusions in July 
1997 and its final conclusions in October 1997.
    I applaud what this subcommittee is looking at, Mr. 
Chairman. It's going to take some time and some deliberation. I 
want to point out a few reasons why I think that the current 
OMB directive is a sound one. I would recommend that we remain 
within the confines of the OMB decision, and I want to tell you 
why.
    Multiracial categories apply only to the children of 
interracial marriages. They do not apply to the grandchildren 
or great-grandchildren of these interracial marriages. For 
example, the child of a black father and a white mother would 
be multiracial by what we want to see on the census. But if 
their child were to marry another multiracial child, the 
grandchildren would be considered black and not multiracial. So 
a child with two black grandfathers and two black grandmothers 
would be a black child, probably not a multiracial child.
    I understand how Tiger Woods and the rest of them feel, but 
no matter how they feel from a personal standpoint, we're 
thinking about the census and reporting accuracy, so that 
Government and other agencies can make accurate decisions. 
Because historical discrimination has been against persons that 
have been assigned to a single racial category, there is really 
no history. More than likely, the racial categories that these 
records of discrimination have been applied to were black.
    There's no court or any legislative or legal record of 
discrimination against multiracials. So it's going to be, 
perhaps, prohibitive for multiracials to get the advantage of 
the discrimination which black citizens of this country have 
faced. Without such a record of discrimination, courts will 
have a hard time claiming discrimination against multiracials.
    This young man in golf would have a difficult time today, 
Mr. Chairman, claiming discrimination, because there is no 
legal record in the courts that will back him up with any 
claim. There's no history toward that. From a personal point of 
view, I think he is absolutely right. Further, as the category 
is presently drafted, any history of discrimination against 
multiracials will be moot after one generation, if I am correct 
in my assumption. Multiracial categories will make it difficult 
for Government agencies and civil rights organizations to track 
ongoing civil rights violations.
    Individuals like Mr. Woods, who designate themselves as 
multiracial on the census form, will not thereby reduce by any 
amount the discrimination they face. I'm sure Mr. Woods has 
recognized that by the statements that were recently made at 
the Master's tournament about him. So there is no way you will 
have a chance to do this. Usually, the amount of discrimination 
a person feels, and would perhaps want to followup on it, is 
based on appearance and not on racial classification.
    The multiracial category will just make it more difficult 
to identify where discrimination has taken place and where it 
has not taken place, because it will cloud census counts of 
discrete minorities who have been restricted to certain 
neighborhoods and, as a consequence, to certain schools. It 
will cloud the census count of these discrete minorities who 
are assigned to lower tracks in public schools, and you know 
that they are. It will cloud the census count of discrete 
minorities kept out of certain occupations or whose progress 
toward seniority or promotion had been skewed. The list goes on 
and on, Mr. Chairman, to include civil rights reporting in the 
arenas of lending practices and the provision of health 
services, and beyond.
    Census data is used in all levels of Government, so the 
impact would be at the State and local levels, as well. 
Further, the proposals which are now being offered would change 
not only the census but all Federal programs reporting and 
statistical activities requiring data on race and ethnicity. 
Thus, the negative impact on the ability to track ongoing civil 
rights violations would be greatly magnified.
    Last, Mr. Chairman, multiracial categories will reduce the 
level of political representation for minorities. It is 
unlikely that majority/minority districts will be created for 
multiracials, especially given the lack of recorded 
discrimination against them, within the meaning of the Civil 
Rights Act. I think it would have a negative impact on that 
act.
    As pointed out by the coalition of groups opposed to the 
proposed modification of OMB Directive 15, in 1994, the 
experience of other nations with multiracial categories, such 
as Brazil and South Africa, has been that such categories 
increase rather than decrease social stratification and 
stigmatization on the basis of race.
    So I think, Mr. Chairman, in summary, that my 
recommendation is that we stick with the position as taken by 
the coalition of groups opposed to this modification and make 
very slow changes in Directive 15, because, otherwise, our 
records on civil rights will certainly not be helped by this.
    Thank you.
    [The prepared statement of Hon. Carrie P. Meek follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.179
    
    [GRAPHIC] [TIFF OMITTED] 45174.180
    
    [GRAPHIC] [TIFF OMITTED] 45174.181
    
    [GRAPHIC] [TIFF OMITTED] 45174.182
    
    [GRAPHIC] [TIFF OMITTED] 45174.183
    
    [GRAPHIC] [TIFF OMITTED] 45174.184
    
    [GRAPHIC] [TIFF OMITTED] 45174.185
    
    Mr. Horn. We thank you for your testimony.
    Now, the gentleman from Illinois, Mr. Davis, 5 minutes.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Let me appreciate the testimony of all three of my 
colleagues. Let me also apologize for not having been present 
when Representative Sawyer was testifying, but I have had an 
opportunity to scan through your testimony.
    My question is, if we move to multiracial categories--and, 
of course, all three of the Members could, in fact, respond--is 
there a scenario that we could see where individuals would be 
counted twice, or maybe three times, once in the multiracial 
grouping, and then a split-off of the other groups of which 
they are a part? So the question becomes, would we view that as 
any kind of possibility, especially given the fact that OMB has 
suggested that the purpose of looking at this is to be able to 
use it as a management tool, as a way of being accurate, in 
terms of knowing who we are and where we came from?
    Mr. Sawyer. I can go first. Your question goes directly to 
my conclusion. My belief is that it is important to sustain the 
continuity of the existing categories, perhaps as they evolve, 
in small ways, to make sure that they are better administered. 
The Hispanic category is a good example of that, where the 
order of the question and the way in which it is asked can make 
a substantial difference in the kind of response.
    But that notwithstanding, the numbers can, as you suggest, 
continue to be aggregated in the form in which they provide 
comparability from one decade to the next. But it is also true, 
as you suggest, that the way we understand who we are is 
changing, as well. This is not something that ought to surprise 
us.
    Just to name a few, we have measured race and ethnicity for 
questions of free versus slave, questions of color and race, 
for purposes of taxation, for purposes of keeping track of 
migrant populations and non-Western European immigration. All 
of these things have been of interest at various times in the 
200 years of our national history.
    Today, as we become a more blended population, 
understanding how that blend is taking place and how we 
perceive ourselves in that blend is, I think, an important 
characteristic that we ought to begin to measure. But we 
shouldn't confuse the two. Keeping the management tool, as you 
suggest, on one hand, and maintaining the ability to understand 
how we are changing, on the other, I think can both be done 
within the census and yield valuable information for all of us 
as a Nation.
    Mrs. Meek. May I address that, Mr. Chairman?
    Mr. Horn. Why don't we just go down the line.
    Mrs. Meek. Go ahead, Mr. Petri. He's trying to yield to me, 
but I'm not accepting it.
    Mr. Petri. I actually covered this in my prepared 
statement, when I indicated that I think it would be good if we 
could. It's a good question.
    Some have said, well, why not just let people check more 
than one category? I think that is an option, but the 
difficulty there is that, when they start running it through, 
you end up with more than 100 percent, and that could lead to 
some confusion. So I think, for some purposes, it might make 
more sense, for the long form or other ways of doing the data, 
to try to break down that category for analysis purposes.
    But from the point of view of the individual citizen who is 
being asked to fill this form out, to give them the feeling 
either that somehow they are not fully American, and therefore 
they are in some other category, psychologically, I think is a 
mistake. Also, to try to force them to accept or to associate 
with one parent or with the other parent, really is putting 
kids and families in a very difficult position. They don't want 
that. That's not the way they think of themselves. They think 
of themselves as multiracial.
    We are talking about several millions of people, and a 
rapidly growing number, in our country. If this is to be a 
snapshot of America, there is someone standing over there who 
is not in the picture right now, and we would like to include 
him or her in the next census' snapshot.
    Mr. Horn. Mrs. Meek.
    Mrs. Meek. Yes, Mr. Chairman.
    To my colleague, Mr. Davis, I recognize and empathize with 
everyone's individual right to be identified with whatever 
ethnic or racial name that they choose. But I think the 
question here is, should the census create a new mixed race 
category? And I would say, naturally, no, because that 
particular category is so vague that, 90 percent of the people 
filling out the census, it would take them all day to determine 
how many categories they are in and how to fill out the census 
figure.
    As I said before, it would weaken the Voting Rights Act, 
and I would be the last person to ask for that. There would be 
no commonality in this category. For example, let's say if an 
Asian and a Hispanic have a child, is that child of mixed 
ancestry? Yes. If a black and a white have a child, is that 
child mixed? The answer is yes. But does the black and white 
child share the same race as that Asian-Hispanic child? Clearly 
not. So you can see the confusion and the lack of commonality 
in separating, in terms of our census.
    Mr. Davis of Illinois. I raised that question a little bit 
earlier, in terms of the differences in mixes, and I certainly 
agree with you.
    If I could, Mr. Chairman, I would like to ask one 
additional question.
    Mr. Horn. Sure.
    Mr. Davis of Illinois. I associate myself most directly 
with the testimony of Representative Meek.
    I would like to ask if we could respond to some of the 
fears that were raised in her testimony, relative to the 
diminution or dilution of voting rights strength on the part of 
some minority groups, the inability to really track and make 
use of the data to effectively enforce components of civil 
rights legislation, and the whole business of looking at the 
question of who is disadvantaged and where, and the question of 
where individuals live as a factor that needs to be considered 
when we look at the whole question of entitlement opportunities 
as a result of race and ethnicity.
    Mr. Sawyer. I can begin.
    I have argued, since the hearings that we had in 1993, as a 
product of the lessons that we learned in 1990, that the 
categories are important for precisely the reasons that you 
suggest, that they need to be discrete, few in number, easy to 
use, broadly understood, and yield consistent responses, no 
matter who may be answering the question, whether you are 
answering the question about yourself or about another member 
of your family, of your generation or another, or whether, in 
fact, it is an outside observer responding to the question.
    The reasons are that it becomes extremely difficult to 
enforce the laws of this Nation guaranteeing protection against 
discrimination, and it becomes incredibly difficult for those 
who track other kinds of outcomes, health status, life 
expectancy, assimilation, and as you suggest, residential and 
economic segregation, not only in terms of formal civil and 
voting rights. The ability to enforce the fundamental 
guarantees of equal protection under the laws of this Nation is 
grounded in the ability to do aggregate measures of the Nation, 
not for the purpose of individual identity, as important as 
that may be to individual Americans, but for the purposes of 
guaranteeing aggregate rights for all of us, so that we all 
have equal protection under the law.
    Having said that, I identify that portion of what I'm 
saying entirely with Mrs. Meek's testimony. I also believe, 
however, that one of the critical characteristics of change 
that is going on in the country right now is in terms of the 
blur that is becoming traditional racial and ethnic 
determinations.
    In that sense, I believe that the census becomes a vehicle 
that can be used, particularly if we focus on the long form 
side, in measuring the characteristic of that change. If you 
keep the two separate, as your first question implied, then you 
can do both without destroying either, and, in fact, perhaps 
illuminating both in ways that we have never done before.
    Mr. Horn. Does the gentleman have any other questions?
    Mr. Davis of Illinois. Do you have a response?
    Mr. Petri. I can make a little stab at it. I think that I 
understand the concern that somehow having this category might 
make it more difficult to enforce civil rights laws and 
protections for particular elements of the community, but I 
also think that it is important to recognize that, while we 
have not made uniform progress, we have made considerable 
progress in this area. What we don't want to do is freeze 
ourselves in time, and because we've made progress, try to deny 
it and maintain rigid categories, regardless of the progress 
that has been made, because it advantages certain organization 
officials, or bureaucrats, or other people who were hired to 
get us moving down this road.
    In other words, we don't want to freeze us in time or deny 
it if we are making progress. I think the fact that these 
statistics exist and that people are trying to move beyond some 
of these stereotypes is actually a plus, not a minus. While we 
shouldn't try to gloss it over or say there aren't a lot of 
problems--there still are--we ought to try also to accommodate 
progress when we make it.
    This census broadening is in response to a legitimate 
concern of real people, and I think the fact that it is being 
discussed is a sign of progress. Whether we are at the point 
where we want to move to this step or not, whether we should do 
it through legislative action, or the Census Bureau should just 
recognize the growing number of people who would like this 
category and make this change, is an interesting question and 
something that you all will be pursuing.
    I am very happy, I should conclude by saying, that they are 
taking this very seriously. They have been doing surveys. They 
are having professionals review it. And I think, according to 
the kind of criteria that they traditionally use as they review 
census questions and revise them, they might well decide this 
is an appropriate step. They still have a little while to make 
that decision, and I know you will be monitoring as it moves 
forward.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mrs. Meek. I just want to say, I appreciate Mr. Petri's 
approach to this, and I agree with him that there should be 
some consideration for the people he is mentioning, for all of 
them. I wish we were living in an America where we did not have 
to focus on race. But I don't see anything changing that much, 
even in the next 10 years, in this country.
    As I look at it, race seems to be one of the most important 
references in this country. And I must agree with Mr. Sawyer 
that unless that is considered, if we mesh them all in a 
multiracial category, you will find out they get so enmeshed 
that there will not be any consideration for those groups of 
people who have not historically received equal rights under 
the law.
    It would require, I think, a whole new effort by Congress, 
over and over, to level the playing field, so that everyone in 
this country could be treated equally. I think this is going to 
be a hard thing to do, Mr. Chairman. If the Census Bureau goes 
to using these kinds of data, in terms of multiracial identify, 
it's going to be very, very difficult, if not impossible. There 
will be a lot of confused people, a lot of confused agencies, 
as well.
    I understand this thing of the melting pot, but we are not 
looking at that in all of our considerations. We are not 
looking at there are a lot of multiracials in this country. 
Other people are coming from other countries; they are mixing 
in with people in our country. That's true. But why should we 
consider it just for the census, when it has not become an 
overall consideration?
    So I plead to the subcommittee, and to people who will come 
forward, to think of that. If you begin to take away what the 
Voting Rights Act has given us, take away what this wonderful 
Congress has given this country in trying to equalize civil 
rights, it will be very difficult. If you remember, that came 
up with Plessy v. Ferguson. Those of us who have been around a 
long time, we can understand and remember those cases and what 
they mean.
    So I think that everything I've heard here today is very 
positive, Mr. Chairman, and it calls for deliberative kinds of 
actions. Thank you.
    Mr. Davis of Illinois. Thank you again, Mr. Chairman, very 
much.
    I would like to thank the panel for some very thoughtful 
responses and very serious testimony. I certainly would agree 
with those who suggest that we've made progress in this area of 
blending and melting. Actually, we've come a long, long way. 
But I'm also reminded of a song that we often sing at the 
church I attend, when we're trying to get to heaven, and that 
is that we're still a long way from yonder shore.
    So we've got to keep pressing on. We've got to keep moving 
ahead. And I think, as we move a little further, then I think I 
will have a different level of comfort that this will turn out 
to be positive and not negative. And certainly, I thank you 
very much.
    Mr. Horn. Mr. Petri, would you like any final word on this?
    Mr. Petri. No.
    Mr. Horn. Let me just suggest that this is simply the first 
of at least three hearings, and that one should not assume any 
action will be taken by this subcommittee based on what 
witnesses say or Members say from the dais. We are going to 
look at this very thoroughly. We would hope that the Office of 
Management and Budget, and the Census Bureau look at this very 
thoroughly, and that no door is closed.
    I think what we want is an accurate census that does 
reflect the diversity of this country. There are a lot of ways 
to get at that and to solve these problems, from both 
perspectives. Socioeconomic class still remains a major factor 
in this country, in terms of discrimination. It's not just 
racial discrimination; it's not just ethnic discrimination. 
Having spent, I think, 25 years of my life on these issues, 
I've seen all the arguments, and they are held very closely by 
many.
    But we do need the data to carry out some laws that we have 
on the books, and we also need to have data accurately reflect 
the nature of the demographics of this society, which is 
certainly a multicultural, multiracial, and multi-anything you 
want to put at the other end of the hyphen.
    So, without objection, I am going to include Maxine Waters' 
testimony. She wanted to be here very much this morning and 
couldn't make it. It will be put as part of this panel.
    As I suggest, today's hearing was the first of our 
subcommittee's review of the important issue. Our next session 
will be on May 22, where we will receive testimony from both 
individuals and representatives of professional groups in this 
area, advocacy groups, interest groups, and so on, and we will 
also have some of those groups, newer ones, at the last session 
that we hold a little later, perhaps, in June.
    Once OMB has acted on this, we will take a look at what 
they have done. We will again have, perhaps, them and the 
Census Bureau to testify on how they came to whatever 
conclusion they came to.
    In closing this hearing, I want to thank the staff that 
prepared it. On my left, your right, is J. Russell George, the 
staff director and counsel for the Government Management, 
Information, and Technology Subcommittee, who has had a large 
responsibility in this hearing; Joan McEnery, right back here, 
who shortly will be leaving us for the U.S. Senate, otherwise 
known as ``the other body,'' professional staff member; John 
Hynes, professional staff member, next to her, for the 
majority; and Andrea Miller, the clerk, next to Mr. Hynes, for 
the majority.
    On the minority side, working on this hearing were David 
McMillen, professional staff member; Mark Stephenson, 
professional staff member; Ellen Rayner, chief clerk for the 
minority; and Jean Gosa, clerk for the minority.
    And our faithful court reporter, Charlie Smith.
    We are going to have the hearing record left open for 2 
weeks, if anybody would like to submit anything. We have a 
series of questions we have sent to OMB, Census, and the 
relevant agencies.
    So thank you very much for coming.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]


  FEDERAL MEASURES OF RACE AND ETHNICITY AND THE IMPLICATIONS FOR THE 
                              2000 CENSUS

                              ----------                              


                         THURSDAY, MAY 22, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee), presiding.
    Present: Representatives Horn, Sessions, Sununu, Maloney, 
and Davis of Illinois.
    Also present: Representative Norton.
    Staff present: J. Russell George, staff director and 
counsel; John Hynes, professional staff member; Andrea Miller, 
clerk; David McMillen, minority professional staff member; and 
Ellen Rayner, minority chief clerk.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order.
    This is the second in a series of hearings on the topic of 
how the Federal Government classifies the people of this 
country according to race and ethnicity. We can all agree that 
this issue is both complex and important. It is a public policy 
issue, yet it is also a personal identity issue.
    Currently, the government classifies people according to 
five categories of race and ethnicity. The race categories are 
black, white, Asian or Pacific Islander, and American Indian or 
Alaska Native. The ethnic category is Hispanic. The question is 
whether these categories are adequate to measure our society 
today and into the coming decades.
    The race and ethnic classifications under the Office of 
Management and Budget's Directive No. 15 are vital to the 
implementation of numerous Federal laws and regulations. Data 
on race and ethnicity are required by Federal statutes covering 
issues such as voting rights, lending practices, provision of 
health services, and employment practices, among others. The 
data are also utilized by State and local governments for 
legislative redistricting and compliance with the Voting Rights 
Act of 1965, as amended.
    For several years now, there has been an organized movement 
of individuals who argue that the current categories are not 
complete, because people with multiracial backgrounds cannot 
fit into one of these five categories as required on various 
Federal forms. Their argument has recently received a dramatic 
and inspiring illustration, Master's champion Tiger Woods.
    Where, people are asking, does Tiger Woods fit on the map 
of race in America? Some argue that existing categories need to 
be redrawn to give multiracial individuals one of their own. 
Others say there is no coherent racial identity that could be 
called multiracial. The only effect, say opponents, would be to 
diminish the importance of race in analyzing the fairness with 
which Government benefits and services are delivered.
    Is it possible to reach a compromise that satisfies both 
public policy and individual desire? Perhaps we will get an 
answer today. In order to do so, we will need to be very clear 
about the issues involved. We are joined by some of the 
preeminent experts on this issue.
    As chairman of this subcommittee, I would like to touch 
briefly on one fundamental issue. The five categories of race 
and ethnicity in question were established on Federal forms for 
the purpose of remedying the wrongs of past and present 
discrimination. Data gathered according to these categories are 
required by a variety of Federal statutes, most of which were 
required by the civil rights movement of the 1960's and 1970's.
    Our discussion today must begin with the question of why we 
gather data on race and ethnicity. There is no hope for 
agreeing on the issue of what data we should gather unless we 
can agree on the purposes for which the data will be used. I 
hope our witnesses today will address this fundamental 
question: Is the chief purpose of measuring race and ethnicity 
to help specific racial and ethnic groups receive equitable 
treatment in our society?
    If the witnesses should answer no to this question, it is 
incumbent upon them to explain their alternative view of the 
primary purpose for utilization of these data. If witnesses 
answer yes to this question, then they must explain how their 
proposals for the current categories fit that purpose.
    Our first panel will consist of Senator Daniel Akaka of 
Hawaii. He is a long time advocate for Native Hawaiians. We are 
very pleased to welcome him here today.
    The second panel will feature Harold McDougall, the 
Washington bureau director of the NAACP; and Eric Rodriguez, 
who is a policy analyst at the National Counsel of La Raza. 
These two organizations bring highly respected voices to this 
discussion.
    Also on the second panel are Susan Graham, president of 
Project RACE, Reclassify All Children Equally, and her son Ryan 
Graham who is multiracial. They appeared before Congress in 
1993 to testify on behalf of a multiracial category, and since 
that time have been very active as multiracial advocates at the 
State and local level as well as the Federal level.
    The third panel consists of Ramona Douglas, who serves as 
president of the Association for Multiethnic Americans; Helen 
Samhan, the executive vice president of the Arab-American 
Institute; Jacinta Ma, who is staff attorney at the National 
Asian Pacific American Legal Consortium; and JoAnn Chase, 
executive director of the National Congress of American Indians 
will round out that panel, along with Nathan Douglas, who is a 
member of the Interracial Family Circle and a parent of a 
multiracial child.
    Our fourth panel features three scholars with strong 
backgrounds on issues of demographics, race, and ethnicity. 
Mary Waters is a professor of sociology at Harvard University. 
Dr. Harold Hodgkinson is director of the Center for Demographic 
Policy at the Institute for Educational Leadership and Dr. 
Balint Vazonyi is the director of the Center for American 
Founding at the Potomac Foundation.
    We welcome all our witnesses today, and look forward to 
their testimony.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.186
    
    [GRAPHIC] [TIFF OMITTED] 45174.187
    
    Mr. Horn. I will now yield to the ranking Democrat at this 
point, Mr. Davis of Illinois, who is prepared to make some 
opening remarks.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Let me also welcome the panelists and I thank you for the 
opportunity to make a few brief comments.
    I understand that today's hearing is to focus on the 
possible change of Directive 15, which specifies the 
definitions of race and ethnicity for legal, administrative, 
and statistical purposes, since OMB will decide this summer 
whether or not to change the definitions of race used by the 
Federal Government.
    I feel that it should be noted that the possible change of 
this policy has many implications to it, in that Directive 15 
is used throughout the Government in policymaking, and is key 
to implementing numerous Federal laws.
    Since this issue first began to gain public attention, we 
have heard from a number of groups, organizations, individuals, 
and agencies. They have raised questions that if we get into 
multiracial identity, then how would this effect the protection 
of voting rights laws, reapportionment, civil rights laws, 
lending practices, employment practices, et cetera.
    I realize the personal nature of today's topic, and also 
acknowledge the desire of those of multiracial heritage to be 
able to fully express themselves. But I also need to convey my 
worries about the adverse effects that the multiracial category 
may imbue.
    Since census information is used for civil rights 
enforcement and policy purposes, and given that we the Federal 
Government do not currently have a method for ensuring accurate 
collection and analysis of results in a multiracial category, I 
am generally opposed to this issue being addressed in the 
Census 2000. It is too soon I think to implement.
    Until a process to collect meaningful, accurate, or 
specific racial and ethnic data that remedies past, current, 
and/or even present future discrimination is in place, I feel 
that the multiracial category could jeopardize the civil rights 
or many minorities as well as may provide inconsistent and 
damaging effects on overall racial counts.
    I have concerns as to how the fusion of race and ethnicity 
would challenge the ability to administer and enforce civil 
rights laws against discrimination. I understand that a 
multiracial category may make sense for the first generation. 
But when you begin to look at it long term and those 
multiracial children marry others, their children are then 
classified as multiracial, and it could go on and on.
    I welcome the opportunity to discuss these matters, and 
look forward to hearing the opinions of the experts. I trust 
that after all is said and done that more will be said than 
done. And that we will end up with a system that accurately 
reflects the status of minority groups in this country, the 
problems that we have faced, and possible remedies to correct 
those past ills, and then move ahead.
    And I thank you very much.
    [The prepared statement of Hon. Danny K. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.188
    
    [GRAPHIC] [TIFF OMITTED] 45174.189
    
    Mr. Horn. I thank the gentleman.
    And I now recognize the gentleman from New Hampshire, Mr. 
Sununu, for an opening statement.
    Mr. Sununu. I thank you, Mr. Chairman. I have only a few 
brief remarks. Principally to thank you and the subcommittee 
for putting together a hearing on this extremely important 
issue.
    Americans are very proud of our reputation as a melting pot 
country, where people of many faiths, backgrounds, and 
different cultural heritages come together. But even as those 
different cultures and ethnicities blend together, we continue 
and should continue to celebrate the cultural heritage that 
makes us unique. It is a celebration that strengthens our 
families and our communities. And that makes us ultimately 
stronger as a Nation.
    I believe that we need to maintain a system within the 
census that enables us to understand who we are as a country, 
what the variety of backgrounds and heritages are that make up 
the United States of America, the citizens of the United 
States. I think that it is of great value to have this type of 
a hearing which enables us to better understand the value and 
the importance to maintain just such a system.
    I want to welcome all of the panelists that we are going to 
have, especially the Senator who has taken his valuable time to 
be with us today. And all of the members of the different 
organizations that represent their membership so ably.
    Particularly, Helen Samhan from the Arab-American 
Institute. As a Member of Congress of Arab-American descent, I 
know the fine work that she and the AAI has done, not just on 
behalf of their constituents, but on behalf of all of the 
different groups that have been fighting for fair treatment, 
fair recognition, and the elimination of discriminations for 
years and years.
    So again, Mr. Chairman, thank you for bringing the panel 
together today, and for the work that the committee has done on 
this issue.
    Mr. Horn. I thank the gentleman and I now yield to the 
ranking Democrat on the subcommittee, Mrs. Maloney of New York, 
for an opening statement.
    Mrs. Maloney. Thank you very much, Mr. Chairman.
    We are here today because 200 years ago black slaves were 
counted as three-fifths of a person. We are here today because 
100 years ago, a black male in Mississippi could not buy a one 
way train ticket and could not buy a round trip ticket without 
a note from his employer. We are here today because last 
weekend a church in Northeast Washington was painted with 
swastikas.
    This is not just an arcane statistical issue. This is the 
measurement of race in this country, and the measurement of 
race in this country is a story of discrimination, 
discrimination all too often condoned by the Government.
    It has been less than 50 years since the Supreme Court 
ruled that separate is not equal. It has been only 30 years 
since our country was torn apart by riots caused by hate and 
discrimination. Over the last 2 years, we have seen an 
unprecedented number of black churches burned to the ground.
    Racial hatred and discrimination is as alive today as it 
ever was and it is against this backdrop that we must have this 
discussion.
    The interracial couples who have brought the measurement of 
race to national prominence are to be praised for their effort. 
We all know that the lens that the Government puts on issues 
shapes the way that all of us see it. All too often, however, 
we simply cannot accept that lens as accurate. Their efforts 
have forced us to reexamine the lens we put on measuring race, 
and we are discovering just how pitted and scratched that lens 
is.
    We cannot deny the history of discrimination or its 
presence in our society today. Neither can we deny the progress 
our society has made that is symbolized by the interracial 
couples testifying before us today. Well into this century, 
States had laws on the books that made interracial marriages 
illegal.
    The pain caused by forcing the children of an interracial 
couple to choose between a mother's race and a father's race is 
very real. So is the pain caused by discrimination. A solution 
that eases one pain while making the other worse is no solution 
at all.
    I would like each of you today to help us in answering two 
questions that will be placed before us. First, do the 
categories as they are constituted today continue to serve the 
intended purpose of helping the Government to fight 
discrimination? Second, how can we achieve that goal and 
simultaneously provide individuals with the opportunity to 
identify themselves in a way that they are most comfortable? If 
we can answer these two questions, we will have made 
significant progress in how we define race and ethnicity.
    I thank the chairman, my colleagues, and all that are here; 
particularly the Senator, and the couples.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] 45174.190

[GRAPHIC] [TIFF OMITTED] 45174.191

    Mr. Horn. I now yield time for an opening statement to a 
guest of the subcommittee, and an active member of the full 
committee, the distinguished delegate from the District of 
Columbia, Eleanor Holmes Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to sit in on this hearing as a member of the 
full committee.
    I come here in part as a former chair of the Equal 
Employment Opportunity Commission, whose work was not only to 
enforce the laws against discrimination, but to collect 
statistics that would enable us to enforce the laws against 
discrimination. I have come to say that that was a very 
difficult task. And I hope that we can find a way to satisfy 
the concerns raised here, while keeping in mind the official 
purposes that racial statistics serve.
    I have no difficulty with clarifying Directive 15. I 
believe that we must find a way to satisfy the concerns of 
those who want to recognize the particular heritage of both 
their parents. That concern is very sensitive, and has to be 
felt very deeply.
    But, Mr. Chairman, that is largely a personal concern, and 
one that deserves our response. But it is very important not to 
mix personal concerns with the official business of the 
Government. There may be a way to allow people even on census 
forms to satisfy that personal concern without making it 
impossible for the Government to enforce the laws against 
discrimination.
    My view is that we must work to satisfy both those 
concerns, and I want to indicate some of the reasons why. In 
this country, since overthrowing racial discrimination, we have 
allowed people to self-identify themselves and I have to say 
that I think it is important that people self-identify 
themselves. But once we say that you can self-identify yourself 
and the categories or some revision of them as we have known 
them no longer exists, I have not yet heard how they can be 
counted. And that is what I want to hear.
    Once we can all identify ourselves any which way we want 
to, then I want to know who in fact should and who should not 
be counted when we are enforcing laws that allow affirmative 
action.
    That is very difficult as it is. The questions that are 
raised are deep. Some people feel just as deeply, not only 
about their parents, but their grandparents. No, I am not Irish 
and American Indian as to my parents, but my grandmother was, 
and I want to claim her.
    What should the Government say? I tell you one thing I 
oppose. I oppose the Government going behind that category to 
find out what you really are. Because then we really have 
brought the South African regime to the United States of 
America.
    If you are claiming a category that qualifies you for some 
Government benefit, you bet your bottom dollar that somebody is 
going to want to find out whether you are legitimately claiming 
that category.
    The civil rights laws have become very difficult to 
enforce. I am certainly not for making them more difficult, 
because of a personal concern that I regard as entirely 
legitimate, but I am for trying to find a way to recognize 
legitimacy of that claim. And I would do so even on the census 
forms, as long as we do not get ourselves into trying to find 
out who is really what and who is really what not.
    But let me indicate another concern that I have. I must be 
very old. Because the America that I come from is an America 
where these differences found their way into the culture in the 
most painful ways. Where at one point, blacks thought they 
might mitigate the effect of being black by claiming something 
else in their heritage. ``Oh, I am black, but I am also 
American Indian. I have got an Italian great grandmother.'' Oh, 
it was so pitiful.
    About the only thing that American racism did for us is 
saying no, you are one or the other. Let us look at societies 
where that is not the case. South Africa, and the Caribbean. 
Visit those places. And we have in triplicate what we had 
duplicate there. Go to Haiti. Go to Jamaica. Go to Brazil.
    If you go there, you will find the blacks, those are the 
darkies. There are those who have escaped being black, because 
they can now claim something else, and then they are whites. 
The only thing worse than what we have in America is that.
    I am going to tell you that I have official reasons, 
because I think that the census has to be the census, and 
cannot satisfy each and every one of us in our personal 
concerns. I have concerns as a former enforcer of the laws. And 
I have concerns about polarization in the United States of 
America. I have never seen it more polarized.
    As a youngster in the civil rights movement, there were 
blacks and there were whites, and there was more communication 
along racial lines than there is anywhere in America today.
    Race relations are as much a problem in the United States 
of America as racism is. And when we go to sub-categories and 
we have got Asian, and black, and Hispanic, and Irish, it will 
go on ad infinitum. The reason that it will go on ad infinitum 
is because this glorious country has freely taken in people of 
every race and ethnicity.
    So I sit here as a light skin black woman and I sit here to 
tell you that I am black. That people who are my color in this 
country will always be treated as black. And calling yourself a 
multiethnic will get people walking down the street to say you 
a multiethnic, so I do not regard you as like those blacks that 
I see on television that steal from people or who murder 
people, you are multiethnic.
    We have got to join together, people of color. We who are 
Asian, and who are Hispanic. We who are black have got to say 
look, we are people of color, and we are readily identified. 
Any discrimination against one of us is discrimination against 
another. If you want to know my heritage, I am going to tell 
you what it is, because I am proud of my mama, and I am proud 
of my daddy, but I will identify with people of color.
    If you do not do that, you are right now creating a 
different America. There are going to be whole groups of people 
who are going to drop out of the black race. That is how 
pitiful it is going to be, if we go to these various 
categories. People who do not have any immediate heritage of 
black and Hispanic, they are going to drop out.
    And there is nothing that we can do about it, because I am 
going to get you if you try to go behind them and find out who 
they are. Because then you are into a regime and into a country 
that I do not want to be a part of. You are going to be 
whatever you say you are, which means that we will have no 
statistics.
    To satisfy the concerns who are multiethnic, I say put 
another category on the census form. Let them satisfy 
themselves that way without further complicating race in this 
country.
    Thank you, Mr. Chairman.
    Mr. Horn. We thank you.
    And we now will call on our first witness. Senator Akaka 
has a vote that he has to get to in about a half hour. So we 
hope that we can get every bit of wisdom out of you in that 
time period. The Senate takes forever to end a roll call, so I 
think you are safe. Welcome.

  STATEMENT OF HON. DANIEL K. AKAKA, A U.S. SENATOR FROM THE 
                        STATE OF HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman.
    I am delighted to be here, and I am pleased to be here to 
testify about Office of Management and Budget Directive No. 15, 
an important guideline governing racial and ethnic data 
collection by Federal agencies.
    I must say, Mr. Chairman, your leadership in convening this 
hearing is to be commended, particularly since OMB is expected 
to make a decision in the fall on Directive 15.
    Mr. Chairman, once again, I continue to strongly advocate 
that the Federal Government rectify a longstanding 
misperception that Native Hawaiians are not indigenous peoples.
    In the 1993 congressional and 1994 OMB meetings, I proposed 
to reclassify Native Hawaiians in the same category as American 
Indians and Alaska Natives, rather than the Asian or Pacific 
Islander category.
    After viewing the April 23 hearing record, which your 
subcommittee held on this subject matter, I am further 
convinced that Federal officials have yet to recognize the 
gross disparities of Native Hawaiian statistics in the Asian or 
Pacific Islander category.
    Mr. Chairman, I am deeply concerned about two main 
arguments against my proposal. First, it is argued by Federal 
officials that my proposal would likely disrupt their ability 
to monitor trends or skew the statistics in the affected 
populations. I find such statements baffling and misguided.
    Any disruption of either the Asian or Pacific Islander, or 
the American Indian or Alaska Native category is negligible 
compared to the benefits which Federal officials would accrue 
in being able to fairly assess the Native Hawaiian community.
    Between 1980 and 1990, the Native Hawaiian population 
increased by 22.4 percent, compared to the American Indian or 
Alaska Native population, which increased by 37.9 percent. The 
aggregate Asian or Pacific Islander population by contrast 
doubled in size between 1980 and 1990, just as it did between 
1970 and 1980.
    As a result, the Native Hawaiian percentage of the Asian or 
Pacific Islander category decreased from 4.6 percent in 1980 to 
only 2.9 percent in 1990. If Native Hawaiians were added to the 
American Indian or Alaska Native category for the 1990 census 
purposes, they would have comprised 9.7 percent of the 
category.
    I believe that this is fairer for statistical purposes, and 
because the aggregate demographics of the American Indian or 
Alaska Native population more closely match the Native Hawaiian 
population. If one simply looks at health statistics, for 
example, Native Hawaiians are more comparable to American 
Indians and Alaska Natives rather than the healthier Asian 
populations in infant mortality, cancer, and life expectancy 
rates.
    A 1987 Office and Technology and Assessment Report found 
that Native Hawaiians had a death rate 34 percent higher than 
the death rate for all other races in the United States. One 
alarming statistic was the death rate for diabetes. Native 
Hawaiians die from diabetes at a rate 222 percent higher than 
for all other races in the United States.
    If you look at other Federal statistics like immigration, 
you might wonder what use the current Asian or Pacific Islander 
category serves Federal officials when it comes to Native 
Hawaiians. According to the 1990 census, over 63 percent of the 
aggregate Asian or Pacific Islander population were foreign-
born. This means that this category is largely comprised of 
individuals who have immigrated to the United States. 
Comparatively, only 1.3 percent of Native Hawaiians were 
foreign-born.
    The 1990 census also revealed that over 63 percent of the 
Asian or Pacific Islander population speak an Asian or Pacific 
Islander language at home, compared to 7.7 percent of Native 
Hawaiians. In education, 37 percent of the total Asian or 
Pacific Islander population over the age of 25 had completed 
college, compared to 12 percent of Native Hawaiians and 9.3 
percent of American Indians or Alaska Natives. I implore 
Federal officials to explain to me how these aggregate social 
and economic trends are fair to Native Hawaiians.
    Mr. Chairman, the second concern raised about my proposal 
is that it would adversely impact Federal programs for American 
Indians and Alaska Natives. OMB Directive No. 15 specifically 
states that the directive should not be viewed as determinants 
of eligibility for participation in any Federal program.
    It should also be emphasized that the majority of Federal 
programs established for the benefit of American Indians and 
Alaska Natives, particularly the Bureau of Indian Affairs and 
the Indian Health Service, are based on a trust relationship 
between the Federal Government and federally recognized 
American Indian tribes.
    My proposal, Mr. Chairman, does not, and I repeat does not, 
affect the Government to Government relationship which exists 
between federally recognized American Indian tribes and Alaska 
Natives and the Federal Government. It also does not affect the 
political status of Native Hawaiians. That is something that 
we, as Native Hawaiians, will resolve through the legislative 
process.
    Let me make this clear, Mr. Chairman. OMB Directive No. 15 
cannot grant Federal recognition to Native Hawaiians. Federal 
recognition can only be granted through the Bureau of Indian 
Affairs' recognition process, treaties, Presidential Executive 
orders, statutes, and case law.
    While Native Hawaiians are culturally Polynesian, we are 
descendents of the aboriginal people who occupied and exercised 
sovereignty in the area that now constitutes the State of 
Hawaii. Like the varying cultures among the hundreds of 
American Indian tribes and Alaska Native groups, Native 
Hawaiians also have a unique political and historical 
relationship with the United States. Our current classification 
by the Federal Government denies us our identity as indigenous 
peoples.
    In closing, Mr. Chairman, I simply urge that when Congress 
and the appropriate Federal agencies prepare for the 2000 
census, any proposed changes to OMB Directive No. 15 should be 
based on the merits of the relevant issues, not political 
expediency and popularity contests. There is no one in the 
Federal Government who can deny that Native Hawaiians are 
native peoples of the State of Hawaii. It is high time that 
Native Hawaiians be properly classified.
    My proposal, Mr. Chairman, recommends that the following 
changes be made under Directive 15. One is definitions. The 
category of American Indian or Alaska Native in paragraph 1(a) 
should be changed to American Indian, Alaska Native, or Native 
Hawaiian. And be defined as, ``A person having origins in any 
of the original peoples of North America or the Hawaiian 
Islands, and who maintain cultural identification through 
tribal affiliation or community recognition.''
    Two, utilization for recordkeeping and reporting. The 
category of American Indian or Alaska Native in paragraph 2(a) 
of the directive for minimum designations for race and 
ethnicity should be changed to ``American Indian, Alaska Native 
or Native Hawaiian.''
    That is the extent of my proposal. Mr. Chairman, I thank 
you very much for giving me the opportunity to testify before 
you and this subcommittee on this very important issue. Thank 
you very much.
    [The prepared statement of Hon. Daniel K. Akaka follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.192
    
    [GRAPHIC] [TIFF OMITTED] 45174.193
    
    [GRAPHIC] [TIFF OMITTED] 45174.194
    
    [GRAPHIC] [TIFF OMITTED] 45174.195
    
    [GRAPHIC] [TIFF OMITTED] 45174.196
    
    Mr. Horn. Do you have time for a few questions, Senator; or 
do you need to get back right now?
    Senator Akaka. I have a vote at 3.
    Mr. Horn. At 3:00?
    Senator Akaka. Yes.
    Mr. Horn. If I could just ask you a couple of questions on 
Native Hawaiian issues, to get it straight for the record. When 
I was vice chairman of the U.S. Commission on Civil Rights, we 
took a look at the situation in Hawaii. And I can certainly 
share your concern about the bad treatment that has been given 
a lot of Native Hawaiians in terms of access to land and so 
forth.
    What, roughly, is the percent of the total population in 
the State of Hawaii reflected by so-called Native Hawaiians, 
what are we talking about?
    Senator Akaka. Well, right now, that would be about 20 
percent.
    Mr. Horn. And if they were categorized as Native American 
or Alaskan, that group that you want to join, would the 
benefits increase in various Government programs that are not 
now triggered because Native Hawaiians are not in the Native 
American category. What impact would that have on Federal 
programs?
    Senator Akaka. I would tell you that at the present time 
that Hawaiians have not been eligible for some programs.
    Mr. Horn. Has anyone done a study in the Federal Government 
that has analyzed this to the degree that that change of moving 
from Native Hawaiian to Native American would increase Federal 
benefits?
    Senator Akaka. Yes. There has been a study done by CRS. At 
this point in time, I do not know the findings.
    Mr. Horn. Well, we will ask staff to followup on that, and 
do a bibliographic search as well as get the Congressional 
Research Service. And if we can, if it is not 8,000 pages, we 
will put it into the record at this point, if it is 20, 30, 40 
or whatever. I think that we need to get a better feel for 
that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.197
    
    [GRAPHIC] [TIFF OMITTED] 45174.198
    
    [GRAPHIC] [TIFF OMITTED] 45174.199
    
    [GRAPHIC] [TIFF OMITTED] 45174.200
    
    [GRAPHIC] [TIFF OMITTED] 45174.201
    
    [GRAPHIC] [TIFF OMITTED] 45174.202
    
    [GRAPHIC] [TIFF OMITTED] 45174.203
    
    [GRAPHIC] [TIFF OMITTED] 45174.204
    
    [GRAPHIC] [TIFF OMITTED] 45174.205
    
    [GRAPHIC] [TIFF OMITTED] 45174.206
    
    Mr. Horn. Is there any anthropological evidence that the 
Native Hawaiians came perhaps the same route as the Native 
Americans? Most of the Native Americans' origin is over the 
Bering Straits into Canada. You find Antibasti--I think it is 
in Canada--is similar to Navaho in Arizona. And, of course, you 
know that great reservation goes into three States, and is the 
size of the State of West Virginia.
    And you certainly have a similar situation on how the 
Native Hawaiian population is spread out, or are they 
concentrated more on one island than another?
    Senator Akaka. They are spread over all of the islands. And 
to answer your question, they did come to Hawaii. As you know, 
the Hawaiian Islands are volcanic islands. They erupted from 
the bottom of the sea. But the Hawaiians did migrate there, and 
were the first people there, and they became the indigenous 
people of the Hawaiian Islands, and are part of the Polynesian 
race.
    Mr. Horn. You have been working on this subject for a long 
time.
    Have you discussed this with the people at the Census 
Bureau and the Office of Management and Budget, the Chief 
Statistician of the United States? What kind of comments have 
you received from those discussions?
    Senator Akaka. Well, the reception has been negative.
    Mr. Horn. But is there an intellectual reason behind why 
they think that?
    Senator Akaka. Yes. I would say that part of the reason was 
because of the chaos that might come in changing the forms. And 
in that particular case, we are not changing the forms. We are 
just adding the Native Hawaiians to the Native American 
category.
    Mr. Horn. Right. They could do it with a rubber stamp, and 
they would not have to destroy their forms.
    My last question is on what they call them the Pequots in 
Connecticut. Go to the westward expansion corridor of the U.S. 
Capitol that opened at the time of the 200th anniversary of 
laying the cornerstone. The Pequots are very prominent in the 
1500's, 1600's, and 1700's. Presumably, they had diminished, as 
you know. And a gentleman who recalled the stories of his 
mother put the tribe back together, and got billions of dollars 
and thousands of acres from the State of Connecticut. And they 
now have the largest casino in the world.
    Under law and the Constitution, if we made the Native 
Hawaiians into Native Americans, would they gain any 
constitutional status in their law claims against the United 
States?
    Senator Akaka. Right now, there are some claims that the 
Hawaiians do have. As you know, Hawaii has gone through six 
different governmental structures, one of which was the 
monarchy. And, of course, the royal family and the monarchy 
owned most of the land. But the history is that such land 
claims are only ceded lands.
    And by the 1959 statehood document that was signed as we 
became a State, those lands were set aside. To that extent, the 
Hawaiians have some bearing in the State of Hawaii.
    Mr. Horn. I now yield to the ranking Democrat on the 
subcommittee, Mrs. Maloney of New York.
    Mrs. Maloney. Thank you. You have covered all of my 
questions.
    Mr. Horn. Mr. Davis of Illinois.
    Mr. Davis of Illinois. I have one question.
    Senator, you indicated that OMB suggested that if they were 
to change the designation that it would cause chaos with the 
forms, is that correct?
    Senator Akaka. That is correct. Meaning that to change the 
forms would have caused many problems in their process of 
taking the census. And what I am saying is that we are not 
changing the form, but we are just adding. The categories are 
there. They are very hesitant, as you know, about revising the 
forms at all for the census. And this is part of the reason why 
they try very hard not to bring any changes about.
    Mr. Davis of Illinois. Do you know what their position 
might be with reference to the chaos that would be created by 
adding multiracial? That would seem to be an alteration of the 
form as well.
    Senator Akaka. I would not know what it would be. Except 
that I would say at this time that we would not be in that 
category of causing any changes or bringing about chaos. But 
originally, and I proposed this, that was one of the reasons 
that they were against it.
    Mr. Davis of Illinois. Let me just say that I agree with 
your logic in terms of the designation of Native Hawaiians. I 
think that the same logic exists for Native Americans. I mean 
indigenous people are indigenous. If Hawaii is a part of the 
United States of America, then the people who are indigenous to 
Hawaii are indigenous to the United States of America.
    Mr. Horn. We thank you. There are no more questions I see 
from the panel. We appreciate you taking the time. We know that 
you have a busy day trying to deal with some of the legislation 
that we have sent in your direction.
    Senator Akaka. Thank you very much, Mr. Chairman. And I 
wish you well, you and the subcommittee.
    Mr. Horn. I appreciate it.
    Will panel II come forward. Ryan Graham, Susan Graham, 
Harold McDougall, and Eric Rodriguez.
    We have a tradition in this subcommittee of swearing in all 
witnesses, since it is an investigative committee, except for 
Members of the Senate and Members of the House. So if you will 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Horn. All four witnesses have affirmed, the clerk will 
note. And we will now go by the order that is noted on the 
program. We will begin with Susan Graham, the president of 
Project RACE. Welcome to you and your son. So please proceed.
    I might add that since most of you have not testified 
before that your full statement is automatically placed in the 
record without objection by anybody. So if you would like to 
summarize your statement--most of us stayed up late last night 
reading it--there will be more time for questions. Do not read 
it to us. We have read it.

   STATEMENTS OF SUSAN GRAHAM, PRESIDENT, PROJECT RACE; RYAN 
 GRAHAM, PROJECT RACE; HAROLD McDOUGALL, DIRECTOR, WASHINGTON 
  BUREAU, NAACP; AND ERIC RODRIGUEZ, POLICY ANALYST, NATIONAL 
                       COUNCIL OF LA RAZA

    Ms. Graham. Mr. Chairman and members of the subcommittee, I 
am very pleased to be with you today representing the national 
membership of Project RACE.
    I testified before the former Subcommittee on Census, 
Statistics, and Postal Personnel in 1993. Much has happened to 
the multiracial classification since that time. Five more 
States and many individual school districts have added the 
multiracial classification. Testing has been completed by the 
Census Bureau.
    CNN, ABC, NBC, CBS, FOX, NPR, AP, Time magazine, USA Today, 
the Washington Post, the New York Times, and it seems every 
newspaper and radio station across the country have carried 
stories and debates on the multiracial question. And Tiger 
Woods won the Master's and proudly claimed all of his heritage.
    Members of Congress know that as any issue gets more and 
more attention, as people take sides, as personal feelings get 
intertwined with facts, stories emerge and become truths in the 
public's minds. It is more important than ever in any issue to 
keep our perspective at such a time and separate myth from 
reality.
    The reality is that not all Americans fit neatly into one 
little box. The reality is that multiracial children who wish 
to embrace all of their heritage should be allowed to do so. 
They should not be put in the position of denying one of their 
parents to satisfy arbitrary Government requirements.
    The reality is that seven States now officially recognize 
multiracial children. They are Ohio, Illinois, Georgia, 
Michigan, Indiana, Florida, and North Carolina. Other 
individual districts across the country have taken the step to 
include a category for multiracial children, including the 
Fairfax County, Virginia schools. This shows that people want 
the right to designate themselves or their children as 
multiracial. None of the States, State agencies, school 
districts, parents, or children have reported any problems with 
utilizing the multiracial classification.
    The National ACT test adopted the multiracial category. 
High school students complained that they felt discriminated 
against when one of the very first questions they were asked on 
this important test was one they could not answer, because 
their combination of races was not there.
    I am not a statistician or a demographer. It would be a 
very big myth to say I am. We decided to look at the actual 
enrollment figures from Fulton County, GA, because it was the 
first county in the country to add the multiracial 
classification. We looked at the data for 6 years, from 1991 to 
1997, to see how many students actually use the category, and 
to see if numbers dramatically decreased from any other racial 
or ethnic category.
    I set out to find a statistician to analyze the data. A 
curious thing happened on the way to reality. Each statistician 
said, ``Tell me what you want to prove.'' I would say, ``Just 
honestly tell me what the figures prove.'' They would laugh and 
say, ``We can prove anything you want to prove.'' I did not 
throw out the data, but I did throw out the statisticians.
    Attachment A shows the enrollment figures for the school 
district of almost 60,000 students. The multiracial category 
was added in the 1992-1993 school year. In the current 1996-
1997 school year, 835 students are checking multiracial in the 
race category. That is 1.39 percent of the total student 
population. The black, white, Asian, and Native American 
populations have stayed pretty constant, with fluctuations so 
small as to be insignificant. The Hispanic population has 
steadily increased.
    There are 835 real, actual children who consider themselves 
to be multiracial in the school population of almost 60,000 
students. There are 835 real, actual children, not government 
projections, not ``what ifs,'' not a number someone dreamed up. 
There are 835 real, actual children between the ages of 5 and 
17, who only want to embrace all of their heritage.
    There is a pervasive myth of massive defection from other 
racial categories into the multiracial category. There are 835 
children in 60,000, 1.39 percent of the total number of 
students. These very real figures dispel that myth. The reality 
is that 1.39 percent is pretty close to between 1.0 and 2 
percent found by the National Content Survey, which states that 
less than 2 percent of respondents nationally might select a 
multiracial category when it is offered. The reality is that 
1.39 percent is pretty close to 1.5 percent who identified as 
multiracial in the report by the Bureau of Labor Statistics.
    There also seems to be a concern that the addition of a 
multiracial classification will suddenly cause all of the past 
statistical data in America to become useless. If we want 
accurate data, we need to count people accurately. The addition 
of a Hispanic classification on the 1980 U.S. census did not 
render past data meaningless. Census categories have been added 
and taken away since the inception of the census, and never 
once did they have to throw out all of the historical data. To 
say that the multiracial classification would suddenly wreck 
havoc with the data is a myth.
    Attachment B outlines the many, many different ways the 
Census Bureau has classified multiracial individuals. It 
explains why my children are classified as white on the U.S. 
census. It is actually pretty interesting reading.
    What do we want? The myth is that on a Federal level that 
we want only the term multiracial and nothing more. The reality 
is when we testified in 1993, we suggested a format for Federal 
purposes that instructed a multiracial person to also choose 
their racial combinations from a list of categories listed 
underneath the multiracial category.
    When we answered the OMB's Federal Register notice in 1995, 
we asked for the same type of configuration. Although these 
models yield the most accurate data, we have been told by the 
OMB and the Census Bureau that they take up too much real 
estate on the forms. We have also been told that multiethnic 
definitely would not be considered.
    So do we scrap the whole idea? Absolutely not. The 
multiracial community is sensitive to the concerns of all 
communities. After all, we belong to all communities. The 
question of a multiracial category has been studied for over 20 
years, most extensively in the past 4 years. Much time and 
money has been put into research. If it is not done now, it 
will be brought up again for every census. We will not go away.
    It is time for all communities, including the multiracial 
community, to compromise as we go into the year 2000. There is 
no better time to begin to reflect the true and accurate 
heritage of all Americans.
    Our model for OMB Statistical Directive 15 is attached as 
Attachment C. It would be similarly adapted for the census or 
at any time the ethnic and racial categories are separated, 
with Hispanic placed under ethnicity and would state under 
race: ``Check one. If you consider yourself to be biracial or 
multiracial, check as many as apply.'' Numbers would be 
allocated accordingly. It adds only 14 small words. It is 
concise. It is clear. It is precise. It is accurate, and would 
yield results that could be easily coded and tabulated. In 
short, it works.
    What we do not want. We would prefer to have a category of 
biracial or multiracial, again with the ability to designate 
races because we recognize the need for this information at the 
Federal level. We do not want multiracial with blank spaces to 
fill in races, because that leaves too much room for error and 
confusion. We do not want to be known as other or some other 
race. We totally reject any question which allows a multiracial 
person to specify multiracial, but then asks us to write in the 
race we most identify with. It is an invalid question, and an 
insult to the multiracial community.
    Would this change be costly? No. States, schools, 
businesses, and the U.S. Government constantly change their 
forms. Data cells are added all of the time. Tax changes, new 
health care plans, new area codes, name changes for racial 
groups, et cetera are all changes we expect and absorb. Why 
would the multiracial classification be any different?
    The reality is that the century update to the year 2000 
will be far more costly than adding another racial category. In 
fact, it is the perfect time to make such changes. The myth is 
that party lines must be drawn on this issue. This is a 
bipartisan issue. This is a children's issue. This is a civil 
rights issue.
    Three Republican Governors have signed multiracial 
legislation into law: Governor Voinovich of Ohio, Governor 
Engler of Michigan, and Governor Edgar of Illinois. Two 
Democratic Governors have also signed our legislation: Governor 
Miller of Georgia, and Governor Bayh of Indiana. The Democratic 
Governors of North Carolina and Florida have been fully 
supportive of the administration addition of a multiracial 
designation in their States. The Republican and Democratic 
lawmakers of these seven States feel that no child should be 
forced to deny his or her heritage.
    In remarks made by House Speaker Newt Gingrich on January 
7, 1997, after winning a second term as Speaker, he said, 
``What does race mean when many Americans cannot fill out their 
census forms because they are an amalgam of races?''
    President Clinton was asked about the multiracial 
classification during his speech in Dallas on April 17, 1995. 
He stated that he would not be opposed to a multiracial 
category. And went on to say, ``I think it ought to be done.'' 
We think so, too.
    In conclusion, I think that we need to remember that what 
is right is often forgotten by what is convenient. It would be 
easy to leave things as they are. But it would not be right for 
millions of American multiracial children who feel just as 
proud of all of their racial heritage as does their role model, 
Tiger Woods.
    Thank you for giving me the opportunity to express the 
views of the membership of Project RACE.
    [The prepared statement of Ms. Graham follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.207
    
    [GRAPHIC] [TIFF OMITTED] 45174.208
    
    [GRAPHIC] [TIFF OMITTED] 45174.209
    
    [GRAPHIC] [TIFF OMITTED] 45174.210
    
    [GRAPHIC] [TIFF OMITTED] 45174.211
    
    [GRAPHIC] [TIFF OMITTED] 45174.212
    
    [GRAPHIC] [TIFF OMITTED] 45174.213
    
    [GRAPHIC] [TIFF OMITTED] 45174.214
    
    [GRAPHIC] [TIFF OMITTED] 45174.215
    
    [GRAPHIC] [TIFF OMITTED] 45174.216
    
    [GRAPHIC] [TIFF OMITTED] 45174.217
    
    [GRAPHIC] [TIFF OMITTED] 45174.218
    
    Mr. Horn. We thank you very much.
    We are now delighted to call Mr. Ryan Graham for his 
statement. Welcome.
    Mr. Graham. Thank you.
    My name is Ryan Graham, and I am multiracial. I live in 
Georgia and when I fill out forms, there is always a 
multiracial box for me to check. It was not always that way. 
But when my mom and the parents of other multiracial kids asked 
the Georgia lawmakers to add the multiracial classification, 
they passed it and the Governor signed it. Some of the 
legislators told us later that they voted for it because it was 
the right thing to do.
    Four years ago, when I was 8 years old, my mom and I came 
to Washington to ask the Members of Congress to make it 
possible for the multiracial classification to be on every form 
in the country. We hoped that the Federal Government would also 
think it was the right thing to do. Four years is a long time 
when you are only 12, but here I am again.
    My mom is white, and my dad is black. Most forms force me 
to choose between one of those races. I feel very sad, because 
I cannot choose. I am both.
    Wouldn't you be embarrassed if your classmates laughed at 
you because you went up and said to the teacher, ``I do not 
know what race to mark on my test''?
    One day a kid asked me, ``Are you mixed?'' I said, ``No, I 
am multiracial, big difference.'' He said, ``What is the 
difference?'' I said, ``Puppies are mixed, people are 
multiracial.''
    Some forms include the term ``other,'' but that makes me 
feel like a freak or a space alien. I want a classification 
that describes exactly what I am.
    In Georgia, I have that option. But there are millions of 
kids just like me all over the United States who do not. I 
think those of us who are multiracial should be able to choose 
that classification. I think adults should understand.
    My little sister is waiting for me back in Georgia, to come 
home and tell her that this subcommittee has said yes to the 
multiracial classification. It is not how you see me; it is how 
I see myself that is important.
    I thank you for letting me be here today.
    [The prepared statement of Mr. Graham follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.219
    
    [GRAPHIC] [TIFF OMITTED] 45174.220
    
    Mr. Horn. Well, we thank you for coming. I was just 
wondering if you have the record as the youngest witness, from 
when you testified 4 years ago. I remember trying to testify at 
age 17. And what I got from the ranking minority member at that 
time was a pat on the head, and ``now, now, young man,'' et 
cetera, a brush-off. We are delighted to have your perspective 
here. So keep testifying.
    Mr. Graham. Thank you.
    Mr. Horn. Now we are on No. 3 of the panel, Harold 
McDougall, director of the Washington Bureau of the NAACP.
    Mr. McDougall. Mr. Chairman and members of the 
subcommittee, I am grateful for the opportunity to testify 
before you today on behalf of the NAACP. I am director of the 
Washington Bureau, as you know.
    The NAACP is the Nation's oldest and largest civil rights 
organization, with over 6,000 members in 2,000 branches around 
the country and in five foreign countries. We are committed to 
the protection of the civil, legal, political, economic, and 
human rights of African-Americans and other citizens of color 
here in the United States.
    Mr. Chairman and members of the subcommittee, we have great 
sensitivity to the issue of personal identification and self-
identification. We have always supported the right of self-
determination. As is evident from my statement, we are very 
concerned about the possible impact that a personal choice 
might have on the data. Delegate Norton explained that quite 
well.
    According to the most recently released study by the U.S. 
Census, the field study that was released last week, relatively 
small numbers of African-Americans appear to identify 
themselves as multiracial. The census data indicates that this 
is a phenomenon which is most current in terms of people who 
are presently in interracial marriages or are the products of 
interracial marriages that have just taken place in the last 20 
or 30 years.
    There are figures that indicate that perhaps 70 percent of 
the population of the African-American population is of mixed 
race. African, Native American and European. These mixtures 
took place during slavery and that period immediately after.
    Most of the African-Americans who are of mixed race, are 
the product of marriages before the 1967 Loving v. Virginia 
decision, continue to identify as African-American. The census 
data indicates that of the children of black/white interracial 
marriages that have taken place since the 1960's, about three-
quarters of those children continue to identify themselves as 
black. Only one-quarter of the children who are the products of 
the most recent generation of interracial marriages actually 
identify themselves as multiracial.
    But the study that has been released is still far from a 
full dress census and we have no idea how this might play out 
in decades to come. History demonstrates that the interaction 
between the categories as they appear on this census and the 
self-conceptions of the population, are not static.
    The Hispanic category, for example, first appeared, I 
believe, on the 1960 or 1970 census. And since that time, in 
over two or three censuses for 20 or 30 years, the numbers of 
people who think of themselves as Hispanic has expanded 
dramatically.
    This could have an impact on data. And this is why census 
professionals always take the position that we should be very 
conservative and very cautious about making any changes in the 
way that the census is presented.
    So in terms of the question that Representative Maloney 
asked, would the introduction of new categories possibly have a 
corrupting effect on the data, the NAACP feels emphatically 
that that is a danger. And we counsel caution.
    But again, we are very sensitive to the issues that the 
young man raises. I have a son who looks very much like him, 
but my son identifies very clearly as a person of African 
descent. And we are concerned about the possibility of 
confusion.
    Again, we respect people's rights to make a self-
identification. We just question whether the census is 
necessarily the best place to do that. Most of the data that my 
colleague, Ms. Graham, presented was a function of children 
making decisions in terms of school forms. Indeed, there is a 
difference between a school form and a census form.
    Ms. Norton said that she was concerned about the possible 
impact of fraud in self-identification. How we do determine 
when somebody is black, or white, or multiracial?
    Carol Simpson, who is a Channel 7 news anchor, gave a 
presentation at Howard University about a week ago, where she 
talked about being in South Africa, and being shown a tool that 
the South Africans used to use to determine whether you are 
white, or colored, or black. It is a little tool that they put 
a piece of your hair in. And if your hair is kinky, then it 
does not make any difference what color your skin is, you are 
black. If your hair is straight, it does not make any 
difference what color your skin is, you are white. What Carol 
said to the audience was do you really want to go there, do you 
really want to get involved in those kinds of determinations?
    So again, we are concerned about that.
    We are also concerned, because we think that it is one 
thing to approach questions of discrimination and segregation 
as matters of semantics, as matters of words. We think that 
segregation and discrimination in this country has to be 
battled with deeds, not just with words.
    There was a very compelling editorial by Clifford 
Alexander, the former chair of EEOC and also the Secretary of 
the Army, who made it possible for Colin Powell to advance as a 
general. It is in the Saturday May 17th Post and I would like 
to offer it to be included in the record, if that is possible.
    Mr. Horn. Without objection, it will be inserted at this 
time.
    Mr. McDougall. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.221
    
    Mr. McDougall. I would also like to say that the NAACP's 
role is to protect people. The census data help us do that. One 
of the things that we are concerned about, or that everyone 
should be concerned about, as Ms. Norton said, ``multiracial 
people do not spare themselves social discrimination or 
segregation, because of what they call themselves.''
    The social discrimination and segregation of this society 
is a matter of how you look, not a matter of what you call 
yourself. A very good example of that is an interracial couple 
who were both jailed in New York about a week ago. A Danish 
woman, an actress, and her African-American husband had a 
multiracial child. The child was in a stroller right outside of 
a restaurant. The couple was charged with child abuse and child 
neglect.
    Now I have been on the streets of New York. And I have seen 
people beat their children on the streets of New York and never 
be arrested. These people were arrested for putting their 
stroller outside of the restaurant, a practice which is very 
common in Denmark.
    The upshot of it is that the two of them were put in jail 
for 2 days. The child, a multiracial child--and I have an 
article here with the child's picture--the multiracial child 
was taken from her parents, and placed in foster care for 2 
days.
    The African-American father of the child allegedly was 
beaten by the police. The charges against the Danish mother and 
her multiracial child have been dismissed, and they have been 
sent back to Denmark. The African-American father, however, is 
facing charges.
    That is also detailed in an article called Danish Mother 
Free to Take Child Home, Washington Post, May 17th. I also 
would like to submit this for the record.
    Mr. Horn. Without objection, it will be inserted in the 
record at this point.
    Mr. McDougall. Thank you, sir. And there are copies on the 
table.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.222
    
    Mr. McDougall. Just to finish this up, I want to point out 
that it is what you look like and not what you say you are, 
that determines whether or not you meet social discrimination 
in this country. This is very, very much underlined by the case 
of Plessy v. Ferguson. I believe that Mrs. Maloney might have 
been referring to that when she talked about a black gentleman 
who got a ticket to go to Mississippi.
    Plessy v. Ferguson was a case in which a person of color 
asked to be able to ride in a white car. The Supreme Court of 
the United States upheld the power of Louisiana to assign him 
to a black car. Mr. Plessy was classified by the census as an 
octoroon. He was not black. He was multiracial. Octoroon means 
that if you have eight great-grandparents, that only one of 
them is black.
    Now it was Mr. Plessy's appearance, not what he was called 
in the census, that had to do with the way that his rights were 
treated. We are interested in the struggle against segregation 
and discrimination in this country. We call out to all 
multiracial people who so identify themselves, to join us in 
that struggle.
    Thank you.
    [The prepared statement of Mr. McDougall follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.223
    
    [GRAPHIC] [TIFF OMITTED] 45174.224
    
    [GRAPHIC] [TIFF OMITTED] 45174.225
    
    [GRAPHIC] [TIFF OMITTED] 45174.226
    
    [GRAPHIC] [TIFF OMITTED] 45174.227
    
    [GRAPHIC] [TIFF OMITTED] 45174.228
    
    [GRAPHIC] [TIFF OMITTED] 45174.229
    
    [GRAPHIC] [TIFF OMITTED] 45174.230
    
    [GRAPHIC] [TIFF OMITTED] 45174.231
    
    [GRAPHIC] [TIFF OMITTED] 45174.232
    
    Mr. Horn. We thank you for your testimony.
    We will now turn the podium over to Eric Rodriguez, policy 
analyst, National Council of La Raza.
    Mr. Rodriguez. Thank you, Mr. Chairman, and members of the 
subcommittee.
    In answering the question as to why we care about this 
issue, it is important to underscore what census data under the 
current classifications tell us. For example, these data show 
that Hispanics constitute the second largest minority group in 
the U.S. Currently, more than 1 in 10 Americans is Hispanic.
    Further, these data tell us that Hispanics are two-fifths 
of the U.S. minority population. It is one of the fastest 
growing and youngest population groups, and are expected to 
become the Nation's largest minority by 2005.
    The proposed addition of a multiracial response block on 
the decennial questionnaire resonates with Latinos, a 
multiracial population with origins in European, African, and 
Asian countries. The Hispanic community sustains a multifaceted 
identity, so that Latinos often also identify themselves as 
white, black, Asian, and Native American. This racial and 
cultural diversity is the essence of a Hispanic-American 
culture, and will be increasingly influential as the U.S. 
Latino population continues to grow.
    Yet in spite of this and other relevant issues including 
the legitimate need to count the growth of the number of 
multiracial persons in the United States and the often voiced 
powerfully emotional sentiments of biracial parents and 
multiracial people, the addition of a multiracial option among 
the current racial classifications is not a good idea.
    Rather than improving the accuracy and quality of census 
information, this change would likely create a less than useful 
new identifier and disturb the current classifications, making 
race and ethnic data less than accurate. This is troubling, 
because provisions that threaten the accuracy, quality, and 
utility of the Federal race and ethnic data would likely 
inhibit civil rights and other public policy initiatives that 
rely almost exclusively on such data.
    So why do we think that the multiracial identifier is less 
than useful. The purpose of the census is to provide a 
socioeconomic and demographic snapshot of the U.S. population, 
determine Federal policy and research needs for groups with 
broad common characteristics, and enforce and implement 
statutory rules and laws. The census is not meant to capture or 
express specific individual identity. While issues regarding 
socio-political acknowledgement and identity are quite 
important, census decisions cannot be based on that criterion 
alone. So from a public policy perspective, we know that the 
disparities among Asians, whites, blacks, and Native Americans, 
and Hispanics in such areas of income and employment are clear 
and persistent, making such data collection imperative and 
valuable.
    Multiracial persons, on the other hand, have few and 
perhaps no socioeconomic characteristics, since this category 
would include those of any multirace. Therefore, multiracial 
data collected in this manner would not be terribly informative 
for public administrators and policymakers.
    For example, if we knew that 50 percent of a target 
population were multiracial, how would we respond from a public 
policy perspective? From a civil rights perspective, 
multiracial is neither a race nor a protected class under the 
law. Therefore, the collection of such data does not serve any 
clear statutory purpose. Given that a major driving force 
behind the development of standard classifications is civil 
rights law enforcement and implementation, the utility of 
collecting data on this population in this manner is 
questionable.
    I do not mean to suggest that persons of mixed race do not 
face discrimination in America. I am merely suggesting that the 
collection of data on multiracial persons serves neither a 
public policy or legal purpose at this time.
    So how does the current proposed multiracial category 
reduce the accuracy of census information?
    First, as the U.S. population becomes increasingly bi- or 
multiracial, or as people begin to view themselves as 
multiracial, fewer people are likely to be considered protected 
as they fall into an ambiguous all-encompassing and 
heterogeneous category for which few public policy initiatives, 
civil rights, or otherwise can reach them. This dilution of 
standard racial categories will seriously hinder public policy 
initiatives aimed at serving historically disadvantaged 
communities.
    Second, as proposed, this category is likely to include 
many respondents who are confused about the meanings of race 
and identity. Tests conducted by the Census Bureau show that 
many people misunderstand the meaning of the multiracial 
category. Many respondents confuse race with ethnicity.
    Hispanics are especially likely to find this category 
confusing, since they primarily identify with ethnicity and not 
race. Therefore, a black Cuban is more likely to believe that 
he or she is multiracial when his or her race is black and 
ethnicity is Hispanic.
    As a result, respondents who are not multiracial may 
erroneously select this category effectively reducing the 
accuracy of the census count.
    Consequently, as you continue to undertake the task of 
reviewing Federal race and ethnic data classifications, we hope 
that you will properly gauge the cost and benefits of having a 
heterogeneous identifier that is not an actual race category 
among the current racial categories.
    The principal interest of the Hispanic community is the 
accuracy, quality, and utility of race ethnic census data. 
While concerns regarding self-identity and societal 
acknowledgement resonate with the Latino community, we 
understand that the purpose of the census is both to enforce 
and implement the law, and inform law makers about the distinct 
needs of special historically disadvantaged populations.
    As you proceed, we would like to underscore the following. 
First, quality, accuracy, and usefulness of race and ethnic 
data should be of primary consideration in the design of race 
classifications. Having said that, the addition of a 
multiracial category among standard classifications is not 
recommended.
    Second, the addition of a multiracial category undermines 
prudent public policy, and may inadvertently subvert the 
Nation's ability to ensure the protection of civil rights for 
all groups. The drive for a new census category has on the 
surface been fueled almost exclusively by emotional concerns 
related to identity.
    However, while many proponents of the multiracial option 
sincerely claim that they need the box to validate their 
personal identity, many nonmultiracial persons, particularly 
those who oppose civil rights initiatives to begin with what 
appears to be advancing the multiracial cause. In addition, the 
multiracial cause has begun to resonate with many 
nonmultiracial persons who believe that the very existence of 
racial classifications divides the Nation and exacerbates 
racial tensions.
    The erroneous conclusion that the elimination of such 
racial categories or the creation of a more ambiguous and all-
encompassing classification would ease such tensions is 
dangerous and counterproductive. While the many personal and 
compelling pleas for such a category have overlooked the intent 
and purpose of the census, others appear to be more focused on 
elimination or erosion of current racial classifications, 
precisely because of the intent and purpose of those 
classifications.
    Third, while we oppose this proposed change, under some 
clear circumstances, we may be inclined to support a 
disaggregated multiracial option. Should a multiracial category 
be added to the census in the future, it should not be located 
among the standard classifications; and should only be included 
if it is proven by reliable census testing not to disturb the 
current classifications; and should be disaggregated to provide 
more useful data; and should be proven to improve the accuracy 
of census data. The current proposal is far from this.
    In conclusion, I would like to acknowledge the difficulty 
and sensitivity of this issue. NCLR appreciates the need to 
assure that the census reflect the changing demographics of our 
Nation as it captures the important racial, ethnic, social, and 
economic data that are critical for creating sound public 
policy.
    Nevertheless, we urge the subcommittee to consider 
carefully the concerns outlined above as it proceeds on this 
matter. I would like to underscore that the census is not 
merely a means for personal acknowledgement, and that no group 
prior to this debate has fought for a category simply as a 
means of public acknowledgement.
    Moreover, public policy goals of preventing discrimination 
and poverty, based on accurate data on disadvantaged 
communities, and the fear that the disadvantaged school 
children and communities may no longer receive the protections 
and services that they need should outweigh any concerns or 
needs for personal public acknowledgement.
    Thank you.
    [The prepared statement of Mr. Rodriguez follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.233
    
    [GRAPHIC] [TIFF OMITTED] 45174.234
    
    [GRAPHIC] [TIFF OMITTED] 45174.235
    
    [GRAPHIC] [TIFF OMITTED] 45174.236
    
    [GRAPHIC] [TIFF OMITTED] 45174.237
    
    [GRAPHIC] [TIFF OMITTED] 45174.238
    
    [GRAPHIC] [TIFF OMITTED] 45174.239
    
    Mr. Horn. Well, we thank all of you for your helpful 
testimony. Let me start first with a few questions of Mr. 
McDougall and Mr. Rodriguez.
    Have either one of you ever been involved in the Voting 
Rights Act and its implementation, and the way that one looks 
at discrimination data, to know that it ought to come under the 
Department of Justice who would review any changes in 
registration laws and so forth? Have either of you been 
involved in that kind of analysis?
    Mr. McDougall. I have some familiarity with it, Mr. 
Chairman.
    Mr. Horn. Well, the question that I want to ask based on 
that is: is there an assertion that the multiracial category 
would hinder the implementation of civil rights laws? This 
happens to be one where I was on the drafting term. So I pick 
that one. Your opponents disagree with that assertion.
    And I guess that I would like the subcommittee to get an 
example of how data on race or ethnicity is used to implement 
one particular law. I think that you might want to tell us how 
it is used in the Voting Rights Act of 1965 and as amended.
    Mr. McDougall. I would certainly be more prepared to 
respond in terms of the Fair Housing Act.
    Mr. Horn. Well, try the Voting Rights Act.
    Mr. McDougall. All right. You know, essentially, we are 
able to track the--when we talk about the possibility of 
creating a vehicle by which people who have been historically 
repressed in terms of their ability to express themselves 
through the ballot, when we talk about that, we are talking 
about a history of practices which, as you know, drafting have 
to be submitted.
    Because of the past practices, the pre-clearance provisions 
require that any change in the system have to be cleared, 
because of the history of legal segregation gerrymandering that 
made it impossible, and a variety of other practices, poll 
taxes and these kinds of things.
    It has been the consensus of the civil rights community 
that the best way to respond to this historic inequity has been 
to create majority and minority districts. If we do not know 
who lives in a district, it is going to be very difficult for 
us to construct a district that we say is majority and 
minority. I think that is probably it in a nutshell.
    Mr. Horn. Well, you described it very well. But it seems to 
me that the question then is, if you use that method of 
analysis, and you are absolutely right, is there a pattern and 
practice, and is there under-utilization of those. You have to 
look at it on a proportion, because sometimes you do not have 
detailed backgrounds of individuals.
    But you are looking at census tracts that might get 
aggregated or precincts that might get aggregated into the 
census tract, and you try to see if there is under-registration 
of let us say a Hispanic Latino group proportionately, or is 
there under-representation of black citizens, whatever. And 
then if it is, as you say, you would come under the pre-
clearance rule of having to consult Justice if you are going to 
change the voting rights laws. You would be carefully looked at 
in elections. You might well have Federal registrars even go 
there.
    Now the question would be if you had a check-off of 
multiracial, why would that detract from winning a fight on 
under-utilization? Why can you not just add the multiracial 
column and the percent or the numbers, and aggregate that with 
the various racial check-offs, and say hey, this is either 
under-utilized or it is sort of normal where you have the 
whites who register, et cetera?
    We know that there are a lot of different factors of why 
people register or do not register, just like white people vote 
or do not vote, even when they are registered. But let us 
assume that everybody could register and everybody could vote, 
and you look at the data of that tract, and you have the 
specific racial categories adding up to 40 percent, and let us 
say that you have got 10 percent multiracial.
    Can you not say that is 50 percent minority?
    Mr. McDougall. I think that there are two ways to respond 
to that. It is very intriguing.
    I guess one question that I would have for you, Mr. 
Chairman, would be whether adding those two categories 
together, would require some change in the voting rights law as 
it now stands, either by a change in the law itself or by 
change in the regulations?
    Mr. Horn. I would think that you would change the 
regulations on that.
    Mr. McDougall. Right.
    Mr. Horn. If it is an either/or. If it is a both/and, where 
you check off the racial, and then you have got this general 
category down there that you also want to check. I think that 
might also be one of the problems we have got to look at. So 
you keep it. So its equivalency is what the particular racial 
categories are. But if it said multiracial, we have got to 
assume, I guess, that they would fall under the protection 
clause let us say of the 14th amendment on race, and that you 
could count them in.
    And as you know, if you go and move to set-asides for small 
business or education, it has been clear for years that Asians 
per se do better than the average group of whites per se. So we 
have got various changes in public policy based on that.
    Mr. McDougall. Again, I would say that it is a very 
intriguing idea. Our national conference is where we debate 
issues like this in full, in their full incarnation, if you 
will. That will be in Pittsburgh in July, and I am sure that we 
will be talking about this. I would be happy to report back to 
the subcommittee after that discussion.
    The second thing that I would want to say, of course, is 
that the multiracial category, as I understand it, is one that 
includes people of many different races including white. I am 
not sure whether the public would be prepared to accept the 
proposition that because a person designates themselves as 
multiracial, that they have been discriminated against.
    It gets back to what I was saying before. It is not so much 
a question of what you call yourself, but what actually happens 
on the ground.
    But to me, it is an intriguing idea. We certainly will 
consider it in our convention.
    Mr. Horn. Well, let me ask you another along this line. You 
are probably much more familiar with it than I am. I have not 
had a chance to look at it, but the thought came to me as I was 
listening to the testimony.
    In the implementing regulations, has there been any 
particular percentage specified by the Federal Government that 
you must be this percent black to check the black category, not 
that anybody could enforce that, but is there such a rule 
anywhere?
    Now some American Indian tribes have that. Some tribes say 
you must be one-sixth or something in order to claim tribal 
rights, and that person has to prove that. Different tribes 
have different percentages.
    But I have never heard it, and it does not mean that it 
does not exist, that is why I am asking the question. I have 
never heard it in relation to either Asians, blacks, Latinos in 
the ethnic category, that you should not check this unless you 
are--and fill in the blank.
    And that worries me obviously. If there is a percentage, 
and particularly if it is 1 percent or so, I am just curious.
    What do you know about that?
    Mr. McDougall. Well, I do know that as far as the census is 
concerned, certainly the way that it is being managed now is 
that it is totally a matter of self-identification.
    Mr. Horn. Right.
    Mr. McDougall. Which I think is why Delegate Norton raised 
the whole question of fraud. Theoretically, I could check off 
that I was white, and you could check off that you were black, 
and we have that freedom. And once you get into a question of 
checking these choices--as you say, is there a minimum 
percentage--you then start talking about the tools like the one 
that I was talking about from South Africa.
    Now clearly, we have historically had laws that did that. 
For example, the so-called rule that one drop of African blood 
makes you black. That was certainly recognized in Plessy v. 
Ferguson. As I said, because Plessy was only one-eighth black. 
But he was still considered not to be a white person and 
because he was not a white person, he did not ride in the white 
car.
    I mean, clearly we have a very ugly history in this country 
of those kinds of determinations, just as you described. The 
reasons for the categories are to track the footprints of those 
deeds, so we can undo them.
    I think as my colleague, Mr. Rodriguez, mentioned that the 
purpose of those categories is to enable us to right wrongs 
that have been done. The purpose of the categories has not 
been, at least in their original formulation, to be a vehicle 
for self-identification.
    There are more than 100 groups who can theoretically make 
the same claim that we see here today. But again, we are very, 
very sensitive to these issues. These are issues that have 
grown historically. We just want to urge caution at this point.
    Mr. Horn. Well, I think that we can all agree with you on 
the caution. I think that the last thing that we want is some 
type of bureaucratic, racial characterization that God knows 
poor old South Africa went through for long enough. You had the 
blacks, the coloreds, and the whites.
    I remember when I was sent over there by the U.S. 
Information Agency to speak on human rights and civil rights in 
1979, I was used as the excuse they had to bring all of these 
people from these different categories together.
    One of them happened to be an Indian woman from India with 
a Ph.D. in nuclear physics that the South Africans spent 12 
years deciding whether to admit her, because she was not black. 
I guess she was colored. But since they call Indians 
caucasians, they did not want to put her in white. And so 
forth, and so forth. A sickening commentary on the human 
condition. I do not think that we want to get into it.
    But it leads to the next question, which is should we ask 
any of these questions, and can we not determine voting 
discrimination by looking at precincts and wondering why they 
are low, and maybe look at socioeconomic class which might be 
the main factor rather than race or ethnicity?
    Mr. McDougall. Well, again, I think that my colleague, Mr. 
Rodriguez, responded to that in his statement. There is a real 
concern that there are people out there who want to eliminate 
the categories to cover their tracks. There are some articles 
that appeared in the Washington Times recently indicating that 
elimination of all categories would be a really nifty way to 
take those footprints that I was talking about, just kind of 
take a little broom and just dust them away. So now nobody 
knows what really happened.
    And I think that would be something that we would have to--
if that were the reason for this, we would clearly have to 
oppose it.
    You know, we do not think that we are done with the 
business of eliminating racism, segregation, and discrimination 
in this country. We do not think that it is time to erase those 
footprints. When we are, then we will come back and we will 
talk about it some more, I think.
    Mr. Horn. Mr. Rodriguez, do you want to get into this 
voting rights discussion?
    Mr. Rodriguez. I would probably just prefer to just 
piggyback on what he just mentioned, but also speak about it 
from a research perspective. For the Hispanic community, it is 
important considering that currently we experience 30 percent 
poverty. There is a real concern for us to know what is going 
on within the community with regard to all of the socioeconomic 
conditions as they relate to ethnicity.
    We cannot afford to lose that data, from a public policy or 
research perspective. Because that is really critical to the 
kind of work that we are doing in trying to alleviate poverty 
and discrimination within the Hispanic community.
    Mr. Horn. I now yield to the ranking Democrat on the 
subcommittee, Mrs. Maloney of New York, to question the 
witnesses.
    Mrs. Maloney. Thank you very much, Mr. Chairman.
    First of all, I would like to mention to Mr. McDougall that 
Kweisi Mfume, the head of your organization, is a former 
colleague and good friend. I hope that you will send my warm 
regards to him, and I would especially like to thank Mr. Graham 
for his very thoughtful testimony, and for coming here and 
being with us today.
    I would like to really ask each of you to answer the two 
questions that I presented in my opening statement and I will 
say them again to you.
    Do the categories as they exist today still serve the 
purpose of helping the Government fight discrimination? That is 
question No. 1. Second, how can we achieve that goal and 
simultaneously provide individuals with the opportunity to 
identify themselves in the way that makes them feel most 
comfortable?
    And I would like to start with Ms. Graham.
    Ms. Graham. In the fight against discrimination, I think 
that we have to remember that there are all kinds of 
discrimination. The multiracial community is very, very 
sensitive to discrimination of other communities. But there is 
not only black discrimination and Hispanic discrimination, but 
there is also discrimination against multiracial people because 
they are multiracial. And that has to be looked at as well.
    If we do not have a category, if we are not counted, if we 
are not tracked, then we cannot do any of that. We cannot fight 
discrimination against the multiracial community.
    Mr. Rodriguez says that his community needs certain data 
for certain reasons. Our community needs the same type of data 
for the same type of reasons. It is no different than any other 
community.
    We have medical issues where multiracial children are 
totally invisible in the medical community. They are not 
recognized. They do not exist. I have no idea what the medical 
risks are for this child, not at all. No studies have been 
done, nothing.
    It is a very, very big problem for our community. I think 
that it is one that can only be solved with the addition of a 
multiracial category as we propose it.
    I also want to say something about the Voting Rights Act 
too. I am not a lawyer. But our legal experts asked us to call 
the Census Bureau and ask if there is any type of memorandum on 
how this is going to affect voting rights, because this 
question had also come back to us several times.
    The Census Bureau said, ``We have nothing, we suggest that 
you call the Justice Department.'' I personally called the 
Justice Department and asked if there were any kind of 
memorandum or any kind of explanation on how multiracial 
classification was going to adversely affect voting rights. And 
they said there is nothing, because it will not affect voting 
rights in this country.
    Mr. Horn. Do you have that particular answer? We would like 
it for the record at this point, if you could put it in, on the 
Justice Department.
    Ms. Graham. I said what the answer was.
    Mr. Horn. I mean did they ever do it in writing?
    Ms. Graham. No, they did not do it in writing. I have the 
name of the gentleman that I talked to.
    Mr. Horn. Why don't you let our staff know, and we will 
followup and try to get something in writing. And that will be 
put in at this point in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.240
    
    [GRAPHIC] [TIFF OMITTED] 45174.241
    
    [GRAPHIC] [TIFF OMITTED] 45174.242
    
    [GRAPHIC] [TIFF OMITTED] 45174.243
    
    [GRAPHIC] [TIFF OMITTED] 45174.244
    
    Mrs. Maloney. Thank you, Ms. Graham.
    Mr. McDougall, would you like me to repeat the questions?
    Mr. McDougall. Would you just repeat the first question, 
and then the second one?
    Mrs. Maloney. Do the categories as they exist today still 
serve the purpose of helping the Government fight 
discrimination?
    Mr. McDougall. If I could just answer that one. Absolutely, 
yes. That is our position.
    The second question?
    Mrs. Maloney. Would you like to elaborate on that?
    Mr. McDougall. No. I think that all of our testimony, my 
testimony and Mr. Rodriguez' testimony, I think underscores all 
of the reasons. Education, discrimination in education, 
lending, employment, and voting. We need the data. Our position 
is that we absolutely do need those categories to do the work 
that we do.
    Mrs. Maloney. My second question is how can we achieve that 
goal and simultaneously provide individuals with the 
opportunity to identify themselves in a way that makes them 
most comfortable?
    Mr. McDougall. Here, I think, I am moving out into 
territory that is more the territory that I covered when I was 
an organizer. It is my view that one asserts one's social, 
political, and economic rights in relationship with other 
people.
    We have never seen the categories in the census as a way 
for us to assert who we are. We see the categories as a record 
of some things that have been done to us, and that we have to 
respond to. But we have never seen the census as a medium of 
self-definition.
    Self-definition in the African-American community has to do 
with what church you belong to, where you live, where you work, 
what political organizations you are associated with, and what 
civic organizations you participate in, as you articulate your 
citizenship in the country. That is the only answer that I 
could give.
    Mrs. Maloney. Mr. Rodriguez.
    Mr. Rodriguez. On the first question, I think that there is 
no question in our mind that the data has been used and is 
critical to public service delivery at the street level. 
Clearly, we have seen that happen in terms of our own programs 
in serving our own respective communities, in establishing and 
defining need, and being able to address and target some 
resources to them.
    On the second question, I think that in part we have been 
sort of thinking about just that very question. And suggesting 
that if very reliable census data showed that you can put a 
multiracial category outside of the standard race 
classification, thereby not disturbing those categories and 
providing for some disaggregated multiracial data, meaning that 
you would not just have multiracial but you might have sort of 
African-American and sort of white, much more specific data.
    So that you are not lumping a bunch of persons into one 
category or a bunch of multiracial persons into one very 
heterogeneous category, where the data is kind of ambiguous. If 
that could be done at some other point or at some other place 
within the census without disturbing or without taking away 
from the quality and accuracy of the data as it is currently 
collected and used, then I think that is something that we 
would like to consider and that we would entertain.
    Mrs. Maloney. Some people have suggested keeping the census 
form, the short form, as it is, but adding multiracial and 
other categories to the long form as one approach. That might 
be a compromise approach.
    But my second question, I guess you have elaborated enough.
    Mr. Rodriguez. Hopefully. But clearly, there is a real 
serious concern on our part that the categories as they are 
currently, are not disturbed. And so even on a long or short 
form, we would have a lot of concern with that.
    Mrs. Maloney. You would not even like multiracial on the 
long form?
    Mr. Rodriguez. No, not if it is within those standard 
classifications. We would have a problem with that.
    Mrs. Maloney. Some of my colleagues have been quite vocal 
about the content of the census. They argue that the census 
should collect only what is required to administer the law. I 
would like to ask each of you to comment on this criteria on 
what you think should be included in the census. They want only 
information that is necessary to administer the law.
    How do you feel about that? And I will start with Mr. 
Rodriguez.
    Mr. Rodriguez. I think that to the extent that we are 
talking about administering services, which means that you 
would necessarily collect socioeconomic data, that that sort of 
makes sense. If it is for the strictest purpose in terms of the 
narrowest definition, that being collecting race and ethnic 
data only for civil rights enforcement, I think that we would 
like to see it a little expanded, because of the use, and the 
purpose, and the importance of all of the remaining data in 
terms of socioeconomic and otherwise that is used for research 
and delivery of public services broadly throughout the 
agencies.
    So in some sense, if the meaning is the narrowest 
definition of administering the law, then we probably would not 
support that. But if it means that we would be collecting and 
maintaining socioeconomic data, that is something that we would 
support.
    Mrs. Maloney. Mr. McDougall.
    Mr. McDougall. I concur.
    Mrs. Maloney. Would you comment also on the proposal that 
some of my colleagues have put out on keeping the short form as 
it is for race, but putting multiracial on the long form?
    Mr. McDougall. I believe that in last month's panel that I 
heard Congressman Sawyer advance that proposal. That is 
something that we would certainly study. Again, like I say, we 
are gearing up for our national convention right now where 
these kinds of things will be discussed in a full blown aspect. 
Again, I would be happy to report back to you after that.
    Mrs. Maloney. Thank you.
    Ms. Graham.
    Ms. Graham. I think that part of the problem that we have 
at this point is that multiracial people can be multiracial 
people in one State and not multiracial in another State. In 
one State, they might be considered white or black. And if you 
go to different States across borders, you have that problem.
    I think that if we furthered that by putting the 
multiracial category only on the long form and not on the short 
form, we would have a very big problem. Then you can be 
multiracial on one Government form, but not on another 
Government form.
    I see a lot of problems with that, and we would not accept 
that.
    Mrs. Maloney. Ms. Graham, how does Project RACE feel about 
the potential civil rights consequences of decreasing the 
populations of longstanding minority groups that were raised by 
Mr. Rodriguez and Mr. McDougall?
    Ms. Graham. I think that my testimony shows that 
particularly with the use of the Fulton County school data that 
that is not happening. As a matter of fact, in that situation, 
the Hispanic community grew by 119 percent when the multiracial 
classification was added. So we are not talking about 
decreasing numbers.
    Also, three Government studies have now been concluded. The 
National Content Survey, the survey by the Bureau of Labor 
Statistics, and the RAETT Test, the results of which came out 
last week.
    Why are we doing all of these Government studies, if we are 
not taking this useful information and putting it to work for 
us?
    And what all three of these Government studies showed, was 
that there are not big defections, if you will, from any of the 
other racial categories into the multiracial category. So I 
think that really has been taken care of.
    Mrs. Maloney. My time is up, but one brief last question on 
the point that you just raised, and that some of you raised in 
your testimony. And that is the pilot studies by the Census 
Bureau shows that about 1.5 percent of the population chooses a 
multiracial category when given the opportunity. And I would 
like to really address this question to Mr. McDougall and Mr. 
Rodriguez.
    Given that fact, Mr. McDougall, would you and Mr. Rodriguez 
explain why this 1.5 percent makes it so difficult to enforce 
civil rights laws?
    Mr. McDougall. One of the things that I mentioned was that 
as a matter of racial fact, perhaps 70 percent of the African-
American population is in fact multiracial. That racial 
interchange took place primarily during slavery and immediately 
afterwards. And there is a pretty clear African-American 
identification all the way up until the products of interracial 
marriages that took place after the Loving case and the 
counter-culture of the 1960's.
    But the experience in the Hispanic category I think is 
instructive. Because before 1960, there was no such category. 
Now we have heard of the studies of the U.S. Census Bureau, the 
three studies that have taken place. I would just need to point 
out that those three studies have taken place during a period 
of time which is actually rather telescoped in terms of the 
evolution of the census.
    We are talking about three studies that all took place in 
less than 5 years. The experience of the Hispanic category is 
that when it was introduced into the census over a period of 
two or three censuses in like 20 to 30 years, that there was a 
dramatic change.
    That is something that we cannot ignore. And again, that is 
the reason why we are urging caution. And we are planning 
ourselves to study this, and watch and wait.
    Mr. Rodriguez. I think in part that my testimony also 
suggests that over time, and this is really in the long run, 
that the likelihood that more people will become more conscious 
and understanding of their multiracial and multiethnic areas 
makes it more likely that they will choose this category.
    There is also an issue of straight confusion about race and 
ethnicity, and about the differences, and about the meanings, 
which makes it very likely, and the tests have shown this, that 
there is confusion in identifying with the multiracial 
category, partly because of confusion in identifying as a race 
or as an ethnicity.
    So it is likely that a good number of those who erroneously 
chose this category, those who are not multiracial, will select 
multiracial. And indeed, that is a problem.
    So I completely concur that the Hispanic category has been 
an interesting one to look at. Because over time, as identity 
becomes a more visible discussion and debate in terms of what 
is Hispanic, more Hispanics are more inclined to view 
themselves as Hispanic. So over time, as multiracial becomes a 
more heated debate in this country, which I think it will, and 
I think that the media and definitely the attention so far has 
shown that this proposes to be a major issue in the future.
    Mrs. Maloney. Should multiracial be treated as one of the 
protected categories for civil rights laws and voting rights 
laws, should expand the class of protection to include 
multiracial?
    Mr. Rodriguez. I think that from our perspective that we 
will have to see how courts interpret past remedies of 
disadvantaged populations, and what occurs from the legal 
framework in terms of civil rights, and whether this category 
fits into that or not. It will be an interesting discussion, 
and I think that we will be viewing it very carefully.
    But if in fact it is determined that this is a protected 
class, then lots of things start to change. And I think that we 
will be seeing some of those changes.
    Mr. McDougall. Congresswoman, if I can also respond to 
that. One of the things that I think it is important to 
remember is that there is no legal record of discrimination 
against a person because they are multiracial. A multiracial 
person is part of a protected category, I would think, or the 
argument will be made. Because some part of the multiracial 
person's ancestry correlates with a historically oppressed 
group, a group that has historically suffered segregation or 
discrimination.
    Under those circumstances, a person who is multiracial 
might take the position that they wanted specifically to affirm 
their identity with that group which has suffered the most. 
Partly because of the benefits that might accrue, but also 
because of the honor of the struggle against those kinds of 
things.
    That is certainly the route that my family has taken. My 
family is, you know. I do not even go there, do you know what I 
mean.
    So you know, I think that it is an honorable calling to 
stand up and be counted, you know, in the struggle against 
discrimination and segregation in this country.
    Certainly, this is one of the things that I meant to say 
earlier. I meant to actually bring some NAACP membership 
applications with me. Because I wanted to distribute them among 
all of my colleagues who are here, and welcome them to join us 
in the fight that we have.
    But again, we do have a slight legal obstacle. Because 
there is no legal record of discrimination against a person 
because they are multiracial.
    Ms. Graham. I would like to comment as well. There is legal 
record. I am not an attorney, and our attorneys were not 
invited to be here today, but I would like to get written 
statements from our legal experts about that. Because there has 
been rather blatant discrimination.
    Mr. Horn. Without objection, that will be put into the 
record at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.245
    
    [GRAPHIC] [TIFF OMITTED] 45174.246
    
    [GRAPHIC] [TIFF OMITTED] 45174.247
    
    [GRAPHIC] [TIFF OMITTED] 45174.248
    
    [GRAPHIC] [TIFF OMITTED] 45174.249
    
    [GRAPHIC] [TIFF OMITTED] 45174.250
    
    [GRAPHIC] [TIFF OMITTED] 45174.251
    
    [GRAPHIC] [TIFF OMITTED] 45174.252
    
    [GRAPHIC] [TIFF OMITTED] 45174.253
    
    [GRAPHIC] [TIFF OMITTED] 45174.254
    
    [GRAPHIC] [TIFF OMITTED] 45174.255
    
    [GRAPHIC] [TIFF OMITTED] 45174.256
    
    [GRAPHIC] [TIFF OMITTED] 45174.257
    
    [GRAPHIC] [TIFF OMITTED] 45174.258
    
    [GRAPHIC] [TIFF OMITTED] 45174.259
    
    [GRAPHIC] [TIFF OMITTED] 45174.260
    
    [GRAPHIC] [TIFF OMITTED] 45174.261
    
    [GRAPHIC] [TIFF OMITTED] 45174.262
    
    [GRAPHIC] [TIFF OMITTED] 45174.263
    
    [GRAPHIC] [TIFF OMITTED] 45174.264
    
    [GRAPHIC] [TIFF OMITTED] 45174.265
    
    [GRAPHIC] [TIFF OMITTED] 45174.266
    
    [GRAPHIC] [TIFF OMITTED] 45174.267
    
    [GRAPHIC] [TIFF OMITTED] 45174.268
    
    [GRAPHIC] [TIFF OMITTED] 45174.269
    
    [GRAPHIC] [TIFF OMITTED] 45174.270
    
    [GRAPHIC] [TIFF OMITTED] 45174.271
    
    [GRAPHIC] [TIFF OMITTED] 45174.272
    
    [GRAPHIC] [TIFF OMITTED] 45174.273
    
    Ms. Graham. Also, Mr. McDougall talks about fighting racism 
and discrimination. And I would like to make clear that a 
multiracial category will not mean that multiracial people will 
ever stop fighting discrimination and racism. We will continue 
to fight discrimination and racism as multiracial people and as 
members of other communities.
    Mrs. Maloney. But Ms. Graham, do you believe that 
multiracial should be a protected category in terms of civil 
rights laws and voting rights laws?
    Ms. Graham. I really do not know how that will play out 
quite honestly, and that is what I would like to talk to our 
legal experts about and get back to the subcommittee on that.
    Mrs. Maloney. Thank you very much.
    Mr. Horn. The gentleman from Illinois, Mr. Davis, for 
questions.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Ms. Graham, let me first of all just commend and 
congratulate you for the level of activism, involvement, and 
willingness to advocate for something that you believe in, and 
believe very strongly in. I think that is really the essence of 
what has made America, and I commend you for that.
    I would like to ask you, would you suggest that I am 
multiracial?
    Ms. Graham. I think that it is how you consider yourself. 
If you identify yourself as multiracial, then you would be 
multiracial. If you identify as black, you would be black.
    We talk a lot about self-identification. And Mr. McDougall 
and Mr. Rodriguez have talked about that you can self-identify. 
Multiracial people cannot always self-identify. That is part of 
the problem.
    As a matter of fact, the Equal Opportunity Commission tells 
employers that they should not ask a person their race.
    Mr. Davis of Illinois. But we are talking about public 
policy. We have gone beyond the individuality of self, even 
though that is a part. So I need to know what you would define 
me.
    Ms. Graham. It is not up to me to define you.
    Mr. Davis of Illinois. Then would it be up to the 
Government to define individuals by putting it on the form?
    Ms. Graham. No. It is up to you to define yourself, and 
have the ability from the Government to be able to define 
yourself.
    Mr. Davis of Illinois. Let me ask you another question.
    Would you tell me just briefly what you think racism is?
    Ms. Graham. I think that the racism is any kind of 
discrimination by anyone of one race or two races against 
anyone else. We see racism sometimes in this country as just 
racism against the black community, but that is not true. You 
can be racist against any community, including the multiracial 
community. I do not know if that answers your question.
    Mr. Davis of Illinois. Oh, I think it does. Of course, my 
definition is a little different than your definition. My 
definition suggests that racism really is the deliberate and 
systematic oppression of one group of people by another group 
of people for the sole purpose of maintaining dominance and 
control for the oppressing group over the oppressed group.
    So I think that it is a little different and I think that 
we all operate on the basis of our understanding. As I 
indicated, I certainly appreciate your involvement.
    Ms. Graham. I agree with you on your definition.
    Would you agree with me that that is what is happening to 
the multiracial community?
    Mr. Davis of Illinois. Well, I am not sure that there has 
been the orchestration of the deliberateness that perhaps I am 
talking about and have seen. Perhaps we will ferret out a 
little bit of that, because I would like to go to your son.
    Ryan, let me just tell you that you are indeed a role model 
for thousands of young people all over America. For them to 
know that you believe that by expressing yourself, by taking a 
position in relationship to what you believe, and that you 
actually live it out in a real sense the true meaning of what 
America is designed to do. That is for all of us to help make 
decisions about our country and what our country is.
    Let me ask you, have you ever experienced what you would 
call racism or discrimination?
    Mr. Graham. Well, not actually. The school I go to, I mean, 
we all pretty much play fair, and there is no discrimination.
    Mr. Davis of Illinois. You have been most fortunate, in 
that you have not. And I certainly want to commend the area 
where you live, and the people that you come in contact with, 
and the community that you come from. It seems to be a model 
kind of community in terms of race and race relations.
    My point would probably be that when you do or if you ever 
run into it, it will probably be more on the basis of how you 
look than on the basis of how you are listed on the form. I 
really thank you for the answer.
    Mr. Rodriguez, you seem to be very definitive in terms of 
your position and the feeling of your organization that a 
change in the rules under which we have become accustomed to 
playing will in some way diminish, dilute, or take away from 
the ability for the group that you represent to experience 
equity and justice.
    Is that accurate?
    Mr. Rodriguez. That is accurate.
    Mr. Davis of Illinois. I know that while you have already 
laid it out a number of times, could you once again indicate 
why you feel that it is important to protect the rules and the 
game, that perhaps some of the largest minority groups in the 
country have had access to and have been able to use?
    Mr. Rodriguez. I will certainly try. I would say that we 
fought very hard in terms of civil rights and otherwise to gain 
a category on the census for the purposes of really attacking 
the issues of poverty and discrimination, that 
disproportionately affects our respective communities.
    So there is no question in my mind that the accuracy and 
quality of data is critical to the efforts that have brought us 
up to this point in time. And there is no question in my mind 
that any disturbance or any reduction in the quality and 
accuracy of census data is going to have an impact on the 
effectiveness of programs and services that reach our 
communities.
    The range of services is endless. We are talking about Head 
Start for our youngest. We are talking about all kinds of 
programs that serve those in higher education. Throughout, 
cradle to grave programs that are there and are designed to 
help alleviate poverty and reduce discrimination in our 
communities.
    Yet there is a clear understanding that right now 30 
percent of the Hispanic community suffers poverty, and we still 
suffer disproportionate discrimination. We have got a long way 
to go, and we need these tools. We need them to be accurate, 
and we need them to be useful, and we definitely cannot risk 
any harm to these programs.
    Mr. Davis of Illinois. Well, let me just say that I 
certainly appreciate the position that you are taking. I agree 
wholeheartedly with it. Because it appears to me that you are 
saying that yes, we have made some progress, that we are 
moving. But you are also saying let us not risk that progress 
by altering or changing the way in which we operate.
    Mr. Rodriguez. Absolutely.
    Mr. Davis of Illinois. Thank you.
    Finally, Mr. McDougall, I certainly appreciate your 
testimony. I have long been a member of the NAACP, and have 
always had high regard for its work. And I appreciate the 
decisionmaking process that you are aware of and familiar with. 
The fact that on some of these issues, you are actually going 
to take policy positions on them at the upcoming convention, 
and you would not want to jump the gun in terms of that. I 
appreciate that understanding of the process, and I am sure 
that your organization does too.
    Did I detect though in your testimony a suggestion perhaps 
for a desire for all of the minority groups in this country to 
sort of understand that we may have gotten our status 
differently, or that we may have become part of the minority in 
a different way?
    Another way of saying it is maybe we have come over on 
different ships. But for all practical purposes, we are on the 
same boat. And maybe we better just try to coalesce around 
that.
    Did I detect that?
    Mr. McDougall. You did, sir. That is my view certainly, but 
I think that it is in the tradition of the best of what the 
NAACP has accomplished over the years. That is our job after 
all.
    Mr. Davis of Illinois. Thank you very much. I appreciate 
all of you being here.
    And thank you very much, Mr. Chairman.
    Mr. Horn. You are quite welcome.
    I just have a few closing questions.
    Mr. Rodriguez, my Spanish is many years ago.
    Could you translate the word La Raza for me?
    Mr. Rodriguez. Oh, sure. La Raza actually emanates from 
Latin American literature, meaning what is the cosmic race. It 
is a mosaic of differing persons and it reflects the diversity 
of the Spanish Latino community within the United States and 
externally. So it has an interesting philosophical meaning.
    Mr. Horn. Has that sort of been a school of literary 
criticism or a school of philosophy, or how has that evolved in 
Latin America?
    We all know that every country is unique in Latin America. 
Americans make the mistake of thinking that there is one 
overall culture that is replicated in every country. The 
language is the same. It may be pronounced differently at a 
different pace. But if you look at the art, and it is all 
distinctive when you go country to country.
    And yet it translates sort of the race. And yet you made a 
strong point here I think--well, let me put it this way: How 
would you relate the questionnaire on the census form that 
Hispanic people now can check off? But they are not considered 
as a race, because they are not a race in terms of the 
anthropological analysis. Now some of that anthropology is 
nonsense, I might say. Just because a group of professors said 
it does not mean it is right, and a lot of it has been thrown 
out--mostly in this century.
    Anyhow, I find it unique that your group would really be 
the council of the race when racial stereotyping is sort of I 
think in bad form in this country. Go ahead.
    Why would you prefer that ethnic category, or do you prefer 
to have it suddenly classified as Hispanics, Latinos, whatever 
you call different things by yourselves, and then you have big 
fights over these, as I remember.
    Mr. Rodriguez. That is correct.
    Mr. Horn. From the older citizens who say keep it Latinos, 
and younger citizens have another view of life.
    So explain to me what category matters the most in terms of 
the census?
    Mr. Rodriguez. I think that in terms of the census that 
because Hispanics are an ethnicity and not a race in terms of 
counting, we know in our own respective countries and in the 
United States, and most of us are native born, that we have 
ancestors and we come from a range of different racial areas of 
the world; African, European, and Asian countries. And with 
that, we take those traditions and some of those cultural 
memories.
    So I think that it is interesting, because there is such a 
diversity within the Hispanic population, that the separation 
of ethnicity and race does actually make sense from our 
perspective just because of that, and because we know that 
there are interestingly enough black Cubans who speak Chinese. 
It is fascinating, and it is part of the mosaic that makes for 
diversity.
    So in terms of the census, we do want to be clear. And we 
want to be able to determine if there are and where the 
distinctions lie between Hispanics of different races. Because 
we clearly see that there are racial differences and 
disparities within our respective Latin American and Caribbean 
countries.
    And so we recognize that racism is prevalent even 
throughout the Hispanic community. And we understand the need 
and the necessity for collecting that kind of information.
    Mr. Horn. Since I am half Irish, I am well aware that the 
English did not like us, and perhaps still do not like us. And 
the feeling was mutual for a very long time, even in this 
country. Yet, that discrimination is within a race, as the 
anthropologists look at it. So, I am just curious in terms of 
voting statistics, for example. And in terms of appeals to the 
Supreme Court, I think that Mr. McDougall would admit, the 
Court takes much more seriously racial discrimination as 
opposed to ethnic discrimination or other forms of 
discrimination within races as such.
    Is it that there is a desire to be in ``protected'' 
category of the Constitution, that the Court puts a much higher 
standard in some ways in its administration of that particular 
phrase?
    Do you just want to leave it at the ethnicity category that 
you have now in the census?
    Mr. Rodriguez. Would we like to leave it as ethnicity?
    Mr. Horn. Yes.
    Mr. Rodriguez. In terms of a separate and distinct category 
from race?
    Mr. Horn. Right.
    Mr. Rodriguez. Yes. I think that the census tests have 
really shown that in separating the categories I think we gain 
some very valuable information about the racial distinctions in 
the Hispanic community. So there are some clear needs for some 
information about Hispanics by race, which is something that we 
are really looking into. So I think that from our perspective 
that the accuracy of the data is helped when the categories are 
separated.
    Mr. Horn. Well, if they check the Latino Hispanic category, 
does that not give you enough data in terms of administering 
the Voting Rights Act and various Housing Discrimination Acts?
    Mr. Rodriguez. Yes, I do believe it does.
    Mr. Horn. If you take any of the racial columns.
    Mr. Rodriguez. I do believe that it does. But the 
additional information that we get from the racial disparities 
is really critical to the research and otherwise. Because there 
is a distinct difference between what is race and then what is 
Hispanic origin discrimination. And the Hispanic community by 
the nature of who they are can experience both.
    And being a dark skinned Hispanic who speaks very well 
English can be discriminated against as opposed to a light 
skinned Hispanic who speaks very poor English, can be 
discriminated against.
    So there are some clear disparities, and discrimination 
takes many forms within the Hispanic community that makes 
collection of the data really essential.
    Mr. Horn. I recall those that come under the national 
origin category, often Eastern Europeans in particular, that 
lectured the Civil Rights Commission--I think quite 
appropriately--for doing almost nothing about looking at 
discrimination among Slavic groups as they came to the United 
States. And let us face it, they had tremendous problems in 
some of our urban cities, and they still do. And yet, the 
Government was not really worrying about them. It was worrying 
about everybody else.
    As you say, sometimes it may not be appropriate, because 
some of those who were in these protected categories were a lot 
better off than the average citizen of the United States.
    So that, it seems to me, is one of the problems we face in 
reality. And I guess that we can ask the basic question of when 
does the day come that we do not need to check the racial 
category, or we just throw everybody into a multiracial 
category.
    I mean does the day come only when the groups that have 
their lobbying efforts say yes, now is the time? I doubt that 
those groups will ever say that is the time. Right?
    Mr. Rodriguez. In response, I guess when discrimination and 
poverty sort of subside, I would not have an issue with finding 
a new line of work at all. So when that day comes, I would be 
very pleased to end the reasoning behind simple discriminatory 
questioning.
    Mr. Horn. Obviously, what I am thinking about is the 15th 
amendment, which is the right of citizens of the United States 
to vote shall not be denied or abridged by the United States or 
any State on account of race, color, or previous condition of 
servitude.
    Well, we do not ask for color really. In part we do in the 
racial categories of the census. But I do not know if that 
solves all of the problems of the people of color. But we do 
ask for race, which is the highly protected category in the 
Constitution.
    Well, we thank you all for coming. And we will have some 
questions to followup with all of the witnesses, this panel and 
others. And if you would not mind answering them, we would be 
most grateful. And we will put them in the record at the 
appropriate point. We did not have time to ask all of the 
questions that we have here. So we thank you for that effort.
    Mrs. Maloney. Mr. Chairman.
    Mr. Horn. I believe that the gentlewoman from New York has 
an insertion for the record.
    Mrs. Maloney. Yes. I would like to insert in the record a 
letter from the U.S. Department of Justice, the Civil Rights 
Division. And it is a long letter. It is dated October 1994. 
But in it, they speak out strongly about any changes that would 
fragment racial and ethnic group data, and thereby make it more 
difficult to prove that numbers of a particular racial or 
ethnic group are suffering discrimination.
    And may I put that in the record?
    Mr. Horn. Without objection, it will be inserted at this 
point in the record.
    Mrs. Maloney. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.274
    
    [GRAPHIC] [TIFF OMITTED] 45174.275
    
    [GRAPHIC] [TIFF OMITTED] 45174.276
    
    [GRAPHIC] [TIFF OMITTED] 45174.277
    
    [GRAPHIC] [TIFF OMITTED] 45174.278
    
    Mr. Horn. Thank you very much for coming.
    And Mr. Graham, we are going to look forward to you when 
you hit 16, and maybe you hit 20, and all ages in between. We 
will be glad to have you testify. Thank you for coming.
    So if panel III would come forward, we will begin. If you 
would stand and raise your right hands, please.
    [Witnesses sworn.]
    Mr. Horn. All five witnesses affirmed.
    We will follow in the order on the program. As I said 
earlier, we have read all of the testimony. Please do not read 
it. We would like you to summarize it.
    The way that we are going to go on these rounds is we are 
going to have the clock going, and I will enforce it. There 
will be 5 minutes to summarize your testimony. The caution 
light will go on at the 4th minute. So try to wind it up by 
that time.
    We will also put this time rule on the Members of the 
panel. We will have 5 minutes essentially for questions by each 
Member.
    So let us begin then with Ramona Douglass, the president of 
the Association for Multiethnic Americans. Ms. Douglass.

   STATEMENTS OF RAMONA DOUGLASS, PRESIDENT, ASSOCIATION FOR 
   MULTIETHNIC AMERICANS; HELEN HATAB SAMHAN, EXECUTIVE VICE 
 PRESIDENT, ARAB-AMERICAN INSTITUTE; JACINTA MA, LEGAL FELLOW, 
NATIONAL ASIAN PACIFIC AMERICAN LEGAL CONSORTIUM; JOANN CHASE, 
EXECUTIVE DIRECTOR, NATIONAL CONGRESS OF AMERICAN INDIANS; AND 
           NATHAN DOUGLAS, INTERRACIAL FAMILY CIRCLE

    Ms. Douglass. Yes. Good afternoon, Mr. Chairman and members 
of the subcommittee. At your request, I will not be reading my 
testimony.
    But I can assure you that I am proud to call myself a 
multiracial American of African, Italian, and Native American 
heritage. I would also like to say that I have been a civil 
rights advocate for the last 30 years, a civil rights advocate 
who is aware of the civil rights struggles of all of the 
communities that I represent.
    In 1997, the community that I represent today are the 2.5 
million Americans that call themselves multiracial. If this 
were not a key issue for the 1990 census, we would not have had 
over 9 million people mark the other category at that time.
    My organization came into being in 1988, and it is a 
federation of local grassroots organizations that are 
interracial and multiethnic, and they span all of the racial 
and ethnic groups.
    Some people say that we are not a community, because our 
colors do not match. Therefore, how can we claim community 
rights and issues. I speak all over the United States at 
student organizational conventions. Those conventions include 
people who are Asian, African, European, Native American, and 
mixtures, that call themselves a community.
    I think that what is important here today is that a new 
conversation needs to be addressed in terms of race. We spent 
an awful lot of time talking about a history of racism in this 
country strictly in terms of a white/black context.
    I know that when my parents got married in 1947, that the 
idea of interracial relationships was against the law in over 
17 States in the United States. It was against the law until 
1967. This year, my family will be celebrating a 50th 
anniversary of an interracial and interethnic union and there 
are many others like us.
    What I want to bring to your attention is the fact that 
this is not only a personal issue. I am in the medical field. I 
deal with medical issues on a daily basis.
    From personal experience, it is a very interesting prospect 
being put into a hospital having the clerk at the admissions 
department list me as white from her perspective. And the East 
Indian resident listing me as black from her perspective.
    From a lab technician's point of view, they decided that I 
needed to be listed as sickle cell positive, but the test was 
never done. And if I had not been a vocal and conscious 
patient, I may have been given the wrong anesthesia.
    I am not the only person who has suffered this because I 
look ambiguous. There are many other people like me who because 
of the perceptions of others get misclassified for medical 
issues. They get shortchanged for testing. There is not enough 
research being done.
    So someone like Michelle Carew, who was the daughter of the 
famed baseball player Rod Carew, did not have a donor match for 
her bone marrow transplant. Therefore, she was unable to 
survive and died.
    If we had the ability to at least acknowledge that what you 
see is not always what you get, then at least more intelligent 
questions could be answered on medical forms with regard to 
race and ethnicity.
    We are not saying that we are a solution to civil rights 
laws or civil rights injustices of the past. But I find it 
ironic that our organization and our people are being asked to 
correct by virtue of how we define ourselves all of the past 
injustices of other groups of people.
    I would also like to say that my former president of the 
Association of Multiethnic Americans is Mr. Carlos Ferrandez, 
who is both Hispanic and not Hispanic. From his perspective and 
from the perspective of people who identify as Hispanic and not 
Hispanic, they feel that it is as important to claim the 
Hispanic heritage and to acknowledge the other heritage that 
they are a part of, as it is to say they are part of one racial 
or ethnic group.
    In terms of political agenda, I would like to distinguish 
the American multiracial movement from the movement of Brazil, 
and from the movement of South Africa. I think that too many 
stereotypes and too many generalizations have been made in this 
room today and in the American public with regard to our 
purpose and our reasoning for being a part of this movement.
    Because I have been a civil rights advocate, I have no 
flight from blackness on my agenda. I have no insensitivity to 
the fact that there are injustices that are going on today in 
every community. But I have to say that what we are doing is 
basically breaking down a paradigm. We are basically having 
another conversation which says we want choice in the matter. 
We want choice in the matter of who we are, just like any other 
community has choice in the matter.
    And it is not just to feel good, but it is also because we 
are discriminated against. When someone goes to a housing 
development and the colors do not match, they face 
discrimination not because they are black or white; they are 
discriminated against because they are both. And when they go 
to get a loan for a house, the same issue can apply.
    The Wedowee case was a perfect example. A young lady named 
Revonda Bowen, was of mixed race heritage, not simply an 
African-American young lady. The insult to her was that her 
parents had created a mistake, and the mistake was a 
multiracial child.
    I would be happy to answer any questions that you have on 
this issue, because I know that there are many.
    [The prepared statement of Ms. Douglass follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.279
    
    [GRAPHIC] [TIFF OMITTED] 45174.280
    
    [GRAPHIC] [TIFF OMITTED] 45174.281
    
    [GRAPHIC] [TIFF OMITTED] 45174.282
    
    [GRAPHIC] [TIFF OMITTED] 45174.283
    
    [GRAPHIC] [TIFF OMITTED] 45174.284
    
    [GRAPHIC] [TIFF OMITTED] 45174.285
    
    [GRAPHIC] [TIFF OMITTED] 45174.286
    
    [GRAPHIC] [TIFF OMITTED] 45174.287
    
    [GRAPHIC] [TIFF OMITTED] 45174.288
    
    [GRAPHIC] [TIFF OMITTED] 45174.289
    
    [GRAPHIC] [TIFF OMITTED] 45174.290
    
    Mr. Horn. We thank you.
    And Helen Hatab Samhan, executive vice president of the 
Arab American Institute. Welcome.
    Ms. Samhan. Thank you, Mr. Chairman and I, too, will 
summarize my statement.
    I want to say that I come here in two capacities. I am here 
representing the Arab American Institute, which is committed to 
including Arab Americans in all forms of public, political, and 
civic life in this country, as well as the founder of the 
Working Group on Ancestry in the U.S. Census. Our membership 
spans all of the ethnic communities in the country from Europe, 
the Middle East, Africa, and Asia. It is really cross-cutting 
on race lines. It is primarily organized around ethnic data.
    I would like to submit for the record the list of the 
members of the working group.
    Mr. Horn. Without objection, it will be included at this 
point in the record.
    Ms. Samhan. Thank you, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.291
    
    [GRAPHIC] [TIFF OMITTED] 45174.292
    
    [GRAPHIC] [TIFF OMITTED] 45174.293
    
    [GRAPHIC] [TIFF OMITTED] 45174.294
    
    [GRAPHIC] [TIFF OMITTED] 45174.295
    
    [GRAPHIC] [TIFF OMITTED] 45174.296
    
    Ms. Samhan. I would also like to say that I am perhaps the 
only witness that is here not to speak about the race 
categories. Our Working Group Coalition and my institute in 
specific would like to see the continuation of existing race 
and Hispanic origin measurement. We believe that these are 
important categories, and they remain important categories.
    What we have come to talk about is the importance of 
broadening the concept of ethnic measurement, which complements 
race data. Specifically, I want to talk about the ancestry 
question in the U.S. Census, which was basically a very good 
idea that the Census Bureau initiated in 1980.
    What it does is it complements race data by expanding the 
definition of ethnicity to include all Americans. It measures 
the ethnicity of all Americans regardless of whether they fit 
within a minority or a majority category.
    I have in my written testimony several categories of need, 
and purpose, and use of ancestry data over the last 20 years. 
It is valuable for research purposes. It is valuable for public 
service delivery. It is valuable for business and commerce.
    It is also valuable for another area that is very dear to 
my heart, because this is what we do in my Institute. And that 
is to promote civic involvement, especially of the immigrant 
community. Without data on ethnicity that goes beyond race, we 
would have no way of knowing where our community lives. We 
would have no way of reaching that community, and trying to 
involve them in the political process, and in the public life 
of this country.
    The other point that I would like to make is about the 
specific questions of the 2000 Census. First of all, I would 
like to thank the Census Bureau for including ancestry as a 
required item in the topics that they submitted to Congress in 
April. I would also like to thank the Members of the House and 
Senate who sponsored a bipartisan concurrent resolution to 
support ancestry data.
    I would also like to say that I know that the OMB and the 
Census Bureau are now considering a combined question on race, 
Hispanic origin, and ancestry. Our full working group has not 
had a chance to deliberate and come to any consensus on this. 
But I would like to say that my community, the Arab American 
community, would support such a combined question.
    Because I think particularly for those Americans whose 
ethnicity is not measured in the race question, or in the 
Hispanic origin question, the addition of the ancestry data 
makes it really an inclusive question. And I think that it 
would be a good thing for our country.
    I would also like to support the continuation of the long 
form of the census. I think that some of the witnesses in the 
other panel referred to the socioeconomic data that is derived 
from the long form. It is absolutely crucial to have that 
demographic data. Otherwise, the information we get from the 
short form is simply not as useful. So I would definitely 
support, and our coalition supports, the continuation of the 
long form.
    In conclusion, I would also like to give an example of how 
our community, the Arab American community, how the OMB 
categories as they exist today have affected our community, and 
how I believe that the OMB categories are actually more 
flexible than we think with a little bit of restating of what 
the purpose of those categories are.
    Four years ago, I testified about some confusion that 
exists for people from my community, particularly for 
immigrants coming from Arab countries and the Middle East in 
general, who are very confused by the fact that the Government 
classifies them as white.
    We are not going to get into an anthropological discussion 
as to why people from the Middle East and North Africa are 
classified as caucasian. That is really not what I want to talk 
about today. But what I do want to talk about is the fact that 
sometimes the race categories that we are put into are not 
necessarily as meaningful, and sometimes they are confusing.
    I did testify then and I would like to remind the 
subcommittee today that on the State and local level there are 
many needs for agencies, civil rights commissions, and schools 
to actually collect more detail than the Federal categories 
require. And I believe that they have continued to do that.
    What I would like to stress is I believe that Directive 15 
has the flexibility to allow for more detailed information when 
it is required. And I think that what the OMB has to do is 
restate the fact that the categories in the Federal Directive 
15; 1, they are minimal standards that should encourage and 
allow for further detail when necessary; and 2, that they have 
no intrinsic bearing on qualification for Federal programs or 
affirmative action.
    But these standards have much more flexibility. They do not 
need to put ethnic communities and racial communities in a zero 
sum bidding over benefits. We are talking about the ability to 
measure ethnicity when it is needed.
    With that, I will conclude my statement. And I thank you 
for this opportunity.
    [The prepared statement of Ms. Samhan follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.297
    
    [GRAPHIC] [TIFF OMITTED] 45174.298
    
    [GRAPHIC] [TIFF OMITTED] 45174.299
    
    [GRAPHIC] [TIFF OMITTED] 45174.300
    
    [GRAPHIC] [TIFF OMITTED] 45174.301
    
    [GRAPHIC] [TIFF OMITTED] 45174.302
    
    Mr. Horn. Well, we thank you. That is very helpful. You 
finished right on the nose.
    Now Jacinta Ma is with the National Asian Pacific American 
Legal Consortium. Thank you for coming.
    Ms. Ma. Thank you, Mr. Chairman, and members of the 
subcommittee.
    The National Asian Pacific American Legal Consortium is a 
national nonprofit and nonpartisan organization whose mission 
is to advance the legal and civil rights of the Nation's Asian 
Pacific Americans. We are affiliated with the Asian Law Caucus 
in San Francisco, the Asian Pacific American Legal Center in 
Los Angeles, and the Asian American Legal Defense and Education 
Fund in New York.
    Together we have over half a century of experience in 
providing legal services, community education and advocacy on 
issues affecting Asian Pacific Americans, including issues on 
the census. We work with the Census Bureau, policymakers, and 
other community groups to assure that the Asian Pacific 
Americans are accurately and fully counted, and that 
appropriate sub-ethnic data is collected.
    I would like to begin by noting that the Consortium is very 
sympathetic to the emotional interests of people who wish to 
identify themselves as multiracial. Many of our board members 
and family members have children who are multiracial. I have 
two nieces who are multiracial. Specifically, they are white 
and Asian.
    Tiger Woods has helped to personalize this issue for 
everyone, and has pushed it to the forefront of people's 
consciousness. And self-identification is particularly 
important to people like me, whether they have been unfairly 
stereotyped and categorized.
    However, this is not just a personal issue. Census data is 
used for important national research, data collection, policy 
development, and resource allocation. In particular, it is very 
important to use this information to monitor and fight 
discrimination.
    As the tests have shown, there is not adequate time for the 
Government to fully determine the effects of a multiracial 
category before the Census 2000, and to do the massive 
education that would be necessary to prevent public confusion, 
and to prevent inconsistent counts, under-counting, and other 
adverse effects.
    Therefore, at this time, we oppose the addition of such a 
category. And this information is used for public policy and 
civil rights purposes including enforcing the Voting Rights 
Act. The Voting Rights Act, the census data determines which 
jurisdictions are required to provide bilingual assistance for 
Asian Pacific Americans. Adding a multiracial category has 
resulted in inaccurate counts. The results of the most recent 
report from the Census Bureau further confirms that the data is 
unreliable. In the test, the Census Bureau over-sampled 
relatively small populations like the Asian Pacific American 
population, including the Native Hawaiian population.
    In one comparison, Asian Pacific Islanders dropped from 65 
percent to 60 percent. Now some people have said that this 5 
percent difference is fairly small. But for a population like 
the Asian Pacific American community which is small, this 
difference can have a very significant effect. And in fact, it 
will have ramifications that ripple down, because of all of the 
different statistics that are derived from census data.
    In addition, this report showed that the percentage of 
Asian Pacific Americans who identified themselves as reporting 
more than one race varied from 4 percent to 12 percent. What 
these results demonstrate is the complexity of the race 
question and the potential for confusion. The reporting of race 
will vary depending on the wording of the questions and the 
order of the questions. Also, these varying responses are 
attributable in part to confusion. People do not understand 
what the multiracial question is, and what the multiracial 
category is. Discussions with people in the Asian Pacific 
American community have shown that there is confusion between 
multiracial and multiethnic.
    I was in a panel yesterday when specifically somebody was 
asked about how they felt about the multiracial question, and 
the panel was confused, and thought that they were talking 
about multiethnic considerations.
    So there is just not going to be confusion between 
multiethnic and multiracial. People are going to wonder what 
constitutes multiracial. Is this going to be another drop rule, 
where if you are one part of another race, that you will be 
classified as multiracial?
    Adding a multiracial category will only cause more 
confusion, and make the integrity of the data collected on the 
census questionable. And one of the things that we have not had 
time to fully address and consider is the other forms of 
questions on reporting a multiracial heritage. We believe that 
the mark ``one or more'' or the mark ``all that apply'' forms 
of questions need to be studied more fully before a conclusion 
on their use should be made.
    And as Chairman Horn noted in his opening remarks, OMB 
Directive 15 does have roots in this country's attempt to 
rectify this devastating impact of de jure and de facto 
discrimination on people of color, and the discrimination that 
has impacted their ability to even assert from very basic 
rights.
    Asian Pacific Americans do continue to suffer from 
discrimination. In our annual audit of incidents of violence 
against Asian Pacific Americans, there are 458 incidents 
reported. This showed an increase of 80 percent of incidents in 
southern California. A 14 percent increase of aggravated 
assault, and an 11 percent increase of assault. These numbers 
are really striking when you compare them to the FBI reports 
that overall crime is down by 13 percent. And such a persistent 
presence of violence serves to show that racial categories are 
not abstract, and they are not limited to self-identification. 
There is really still a very potent impact on identifiable 
racial minorities.
    I would just like to conclude by also stressing the 
importance of data that is historically comparable and able to 
be utilized across many years if the civil rights enforcement 
is to continue. Because the Government does not yet have a 
method for ensuring accurate collection and analysis of results 
in a multiracial category, we oppose adding multiracial as a 
racial category in Census 2000.
    Thank you.
    [The prepared statement of Ms. Ma follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.303
    
    [GRAPHIC] [TIFF OMITTED] 45174.304
    
    [GRAPHIC] [TIFF OMITTED] 45174.305
    
    [GRAPHIC] [TIFF OMITTED] 45174.306
    
    [GRAPHIC] [TIFF OMITTED] 45174.307
    
    Mr. Horn. Thank you.
    We now have JoAnn Chase, the executive director of the 
National Congress of American Indians. Ms. Chase.
    Ms. Chase. Good afternoon, Chairman Horn, and members of 
the subcommittee.
    On behalf of President Ron Allen and the over 200-plus 
member tribes of the National Congress of American Indians, I 
am pleased to have this opportunity to present a statement 
regarding a multiracial category.
    I am JoAnn Chase, and I a member of the three affiliated 
tribes of North Dakota. I serve as director of the National 
Congress of American Indians, the oldest, largest, and most 
representative Indian organization in the Nation. It is our job 
to advocate on behalf of tribal Governments, particularly on a 
myriad of complex issues including ethnic and race data.
    Mr. Chairman, I would like to begin my comments this 
afternoon with a very brief overview of the principles of 
Federal Indian law that we believe are relevant today. Any 
discussion of Indian policy must be grounded in the fundamental 
principles which form Indian law and policy. And it is 
essential that lawmakers who pass laws and make decisions which 
dramatically affect Indian people have at least the basic 
context for the legal foundation, which guides the 
decisionmaking process.
    From the outset, it is imperative to understand tribal 
sovereignty. Since the earliest days of our Republic, Indian 
tribes have been considered sovereign nations with separate 
legal and political existence. Indeed, tribal governments 
represent one of the three enumerated sovereign entities 
mentioned in the U.S. Constitution.
    As you may be aware through the constitutional mandate, 
literally hundreds of treaties, and Federal statutes, and 
dozens of Supreme Court cases have settled that Indian tribes 
have a unique legal and political relationship with the United 
States.
    For our purposes today, it is important to understand that 
this relationship is grounded in the political Government to 
Government relationship, and it is not always race based. 
Further, as distinct political entities, Indian tribes have the 
power to determine questions of membership, and this power has 
been consistently recognized and upheld by the courts.
    The term then ``Indian'' may be used in an ethological or 
in a legal sense. For example, if a person is considered to be 
one-fourth Indian, and I am not an expert, but it is my 
understanding that the person would ordinarily not be 
considered Indian for ethological purposes. Yet legally, such a 
person may be an Indian pursuant to the tribal membership 
criteria and as citizens of sovereign nations.
    When addressing the American Indian and Alaska Native 
issues, it is important to note that the racial composition is 
not always dispositive in determining who is Indian, according 
to Federal Indian law. In dealing with Indians, the Government 
is dealing with members of political entities, that is Indian 
tribes, and not just persons of a particular race.
    The second important legal principle that I believe is 
relevant today is that of the trust responsibility owed by the 
Federal Government to Indian tribes.
    As you know, and I would add another reason why we are here 
today, is that we ceded vast lands and resources to the United 
States. And accordingly, the Federal Government made certain 
promises to Indian tribes, such as to provide into perpetuity 
various goods and services, including health care, housing, 
education, and the right to self-government among others.
    The Federal Government's trust responsibility is not easy 
to define by any means, but it is grounded in the oversight and 
trusteeship of Indian lands and resources. And using analogous 
common law principles, it has been determined by Federal courts 
to be similar to the highest fiduciary duty owed a beneficiary 
by a trustee.
    Mr. Chairman, we appreciate the fact that data on race and 
ethnicity have been used extensively in civil rights monitoring 
and enforcement governing areas such as employment, voting 
rights, and educational opportunities. We know firsthand the 
importance of accurate data in these areas, because we know 
firsthand the pain and devastation of discrimination. For these 
reasons alone, accurate data is imperative.
    But when it comes to dealing with American Indians and 
Alaska Natives, there is another distinction. And it is the 
method by which many of the Federal agencies actually quantify 
and carry out their trust responsibility to this Nation's first 
residents.
    Why NCAI celebrates the diverse ethnic and racial 
backgrounds that make up this Nation, and while many American 
Indians and Alaska Natives are of diverse heritage, myself 
included, nonetheless we believe that it is essential to 
maintain the distinct classification standards for American 
Indians and Alaska Natives as they currently exist.
    And while we are very sympathetic to those persons who are 
asking for a multiracial category, we nonetheless at this time 
oppose the inclusion of a multiracial category in Directive 15 
primarily because we believe that such a measure would 
inaccurately count the number of American Indians and Alaska 
Natives who are members of tribal governments, and 
unfortunately further diminish the Federal Government's 
fulfillment of its trust responsibility to Native Americans.
    Simply stated, we cannot afford further inaccurate 
reductions in our numbers. We believe that a multiracial 
category poses a risk to the ability of Federal agencies to 
collect useful and accurate data with respect to Indian people. 
The stability and the quality of the data for our population is 
of particular concern, because we are a small population. And 
the data, as I mentioned, is used to disperse Federal program 
funds to American Indian tribal and Alaska Native village 
governments.
    In testimony before this subcommittee in April, I believe, 
OMB's Office of Information and Regulatory Affairs concluded 
that a multiracial response option is likely to reduce the 
proportion of the population reporting as American Indian and 
Alaska Native. Of course, these findings were actually echoed 
in the census' recent race and ethnic target test.
    Perhaps the most poignant argument, however, comes directly 
from the Indian Health Service that concluded that from a 
multiracial option, that there would be a loss of Indian count 
in the census and on vital event records of approximately 25 
percent. IHS believes that diminishment of Indian counts would 
translate to a total annual funding loss of $500 million, and 
that tribal health contacts would be curtailed to the degree 
that the data are diminished.
    IHS stated overall that this would severely impact their 
ability to advocate on behalf of tribal governments, and 
further diminish their ability to provider services to an 
already severely underserved population.
    It is my understanding that the new rules being set forth 
by the Department of Housing and Urban Development with respect 
to Indian programs are also going to rely on census data, and 
could be affected as well.
    We concur with the concerns that have been raised certainly 
regarding the issues of confusion. I know that even to say that 
I am Native American is something that I have had to learn, or 
am I an American Indian. I identify as a member of the three 
affiliated tribes. So we know when we go into our communities 
that there is going to be confusion. We thank you for this 
opportunity to present the statement in connection with this 
vital issue. And I would finally conclude that our position is 
that any change to current measures of race and ethnicity would 
have far reaching legal, financial, and statistical 
implications for the American Indian and Alaska Native 
population.
    I appreciate the opportunity to be here today, and would be 
happy to answer any questions.
    [The prepared statement of Ms. Chase follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.308
    
    [GRAPHIC] [TIFF OMITTED] 45174.309
    
    [GRAPHIC] [TIFF OMITTED] 45174.310
    
    [GRAPHIC] [TIFF OMITTED] 45174.311
    
    [GRAPHIC] [TIFF OMITTED] 45174.312
    
    [GRAPHIC] [TIFF OMITTED] 45174.313
    
    Mr. Horn. Thank you very much and now Mr. Douglas. Nathan 
Douglas is with the Interracial Family Circle. Somehow I did 
not have a biography. Maybe it is floating around here.
    Mr. Douglas. There are two floating around.
    Mr. Horn. Tell us a little bit about the group, if you 
would.
    Mr. Douglas. It is a group of about a 150 families who get 
together and support each other, interracial families. That 
could be interracial because of transracial adoptions.
    Mr. Horn. Is it in this area?
    Mr. Douglas. Yes, sir. It is a Washington-based group.
    Mr. Horn. Go ahead.
    Mr. Douglas. Thank you.
    Congressman Horn, distinguished subcommittee members, 
fellow multiracial activists, well-meaning opponents, members 
of the press, and others gathered in this room, greetings and 
best wishes to each and every one of you.
    I am here today on behalf of my son, Anthony, a healthy, 
well-adjusted 8 year old boy who happens to be multiracial. 
Like all proud fathers, I carry around a picture of my son, and 
I would like to show it to you now. This was taken a few years 
ago when he was dressed up for a wedding in some sharp looking 
but very uncomfortable shoes.
    As you can see, Anthony is not a statistic. He is flesh and 
blood, bones, muscle, intellect, and genes. And I want to 
remind everyone, regardless of your opinions on the multiracial 
issue, 50 percent of my son's genes came from me. That means 
that he is neither black nor white. He is both and no one 
should presume to have the authority to tell him or me anything 
to the contrary.
    Regardless of what some would have you believe, race 
remains essentially a biological construct in our society. When 
my son was born and the vital statistics people wanted to know 
what race he was, the issue of culture was never mentioned.
    It did not matter how he was to be raised or with which 
social group he might identify in the future, or even what type 
of music, literature, dance, folklore, et cetera that he might 
prefer. It was just about my wife's genes and my genes. So we 
should keep this debate honest and focused on biological 
reality, rather than cultural diversions.
    Now most of us know that white supremacists, using their 
insidious one drop rule tell us that one drop of black drop 
makes a person black. This crazy concept is an anachronism in 
today's world. Thankfully, we have reached the point in our 
Nation's great history where we must reject the racist one drop 
rule once and for all.
    Supporting one drop today is like supporting the flat earth 
theory. It is irrational and illogical period. People who 
continue to uphold the one drop myth, whatever their stated 
reasons, are major contributors to lingering racism in America. 
Ironically, among those still supporting the one drop myth, and 
opposing the new multiracial category, are many in the civil 
rights establishment. I say to these folks, brothers and 
sisters, this is a civil rights issue, and you are clearly on 
the wrong side of it.
    How can you suggest that a group of your fellow human 
beings, no matter how large or small, must be denied their 
right to identify accurately in order to accommodate the status 
quo. How hypocritical. The violation of multiracials' right to 
self-determination should ring loud warning bells for every 
believer in civil rights.
    Furthermore, no organization or individual has the moral 
authority to impose racial patriotism over others. Some of our 
opponents appear to have commissioned themselves as members of 
a racial border patrol. They dutifully stand guard over 
America's imaginary borders between the races, scanning the 
horizon for illegal racial immigrants. And when they see one, 
they swoop down with all of their might and unrighteous 
indignation.
    Well, it is sometimes said that the truth shall set you 
free. If our opponents are truly interested in freedom, why are 
they so afraid of the truth?
    I remind every nay sayer, from the private or the public 
sectors, that all previous civil rights legislation was 
construed to be doing harm to someone, somewhere, somehow. 
People argued about the loss of presumed freedoms or 
privileges; or the projected disastrous financial impact; the 
insurmountable logistical difficulties; or the accompanying 
social upheaval.
    However, these were never legitimate reasons for activists 
to withdraw. Civil rights legislation and complementary court 
decisions were enacted and implemented because they were 
morally correct.
    Ladies and gentlemen, the multiracial identifier is the 
morally correct thing to do. We deserve the right to identify 
accurately and whatever the consequences of this change, we as 
a society will just have to cope with them. Yes, it may mean 
other legislation will have to be created and passed. Yes, 
there will probably be many test cases before the courts. And 
yes, the whole process will be inconvenient to many. So be it.
    Multiracials and their supporters have no reason to be 
ashamed of demanding their true identity. They deserve respect, 
support, and accommodation in their efforts.
    In conclusion, our Government should stop demanding that 
multiracials and their parents commit fraud in order to 
maintain an erroneous status quo. It is irrational and immoral 
to ask me as a parent, or my child when he becomes an adult, to 
choose only one of his racial heritages as his racial 
identifier.
    Exclusively calling my son African-American or black is a 
lie also, calling him just European-American or white is a lie. 
Anthony will be multiracial for as long as he lives. We should 
respect and acknowledge that fact.
    Thank you.
    [The prepared statement of Mr. Douglas follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.314
    
    [GRAPHIC] [TIFF OMITTED] 45174.315
    
    [GRAPHIC] [TIFF OMITTED] 45174.316
    
    Mr. Horn. Well, we thank you for your presentation.
    How old is Anthony now?
    Mr. Douglas. He is 8 now.
    Mr. Horn. He is 8, OK. We might make him the first 
congressional witness after Mr. Graham.
    I now yield 7 minutes to the gentleman from Illinois, Mr. 
Davis, to question the witnesses.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    And I might suggest that not only are those sharp shoes 
that Anthony is wearing, but that is a sharp outfit.
    Mr. Douglas. Thank you. I thought so, too.
    Mr. Davis of Illinois. Plus he has a very passionate 
father. I am sure that he is very proud of him, without a 
doubt, as he ought to be.
    Let me just ask you. I mean I understand your testimony, I 
think.
    Do you believe that individually that we can accomplish 
what the Nation must do?
    I am saying that we have individual rights obviously, and 
individual responsibilities, but do you think that individuals 
just sort of taking a position that this is where I am at, and 
this is where we ought to be, that that might get us to where 
we are trying to go?
    Mr. Douglas. I would not suggest that. I am not naive. But 
I am rational. To me, a lot of what I have heard today is 
irrational. In the first place, a lot of these folks here are 
talking about ethnicity and culture. They are not talking about 
race. Race is my genes and my wife's genes, and the result is 
Anthony. That is what race is.
    When people on the one hand talk about well, physical 
features. You are going to be discriminated against because you 
look a certain way. Well, what is that? That is race. That is 
the way that we should keep this debate focused.
    And the fact is that we are not talking about what Anthony 
wants to be or what I may want him to be. We are talking about 
what Anthony is, the truth, the fact and all we want is a 
multiracial category. It could have subdivisions. I think that 
negates a lot of the arguments that I just heard before I gave 
my testimony.
    We want Anthony to be able to choose an accurate 
description of what he is, not who he is going to be, but what 
he is racially.
    Mr. Davis of Illinois. You also indicated that you were 
somewhat amazed a little bit to see the civil rights 
organizations, individuals representing the civil rights 
establishment, on the other side.
    Mr. Douglas. Yes, sir.
    Mr. Davis of Illinois. Why do you think that they are 
there?
    Mr. Douglas. Well, I would have to filter that answer.
    Mr. Davis of Illinois. I guess what I am trying to----
    Mr. Douglas. I think that a lot of them are locked up into 
old habits and old ways of looking at things. And when we see 
someone like Anthony, we do not know how to deal with it. And 
when we hear a white parent actually claiming a ``black 
child,'' it bothers people.
    Mr. Davis of Illinois. Do you think that it might be that 
based upon their years of study, their years of analyses, their 
years of understanding the issue, and their years of 
involvement may have given them a certain perspective about it 
based upon experiences that they have had, and based on 
information that they have had access to?
    Mr. Douglas. Yes, sir. I believe that they believe that, 
and I respect that. But I have got 30 years of experience in my 
life dealing with these matters too. And I know what I have 
seen, and I know what is true.
    We are not talking about an opinion here, but we are 
talking about a statement of fact. We are talking about what I 
call a vital statistic, a reality. We are ignoring reality 
here. We are talking about multiracial as if it were 
multicultural and multiethnic and it is not. It is multiracial 
and it stops there. The ethnic categories are another issue.
    Mr. Davis of Illinois. Well, I can certainly appreciate 
your passion and the individuality of your being. And I guess 
that we would probably call it shooting from the heart as 
opposed to maybe from the head.
    Mr. Douglas. Well, if you read my full testimony, it was 
from the head.
    Mr. Davis of Illinois. Ms. Ma, does your organization have 
individuals in it who are multiracial?
    Ms. Ma. Yes, as I said, our board members, I believe that 
we have board members who are multiracial. But definitely, 
their families have children who are multiracial.
    Mr. Davis of Illinois. So you spend a great deal of your 
time looking at issues that affect multiracial individuals or 
situations that multiracial individuals would most likely be 
confronted with and by?
    Ms. Ma. Yes. When we are considering all the positions that 
we take on issues, we work with other Asian American groups as 
well, who also have constituencies where there are numbers of 
multiracial individuals. And we definitely consider the impact 
that we think that a policy may have on them as well.
    Because we know that discrimination is not always based on 
how you self-identify yourself. We have heard of situations or 
we know of situations where identity really depends on how you 
appear. We know of people who come from the same family, who 
have a Japanese-American mother and an African-American father. 
The sister identifies as Asian-American, and the brother 
identifies as African-American.
    So yes, we take these concerns very carefully and 
thoughtfully.
    Mr. Davis of Illinois. Yet, you are saying that you are 
able to go beyond the individual feelings or the individual 
experiences that people may have, and look at the question in 
the context of the group, and what might be happening, or what 
might happen, or the impact on the whole group as opposed to 
what some individuals may have experienced?
    Ms. Ma. Yes. It is something that when you live in a 
society, you know that your personal expression may not always 
come first. That the greater good may be something that you are 
concerned about.
    Mr. Davis of Illinois. Thank you.
    Ms. Douglass, you also identify yourself as being 
multiracial?
    Ms. Douglass. Yes, that is what I am.
    Mr. Davis of Illinois. And you have studied the issues 
surrounding this?
    Ms. Douglass. Yes. I have been a civil rights activist 
since the late 1960's and early 1970's.
    Mr. Davis of Illinois. And I guess that the question is do 
you think that there is any possibility that the designation 
could detract, or take from, or diminish in any way the 
progress that is being made relative to multiracial inclusion, 
not in terms of designation, but in terms of the movement 
toward the common and integral part of the overall society?
    Ms. Douglass. I am not sure exactly what you are saying. 
But I can tell you from what I have heard today. I am on the 
Census 2000 Advisory Committee. I was on the working group for 
content. I have been active not just as an individual seeking 
individual redress for my community, but I have also worked as 
a very conscientious American looking for the best way to 
identify our society as it is today.
    And one of the ways that you cannot do that is to continue 
to tell people that they must adjust their identity to fit the 
laws. The laws in reality must be a reflection of our society. 
And if our society is shifting, and if our numbers as 
multiracial people who identify as such are growing, if in fact 
we have groups such as Hapa Issues Forum, which is Asian 
multiracial, and if we have the groups that identify as 
Hispanic multiracials, and they all come together and have 
joined the Association of Multiethnic Americans, then there is 
more at stake here than just individuals expressing individual 
desires.
    These are families and communities. These are people who 
are very consciously saying that what you are asking us to do 
is no longer acceptable.
    Mr. Davis of Illinois. Do you think that there is any 
possibility that class discrimination or category 
discrimination could be more difficult to identify with the 
multiracial labeling?
    Ms. Douglass. I am not sure exactly what you are asking.
    Mr. Davis of Illinois. What I am asking is individuals who 
may be discriminated against because they are of a certain race 
and live in a certain area. And let's say that that area is red 
lined, because somebody decides that they are not going to 
provide insurance coverage to a black community.
    Ms. Douglass. I am listening.
    Mr. Davis of Illinois. That is what I mean.
    Ms. Douglass. Well, there are multiracial people who are 
under economic distress. There are interracial families who are 
poor. We are not all middle class striving professionals. We 
are also poor. We are also discriminated against on the basis 
that as a family we do not have colors that match. It is not 
just because you are black or white.
    Mr. Davis of Illinois. So you are basically saying that 
this really has nothing to do with all of these sociological 
and economic indicators, but that what it would really do is 
give individuals the feeling that they have been so rightly 
identified, and now they are a real part of the American dream, 
that this takes care of it?
    Ms. Douglass. You have lost me. I just said that we get 
discriminated against in the same way as other communities. We 
are a community too.
    Mr. Davis of Illinois. I think I understand what you are 
saying. I am not sure that I agree with the approach to 
rectifying the discrimination that you are talking about. But I 
do think that I understand.
    I really do not have any other questions, Mr. Chairman. 
Well, I do have one.
    Ms. Chase, obviously, you have a great deal of civil rights 
experience or a great deal of advocacy experience, in terms of 
looking at the needs of groups of individuals. And it seems 
that there is some argument or some difference on the basis of 
whether or not the rights of individuals are being denied, if 
the designation is not included.
    Yet, there is a feeling by people like myself that 
individuals are indeed a part of it, but that individuals 
certainly do not have as much impact or influence on public 
policy decisionmaking as groups of individuals do. And so the 
group representatives seem to come from a different side.
    Why do you think that is the case?
    Ms. Chase. Mr. Davis, my whole value system is one that is 
a community based value system and a community based identity 
and so I have great appreciation for my culture. But I am also 
a member of a sovereign entity, that is a nation, that exists 
within this great Nation, and have been acutely aware of the 
efforts over the period of the history of this great Nation to 
diminish that sovereignty, to diminish that status, and to 
diminish my ability to exist as a member of the three 
affiliated tribes.
    Even the notion that there are three affiliated tribes is 
an example of such diminishment over time. We are no longer 
simply the Hidatsa Nation or the Mandan Nation.
    So certainly, I have an absolute commitment both from my 
heart if you will, and certainly in terms of the work that I do 
each day, to maintain that sovereign status. And we certainly 
find that it is that commitment that comes from the community 
and to preserve that status.
    As we have seen increasing attacks to undermine the tribal 
sovereignty from a variety of corridors, Congress included, 
that it is imperative that we work together as a group, and 
that we come together. And that is the very existence for the 
National Congress of American Indians. We came about as an 
organization representing the collective sovereigns, because it 
was the policy of this country to terminate Indian 
reservations, and to assimilate native people into mainstream 
society.
    That is why we exist. We fought that policy. And we fought 
that right to maintain our individual identity, and in so doing 
to uniquely come together and advocate together.
    Mr. Davis of Illinois. So you would probably take the 
position that no matter how well meaning individuals might be, 
that the greater the rift, or the greater the split, or the 
greater the diminution of group potentiality, the less the 
amount of protection that the individuals in the group or that 
the group itself would have?
    Ms. Chase. Yes, I would take that view.
    Mr. Davis of Illinois. Well, I certainly would concur with 
that.
    And I thank all of you very much for your testimony.
    Mr. Horn. Thank you very much.
    I just have a few general questions. On our next panel, 
Professor Waters will be one of the witnesses. In her written 
testimony she wrote this, ``The census and Federal forms create 
categories which then have meaning for people. Creating a 
multiracial category rather than allowing people to `check all 
races that apply to them' will create a category that will take 
on some social meaning, and may actually become an ethnic or 
racial group.''
    Do you agree that a multiracial category could promote a 
distinct multiracial experience and identity, and would this be 
desirable? I am asking that of all witnesses.
    Yes, Ms. Douglass.
    Ms. Douglass. First of all, the Association for Multiethnic 
Americans as well as Project RACE have stipulated that the most 
intelligent way to look at this is to add a multiracial 
category with the ability of checking all that apply. Both of 
them were components.
    Mr. Horn. All of the above?
    Ms. Douglass. All of the above. We recognize the need to 
make a distinction, so that the multiracial category is not 
simply just a substitute for other.
    Mr. Horn. So if you were doing a voting rights analysis in 
a particular area, how would the investigators do that, would 
they include the multiracial and then also all of the check 
marks?
    Ms. Douglass. Right now, the census has worked on three 
different formats for putting the question to the public. I am 
not a demographer. But from the studies that have been done, 
and there have been three, there have been multiracial and a 
blank space; check all that apply; check one or more boxes.
    The jury is still out as to which one will produce the best 
results. Our contention is that if you are going to count us, 
count us first as multiracial because we are. If you want 
further information, then ask us what that means.
    Mr. Horn. Well, let us go right down the line.
    Do you have any reaction to that question, Ms. Samhan?
    Ms. Samhan. Well, I think that I will just pass, because I 
think that this is not an issue for the coalition on the 
multiracial question.
    Mr. Horn. OK. Ms. Ma.
    Ms. Ma. I cannot say whether or not multiracial people have 
a particular multiracial experience. But I can say that I do 
believe that people who are say half African-American and half 
Asian-American may have very different experiences than 
somebody who is Asian-American and half American Indian. I 
think that they will have very different experiences.
    So the multiracial category is not very descriptive and we 
have looked at the most recent test of the Census Bureau, the 
race test. And this was the first time that we have actually 
seen any studies talking about the check one or more, or the 
check all that apply.
    In that test, the results that seemed to be the most 
accurate for our racial counts would be the check one or more. 
But we really have not had time to fully study this category.
    Mr. Horn. Ms. Chase.
    Ms. Chase. Mr. Chairman, while we certainly have a great 
appreciation for some of the arguments that are being set forth 
today by those who advocate for a multiracial category, I must 
say that on behalf of the National Congress of American 
Indians, the category itself and the implications that it would 
have for those individuals who consider themselves multiracial 
has not been a subject of extensive discussion.
    What has been is maintaining the distinct category for 
American Indian and Alaska Natives, because in fact part of the 
function of the census data that we have found a reality is 
that it does help the Government fulfill its trust 
responsibility.
    We, too, have an upcoming national organizational meeting 
in June. Certainly, these issues will be put on our agenda and 
discussed. And I would be very pleased to report back to the 
subcommittee some of the results of those discussions, 
particularly those addressing the multiracial category.
    Mr. Horn. We would welcome your input after that meeting.
    Mr. Douglas.
    Mr. Douglas. Well, I want to say that I appreciate 
everybody's sensitivity. But we would more appreciate your 
support on this issue.
    The fact is that everybody keeps talking about census data 
and other data as if it were accurate now. It is not accurate. 
Obviously, multiracials are being counted as monoracials. Guess 
what? That is not accurate. It is not true. It is not real.
    What we are asking is for the first time to make it 
accurate, and to have a multiracial category. I concur with 
Ramona, Ms. Douglass, that it should be subdivided for 
political expediency. And you will still be able to go back and 
find out who is black, who is white, and who is whatever. So 
that is my opinion.
    Mr. Horn. Your comment reminds me when I was an 
undergraduate many years ago in the 1950's. And this statement 
that I am about to quote is from a college professor at 
Stanford. This was before the Kansas case, Brown v. Topeka, was 
handed down, which overruled Plessy v. Ferguson of 1896.
    This comment was made by a professor in international 
relations who got onto the subject of race in America. He said, 
``Well, it will be solved some day, and we will all go around 
with sort of a light tan.'' And in essence, that would be 
interracial marriage. That would solve the problem, he felt.
    Since that is the only political science course that my 
wife ever took as a history major, that statement has been 
riveted in both of our minds since that time.
    Do you think that he was right?
    Mr. Douglas. I am not going to fall into that trap.
    Mr. Horn. It is not a trap.
    Mr. Douglas. Well, what I tell my son when he comes home 
and he asks me these questions about what is black, what is 
white, and who is white, and who is black, I tell him that 
everybody is brown. And I am going to hold up a white sheet of 
paper and put my hand on it, and can you tell me that my hand 
is white? I would love for somebody to tell me my hand is 
white. It is not. My hand is a shade of brown as a result of 
melanin. We all have melanin. We are all some shade of brown. 
Let's get over it.
    Mr. Horn. OK. We appreciate your testimony. There might be 
a few questions that we will have the staff send you. You are 
still under oath when you answer them. We will insert them into 
the record at the appropriate point. And we thank you for the 
time that you have taken to make such interesting 
presentations. Thank you for coming.
    We now will go to panel IV. Professor Mary Waters, 
Department of Sociology at Harvard University. Dr. Harold 
Hodgkinson, Center for Demographic Policy, Institute for 
Educational Leadership and Dr. Balint Vazsonyi, the director 
for the Center for the American Founding.
    If you would stand and raise your rights hands, please.
    [Witnesses sworn.]
    Mr. Horn. The three witnesses have affirmed the oath.
    So we will begin in the order in which you are on our 
agenda starting with Professor Waters.

STATEMENTS OF MARY C. WATERS, DEPARTMENT OF SOCIOLOGY, HARVARD 
 UNIVERSITY; HAROLD HODGKINSON, CENTER FOR DEMOGRAPHIC POLICY, 
  INSTITUTE FOR EDUCATIONAL LEADERSHIP; AND BALINT VAZSONYI, 
           DIRECTOR, CENTER FOR THE AMERICAN FOUNDING

    Ms. Waters. Thank you, Mr. Chairman, and members of the 
subcommittee for inviting me to speak with you today.
    I am a sociologist and demographer who specializes in 
racial and ethnic identity. In my comments today, I will not be 
arguing for or against a multiracial category. And I also take 
as given the need to continue collecting data on race ethnicity 
by the Federal Government.
    And to answer your question that you posed at the beginning 
of the hearing, I do think that the reason to collect these 
data is for enforcement reasons. I think that you are facing a 
problem. And we, as demographers, who try to do this actual 
work, are facing a problem. Because in order to collect the 
data and in order to meet enforcement needs, you need the 
compliance of the population.
    As you are seeing, people are visualizing their categories 
in lots of different ways, and I think that is where you get 
the disjuncture. The laws were written in one way, and people 
are thinking of themselves in another way right now.
    I have five general points. First, groups that we socially 
define as races have always had permeable boundaries. Groups 
last for generations, even with high intermarriage and movement 
of individuals into and out of the group.
    Currently, most parents do choose one race for their child 
when they are intermarried. This is similar to identity 
changes, which have happened over a long time period for white 
ethnic groups, who were once thought of as racists.
    Right now, children of many intermarriages involving whites 
with Asians, American Indians, and some Hispanics are labeled 
white by their parents in the census, while children of 
intermarriages involving blacks and some Hispanic groups are 
predominantly labeled black or Hispanic.
    The point that I want to make is a simple one, which is 
that there is already movement into and out of these groups 
without a multiracial category. This often goes unrecognized.
    Second, there is research on how mixed ethnic individuals 
fill out the census form. And there are just a couple of 
insights that I think should inform the decision that you have 
to make.
    First, we know that education is positively linked with 
reporting a multiple ancestry. Less educated people tend to 
report fewer identities to the census. We also know from 
examining mixed ethnic people, that parents tend to simplify 
their children's ancestry in filling out the census form. And 
yet, parents also tend to give more data than the children 
themselves do when the children grow up and answer the census 
form for themselves.
    So there is some slippage. When the parents fill out the 
census form, you have less information. And when the person 
grows up and leaves home, there is even less information. And 
over the life course actually, people tend to simplify their 
identities and give less than one answer.
    There is also evidence that when people get married, they 
tend to match up their ancestry with that of their spouse. So 
if an Italian and Polish person marries an Italian person, they 
tend to say that they are both Italian, and they forget about 
the Polish part.
    The implications of this is to the extent that lobbying 
groups are pressing you for a multiracial category, they are 
composed of parents of multiracial children. One question for 
research over the coming years would be whether the children 
themselves would identify with the same degree of completeness 
about their ancestries that their parents are currently doing.
    Second, it is unclear about whether this is something that 
is associated with age, because multiracials are quite young 
now because of growing intermarriage. And we do not know in the 
future how Mr. Graham will identify when he grows up.
    The third point that I want to make is that there is a much 
larger potential multiracial population than the number of 
people who currently try to identify as multiracial. Right now, 
there are a number of people who choose one race, yet they 
report elsewhere they have more identities. The pool of 
potential multiracials is large. Recent testing, which has been 
referred to today, finds the number of people who actually 
report a multiracial identity is small, 1.0 to 2 percent of the 
population.
    The fourth point is that political attention, like we have 
seen today, will likely focus on black/white interracials, and 
on the implications of an interracial category for the long run 
political and social fortunes of African-Americans. This 
reflects the enormous importance of the black/white color line 
in our society, and the distinctive legacy of slavery. Yet if 
there is a multiracial category, it will affect much more 
strongly the Asian and American Indian counts. And if Hispanics 
are included as a racial category, the Hispanic populations. 
This is because of the much higher rates of intermarriage, and 
they are much smaller groups, except for the Hispanics.
    So the statistical impact will be much greater. And indeed, 
in the census tests, the African-American population has not 
been significantly statistically impacted by a multiracial 
category.
    Finally, the census and Federal forms create categories 
which then have meaning for people. Creating a multiracial 
category rather than allowing people to check all races that 
apply to them will create a category that will take on some 
social meaning, and may actually become an ethnic or racial 
group.
    The fact that this group does not exist now, except as a 
statistical artifact and a coalition of people lobbying the 
Federal Government, does not mean that the group cannot come 
into existence and begin to have social meaning for people. We 
are probably seeing the beginning of that with people right 
now. And that is what happens with racial and ethnic groups. 
They come into existence, and then they change over time.
    So the point that I am making is what may appear to be a 
technical choice, which you are probably going to get 
information about how much it costs to do one or the other, it 
is not simply a technical choice, but it will have long run 
implications for how people actually think of themselves, and 
what kind of data are actually reported for different 
categories.
    Thank you.
    [The prepared statement of Ms. Waters follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.317
    
    [GRAPHIC] [TIFF OMITTED] 45174.318
    
    [GRAPHIC] [TIFF OMITTED] 45174.319
    
    [GRAPHIC] [TIFF OMITTED] 45174.320
    
    [GRAPHIC] [TIFF OMITTED] 45174.321
    
    [GRAPHIC] [TIFF OMITTED] 45174.322
    
    [GRAPHIC] [TIFF OMITTED] 45174.323
    
    [GRAPHIC] [TIFF OMITTED] 45174.324
    
    [GRAPHIC] [TIFF OMITTED] 45174.325
    
    [GRAPHIC] [TIFF OMITTED] 45174.326
    
    [GRAPHIC] [TIFF OMITTED] 45174.327
    
    [GRAPHIC] [TIFF OMITTED] 45174.328
    
    [GRAPHIC] [TIFF OMITTED] 45174.329
    
    [GRAPHIC] [TIFF OMITTED] 45174.330
    
    [GRAPHIC] [TIFF OMITTED] 45174.331
    
    [GRAPHIC] [TIFF OMITTED] 45174.332
    
    [GRAPHIC] [TIFF OMITTED] 45174.333
    
    [GRAPHIC] [TIFF OMITTED] 45174.334
    
    [GRAPHIC] [TIFF OMITTED] 45174.335
    
    Mr. Horn. Thank you. And I particularly enjoyed your paper. 
It was a very sound piece.
    Have you given that at particular academic conferences?
    Ms. Waters. Yes. And some of it has been published in other 
places.
    Mr. Horn. Well, it is very helpful.
    Dr. Hodgkinson.
    Mr. Hodgkinson. Thank you, Mr. Chairman.
    The speaker's last comment, Dr. Waters, is one that I would 
like to start with. And that is the fact that it is not quite 
clear what Directive 15 is all about. If I can quote from the 
directive. ``The racial and ethnic categories set forth in the 
standard should not be interpreted as being scientific or 
anthropological in nature,'' which does not tell us what they 
are, but tells us what they are not. And it would be very 
helpful for me if we had some clear sense of what Directive 15 
means.
    If it is to describe the American people as accurately as 
possible, that would be one set of conditions that I could 
understand. The issues that we have talked about were clear 
when Thomas Jefferson began this process, and we began to see 
that the ``one drop of blood'' rule was clearly a way of 
expanding the slave pool.
    Ever since, it has been used for political purposes as well 
as simply to describe the people, so that we could reorganize 
the House of Representatives, which I thought was a stroke of 
political genius at the time and still do.
    That idea that we change the Government so that it fits the 
population is a very, very useful idea. It seems to me, 
however, that with the mixed category that we have finally run 
into the fact the scientific basis for the categories is not 
clear. And that, indeed, we may begin to think about biology in 
terms of what it means for these new categories.
    So should there be a category in the 2000 census for 
multiple ancestry? If the census is to accurately describe the 
American people of course.
    I would like to raise a different question. What do we as a 
Nation need to know about people and why? Some argue that to 
target Federal assistance equitably, we need to keep the 
current categories in order to eliminate them. Bringing to mind 
the famous comment about Vietnam, destroying the village in 
order to save it.
    I think that we need to build on our history so far, and 
learn from our experience. When Brown v. Board of Education, 
which you mentioned, Mr. Chairman, was decided, all of the 
black children in Topeka were poor. Today 20 percent of black 
households have an income higher than the white average. And in 
1996, high school graduation rates for whites and black 
students equalized at 90 percent.
    Minority populations are spreading across this vast 
economic and educational range as whites, which is a great 
success story. Being a minority is no longer a universally 
handicapped condition. But being in poverty is. No one ever 
benefited by being born into poverty.
    In fact, wealthy black students do better on standardized 
math tests than Asians from poor families, although we assume 
that all Asians have a math gene which then enables them to 
perform superbly.
    Today in America, the census itself has reported that we 
are more segregated by wealth than we are by race, two reports 
as of 1996. Minority middle class families are alive and well 
living in the suburbs preparing their children to go to 
college.
    Our racial desegregation efforts have if anything only 
increased economic segregation. What if we were to bend our 
efforts to economic desegregation, if we were to truly right 
wrongs? We are seeing a large increase now in low income 
children living in the close-in suburbs. So the idea that the 
city contains all the poverty is simply no longer as true as it 
used to be, if indeed it ever was. There is also a large 
increase in white children in poverty, and that presents 
another set of issues.
    I know hundreds of communities in which white, black, 
Asian, and Hispanic, and urban Indians live together as friends 
and neighbors, but there are few if any poor people there. I 
know of no community in which rich and poor people live as 
friends and neighbors. And it seems to me that this issue is 
one that will come up in one way or another in the next 10 
years.
    The fuss that white parents made about having their 
children go to school with minorities is nothing compared to 
the explosion if we demanded that wealthy children to go to 
school with poor children. The Kentucky State Supreme Court 
decision effectively desegregated the State schools 
economically, arguing the enormous difference in per student 
spending between its poorest and richest school districts. Many 
other States have had similar court judgments without a date 
certain for implementation.
    The courts have not yet tested the equally great difference 
in equity between the richest suburban schools and those of 
their innercity, much less economic equity within a single 
school.
    If the census categories are to correct economic injustice, 
what indeed should they be?
    If I know that a household contains a married couple, one 
or both college graduates, with one or more children, I do not 
need to know their ethnicity for equity purposes. If I wish to 
sell things to them, which is another function of the census, 
the most widely used marketing tool in the Nation, I would like 
to know the nations of origin, and I would like to know how 
many generations their ancestors have lived in the United 
States.
    It seems unlikely to me that the traditionally black 
colleges would lose funds by having a mixed race category. I do 
not think that we really know what people are going to decide 
on ``mixed raced'' until we actually do it. There have been 
other noncensus estimates that are much higher in terms of how 
many people would change.
    But the idea that black colleges would lose money in this 
way, because they would be a smaller population overall, I 
think is probably not true. That is if there were a Federal 
category to aid colleges that have historically taken in large 
numbers of poverty students from home without a college 
graduate parent, all of the traditionally black institutions 
would still be included and would perhaps even be higher in 
terms of the amount of money that they would be eligible for.
    It is my hope that while you look at the mixed ancestry 
box, that you need to think about the broader question. And 
Congress needs to advise, I believe, OMB on this.
    And that is, what do we need to know about the American 
people's ethnic background, for what purposes, and why?
    Thank you.
    [The prepared statement of Mr. Hodgkinson follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.336
    
    [GRAPHIC] [TIFF OMITTED] 45174.337
    
    [GRAPHIC] [TIFF OMITTED] 45174.338
    
    [GRAPHIC] [TIFF OMITTED] 45174.339
    
    [GRAPHIC] [TIFF OMITTED] 45174.340
    
    [GRAPHIC] [TIFF OMITTED] 45174.341
    
    [GRAPHIC] [TIFF OMITTED] 45174.342
    
    [GRAPHIC] [TIFF OMITTED] 45174.343
    
    [GRAPHIC] [TIFF OMITTED] 45174.344
    
    [GRAPHIC] [TIFF OMITTED] 45174.345
    
    [GRAPHIC] [TIFF OMITTED] 45174.346
    
    Mr. Horn. Thank you.
    Dr. Vazsonyi, you are next. And maybe you could tell us a 
little bit about the Center for American Founding, of which you 
are the director.
    Mr. Vazsonyi. Thank you, Mr. Chairman. We advocate and 
practice a discussion of national issues as they relate to 
America's founding principles. We believe that too many issues 
are being discussed without reference to the principles, as I 
think my testimony might also reflect upon.
    It is a great privilege to be here. It is my first time and 
the last thing that I would like to do is abuse the privilege. 
So I hope that I am not offending the panel and my fellow 
witnesses if I suggest----
    Mr. Horn. None of us get offended at anything, I can assure 
you.
    Mr. Vazsonyi [continuing]. If I suggest that I believe we 
are in the wrong debate altogether. And this is one of many 
such instances because as all of the difficulties referred to 
already by everyone, the question is not whether we need more 
categories, but the question is should there be any categories 
at all.
    And I would like to recall that when I think about the most 
memorable moments of my life, it is not when I played in 
Carnegie Hall or in the Kennedy Center--I am a pianist by 
profession--but those moments happened in a courtroom in Grand 
Rapids, MI in 1964 on the day when I became an American 
citizen.
    And I will never forget the judge, after administering the 
oath of citizenship, looking over the courtroom at the people 
and said, ``Now please remember, you are not Dutch-
American,''--being Michigan, there were many from Holland--
``and you are not Hungarian-American, or any other hyphenated 
American. You are American.''
    And so, Mr. Chairman, on April 20, 1964, when I was 28 
years old, I was for the first time in my life a human being 
with equal rights. Never before, because I grew up in Hungary, 
never before had I achieved that status. And I will come back 
to Hungary in a few moments.
    But I would like to spend a minute talking about equality 
before the law, this most noble and most elusive attribute or 
asset that humanity may avail itself of. It was a long hard 
road. And although the English began to dream about it some 800 
years ago, ours is the only country that committed itself to 
that concept in the moment of its birth.
    And the relevance, the overwhelming importance of equality 
before the law is such because we are unequal in every other 
respect. You can just look around this small gathering, Mr. 
Chairman, as I am sure that Thomas Jefferson did when he wrote 
that memorable sentence, to realize that we are unequal in 
every other aspect. The only way that we can be equal is before 
the law.
    It is a very precious thing. And the fewest people, the 
fewest nations, have ever gotten there, which is why I would 
like to disagree, and I am very sorry that Representative 
Maloney is not here, because in her opening statement, she said 
that the reason we are here is that there was slavery in 
America 200 years ago. And there were very unsatisfactory 
conditions even 100 or even 50 years ago.
    I would like to disagree, because that is not why we are 
here. There was slavery everywhere, in every corner of the 
globe, and still is, if our newspapers are correct. The reason 
that we are here, Mr. Chairman, is that 200 years ago some 
people got together and decided to build a better life. And it 
was in America, and they were Americans, and that is the reason 
that we are here today.
    The road to it is very hard, and nobody suggests that 
equality before the law was accomplished the moment it was 
declared. It is like announcing that we will climb Mount 
Everest. That is an intention announced. It does not mean that 
we are at the summit. It means that we are committed to the 
hard and arduous road of getting there. And I think that this 
Nation has an unequaled record in trying to do just that.
    I spoke of the memorable moments in my life. There was 
another one that I would like to relate. And that was the first 
time that the mail delivered an affirmative action form to me. 
I remember staring at it. And I remember the night when I 
walked out of Hungary, dodging Soviet military search lights, 
and mine fields, and all of those things. I thought that I 
would never see anything like that again. And I could not 
understand what was happening in my new homeland.
    It seemed to fly in the face of common sense. Because the 
university that sent it to me described itself as an 
affirmative action/equal opportunity employer. And I looked at 
it and asked, what happened to the country of common sense? It 
cannot be both. You are either one or the other.
    Then it seemed to me that it flies in the face of what is 
the essence of America, which is that we are not locked into 
our origins. This entire society came into being to offer the 
peoples of this earth a place where they can come and not be 
locked into their origins.
    And then, of course, I remembered my first 20 years in 
Hungary, first under the Nazis and then under the Soviet 
occupation. People were locked into their origins. And people 
were judged by the forms that they had to fill out, and the 
categories they had to choose.
    And it is a horrible proposition to even mention those 
abhorrent regimes that we all detest in the country that we all 
love. But unfortunately, there are really no two ways about 
collecting data with the force of law behind them, and 
enforcement behind them, of people's origins.
    It was never done for a good purpose. It cannot be done for 
a good purpose. Because it flies in the face of freedom and 
equality before the law.
    I would like to refer to three important documents. Thomas 
Jefferson, of course, said that all men are created equal.
    Mr. Chairman, I see the red light. I was asked to prepare a 
10-minute oral testimony. I hope that you will permit me to do 
that.
    So in the Declaration, we are committed to the idea of 
equality before the law. The Constitution in its preamble, as 
the very first purpose of its being, says ``in order to create 
a more perfect union.''
    And then we come to the Bill of Rights, which recognizes 
the rights of persons as individuals, or the people as a whole, 
but there is absolutely no mention or no provision for groups 
of any kind. And this was true in 1776 and in 1791. It still 
seemed to be true in 1964, when a distinguished American who 
now serves in another chamber of this august body with the 
minority, his name is Daniel Patrick Moynihan, wrote that 
groups do not have rights in America, only individuals do.
    And so what we are really looking at, Mr. Chairman, is the 
question of the rule of law. And the law is not a smorgasbord. 
And by law, I mean the supreme law of the land, the 
Constitution. It will not do that a generation, any generation, 
looks at it and says, ``these laws I like, the others I do not, 
so let me just observe the ones that I like.'' It will never 
do.
    So therefore, it seems to me, even though I am not so naive 
as to think that one testimony late Thursday afternoon is going 
to change what so many people are committed to, but I think 
that the compassion which dictated so many of these processes 
is misplaced here.
    Although compassion should prevail when we write the law 
and compassion should prevail perhaps when we apply the law, 
but it should never take the place of law. And therefore, it 
seems to me that both the law, and the spirit, and the nature 
of America requires that there be no categories. And this is 
not to say that the census should not collect data about 
ancestry, which people are free to write in any way they want. 
But that is a very different thing from preexisting categories, 
which freezes people into a condition.
    And I thank you for your attention.
    [The prepared statement of Mr. Vazsonyi follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.347
    
    [GRAPHIC] [TIFF OMITTED] 45174.348
    
    [GRAPHIC] [TIFF OMITTED] 45174.349
    
    [GRAPHIC] [TIFF OMITTED] 45174.350
    
    [GRAPHIC] [TIFF OMITTED] 45174.351
    
    [GRAPHIC] [TIFF OMITTED] 45174.352
    
    [GRAPHIC] [TIFF OMITTED] 45174.353
    
    [GRAPHIC] [TIFF OMITTED] 45174.354
    
    Mr. Horn. Well, I thank you for that eloquent statement. My 
father happened to be an immigrant from Germany in 1903. You 
sound much like him. I have always found that immigrants have a 
greater appreciation for the Constitution than most people born 
here regardless of race or ethnicity. Because you saw the 
difference between where you came from and where you came to. I 
thank God for immigrants who renew our faith in America when 
they come here.
    Since you mentioned that point of groups versus 
individuals, I am going to take the liberty of the Chair 
without objection to put in at this point in the record a 
dissent that I wrote when I was on the U.S. Commission on Civil 
Rights when some of my colleagues were saying well, we have to 
translate our ballots, and this started in the Federal courts 
in Lau v. Nichols, into particular languages.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.355
    
    Mr. Horn. Of course, that is sheer idiocy under the 
Constitution. And yet, we are still doing it, and it is wrong. 
This Congress should have the guts to deal with that matter 
when we get to it. It was not in the original Voting Rights 
Act, I can assure you. It was added later, I am sure, with well 
meaning people with compassion.
    But if we are going to start carrying out the equal 
protection clause as being based on helping groups and not 
individuals, then we will need 300 or 350, if you include 
Indian dialects, of different types of ballots printed in the 
United States. And since that is so absurd, maybe we all ought 
to speak English, and read English, if we are going to be 
citizens.
    That was the tenor of my remarks. But I am going to put in 
the full remarks, and take advantage of you opening up that 
question.
    I am going to yield the time now to my colleague from 
Illinois, Mr. Davis. We will each take 7 minutes to question 
and maybe a little longer.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
had a feeling that this group might bring out the academician 
in you. I was sitting there hoping that you did not pack up 
your books and run back to academe.
    But it was certainly delightful to hear the testimony 
coming from each one of you. And I do think that academe 
provides a foundation of hope for not only America but indeed 
for the world.
    Dr. Vazsonyi, I could not help but think when you raised 
the question of Thomas Jefferson relative to the creation of 
men how one can bridge the gap to the practicality or the 
reality when I think of the fact that Jefferson actually owned 
slaves, but made this lofty statement.
    How do you bridge the gap between what one says and what 
one does?
    Mr. Vazsonyi. Congressman, I think that I began responding 
to this when I mentioned the climbing of Mount Everest. That 
there can be little doubt that Mr. Jefferson looked around him 
and saw a very unequal world both in his household and the 
world at large.
    And it seems to me that the phrase that he wrote is the 
expression of an aspiration, one that was not reality anywhere 
else at that time, or in the very fewest places. And mostly 
those who spoke English even described it as an aspiration to 
achieve at some later date.
    So it was a long and arduous road, and there were realities 
which happened to exist at that time. I have a Ph.D. in 
history, so I have done a certain amount of reading and 
thinking about these things. It seems to me that there are two 
things that people cannot do. One is to change the past, and 
the other is to foretell the future. And it seems to me that 
there is no disagreement today about the way that we viewed the 
past, but we cannot change it.
    I do not think that Mr. Jefferson would have been in a 
position even to change his present beyond a certain extent, 
but it was possible for him to propose that the Nation be 
committed to an idea.
    And I wonder if you might agree with me, Congressman, if I 
suggest that the only test that America ever failed was when 
measured against American standards. America certainly never 
failed by any standards established or existed in other 
nations, only its own.
    Mr. Davis of Illinois. Well, I would agree with that. But I 
was taught never to compare yourself with others, because you 
might become vain. Because there is always someone greater and 
far lesser and so the only true measurement is against or 
compared to self.
    The other question that I would ask, we had a little bit of 
it, but I would ask each one of you, if you could respond to 
it.
    Since politicians have to make decisions, I mean we 
ultimately may have to decide something on the basis of 
something, do you think that the categories which currently 
exist really help to fight discrimination and help move us 
closer to that state that Jefferson may have been talking 
about?
    Mr. Vazsonyi. I would just like to report that I arrived 
here in 1959, and I happened to end up in Tallahassee, FL, 
because there was a great musician with whom I wanted to study. 
And I found myself in the middle of a segregated State and 
community.
    I do not mind telling you that I simply could not believe 
that this could exist in America, in the America that I had 
hoped to come to.
    But I was also here in 1964 when I became a citizen, and I 
saw what was happening. And that America was always famous for 
self-examination, more than others. I claim this vanity, I 
permit myself the vanity, because I was not born here, and am 
not as prejudiced.
    So I know where we come from. Because I have experienced 
it, and I fought it in my own little way, you know, before I 
was a citizen or could speak English.
    But your question is have we accomplished something? And my 
answer would have to be that if I compare the spirit, the 
intent, the genuine good will that I felt about 30 years ago 
really sweeping the country, my honest answer under oath would 
have to be that I think that we are worse off today than we 
were then.
    And I take up something that one of the witnesses 
mentioned. I think that if we seek information, then a question 
about ancestry is helpful. The sense is that these categories 
are really about benefits, or to even put it more crudely, 
money and that is not a good recipe for good feelings to 
develop.
    Mr. Hodgkinson. I think that the categories are getting 
less useful, partly because of something that Dr. Waters said. 
And that is the fact that we are now finding much more things 
going on within each category as well as the costs.
    Shirley Halzlett has a wonderful book called ``The Sweeter 
the Juice,'' which describes a black family in which two 
children have light skins and go North, and two stay in the 
South. And the description of what happens to them in terms of 
their lives is deeply moving for a white person.
    My feeling is that the categories will continue to get less 
useful, because of the fact that the population is going 
through some very major shifts that we never encountered 
before. And it seems to me that those shifts can only get 
larger.
    Several indications are that we have roughly 2 million 
Native Americans, and 4 to 5 million people who will claim in 
one form or another, in one venue or another, that they have 
Native American ancestry.
    All of those things, I think, are going to begin to boil 
over. And people are going to become aware of the fact that 
these categories are not scientific. And there may be a 
disillusionment with this whole process, which would be a bad 
thing for everybody.
    So my concern is that these be as accurate as we can 
possibly make them. And I do not think that the current 
categories are as accurate as we could possibly make them.
    Ms. Waters. Yes. I think that the current categories are 
very useful for protecting people and for helping people.
    As part of the National Academy of Science's workshop on 
OMB Directive 15 a couple of years ago, they wrote to every 
Federal agency and said how do you use these categories. And we 
had a binder about that thick. It was extremely informative to 
me about the incredible range to which these data are put in 
protecting people and helping people in all kinds of different 
ways.
    I do think that you are facing a technical problem though, 
which is as the population changes, the categories have to 
change along with them. And that is partly a technical question 
and it is partly a political question. And clearly, those lists 
of races on the census are a political result. No person I 
trained in demography or social science would come up with that 
list of categories.
    But you do need to walk a fine line between changing them 
enough to keep them useful, and not destroying the uses to 
which they are being put currently.
    Mr. Davis of Illinois. So you are saying the ultimate 
bottom line. I guess when you raised the question of the 
benefits, I could not help but think of Voltaire who suggested 
that there were a lot of people who took the position that the 
purpose of politics was to take as much money from one group of 
people as you could, and give it to another group. Also, I 
guess that he was a philosopher.
    And I am not sure that much has changed in the way of 
thinking. I am saying that practically everybody that I know 
thinks in terms of a certain kind of self-interest, and then 
figures out a way to rationalize the self-interest, so that it 
does not sound or seem to be self-serving.
    So there is a tremendous gap that already exists, but it is 
being generated even more between those who have and who have 
not. And all of the groups are concerned about how do I get. 
You know, not how I get what may rightfully belong to someone 
else, but how do I get my fair share.
    And I think that civil rights groups take the position that 
somehow the addition will decrease the ability to get their 
fair share.
    How do we allay those fears, or how do we respond to those 
feelings and questions?
    Mr. Vazsonyi. I think that the first problem, Congressman, 
is what fair share is. And I think that since you bring up 
Voltaire, I would like to take the liberty of referring to what 
I think is the real debate that has been going on for 300 or 
400 years between two fundamentally different views of the 
world. And I think that we are in the middle of it here right 
now.
    One view believes in perfection that can be and must be 
achieved at any cost. And another view holds that we are 
imperfect, and so was Thomas Jefferson incidently, and we all 
are. And that we need to go with the best possible.
    I would like to submit to you that only if you believe that 
perfection is possible can you define what fair share is. 
Because it is a very relative thing.
    I really do not mean to get melodramatic. But believe me 
that if you are 8 years old and you are in the siege of 
Budapest as I was, followed by 2 or 3 years with basically no 
food for anyone, then relatively speaking, the poor of America 
appear to have generally a better lot than a whole lot of 
people in all sorts of conditions elsewhere. Which is not to 
say that they are not poor relatively speaking. But because it 
is relative, what is fair?
    Mr. Davis of Illinois. I think that I understand you. I 
often debate the question of is it fair for birds to eat worms? 
And I take the position that if you ask the bird, you get one 
answer. And if you ask the worm, then you get a different 
answer most likely. And so there are dilemmas I guess that we 
really face as we try to arrive at a conclusion.
    I am finished, Mr. Chairman. I think that you have been 
more than generous. If the other two would respond, that would 
conclude my questions.
    Ms. Waters. Well, I think that what I would try to do is to 
think creatively about how to allow people their ability to 
self-identify, but then be able somehow to come back to the 
categories that you need for legislative needs. And that may 
mean having some kind of a combination question, and I have 
seen a couple sort of floating around, in which you have the 
categories that you need for legislative purposes, and you also 
allow people somehow to tell you what they really are. There is 
a small percentage of Americans that really do want to tell you 
that they are a combination of different things.
    And I think that it is important for you to recognize that 
that has become a real sense that people have that when they 
fill out these forms, that they are really asking for 
recognition of something. They are some dignity issues that 
come up with people about being recognized for who they are.
    So I think that some combination there where you can allow 
people to answer a question to say who they are, and then get 
back to the categories that you need for legislative needs.
    Mr. Hodgkinson. I would also suggest that you look 
carefully at the national origin issue. Because there are some 
nations that were clearly put in the form as examples, because 
of political pressure. And I see nothing wrong with that as 
long as everybody has the right to compete. But why out of 200 
and some nations in the world, we have a list of some nations 
on the census and we do not have others, when every nation has 
somebody living in the country, it seems to me to be a 
disequity in itself.
    I find it sort of a hodge-podge of different kinds of 
information. And to my mind, there has to be some self-scoring. 
But there also has to be a sense on the part of people to 
understand what this is all about. And I do not think that most 
people do. I think that there is vast confusion about what this 
thing actually is. My feeling is that we have seen the tip of 
the iceberg in terms of people who actually do come from mixed 
circumstances. And I think that once it becomes socially 
acceptable to talk about it, you are going to see a large 
increase in the number of people who will so record themselves.
    Mr. Davis of Illinois. I really hate that the press left so 
soon. Because I think that it would have been just great or it 
would be great for the American public to experience this 
discourse. And I certainly again appreciate your responses.
    Mr. Horn. I thank the gentleman, and I agree with him on 
his last comment. That maybe we are going to get you back here 
on the third hearing on this subject, which will be July 25, 
1997.
    OMB, the Office of Management and Budget, is supposed to 
receive a preliminary recommendation on Directive 15 sometime 
in July. And the subcommittee will convene to consider that 
recommendation.
    I just have a few closing questions here that interest me. 
I happened to serve in President Eisenhower's administration, 
believe it or not, and I think that I am one of the few that is 
still in Congress, except for Strom Thurmond and Senator Byrd. 
I remember living through the Depression.
    Eisenhower had a great comment. He lived through, not the 
Depression I lived through--he was in the military and a 
major--but when he was a young boy in the early part of the 
century in Kansas. Kansas was not exactly the well off section 
of America. He said, ``I guess that we were poor, but we did 
not know it.''
    And that is exactly the way I was. My father was completely 
wiped out in the Depression. He lost everything he had, except 
13 acres of a hillside and a house that he had built with his 
own hands. That is where I was born. So I did not know any 
different. I thought that it was the best life I could find. I 
thank God every day that I was not born in urban America, be it 
Los Angeles, Long Beach, or anywhere else.
    Some of this is consciousness of one's relative 
deprivation. I think that probably one of the most influential 
books that I ever read was Crane Brinton, one of your 
colleagues a few decades ahead of you, at Harvard in the 
history department, who wrote ``The Anatomy of Revolution, 
Phase I, Alienation of the Intelligentsia.'' That could cause 
the Government more trouble than most people think. Ideas are 
important.
    And I remember, as a young man in my eating club, having 
Kerensky over for dinner. He had been one of the great 
democrats--small d--in Russia, who had actually led the Duma in 
trying to get democratic policies and putting the Czar aside 
peacefully.
    As he warmed up, you saw what might have been Russia, 
instead of 70 years of communism and totalitarianism and 
killing 26 million people. But that did not happen, because of 
a mistake here and there.
    But what I am particularly curious about, Dr. Waters, since 
you have written so much on the subject, and I regret that I 
did not have time to read all of your books before this 
hearing, but this has been a bad week in terms of reading 
anything but budget resolutions.
    But you wrote one, ``From Many Strands, Ethnic and Racial 
Groups in Contemporary America,'' then ``Ethnic Options, 
Choosing Identities in America,'' and numerous articles.
    What I am curious about, since you might have been here 
when I noted that groups were concerned that the U.S. 
Commission on Civil Rights was not thinking about national 
origin discrimination, and correctly came and berated us, and I 
agreed with them. They should have berated us.
    The original focus of the U.S. Commission on Civil Rights 
under President Eisenhower was first on black voting, voting 
discrimination as to blacks in the southern United States. That 
was point one.
    The Commission came in unanimous. He never thought that 
they could agree. They did agree, even with southerners on it. 
No one could say that that was not true.
    Then in 1961, they issued major reports on housing, 
education, administration of justice, and so on. Six major 
reports. Which those of us on the Hill in a staff position tore 
apart and put into legislation, and beat on the door of the 
Kennedy administration for about 3 solid years. We finally 
forced out of them--they were very reluctant to do anything 
believe it or not--a civil rights draft in June 1963.
    Now the Civil Rights Commission broadened its base. Well, 
by late 1969, they at last thought about discrimination against 
Mexican-Americans. They issued a Mexican-American education 
report. They had not done anything about it. I would hate to 
tell you that we finally forced them to think about the Native 
American, the American Indian. And we held hearings on the 
Navaho Reservation in October 1973 and all of that.
    And women, they did not bother themselves with women. So we 
had to force them into thinking about that. And shame them in 
as fellow commissioners, they finally went along with that.
    The bias of the staff was simply, and I can certainly 
understand it, no group has been discriminated as much against 
in this country as African-Americans historically, and still to 
some degrees in some places. But it has been a slow evolution 
of groups coming into their own with their problems. Since we 
had review of the administration of justice in the country, we 
would look at what was happening to the gay Americans, nobody 
on the staff wanted to touch that one. I mean it was just a 
wall that went up. And police abuse was going on, and nobody 
was facing up to it. So I faced up to it. And so it went. Even 
groups of Government people that mean well sometimes have to be 
kicked, dragging their feet, or pulled into the 20th and 21st 
century.
    So what I am curious about with your writings is do you 
feel in this day and age that we are several decades or three 
generations past the large East European ethnic migration to 
the United States in the 1870's, 1880's, and 1890's, the turn 
of the century, I would just be curious as to what your feeling 
is on this, how much discrimination if any has been suffered in 
the East European communities as they met the cultures that 
came ahead of them?
    And this includes my Irish ancestors who felt that the 
Yankees were beating them up politically, economically, and 
every which way, and then by the 1940's they were beating the 
yankees up in terms of politicals and all of their neighbors. 
You know, you had the Italian gangs in one block and the Irish 
gangs in another.
    My assistant, I remember, when I was president of the 
University at Long Beach, I said, ``How did you learn to be a 
track star?'' He said, ``I learned by running like heck when 
the neighborhood gang came after me.'' One learns to be very 
fleet of foot at that point.
    But I would be curious as to how you would sum it up with 
your research on this. Is ethnic discrimination still with us, 
and is it worthy of anything the Government agencies are 
supposed to be doing to fight discrimination?
    Ms. Waters. I think that you can find individual instances 
of discrimination based on a particular national origin or 
European origin ethnic group. I think that what we have 
learned, and really the census ancestry data has been 
incredibly important for answering these questions. Before we 
had that ancestry question we could not even really talk about 
later generation European origin ethnic groups.
    But I think that most of the data points to the fact that 
for most of these groups, even from Eastern Europe, they have 
experienced what sociologists Andy Greeley calls the ethnic 
miracle. That in most cases that there is no evidence of 
systematic occupational discrimination. They earn the same 
incomes for people at the same educational levels.
    Even the occupational concentrations that you had seen for 
Slavic groups, and Greeks, and Italians, et cetera by 1980 and 
1990, you can see some vestiges of it, but you really cannot 
see much of it at all. So in most cases, I think that you have 
seen real social progress over a couple of generations for 
those European ethnic origin groups.
    Whether or not there are particular people who still 
experience particular discrimination, I would say that I am 
sure that there are. But I think that systematically the data 
points to real ethnic progress for those groups.
    Mr. Horn. So then the question would be why do we need the 
ancestry question?
    Ms. Waters. Well, you know what is interesting about the 
ancestry question is that the census tends to always be 
designed to solve yesterday's problems, because that is what 
you are thinking about when you design it. So, of course, the 
ancestry question was designed to really give information about 
European groups, because the groups were aging generationally.
    But in fact, it is being used for instance to look at Arab 
Americans, discrimination against Arab Americans. And in fact, 
if it is on the year 2000 census, there will be another group 
that it will turn out that we did not even think about them 
when we were designing the census. But there are people who 
will self-identify that way, and you will actually find red 
lining against them, systematic discrimination, and income 
problems.
    And so I do not think that you necessarily know before you 
collect the data who you might be actually best using it for. 
We collected it to find out how Eastern Europeans were doing. 
It actually gave us a lot of info about Arab-Americans. And it 
is the only source of information about Arab-Americans, some of 
whom experience very virulent discrimination.
    Mr. Horn. We have major refugee groups in various parts of 
the country. In my own city of Long Beach, there are roughly 
50,000 Cambodians. If you go over to Orange County and 
Westminster Garden Grove, they even have a sign that the State 
has put on the highway, Little Saigon. If you go into central 
Los Angeles on the freeway, there is a sign Korea Town. That is 
all put up with the excited part of the businessmen and women 
in those communities, who would like the tourists to come 
there, sample the food, and so forth and so on.
    So you think that by having an ancestry category on the 
census form, that is we wanted to do an economic analysis or 
other type, a school progression analysis or whatever, we could 
find where those clusters are, and see if they are going at the 
same pace as the majority of American citizens?
    Ms. Waters. Well, the reason that we have everybody 
lobbying you to be on the short form which is the race and 
Hispanic question is that sometimes that kind of question that 
you have, the ancestry data will not be very good for it, 
because you will not be able to get it at a low enough level of 
concentration, because it is from the sample, it is from the 20 
percent sample.
    So sometimes if you have, for instance, school enrollment 
kinds of data that you are looking for, the ancestry data is 
not as helpful as if you had it on the race or Hispanic 
question. So Koreans are a race category and you can get that 
data for the school enrollment for Koreans. The Cambodians are 
not. You have to find them in the other Asia category. So it is 
a hit or miss kind of thing in terms of the politics of who is 
listed separately.
    Mr. Horn. As you suggest, that is very misleading. Look at 
the Mung people, the poorest of Asias that came over here as 
refugees. They certainly deserved to come here given all of the 
service they rendered to the U.S. Government. You have 
thousands of them in the central valley. I have probably a 
thousand in my district adjacent and mixed into the Cambodian 
areas of Long Beach. They certainly are as poverty ridden in 
many ways and less adaptable to adjustment to the United 
States, because they were an older generation really. It is 
difficult to learn the language and so forth.
    I guess that if we have that question of whether people 
know what they can write down there, and even what it is. I can 
see value in that, as you do a random check of different groups 
and try to look at their relative standing. I think that there 
are one or two good studies that I saw 20 years ago where 
people actually did that kind of analysis.
    Now, I do not know that the Government is doing it. It 
should. It should be exploiting these things. So you see where 
the trouble spots are. And as we go through this argument on 
what is the effect of changes in the welfare law with legal 
immigrants, that is also a major problem. Because you have an 
older generation that faces a lot of problems that any older 
generation in poverty would face. They are living on very 
little, which is whatever the SSI check under Social Security 
puts in their mail box.
    But anyhow, those are certainly some of the things that I 
think would affect many districts in this country. Now there 
are a lot of other arguments that we can go through. And the 
courts have been doing it piece by piece.
    You have got places in West Virginia that are still 
speaking Elizabethan English. There has not been much movement 
out of there. And some of them are still in deep poverty with 
the end of mining and all the rest, or the others left, and 
left them behind. So you have pockets of this all over the 
country.
    I do not know if any of you have any other comments that 
you want to make on this. We will welcome them. And then we are 
going to adjourn this. The House is going to reconvene at 6:30. 
So we are just in time.
    Mr. Hodgkinson. If I could have 10 seconds, I would like to 
commend your attention to the Kentucky State Supreme Court 
decision, which desegregated schools economically. Rural 
districts brought suit against basically Louisville. And 
without any census data being used as far as I could tell, the 
State went through a significant shift in terms of building a 
floor under every poor child in the State of Kentucky.
    That is a model for what we may have to do more often in 
the future. I commend that sort of issue to your attention.
    Mr. Horn. Frankly, I could not agree with you more. When 
you look at the economic deprivation, I think that all of this 
shows up. There has been substantial discrimination. And there 
are enough idiots in this country as well as anywhere else that 
would discriminate based on color. But often, that will come up 
in the economic data.
    And affirmative action, the word fraud was used in some of 
that. There is no question that nonminority students have 
checked the column, because they feel that universities will 
not admit them otherwise. That is a pretty sad commentary on 
where we are in university admissions.
    Of course, California now is having to grapple with how you 
deal with that when you cannot use the quota system. 
Affirmative action ought to be used, and a good personnel 
policy. That is all it is. But if it ends up with a quota, that 
was never the intent of the Civil Rights Act of 1964.
    Hubert Humphrey was adamant on this, as the co-floor 
manager with my own mentor, Senator Kuchel. When we had a major 
briefing for the whole Senate, those questions came up and it 
was absolutely clear, there is no quota related to anything in 
this legislation.
    And all of that was both Executive orders of President 
Johnson and President Nixon, one Democrat and one Republican, 
who thought that they were doing good deeds. Well, they were to 
a certain extent. But good deeds sometimes get turned into 
things you wish you had not started, because it can be so 
misused. And that is where we are sort of making the circle 
right now.
    Well, I thank you all for coming. It has been very helpful. 
Keep in touch with us. We would be glad to have any other 
thoughts you have, and we will put them in the record at this 
point, if on the way home and back to your offices you have 
other thoughts.
    Mr. Vazsonyi. May I make one final observation, Mr. 
Chairman?
    Mr. Horn. Surely.
    Mr. Vazsonyi. It seems to me that discrimination and other 
atrocities are committed by individuals against other 
individuals. Groups can't do things, and groups can't sustain 
things, people do. And it would seem to me that if the effort 
that we are putting into remedies through groups would be put 
into maximum enforcement of the law and remedy of the law for 
every individual who suffers, we may be further down the road. 
Thank you.
    Mr. Horn. Well, I thank you.
    And I am now going to thank the staff who worked on this 
hearing starting with our very able staff director and counsel 
for the Government Management, Information, and Technology 
Subcommittee, Russell George, against the wall there quietly 
observing this, once the wheels start. And John Hynes, who is 
right next to me, is the professional staff member responsible 
for this hearing. Andrea Miller is the clerk for the majority 
subcommittee is over there waiting to scoop everything up, as 
soon as we get out of here. David McMillen, a professional 
staff member for the minority and Ellen Rayner, the chief clerk 
for the minority.
    Our court reporter here, committee reporter, Charlie Smith.
    We thank them all for what they did to make a very useful 
and enjoyable hearing.
    And we thank you all. We appreciate you coming.
    With that, this meeting is adjourned.
    [Whereupon, at 6:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 45174.356

[GRAPHIC] [TIFF OMITTED] 45174.357

[GRAPHIC] [TIFF OMITTED] 45174.358

[GRAPHIC] [TIFF OMITTED] 45174.359

[GRAPHIC] [TIFF OMITTED] 45174.360

[GRAPHIC] [TIFF OMITTED] 45174.361

[GRAPHIC] [TIFF OMITTED] 45174.362

[GRAPHIC] [TIFF OMITTED] 45174.363



  FEDERAL MEASURES OF RACE AND ETHNICITY AND THE IMPLICATIONS FOR THE 
                              2000 CENSUS

                              ----------                              


                         FRIDAY, JULY 25, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Davis of Virginia, Portman, 
Maloney, Davis of Illinois, and Owens.
    Also present: Representative Norton.
    Staff present: J. Russell George, staff director and 
counsel; John Hynes, professional staff member; Andrea Miller, 
clerk; David McMillen, minority professional staff member; and 
Ron Stroman, minority counsel.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology, quorum being present, will come to 
order. We will begin with opening statements.
    This is the third in a series of hearings on how the 
Federal Government measures race and ethnicity. Today's hearing 
follows a major decision on this issue. After 4 years of 
review, a task force set up by the Office of Management and 
Budget, known as the Interagency Committee, has issued a 
detailed recommendation for changes to the standard measures of 
race and ethnicity.
    This is not a casual matter. It is highly personal for 
millions of Americans who take pride in their full heritage. It 
also is a vital issue for the enforcement of the civil rights 
laws of our Nation.
    The current measures include four basic categories of race: 
black, white, Asian or Pacific Islander, and American Indian or 
Alaskan native. These categories and other standards for the 
collection and reporting of data on race and ethnicity are set 
forth in OMB Directive 15.
    A major issue is whether these categories are adequate to 
measure our society now and in the coming decade. In 
particular, there is growing concern that asking individuals to 
identify with only one of these four categories on the census 
questionnaire and other forms fails to accommodate people of 
multiple racial heritages.
    It is not hard to understand this problem. All you have to 
do is imagine you are Tiger Woods, perhaps without the Nike 
endorsement, and someone is telling you to identify with only 
one part of your heritage.
    The challenge is to allow for multiracial identification 
without harming the usefulness and accuracy of the data. One 
proposal for multiracial identification is to create a fifth 
racial category called ``multiracial.'' Another proposal is to 
keep the current four categories but allow respondents to check 
off more than one.
    On July 9, the Interagency Committee recommended against a 
multiracial category but in favor of allowing people to 
identify with more than one of the existing categories, to 
reflect their diverse backgrounds. In its recommendations to 
the Office of Management and Budget, the Interagency Committee 
stated that the multiracial population is growing and needs to 
be measured, but that a separate multiracial category is not 
the best way to do this.
    The recommendation notes that years of surveys and public 
town meetings did not show a general consensus on the 
definition of ``multiracial,'' and that such a category is 
likely to be misunderstood by individuals responding to 
questions concerning race.
    As Edmund Burke once observed, ``All government, indeed, 
every human benefit and enjoyment, every virtue and every 
prudent act, is founded on compromise and barter.'' The 
Interagency Committee did just that. In effect, the task force 
has advised the Director of the Office of Management and Budget 
to preserve the current usefulness of racial and ethnic data, 
and also to acknowledge the desire of individuals to identify 
their heritage.
    Some will say this recommendation tries to please all 
sides, and therefore pleases none. There are two distinct 
aspects to this issue: The first is individual identification. 
People need to be treated with dignity, especially when they 
are being asked to identify themselves. The second aspect is 
the utilization of these data. They are put to some very 
important purposes, purposes that many would say outweigh 
concerns over individual identification.
    The Interagency Committee recommendation leaves the 
questions about tabulation and reporting of the data largely 
unanswered. That is a problem, and we need to address it. Will 
people who check two racial categories be counted twice, 
significantly inflating the numbers of two particular races in 
a particular area?
    We begin today with very distinguished witnesses. The 
Speaker will be delayed, because he is in some negotiations now 
on major issues before the closing of next week's session, and 
we have told him he will be able to speak any time he walks 
through the door. So we are pleased when he can join us.
    We also will be hearing from other Members of Congress. We 
will then hear from a number of individuals who are experts in 
this area, as well as the administration witnesses, who will 
appear after we have heard all the rest of the discussion, so 
that they can integrate the views of the Interagency Committee 
with what they have heard.
    We will then hear the reaction of various witnesses. We 
will finally get the testimony, not only from the Office of 
Management
and Budget, but also the Bureau of the Census, and the 
Department of Justice.
    We thank you for joining us. Now I will call on the ranking 
Democrat, Mrs. Maloney of New York, for an opening statement.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.364
    
    [GRAPHIC] [TIFF OMITTED] 45174.365
    
    Mrs. Maloney. Thank you, Mr. Chairman.
    As you know, I am committed to assuring that the next 
census is the most fair and most accurate that has ever been 
conducted. The measurement of race is central to that effort. 
Unfortunately, all of my colleagues are not committed to this 
effort. In fact, there are those who would have us pay a higher 
price for a 2000 census that is less accurate and, in some 
instances, will render the race question moot by not even 
counting them.
    The 2000 census will be the 22d census conducted by this 
Nation. Many are surprised that 3 years before the census there 
is so much discussion about what data to collect and how to 
collect it. That's really no surprise. At this point prior to 
the last census, the Commerce Department was already in court 
over how much that census would cost and how that census would 
be conducted.
    The measurement of race is essential to our understanding 
of the accuracy of the census. Shortly after the 1940 count, 
the Census Bureau started looking at the accuracy of the census 
using birth and death records. In preparation for World War II, 
the Census Bureau provided the Army with an estimate of the 
number of men eligible for active duty.
    It turned out that those estimates were low. Thirteen 
percent more black males turned up than the Census Bureau had 
predicted. It was then that they began to understand the 
relationship between race and a gross undercount.
    Now, more than 50 years later, we have quite a collection 
of data regarding census errors. The methods used in the 1990 
census caused nearly 26 million errors. That is an error rate 
of more than 10 percent. The 1990 census missed people, double 
counted people, and created fictitious people. Nearly 6 million 
people turned up in the wrong place.
    These errors were made by using the same methods that are 
being touted by those opposed to sampling. As a result of those 
errors, millions of dollars in Federal aid designed to provide 
assistance to the poor, are being misdirected. Millions of 
people are not being included in apportioning representation.
    Our first understanding of the undercount in the census was 
that young black males were missed at a much higher rate than 
others. But we now know more. We know that people in rural 
areas are almost as likely to be missed as those in urban 
areas.
    We know that African-Americans are missed at a much higher 
rate than whites. In 1990, the undercount for African-Americans 
was almost 10 times that of non-Hispanic whites. Fifty-two 
percent of those who were undercounted are children. I believe 
issues of counting minorities need to be resolved before we 
decide how they will be categorized.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    I now yield to the gentleman from Virginia, Mr. Davis, for 
an opening statement.
    Mr. Davis of Virginia. Mr. Chairman, thank you. I'm going 
to be brief.
    I appreciate that you are holding this hearing today. I 
represent a district that is 25 percent minority, very 
multiethnic. One of the kids I was talking to the other day 
asked, ``Well, I'm an American: 25 percent Vietnamese, 25 
percent African-American, 100 percent American.'' That was the 
way they defined themselves, and I'm not sure that the 
categories that we've dealt with over the past few decades 
encompass all that Americans believe themselves to be.
    So I approach these hearings with an open mind. I 
appreciate the opportunity to hear a number of different 
viewpoints as we move through this today.
    Thank you very much.
    Mr. Horn. I thank the gentleman.
    I now recognize the gentleman from Illinois, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I thank you for convening this hearing regarding the very 
important issue of how the Federal Government should measure 
race and ethnicity for the Census 2000. I would also like to 
acknowledge and thank our distinguished panel of witnesses for 
taking the time to come and share with us their expertise and 
feelings as it relates to the issues of race, ethnicity, and 
the census.
    We gather here today to discuss the recommendations of the 
Interagency Committee for the review of the racial and ethnic 
standards on changes to OMB's Directive 15. This is an issue of 
critical importance to our Nation. This issue is directly tied 
to the accuracy of count for the Census 2000.
    When I think about the census and its importance, I am 
reminded of a quote from Thomas Jefferson, referring to the 
question of slavery, when he likened it to a fire bell in the 
night that filled him with terror. I submit that the issue of 
race, as it relates to the census, is one of the fire bell 
issues of the day, because race divides us, defines us, and in 
many ways strengthens us.
    We stand today at a crossroad. We can go forward, or we can 
go backward. I say, let's go forward. We have measured race in 
this country since 1790, during the first census. We counted 
free white male property owners as a whole person and black 
slaves as three-fifths of a person. Now we're being told that 
we should be counted as a multiracial person.
    While blacks are now recognized as 100 percent of a person, 
we have not fully realized full participation in the systems of 
this Nation. We have not reached the day where equal 
opportunity and equal justice prevail. Discrimination is alive 
and well in America today.
    We are not a color-blind society. Income inequality between 
blacks, Latinos, Asian-Americans, Native Americans and whites 
continues to persist. In education, race differences persist in 
high school completion rates, college enrollment, and graduate 
degrees granted. Blacks and other minorities are not receiving 
a fair share of Federal, State, or local procurement 
opportunities.
    The question of how we measure race in the Census 2000 has 
some profound consequences. Census data is used to reapportion 
Congress, State legislatures, city councils, county boards, and 
other special political subdivisions. In addition, census data 
is used to enforce the Voting Rights Act, the Fair Housing Act, 
and the Equal Credit Opportunity Act. Millions of dollars of 
Federal resources are determined on the basis of the census.
    I have a great sensitivity toward American citizens who 
have a mixed ancestry, whether it be interracial, biracial, or 
multiracial. In fact, I am certain that a large number of 
Americans could be considered technically multiracial, and 
especially within certain minority groups, but I do believe 
that a ``multiracial'' category and other major changes could 
dilute the political, economic, and social progress that 
minority groups have worked so hard to attain. Such a category 
could take us back a number of years.
    However, I look forward to hearing our witnesses. And I do 
believe that, after all is said and done, we will realize that 
although possibilities exist, the American people will take a 
course of action that will not take us back away from the gains 
that have been made by large minority groups in this country.
    I thank you very much and look forward to the testimony of 
our witnesses.
    Mr. Horn. I now yield to the gentlewoman from the District 
of Columbia, Eleanor Holmes Norton, for an opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I appreciate the opportunity to sit in with the 
subcommittee this morning. I am a member of the full committee 
but not the subcommittee, and I am here because I believe this 
is an important subject and hope we will all be able to come to 
some rational response.
    The census itself, for a long time now, has been a very 
controversial and complicated subject. Into this controversy, 
we now plunge race. The one thing we did not have to worry 
about in the last census was how we categorized people. We have 
made a very complicated and very important subject much more 
complicated.
    At the last hearing, Mr. Chairman, where I was privileged 
also to sit, it was not then clear whether the census was going 
to move us to a new category, a multiracial category. They have 
come to their senses and understood, it seems to me, the rank 
confusion that such a category would impose upon the census.
    Now they come, apparently, with a set of categories that 
may pose some of the same difficulties. I have come this 
morning particularly, to hear about the new proposal to allow 
people to check multiple boxes. All I can say is watch out. I 
can't imagine what kind of confusion may come from multiple 
boxes.
    I know this much: Those who come forward wishing a category 
to recognize their mixed parentage are very sincere, and I very 
much sympathize with what they are doing. They come forward 
seeking a real solution to their dilemma. My problem is, I do 
not believe that solution is found in an official document of 
the United States.
    As to several categories, indeed, even as to the multi 
category, I hope we do not now bring down upon us fun and games 
in the census, as people try to identify themselves in multiple 
ways and in ludicrous ways. We have to not only ask ourselves 
what are we after, but how will Americans receive this 
question.
    I cannot imagine how Generation X, for example, would have 
received the multiethnic question or the multiracial question, 
not to mention the ability to check off as many boxes as you 
feel like checking off. This is serious business. There is much 
at stake here.
    I very much look forward to hearing how OMB describes the 
discipline in its multiple boxes, because that's what I'm 
interested in. I am also interested in finding a way for people 
of mixed heritage, or at least mixed parentage, if they desire, 
to indicate that mixed parentage. I don't believe we want to 
intrude on these categories that we have learned to live with.
    Finally, Mr. Chairman, let me say this: We are not, when we 
talk about a multiracial category, in this country, only 
talking about a category. We are talking about, not a new 
category, but a new race. And if you do not believe that this 
is the case, I invite you to look at the history of the West 
Indies, of Brazil, and of South America where, indeed, there 
has long been a multiracial category.
    That is not a category. What attaches to that category has 
been a whole set of distinctions, privileges, benefits, and 
lack of the same. The last thing we need in this country, given 
the role race has played, is a new category that develops into 
a new race.
    I ask that we understand that we are not dealing with this 
unrelated to history, either of our country or the world, and 
that we not plunge into new racial directions in an official 
way, without understanding all the implications.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    I now yield to the gentleman from New York, Major Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    The designation of a racial or ethnic category is not just 
a statistical, abstract government procedure. In America, 
racial designations are very political and they were made that 
way by the majority population a long time ago.
    There was a time when the designation ``octoroon'' or 
``quadroon'' were not enough. They would not be accepted. It 
was decreed that if you had one drop of black blood, one drop 
of Negro blood, you were automatically a Negro. You were 
automatically considered a descendant of African slaves.
    I think that there are many constructive reasons why that 
designation still should continue, not for the same negative 
political reasons provided before, but for very positive 
reasons. We don't want to lose the identity of the descendants 
of African slaves.
    We have a situation now where the President has called for 
a dialog to move America forward and to own up to the problem 
of a multiracial society. At the heart of that dialog has to be 
a discussion of what happened with the African slaves. And you 
cannot talk about justice unless you talk about what happens to 
the descendants of those African slaves.
    For 232 years, we had a group of people who were forced to 
give their labor to the building of this country for free; for 
232 years, an accumulation of problems that resulted from the 
fact that the owners of slaves found it profitable to try to 
obliterate the humanity of the slaves. They didn't want to 
annihilate slaves.
    The obliteration was very different from the Holocaust, 
where the hatred in the Holocaust was so great until they 
wanted to annihilate people. The slaves were valuable property. 
Nobody wanted to annihilate them as living entities, but they 
wanted to annihilate their humanity.
    It was profitable to have them become more efficient beasts 
of burden. It was profitable to have them operate more like 
machines. It was profitable not to have them establish bonds 
related to families. It was profitable to continue the practice 
of refusing to recognize marriages and families, to sell 
children away from parents and to deny any sense of belonging 
among families or any sense of a society, which had mores and 
traditions before it came to these shores.
    Every effort was made to obliterate any past traditions and 
any things which established the humanity of the African 
slaves. Great injustices were done.
    The Emancipation Proclamation and, more importantly, the 
13th amendment, 14th amendment, and 15th amendment began to 
change all that. But there are some residues that still exist. 
Because of those residues, because of the kind of damage that 
was done over the 232-year period, its lingering aftereffects, 
we still need to have distinctions which clearly tell who the 
descendants of the African-American slaves were.
    Other groups may have other kinds of concerns, but we don't 
want to have obliterated, at this point, that distinction 
before the justice--if not the justice, at least the truth and 
the recognition of the injustice is confronted.
    I wholeheartedly applaud the President's efforts to raise 
the level of the dialog on race relations and the dialog on a 
multiracial society to a new level. We are the indispensable 
Nation, as the President said in his inaugural address. We are 
the indispensable Nation. In order to remain in that position, 
we ought to try to build on the positive factors that flow out 
of being a very diversified society.
    We are a diverse society ethnically, but we have a problem. 
At the heart of our diversity, there is still a core problem 
related to the relationships between blacks and whites, and 
this grows out of the long years of slavery. The descendants of 
slaves, just probably as the descendants of Native Americans, 
have a special distinction. That special distinction should be 
kept for a long time to come, until we deal with the problems 
that the long years of oppression and injustice generated. I 
thank you.
    Mr. Horn. I thank the gentleman.
    We will now begin with our Members' panel. Will 
Representative Thomas Sawyer of Ohio, Representative Thomas 
Petri of Wisconsin, Representative Maxine Waters of California, 
and Representative John Conyers of Michigan please come 
forward.
    I think Mr. Sawyer is second there.
    Mr. Sawyer. We're going down in the order you said, Mr. 
Chairman.
    Mr. Horn. I am going to call on Mr. Sawyer and Mr. Petri 
first, because they are former chairmen and ranking members of 
the committee that had jurisdiction over the census before it 
was merged into the Committee on Government Reform and 
Oversight at the beginning of 1995. We have looked to them as 
our experts in this area. They have been kind enough to come to 
a number of our hearings and testify on various aspects of the 
census. So we will begin with Representative Thomas Sawyer of 
Ohio.

STATEMENTS OF HON. THOMAS SAWYER, A REPRESENTATIVE IN CONGRESS 
FROM THE STATE OF OHIO; HON. THOMAS PETRI, A REPRESENTATIVE IN 
  CONGRESS FROM THE STATE OF WISCONSIN; HON. MAXINE WATERS, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA; AND 
 HON. JOHN CONYERS, JR., A REPRESENTATIVE IN CONGRESS FROM THE 
                       STATE OF MICHIGAN

    Mr. Sawyer. Thank you, Mr. Chairman.
    I am grateful for your designation as an expert. I guess I 
would say thank you and recognize that maybe the most that we 
can claim is that we have long familiarity with this issue, as 
a matter of census practice and other statistical systems of 
the United States.
    In that sense, I am grateful to you and Congresswoman 
Maloney and members of the subcommittee for the opportunity to 
share some additional thoughts beyond those that I shared at 
your last hearing on this subject, as you continue to review 
the categories for collecting data on race and ethnicity in the 
2000 census.
    Let me begin by congratulating OMB for all of the work that 
is has done on this important issue. After 3 years of careful 
and thorough consideration of alternative ways to measure race 
and ethnicity, OMB has recently released its proposed 
recommendations for Directive 15.
    While I believe that its recommendations properly address 
the concerns of those on both sides of the multiracial issue, I 
would really like to begin and end today by encouraging OMB to 
address something that you discussed, and that is establishing 
guidelines for how the Federal Government is to tabulate and 
publish and use this data.
    When I testified in April, I discussed the importance of 
understanding what racial categories are and what they are not. 
Clearly, they are culturally determined descriptors that 
reflect societal concerns and perceptions. They are not 
grounded in genetic or anthropological or scientific bases, and 
they are not fixed and unchanging.
    OMB has historically sought to establish categories, 
therefore, that are discrete, are few in number, are easy to 
use because they are broadly understood, and which yield 
consistent responses. The categories are also intended to 
maintain continuity and comparability of that data over time. 
That's a tall order, but I believe OMB's recommendations meet 
those goals.
    First, the task force that dealt with this was composed of 
30 Federal agencies who regularly use racial and ethnic data. 
The panel voted unanimously to recommend that to OMB that a 
multiracial category not be used when collecting racial and 
ethnic data.
    Instead, they suggested the individuals be given the 
opportunity to provide multiple responses to the race questions 
when they identify personally with more than one category. 
Second, they recommended that ``Hispanic'' remain as a separate 
ethnic category and not be added as a new racial category.
    Additionally, they found through testing that arranging the 
Hispanic origin question so that it preceded the so-called race 
question proved to minimize confusion. This is important to 
yield a more accurate count, particularly among all of the 
populations that have been undercounted in past censuses.
    Taken together, these recommendations, in my opinion, are 
an important step forward in measuring racial and ethnic and 
change that is currently taking place in our country and may, 
in fact, be a fundamental characteristic of our age.
    By providing respondents with the choice to mark all that 
apply, OMB satisfies a compelling human need for self-identity, 
while allowing for measurement in the aggregate of the changing 
racial and ethnic makeup of our Nation. Adopting OMB 
recommendations would also enable us to preserve, with 
consistency, the comparability and continuity of data over 
time.
    While its recommendations are sound, let me again urge OMB 
to look carefully at the data that will be produced by this new 
collection system, and accompany these changes with clear and 
meaningful guidelines for tabulating and publishing and using 
the data once it's collected.
    Let me give you an example: The Civil Rights Division of 
the Justice Department is charged with enforcing the Fair 
Housing Act. It prohibits discrimination in the granting of 
home mortgages. Monitoring and enforcement generally involve a 
comparison of census data with reports of lending activity for 
minority applicants for a specific geographical area.
    If the census data on race and ethnicity for a given census 
tract includes a percentage of residents who checked off white 
and black or Asian-American, the question is, should the 
Justice Department consider that portion of the population to 
be minority or nonminority for the purposes of determining 
whether there is a pattern of discrimination in that 
neighborhood? It is particularly important to understand how 
and when to use aggregated or disaggregated data when more than 
one category is checked.
    There are not easy answers to this and similar kinds of 
questions, but they need to be clear, because the soundness of 
OMB's proposed changes to Directive 15 must be judged, in part, 
by whether clear and consistent guidelines can be developed to 
provide a rational and consistent response that is comparable 
with similar data over time.
    Otherwise, the Federal Government may inadvertently erase 
the gains that the Nation has made over the last few decades in 
an effort to create a more inclusive society.
    Thank you, Mr. Chairman. I appreciate the opportunity that 
you and members of the subcommittee have given to participate 
in your continued oversight of this important issue.
    [The prepared statement of Hon. Thomas Sawyer follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.366
    
    [GRAPHIC] [TIFF OMITTED] 45174.367
    
    [GRAPHIC] [TIFF OMITTED] 45174.368
    
    [GRAPHIC] [TIFF OMITTED] 45174.369
    
    Mr. Horn. I thank the gentleman and I think he put his 
finger on the key question.
    I now yield to his colleague who has spent many years 
working with the census, Mr. Petri of Wisconsin. He is the 
introducer of the Tiger Woods bill, H.R. 830, of the House of 
Representatives, which would create a multiracial category.
    Mr. Petri.
    Mr. Petri. Mr. Chairman, thank you for holding this hearing 
and continuing to take an interest in the issue of racial 
categorization.
    Last April, I testified before this subcommittee on behalf 
of the bill you referred to, H.R. 830, to add a multiracial 
category to the census and other Federal forms which ask 
respondents to categorize themselves by race. In the course of 
that testimony, I briefly mentioned some concerns on how the 
data would be tabulated if, instead of a multiracial category, 
we were to allow people to check more than one of the existing 
categories.
    As you know, the Office of Management and Budget recently 
issued its preliminary recommendations which indeed call for a 
``check all that apply'' system. I would like to reemphasize 
that there should be at least one compilation of data from the 
race issue on the census in which the total is not greater than 
100 percent, and therefore, in which multiracial individuals 
are included as a separate group when the tabulation occurs.
    The numbers can be tabulated in several different ways, of 
course. If the Bureau wants to publish information about how 
many people checked off a certain category, including 
multiracials who checked off that one and another, I certainly 
have no objection. It might be useful information for certain 
purposes.
    That is done with each of the categories. Those who check 
off more than one category will be counted more than once, but 
for some uses of the data that may be OK. For other purposes, 
however, it is necessary, in order for policymakers to get a 
clear picture of the situation, that the individual categories 
do not add up to more than 100 percent of the total.
    Thus, we need one compilation in which multiracial 
individuals who have checked more than one box are counted in 
their own category and only in that category. These two ways of 
compiling the data, and perhaps still others, are not mutually 
exclusive.
    I have been briefed by OMB officials on their plans for 
compiling the data, and I was encouraged by that briefing. 
Officials there seem to be aware of the need for data in which 
multiracial individuals are grouped together separately from 
the other categories.
    Although I would like to see a separate box on the form for 
the multiracial category, counting separately those who have 
checked more than one box comes close, and if the OMB follows 
through, would, in my opinion, accomplish the goals of H.R. 
830.
    I thank you for allowing me to appear here this morning.
    [The prepared statement of Hon. Thomas Petri follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.370
    
    Mr. Horn. Well, again, I think the gentleman has put his 
finger on one of the key questions. If people do not like the 
multiracial aspect, maybe we just check a category that says, 
``I have checked more than one above.'' We will get into that 
with the Chief Statistician of the United States and the 
representatives of the Office of Management and Budget.
    I now yield to the gentlewoman from California, Ms. Maxine 
Waters.
    Ms. Waters. Thank you very much, Mr. Chairman, for the 
opportunity to testify before the subcommittee today.
    The subject of today's hearing is one which potentially 
impacts every African-American citizen in our country: the 
recent Federal Interagency recommendation that the Office of 
Management and Budget make changes to its current standards for 
measuring race and ethnicity.
    The Interagency Committee, a task force with representation 
from 30 Federal agencies, recently rejected the proposal for 
creation of a multiracial category, but recommended that 
individuals be permitted to select one or more of the current 
categories of race used in the census.
    Today, I join with this viewpoint, which is shared by 
several civil rights organizations, including the Lawyers 
Committee for Civil Rights Under Law, the National Urban 
League, the NAACP, and the Joint Center for Political and 
Economic Studies, in strong opposition to the addition of a 
multiracial classification in the 2000 census.
    The use of a multiracial or biracial category in the 2000 
census would jeopardize the ability of individuals in the 
United States to seek legal redress for continued racial 
discrimination.
    Currently, the United States has made substantial progress. 
We still have substantial progress to make in the area of 
racial equality. There is discrimination practiced daily in 
housing, employment, voting rights, and education.
    Federal law enforcement efforts to deter such 
discrimination often use data collected pursuant to Directive 
15 and the U.S. census. Legal redress of persistent racial and 
ethnic discrimination is contingent on current racial 
classifications which show disparities in racial treatment in a 
variety of instances.
    I believe that the inclusion of a multiracial or biracial 
classification is counterproductive to effectively enforcing 
the civil rights laws of this country. Directive 15 has been 
indispensable in facilitating the information required to move 
the Nation's equal opportunity agenda forward.
    The data compiled under this policy have been used to 
enforce requirements of the Voting Rights Act, to review State 
redistricting plans, to establish and evaluate programs and 
plans to get rid of discrimination both in the public and 
private sectors, to monitor and enforce desegregation plans in 
the public schools, to assist minority businesses under the 
Minority Business Development Program, and to monitor and 
enforce the Fair Housing Act.
    You also heard, from Congressman Sawyer, how the HUM data 
is used. I serve on the Banking Committee, and that information 
has been extremely valuable in helping the banks and financial 
institutions of this country correct their lending practices.
    When they unveiled this valuable data and they saw that 
loans were being made to whites who had less income, who had 
less favorable paying records, et cetera, and were able to 
compare that in communities and census tracts where minorities 
had been turned down, even though they had the income, they had 
the records, they had all that you would think would cause a 
bank to lend to them to buy homes, it was not being done.
    The record indicates that significant improvements have 
occurred in all of these respects. For nearly two decades, 
Directive 15 has been greatly instrumental in that progress. 
However, the evidence is equally clear that much more remains 
to be done. Racial discrimination is still prevalent in 
American life, and the residual effects of past discrimination 
continue to limit progress.
    Recently publicized discrimination cases, such as that 
involving Texaco's executives referring to African-Americans as 
``bright jellybeans'' in their board room, are highly 
instructive on the persistence of discriminatory treatment 
based on race.
    In closing, I would emphasize that I will continue to 
resist any effort to complicate, reduce, or deter progress 
toward equal opportunity and racial fairness in American 
society. The multiracial proposal poses a risk to the ability 
of Federal agencies to collect useful data on racial 
classifications. For this reason, I must vigorously oppose any 
use of a multiracial category in the 2000 census.
    Mr. Chairman, prior to closing, I would just like to say 
that I had an opportunity to look over Mr. Gingrich's 
testimony, where he had some discussion in here of Tiger Woods. 
I wanted to engage him in some discussions about another 
golfer, whose name is Mr. Lee Elder, who was a prominent 
golfer.
    When he was young like Tiger Woods, he would have loved to 
have been able to participate. I think that his handicap was 
probably zero, and he was excluded for all of the years. 
Finally, a big fight was put up to get him finally on the 
senior tour.
    After many, many years and long fighting and organizing by 
African-Americans and some others, we finally got him on the 
senior tour, maybe about 8, 9, 10 years ago. If he had had the 
opportunity to participate back when he was as young as Tiger 
Woods, you would have seen another Tiger Woods a long time ago.
    That story can be told time and time again. Yes, Tiger 
Woods is extraordinary, but we would like to live in a society 
where someday other African-Americans with handicaps of 10, 8, 
and 9 can get to compete just like whites do out on these 
tours.
    All of those--well, let me just say it this way: We should 
not have to be super, super, super stars to be able to 
integrate, whether it's golf or anything else. We should be 
afforded the same opportunity that any other average American 
is afforded.
    While people can point to Tiger Woods and try and relate 
this to our need to have a multiracial category, let me assure 
you that this super, super, super human being is a fabulous 
young man, but there are a lot of other fabulous young African-
Americans, had they had the opportunity to participate, like a 
Lee Elder, too would have excelled on the same tours.
    Thank you very much.
    [The prepared statement of Hon. Maxine Waters follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.371
    
    [GRAPHIC] [TIFF OMITTED] 45174.372
    
    [GRAPHIC] [TIFF OMITTED] 45174.373
    
    [GRAPHIC] [TIFF OMITTED] 45174.374
    
    [GRAPHIC] [TIFF OMITTED] 45174.375
    
    [GRAPHIC] [TIFF OMITTED] 45174.376
    
    Mr. Horn. We thank you.
    It is now good to welcome back the gentleman who presided, 
for many years, in this room, the former chairman of what was 
then the Government Operations Committee, Mr. Conyers of 
Michigan, the ranking Democrat on the Committee on the 
Judiciary.
    Mr. Conyers. Thank you very much, Mr. Chairman, Mrs. 
Maloney, members of the subcommittee.
    I am very pleased to be here with you today to continue 
this very important dialog, and I look forward to being here 
with the Speaker of the House. It indicates how important this 
matter is.
    Of course, we can understand his busy schedule, and the 
prevalence of coups on the Hill makes it rather difficult for 
him to always be where he wants to be. So let's just hope that 
all is well on the Republican side. Well, most of us hope all 
is well on the Republican side and the Speaker will soon be 
able to join us in this important discussion that has been 
going on in this subcommittee.
    I commend you all, first of all, because we can talk about 
this and lower our voices and keep the rhetoric to as low a 
minimum as is possible on the Hill. The President invited the 
Nation to do that and I think we are doing that if we have this 
discussion in the manner that we have been. I commend all of my 
colleagues at the table. They have done an enormously important 
job and have been working at this for quite a while.
    I am heartened by Mr. Petri, my dear friend, indicating 
that he might be willing to do something that I had been 
thinking about yesterday. I asked to testify last night; this 
wasn't something I was planning for a long time. But the reason 
is I thought that there might be something in here that we 
could talk about, because I feel that it is important that we 
identify who is in this country, not only from the national 
point of view, but from the point of view of the people who are 
in the country. They have a right to be identified.
    Nobody decided to pick mixed parentage. As a matter of 
fact, nobody decided to be black----
    Ms. Waters. Or white.
    Mr. Conyers [continuing]. Or white. So we come here trying 
to untangle a legislative problem that has very deep social 
roots. And the one improvement that I might be willing to 
consider--and my chairperson of the Congressional Black Caucus 
always deeply influences my legislative thought processes, 
especially when she's sitting so close to me. [Laughter.]
    The one thing that I might be willing to consider is the 
identification of a category in which people would be allowed 
to check more than one box. Now why does that become important? 
It becomes important because some people want to let everybody 
know their parentage, just as I, and I presume all of you are 
proud of, but they don't want to become the victim of what 
Major Owens said, a category in a government office. They would 
also like to indicate their preference, if you are biracial, of 
which identity they choose.
    I thought I heard the gentleman from Wisconsin indicate 
that such a further rethinking of his legislation would be 
possible. It is in that vein that I come to this hearing to 
express interest. I had no idea the gentleman was going to take 
the words out of my mouth this morning, and I'm very happy 
about that.
    So please count me in on this dialog. As you can see, my 
views are not in concrete here, but I think that there is a 
constructive discussion going on, and I thank you for allowing 
me to participate in it.
    Now, I close on a subject that is not on the agenda today, 
but I urge the continued openness that I hear here, and that is 
with the subject of sampling. Please, if you are bringing open 
minds and stretching your understandings of this to the limit, 
please do not apply it to the subject of sampling.
    In some respects, here we are dealing with a way of 
remedying an admitted problem, a problem that everyone has 
confessed, that we've been undercounting African-Americans by 
the millions for decades, and we're trying to figure out how to 
do it. So we want to keep those avenues as open, as well.
    I thank you for the generosity of your time, Chairman Horn.
    [The prepared statements of Hon. John Conyers, Jr., and 
Hon. Carrie P. Meek follow:]
[GRAPHIC] [TIFF OMITTED] 45174.377

[GRAPHIC] [TIFF OMITTED] 45174.378

[GRAPHIC] [TIFF OMITTED] 45174.379

[GRAPHIC] [TIFF OMITTED] 45174.380

    Mr. Horn. We thank the gentleman for coming.
    I will now yield 5 minutes to Mr. Davis of Virginia to 
begin the questioning for the majority, and then we will 
alternate with the minority.
    Mr. Davis of Virginia. Thank you.
    Let me start, Mr. Conyers, I was reading your written 
statement, which is a little bit at variance to what you said 
orally. Your written statement says, ``I'm going to propose a 
solution,'' and throughout it says, ``my solution,'' ``my 
solution,'' and then you get up here, and you sit next to Ms. 
Waters, and you said you might be willing to consider your 
solution.
    I don't know, Ms. Waters, if you've looked at Mr. Conyers' 
proposed solution, what you think of that.
    Ms. Waters. No, I have not, but I listened to his 
statement, and I think what I heard him say is he knows there 
is a need to solve this problem. He's still somewhat open. He 
was pleased to hear Mr. Petri this morning talk about a 
multiracial category and other categories that could be checked 
by someone who falls in that definition.
    So what I really heard was Mr. Conyers coming here to seek 
a solution with somewhat of an open mind.
    Mr. Davis of Virginia. Do you agree with that? In other 
words, you could check ``multiracial'' and then go down and 
check the other.
    Ms. Waters. No, I came with a little bit of a point of 
view. However, I do not think that we should simply disregard 
Mr. Petri's testimony or Mr. Conyers' desire to give further 
thought to it.
    I came pretty much decided that, in fact, the work that is 
being done by the interagency task force, with the background 
and the experience, really should be paid attention to. These 
agencies are looking at all that they must do with the forms 
that they have in their various agencies, and how we can have 
some consistency in government, and what would make sense for 
everybody.
    So when I took a look at their work, I thought the 
recommendation not to have a multiracial category, but to have 
a number of categories that people could check, made a lot of 
sense. Then I questioned them very closely that if someone 
checked more than one category, how then would you count? And 
they are in the process now of making that determination.
    I would really like to see them continue that work so that 
we can have the benefit of a concentrated effort in making 
sense out of all of this. While all of us have some opinions, 
and we deal with 999 things on any given day, none of us are as 
concentrated and as focused as the interagency task force that 
is designed to do this kind of work. So that's where I'm coming 
from.
    Mr. Davis of Virginia. Mr. Petri, let me ask you, in your 
written testimony you make reference to the need for data in 
which multiracial individuals are grouped together separately 
from other categories. What are some specific needs, whether in 
public policy, research, or elsewhere, do you think, for data 
on the variety of people selecting more than one race?
    Mr. Petri. Well, I think there are a couple of reasons for 
having people select more than one race.
    When Tom Sawyer and I had these hearings, when he scheduled 
the hearings and I attended, to review the 1990 census, a 
number of individuals, and perhaps a few representing small 
groups or newly organized groups, came forward and said they 
did not think it was fair for their children to be forced to 
choose between one-half of their heritage and another half of 
their heritage. They stated that they may have had a Korean 
mother and an American black father, and why couldn't they say 
that instead of having to say that they were black or say that 
they were Asian, or whatever it happened to be.
    I found that persuasive and thought that it made sense not 
to force people into that untenable and uncomfortable position. 
My solution was to say, well, maybe we should have the current 
categories, or whatever the experts think makes sense, and 
then, by the way, if they don't fit, provide another category 
that wasn't as off-putting as ``other,'' which sounds sort of 
whatever, but that would reflect the fact they were 
multiracial.
    That's what the bill provided for. But the panel of some 30 
agency representatives, under OMB's direction, came up with the 
idea of why not just, instead of directing people to choose 
only one category, period, say choose one or more than one as 
you feel appropriate. Then that eliminates the uncomfortable 
situation that we were forcing people in by requiring them to 
choose just one. So that's one benefit.
    Now my testimony basically goes to how is that going to be 
presented for useful purposes by policymakers at the State 
level and National level, in business, and so on. It seems to 
me, if when they do the compilation of the census, the 
different categories total more than 100 percent in a 
particular area, it starts getting very confusing for 
redistricting, for example.
    So, at least in one iteration, and they can do it many 
different ways, they ought to have something, whether it's 
called ``multiracial'' or people check more than one box, or 
whatever, a separate category so that all of the percentages 
total 100 percent. That's the point of my testimony here today.
    How it can be used, there are many different ways it can be 
useful. The census is supposed to be an accurate picture of the 
American population at a particular point in time. I think this 
would make it more accurate.
    Mr. Davis of Virginia. OK. Thank you. Do you want to add 
anything to that, Mr. Sawyer?
    Mr. Sawyer. If I can add something. I am not going to 
disagree with what Tom has said. Let me just say, though, that 
it is important that the data be collected in a way that makes 
it possible to tabulate, in a variety of ways, for a variety of 
purposes, so that they can be aggregated and disaggregated for 
specific applications.
    This proposal makes that possible. A multiracial category, 
on its own, would not, and would, I believe, add to the 
confusion in the terms that Tom has just described, rather than 
to clarify it. I believe that what the multiagency task force 
has suggested will yield the result that all four of us across 
here are talking about.
    Mr. Davis of Virginia. Thank you.
    Mr. Horn. We thank the gentleman.
    I now yield 5 minutes to the ranking member, Mrs. Maloney 
of New York, for the purpose of questioning the witnesses.
    Mrs. Maloney. Thank you very much, Mr. Chairman.
    I welcome all the witnesses, particularly the former chair 
of the committee on which I served, Mr. Sawyer and Mr. Petri, 
the two former chairs of the subcommittee. Really, I want to 
thank you for the many hours that you have dedicated so far in 
testifying before this subcommittee. And always, Maxine, you 
add a lot of spark to all the hearings you participate in. It's 
always good to see you.
    I would like to ask the same question to each of you.
    The voting rights laws and the civil rights laws were 
written to really address discrimination against certain groups 
of people. Should we accept the recommendations of the 
interagency task force, which allowed individuals to check 
various combinations of their heritage that they feel they are, 
in their self-expression, should that person check one of the 
areas of protected status, would that person be a protected 
group, in terms of civil rights laws and voting rights laws?
    Mr. Sawyer. Let me begin by referring to Directive 15. I 
can only assume that the same kinds of limitations that apply 
to Directive 15 today would apply in the future, and that is to 
understand that the purpose for which these categories are used 
is not for personal identification nor qualification for 
eligibility of any Federal program. It is used to provide 
aggregate measurement of population in ways that reflect the 
reality of the Nation.
    So it's very important to understand that these categories 
are not used for eligibility identification; rather, it's so 
that we can understand the direction and the shape and the 
change of the country, in the aggregate and in its many 
components.
    Mr. Petri. Yes. At least in the case of the census form, 
it's confidential; it's guaranteed to be confidential. All 
information provided is absolutely confidential and cannot be 
used by Federal law or any other to, in any way, benefit or 
hurt an individual.
    So the answer to your question really is, what will the 
courts, lawyers, and administrators make of this change in 
data. And I don't know. I would think, myself, that an 
individual would still have all of the protections that they 
have now. Many people are being forced into one category or 
another who are, in fact, multiracial. They still deserve 
protection, and I don't think this would lessen it.
    Mr. Sawyer. May I just go back and read from Directive 15. 
``These classifications should not be interpreted as being 
scientific or anthropological in nature.'' We've already talked 
about that. ``Nor should they be viewed as determinants of 
eligibility for participation in any Federal program.'' That's 
the fundamental, underlying principle of these categories.
    Mrs. Maloney. Maxine.
    Ms. Waters. I agree.
    Mr. Conyers. It's an interesting subject that the 
committee, I now serve on, is going to watch carefully. I'm not 
asking you to share jurisdiction this morning, or anything like 
that. But obviously, as has been referred to by many of us this 
morning, we don't need any more monkeying with the civil rights 
and voter rights legislation in America. I don't think there's 
a Member in this room that would support anything that would 
have that effect.
    I think that the gentleman from Ohio's rereading of 15 
keeps us all on the same point, and I agree with you, Tom.
    Mrs. Maloney. I just have one last question. I would just 
like to ask each of you, yes or no, do you support the 
recommendations of the interagency task force?
    Mr. Sawyer. Yes.
    Mr. Petri. As I understand it, I do. I expressed my concern 
about how the data that's collected is presented, and I assume 
that, when they think about it, they will not at least have one 
thing that doesn't total more than 100 percent. In some ways, 
it's better than H.R. 830.
    Ms. Waters. Yes, I certainly do. And I think the 
recommendation that they have come forth with so far is 
reasonable, it is logical, and I think it satisfies, basically, 
most concerns. And I await the additional information that will 
further explain the tabulating of that. I'm really pleased to 
have this concentrated group of individuals who work in all of 
these agencies working on this.
    Mr. Conyers. Well, I'm not a wishy-washy guy, by my staff 
instructed me to say, ``for the most part.'' [Laughter.]
    Mrs. Maloney. OK.
    Mr. Conyers. I'll find out what that means. But Mr. Davis, 
I hope, will give me permission to revise my statement so that 
it will comport with what I said, with what was written for me. 
Thank you.
    Mrs. Maloney. Thank you. I yield back the balance of my 
time.
    Mr. Horn. I thank the gentlewoman.
    I yield 5 minutes to the gentleman from Ohio, Mr. Portman, 
for questioning the witnesses.
    Mr. Portman. Thank you, Mr. Chairman, and I thank the 
panelists for the information today.
    This is my first hearing on this. I'm the newest member of 
this committee. I came back, Chairman Conyers, after being away 
for a few years. I was on with you for my first year. So I 
really am new at this issue and probably reflect, therefore, 
most of the other Members of the Congress who have not had the 
opportunity to spend as much time on this. I found both the 
opening statements of my colleagues here interesting, as well 
as informative, and yours.
    I have a couple very elementary questions, I suppose. The 
first is, it does seem important to me that all of us 
understand better, not those of you here, but those of us in 
the Congress who are not so close to it, what this data is used 
for.
    I think I have a better sense of that now, Tom, after your 
explanation. This is really aggregate data. It's not for 
eligibility for a specific program, but it's data that would be 
used for such things as redistricting, probably the most 
sensitive issue, but other general directional policy questions 
where you need to have the aggregate.
    Mr. Sawyer. That's correct.
    Mr. Portman. With that in mind, I guess my fundamental 
question is, how do you avoid the double counting?
    I'm intrigued. I did read your statement, John, and also 
heard your oral statement, and it seems to me that to give 
people an opportunity to identify themselves as multiracial, if 
indeed they are and view themselves that way, is only fair. On 
the other hand, one would want to have a further breakdown, as 
you indicate in your written statement. It seems to me 
inevitable, then, you have double counting.
    How do you avoid that? Can someone respond to that for me?
    Mr. Conyers. Yes. Having never thought about this subject 
that you've asked me before in my life, let me say that it is 
my view that double counting is not the world's worst thing. 
There's one way to get a total number of the people in the 
United States. The fact that some of the total number of people 
check more than one box, I don't think will even throw the 
Census Bureau people off too much. I mean, this is not rocket 
science.
    Some people check two boxes. So don't, Census Department, 
add up all the boxes and say we got more than 100 percent. Got 
it, Census?
    So my view is that this may be, you know, a complex 
problem, but from this point of view of this Member, I just 
don't see that as what we really have to worry about too much.
    Mr. Portman. Other panelists want to comment?
    Mr. Sawyer. I'm going to urge you strongly to ask the folks 
from OMB about this and to refer that question specifically to 
the career professionals at the Census Bureau.
    But what John just said is correct. Each response counts as 
a single response. It may have more than one dimension to it, 
but that does not count for more than one response. So each 
person responding only counts as one person, no matter how many 
different categories they may check.
    Mr. Petri. Yes. I would just add, if people were going to 
be counted as more than one response if they check more than 
one box, I guarantee you, for redistricting purposes, I will 
work as hard as I can to get everyone in Wisconsin to check 
every box on the census form. [Laughter.]
    Mr. Portman. You'd have four or five more Members of 
Congress from Wisconsin.
    Mr. Petri. And I suspect every other Governor, Senator, and 
State legislator in the country will do exactly the same.
    So what we are wanting to do is to have a more accurate 
census and accommodate changes in our population. It seems to 
me that checking more than one, and those that check more than 
one, the multiracial cut on it, doing other cuts on it, all 
makes sense.
    I would think it would be a mistake, myself, in doing the 
total, to try to deaggregate it. So if someone checked three 
boxes, say, well, we'll add one-third of a vote to this 
category and another third to that category, and so on. That 
strikes me as probably easily creating confusion rather than 
making a more accurate situation. In sociology and in our 
society, some people think of themselves as mixed, so why not 
admit it and reflect that in the data.
    Mr. Portman. Let me clarify one point, then, for my 
edification. Maybe I missed something here, but you indicated 
earlier that you supported the interagency recommendation, 
which rejects the idea of a multiracial category. Is that 
correct?
    Mr. Petri. No, it doesn't really reject the notion of a 
multiracial category. It accommodates the concern I had in 
introducing legislation to provide for a multiracial category, 
which was that if you are told you must classify yourself as 
one or another, and you don't feel, as Tiger Woods is an 
example and a lot of other people, that that is accurate, that 
you're a bit of each, you are, right now, not accommodated in 
the census form.
    Telling people that they could check ``multiracial'' struck 
me as a way of solving that problem. The census task force 
thinks telling people that they don't have to check just one, 
they can do more than one, that's fine, too.
    When it's presented, then, though, my only concern is that 
you then don't go ahead and end up with 110 or 120 percent in 
your totals. Instead, when you present it, if you want to call 
it a multiracial category, or whatever, you would have a 
separate category, for statistical reporting purposes, that 
would reflect those who checked more than one box.
    Mr. Portman. I will yield back to the chairman because my 
time is up.
    Ms. Waters. OMB asked us to wait until they come back with 
a recommendation about how to do it. And I'm just reserving my 
opinion on that aspect of it until they come back, having given 
some real thought to it, to suggest to us how it should be 
done.
    Mr. Portman. Maxine, are you still concerned--and this goes 
to your written statement, John, really--that given that--as I 
understand the procedure you're suggesting, Tom--still 
individuals who consider themselves to be multiracial might not 
have the opportunity, at the outset, to identify themselves in 
that manner. Is that correct?
    Mr. Conyers. No, they would.
    Mr. Petri. No, they would.
    Ms. Waters. No, no.
    Mr. Portman. They would?
    Mr. Petri. They would, because they could put down black 
and Asian, or black, Asian, and Caucasian.
    Mr. Portman. So they would have the opportunity to identify 
themselves by one or more.
    Ms. Waters. That's right.
    Mr. Portman. But not as multiracial, as a category.
    Mr. Petri. Yes. You wouldn't have to choose between your 
black mother; you could put down both. You're a bit of each.
    Mr. Sawyer. If I might offer a clarification. The question 
that Tom is concerned about is one of tabulation. We don't want 
to have tabulation that confuses the issue about how many 
people we're talking about. The issue that we're dealing about 
here is one of identification as you fill out the form. The 
recommendations that all of us are suggesting to OMB is that 
they make sure, in their instructions, that the tabulation be 
done with absolute clarity.
    So there are two separate questions.
    Mr. Portman. Thank you, Mr. Chairman.
    Mr. Horn. I yield 5 minutes for the purpose of questioning 
to the gentleman from Illinois, Mr. Davis.
    I might add, before he begins, we have a vote in progress. 
Fifteen minutes to get over there. There might be other votes. 
This is a motion on the previous question. So we will try to 
complete the questioning, if you're not coming back. If you can 
come back, we've got 15 minutes of questioning here, 
potentially.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Let me just say that I appreciate the testimony of each one 
of our distinguished witnesses. Let me just ask, we know that 
there are political as well as cultural consequences of the 
census. I observed, as I listened to the dialog, it occurred to 
me that if all of us were as close and congenial as the four of 
you, that in all probability we could work out, with relative 
ease, most situations that we face.
    But my question is, looking at the political and cultural 
implications, in your minds does one outweigh the other, or how 
do we consider the two? I think what I'm looking for are some 
instructions from OMB.
    I know, Representative Waters, you indicated that you 
wanted to hear their position, but I think that this may be an 
excellent opportunity to give them some ideas and instructions 
as they wrestle with what these boxes would actually mean.
    Ms. Waters. Well, Mr. Davis, let me just say, I agree with 
the first recommendation to be able to check more than one box. 
I think that is a good, sound recommendation, and I think that 
that recommendation takes care of the concern about those who 
see themselves as multiracial. There is no need for a box 
called ``multiracial.''
    I don't have a clue about how to tabulate it. That's a 
different question. I don't know and I have no recommendation 
about how they would take an individual who checks three boxes 
and tabulates that so you don't get more than 100 percent. I 
just don't know how to do that.
    But I would like to add--and this may be a little bit 
outside of your question--that for those people who may be 
concerned about having a multiracial category, they may be of 
the opinion that this information is somehow seen and 
identified with them as an individual, when in fact it is not.
    This information, compiled and used in a general way, needs 
to be explained, I think, to the public, so that people won't 
think that Ms. Jones is somehow going to be identified other 
than what Ms. Jones believes she is, because they have checked 
this form. It does not work that way.
    What Ms. Jones needs to understand is, if she is not given 
the opportunity to check a category that would ensure that we 
protect her from discrimination, and we are able to count in 
ways that will identify where certain things are occurring and 
help to make those corrections, she must understand that she 
will be a lot better off in this society by having those kinds 
of protections than not.
    That's the kind of discussion we have not had an 
opportunity to get into, in this overall education process.
    Mr. Davis of Illinois. Anyone else?
    Mr. Conyers. Well, I don't have a University of Chicago in 
my district, Danny, so I can't deal with these kinds of 
questions this morning.
    Mr. Davis of Illinois. We'll help you.
    Let me just say--and I think it's time to go--I think you 
raise a very interesting point, because many of the individuals 
with whom I have spoken, who indicated that they were looking 
for a multiracial category, have indicated that is was a very 
personal feeling and item to them.
    We have often suggested to them that, yes, that's important 
and that's one thing, but just as important as your personal 
feeling really is where you fit as part of a group, especially 
if you're a member of a minority group and you're seeking equal 
protection and equal opportunity under the law.
    So I thank you very much.
    Ms. Waters. Thank you.
    Mr. Horn. We thank the gentleman.
    The subcommittee stands in recess for approximately 12 
minutes.
    [Recess.]
    Mr. Horn. The subcommittee will reconvene.
    We will begin with panel III: Susan Graham, president of 
RACE; Carlos Fernandez, coordinator of law and civil rights, 
Association of Multiethnic Americans; Harold McDougall, 
director, Washington Bureau, NAACP; and Dr. Mary Waters, 
Department of Sociology, Harvard University.
    If you would please come forward, we will begin.
    I might add, for the benefit of the audience, we could have 
several votes coming up, presumably, they say, maybe within 10 
minutes. I thought I would come back, since I've seen those 
things last an hour before they go, and we will just keep 
plugging away.
    We have a tradition on this subcommittee, which is an 
investigating subcommittee, of swearing all witnesses except 
Members of Congress to the oath, as to their testimony. So if 
you would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all four witnesses 
affirmed the oath.
    We will just take them in the order that they are in our 
agenda, and that means we begin with Susan Graham, president of 
Project RACE.
    I believe you are from Georgia, are you, Ms. Graham?
    Ms. Graham. Yes, I am from Georgia.
    Mr. Horn. Well, the Speaker had very much hoped to be here 
to introduce you, but he and Mr. Lott and a few of the White 
House people are working together, so that will have to be 
postponed. So please begin.

  STATEMENTS OF SUSAN GRAHAM, PRESIDENT, PROJECT RACE; CARLOS 
FERNANDEZ, COORDINATOR FOR LAW AND CIVIL RIGHTS, ASSOCIATION OF 
 MULTIETHNIC AMERICANS; HAROLD McDOUGALL, DIRECTOR, WASHINGTON 
   BUREAU, NAACP; AND MARY WATERS, DEPARTMENT OF SOCIOLOGY, 
                       HARVARD UNIVERSITY

    Ms. Graham. Thank you.
    I am pleased to be with you again today, representing the 
national membership of Project RACE. I testified before the 
subcommittee on May 22 about the plight of multiracial children 
in America who are without a racial classification. My son Ryan 
also testified. He told you that he wants a classification that 
describes exactly who he is, multiracial.
    This time I've brought two other young ladies from Georgia 
along with me. They have a vested interest. They are both 
multiracial. One is my daughter, Megan Graham; and the other is 
Ashleigh Miller. Ashleigh's mother filed a suit against OMB so 
that Ashleigh and her brother could be considered multiracial.
    I have been asked to come back today to address the 
interagency recommendation to the Office of Management and 
Budget. The national membership of Project RACE expressed 
feelings of elation at the ``mark one or more'' parts of the 
recommendation. For the first time in the history of this 
country, our multiracial children will not have to choose just 
one race. It is progress.
    But after the elation came the sad truth. Under the current 
recommendation, my children and millions of children like them, 
merely become ``check all that apply'' kids, or ``check more 
than one box'' children, or ``more than one race'' persons. 
They will be known as ``multiple checkoffs,'' or ``half-and-
halfers,'' or as John Hope Franklin, chairman of President 
Clinton's Race Relations Commission referred to them, ``half-
white Negroes and half-black whites.''
    They are none of the above. They are multiracial children.
    The worldwide readership of ``Interracial Voice'' and the 
national membership of A Place for Us join with Project RACE in 
strongly advocating for a multiracial category. We want the 
message to be very clear: multiracial category children exist, 
and the Federal Government recognizes them.
    You must understand that the proposal, in effect, says, 
multiracial persons are only parts of other communities; they 
are not whole. When I was in school, one-half plus one-half 
equalled a whole. I think it still does, unless you're 
multiracial.
    Let's be very clear. The compromise for ``check one or 
more,'' without a multiracial identifier, was not a compromise 
with the multiracial community. It was a compromise with the 
opponents of the category.
    I have brought short comments from Project RACE members 
from across the country, of all ages and races, voicing their 
opinions about the recommendation and the need for the 
multiracial classification. I ask that they be entered into the 
record.
    Mr. Horn. They will be in the record at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.381
    
    [GRAPHIC] [TIFF OMITTED] 45174.382
    
    [GRAPHIC] [TIFF OMITTED] 45174.383
    
    Ms. Graham. Thank you.
    Representatives of OMB stated in a media briefing held on 
July 8, 1997, that a multiracial classification would ``no 
doubt add to racial tension and further fragmentation of our 
population.'' This statement is racist, untrue, and 
inflammatory.
    In the seven States which currently have a multiracial 
category, there has been no racial tension or fragmentation of 
the population as a result of the multiracial classification. 
In fact, people of all races have been glad to have the 
multiracial category. I have heard of no race riots, hate 
crimes, protests, or the slightest bit of tension in those 
seven States because of the multiracial classification.
    And incidentally, those seven States include Mr. Sawyer's 
and Mr. Portman's State of Ohio, Mr. Conyers' State of 
Michigan, Mr. Davis' State of Illinois, and Speaker Gingrich's 
State of Georgia.
    The Interagency Committee obviously recognizes the need for 
appropriate racial labels. They have recommended adding 
African-American to the black category, changing Hawaiian to 
Native Hawaiian, and changing Alaskan Native to Alaska Native. 
Terms like Latino can be added to Hispanic. Why can't 
multiracial be used in addition to ``check more than one''? Why 
is it unimportant to be multiracial but important to be 
African-American or Latino?
    Why does OMB object to the word ``multiracial''? First, 
because they do not want to define the word. In fact, they 
don't have to define it at all. OMB Directive 15 should state, 
``A multiracial person may have origins in two or more of the 
listed groups.'' OMB Directive 15 could state, ``Multiracial 
persons can but are not required to report more than one race'' 
instead of ``Persons of mixed racial origin can but are not 
required to report more than one race.''
    Second, some of the leadership of the other minority 
communities just do not like the term ``multiracial.'' Their 
irrational fear of loss of numbers was addressed during the 
last hearing. It is simply ridiculous that multiracial children 
should have to have the sanction and approval of other minority 
groups in order to have their own identity.
    Equally disturbing is the lack of information on how 
persons who check more than one box will be counted. The 
recommendation speaks of tabulation in algorithms. They say 
they won't be able to figure it out until January 1, 1999. The 
recommendation states, ``Data producers are encouraged to 
provide greater detail about the distribution of multiple 
responses.'' Encouraged but not mandated.
    There are 10 additional combinations under the ``check one 
or more scheme.'' Six persons who check two boxes, three 
persons who check three boxes, and one person who would check 
four boxes. That's it; 10 combinations is all we're talking 
about.
    The only accurate and complete way for the government to 
report the breakdown of this racial group is to report on the 
additional 10 categories under the major heading of 
``multiracial.'' It should be mandatory to report this way. Not 
only is it the most accurate way to count, but it gives us the 
information absolutely necessary for medical purposes. To allow 
people to check more than one box and then revert to some kind 
of scheme to reaggregate them into one racial category is 
discriminatory.
    It doesn't take 50 task forces and 50 government 
statisticians running around to find out how other countries do 
this, to see how it can be done accurately. It certainly 
shouldn't take 2 years, and it should have been decided in the 
4 years of OMB investigation. Thus, we are being asked to 
comment on a recommendation which has not answered a very 
important part of the outcome.
    I listened to comments of Representative Tom Sawyer the 
other day about sampling on the census. He repeatedly said, 
``The goal is accuracy.'' If the goal is accuracy for the 
argument of sampling, then the goal should be accuracy in 
counting people who do fill out their census forms. Can we 
afford to have two different standards when it comes to the 
accurate portrayal of the makeup of race in America?
    Further, it must be made very clear that respondents to 
race can report more than one race. It is not enough to have it 
hidden within OMB's Statistical Directive 15; it must be stated 
clearly on forms. The Project RACE recommendation, which we 
presented before, ``if you consider yourself to be biracial or 
multiracial, check as many as apply,'' is far more preferable 
to ambiguous language. We must have clarity if accuracy is our 
goal.
    I want to wrap up with talking about who is confused here. 
President Clinton said last week that his high profile panel on 
race would focus on multiracialism, yet his administration is 
afraid to define ``multiracial.''
    One of the reasons given by the Interagency Committee under 
``Findings not favoring adoption of a method for reporting more 
than one race,'' is that there are no Federal legislative 
requirements for information about the multiracial population. 
But there are also no Federal legislative requirements for an 
African-American identifier either.
    This subcommittee should recommend passage of H.R. 830 so 
that no one is confused or, as Mr. Conyers from Michigan said, 
we should include a multiracial category with the same 
questions and checkoffs below it. That would also be another 
way that we could do it.
    The recommendation is for an implementation of the ``mark 
one or more'' scheme by the year 2003. Is this so confusing 
that it will take 6 years to implement? My son, who first 
testified on this issue when he was 8 years old, will be 18 
years old in the year 2003. He will be old enough to vote and 
still not have a multiracial classification. I wonder who he 
will vote for?
    When I told my son Ryan about the interagency 
recommendation, he looked at me and said, ``Mom, what's the 
Federal Government going to call me next--gray--Why can't they 
let me be multiracial?'' Perhaps you can answer that question 
for him better than I.
    Thank you.
    [The prepared statement of Ms. Graham follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.384
    
    [GRAPHIC] [TIFF OMITTED] 45174.385
    
    [GRAPHIC] [TIFF OMITTED] 45174.386
    
    [GRAPHIC] [TIFF OMITTED] 45174.387
    
    Mr. Horn. We thank you for your testimony. It has been very 
helpful.
    Without objection, the testimony of Representative Carrie 
P. Meek will be put in the record at the end of the Members' 
panel.
    We now go to Carlos Fernandez, coordinator for law and 
civil rights, the Association of Multiethnic Americans.
    Mr. Fernandez.
    Mr. Fernandez. Thank you, Mr. Chairman.
    My name is Carlos Fernandez. I am here speaking for myself 
and also on behalf of the Association of Multiethnic Americans. 
I am the association's coordinator for law and civil rights, 
and served as its founding president in 1988.
    The Association of Multiethnic Americans is a nationwide 
confederation of multiethnic, interracial groups, representing 
thousands of people from all walks of life, and includes 
individuals and families of various racial and ethnic origins 
and mixtures.
    On June 30, 1993, I had the opportunity to testify on 
behalf of AMEA before the House Subcommittee on Census, 
Statistics, and Postal Personnel, to present for the first time 
an overview of our concerns with respect to the acknowledgement 
of multiracial, multiethnic people by our government.
    I hereby incorporate that testimony herein by reference.
    Mr. Horn. Without objection, it will be put in the record 
at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.388
    
    [GRAPHIC] [TIFF OMITTED] 45174.389
    
    [GRAPHIC] [TIFF OMITTED] 45174.390
    
    [GRAPHIC] [TIFF OMITTED] 45174.391
    
    [GRAPHIC] [TIFF OMITTED] 45174.392
    
    [GRAPHIC] [TIFF OMITTED] 45174.393
    
    [GRAPHIC] [TIFF OMITTED] 45174.394
    
    [GRAPHIC] [TIFF OMITTED] 45174.395
    
    [GRAPHIC] [TIFF OMITTED] 45174.396
    
    [GRAPHIC] [TIFF OMITTED] 45174.397
    
    Mr. Fernandez. Thank you.
    I submitted written testimony to this subcommittee, in May 
of this year, reviewing the legal and constitutional issues 
which pertain to the Government's racial and ethnic 
classifications as they affect multiracial, multiethnic 
individuals. I hereby also incorporate that testimony herein by 
reference.
    Mr. Horn. Without objection, it will be put in at this 
point.
    [Note.--The information referred to can be found on p. 
558.]
    Mr. Fernandez. Following the enactment of the 1965 Civil 
Rights Act, the newly created Equal Employment Opportunity 
Commission.
    Mr. Horn. 1964. I think you mean 1964.
    Mr. Fernandez. Excuse me, it is a typo. Yes.
    The newly created Equal Employment Opportunity Commission 
required employers to report on the numbers of Negroes, 
Orientals, American Indians, and Spanish-Americans, and 
produced Standard Form 100 for this purpose. Other agencies 
followed suit.
    By the 1970's, racial statistics gathered from agencies of 
government at all levels were becoming unwieldy and 
standardization was deemed necessary. Mindful of this, the 
Office of Management and Budget produced Statistical Policy 
Directive 15 in 1977. Directive 15 remains to this day the 
supreme authority for racial classifications in the United 
States, affecting all Governmental agencies, including the 
census, the public schools, Social Security, and so forth.
    The directive also dictates classification policy to the 
private sector through the EEOC, the Small Business 
Administration, as well as by way of example. OMB Directive 15 
sets forth five racial ethnic categories: white, black, Asian/
Pacific Islander, Native American/Alaskan Native, and Hispanic. 
Additionally, the directive requires reporting in one category 
only for each individual counted, the so-called ``check one 
only'' rule. ``Other'' is not one of the reporting categories.
    Directive 15's stated purpose is to require government 
agencies at all levels to design their racial and ethnic query 
forms in such a way that the information provided can be 
reported in terms of one of the Directive 15 categories only. 
Thus, people whose parentage encompasses more than one of the 
designated categories cannot be counted except monoracially. No 
reason is stated as to why an individual must report in only 
one category.
    The OMB's Interagency Committee for the Review of the 
Racial and Ethnic Standards announced this month its 
recommendations regarding OMB's Statistical Directive 15. In 
particular, the Interagency Committee recommended that 
Directive 15 be amended to permit multiple checkoffs on 
government forms whenever racial and ethnic information is 
requested.
    Additionally, the Interagency Committee specifically ruled 
out the addition of a new classification for multiracial 
individuals. The Interagency Committee did not issue any 
proposed draft for the amended Directive 15. The committee 
recommended that the proposed changes be used in the 2000 
decennial census and that all agencies conform to the changes 
no later than January 1, 2003. There wasn't any mention as to 
whether any agency might be permitted to implement the proposed 
changes before the year 2000.
    The Association of Multiethnic Americans and allied 
organizations and individuals regard the Interagency Committee 
recommendations as a necessary and revolutionary change. If 
implemented appropriately, we believe the proposed changes to 
OMB Directive 15 will meet our most fundamental concern; 
namely, acknowledgement by our government that multiracial/
multiethnic people do, in fact, exist and have a right to be 
counted.
    Additionally, the proposed changes will resolve the legal 
and constitutional problems presented by the current Directive 
15, which I pointed out to this subcommittee in May.
    While we have proposed that the directive be changed to 
also include a new classification for multiracial/multiethnic 
individuals, a proposal that we stand by, we nonetheless regard 
the Interagency Committee's recommendations as the best 
compromise possible at this time, and will wholeheartedly 
support them.
    There are, however, three major concerns we have about the 
final wording about the amended Directive 15, all of which are, 
in our view, critical. One, Directive 15 must ensure that the 
total number of individuals returning multiple responses to 
racial and ethnic questions can be discerned.
    The tabulation procedure to be adopted must be one that 
allows us to distinguish both the numbers and composition of 
people returning multiple responses. Our understanding is that 
the OMB wishes to ensure this, as well, and has solicited 
assistance in devising a practical means to accomplish this.
    Without such a tabulation, the numbers of multiracial/
multiethnic people will be lost among the other 
classifications. Among other things, this would impede 
assessing the health needs of our population and would serve no 
fathomable purpose.
    Directive 15 must include clear language that will allow 
for multiple checkoffs for individuals who are both Hispanic 
and non-Hispanic. It would be grossly inconsistent, and again 
would serve no fathomable purpose, to single out one particular 
segment of the population by denying them the same right to 
indicate, in a factual manner, their identity.
    The Interagency Committee's recommendations were unclear on 
this point, making reference only to racial identification, and 
saying nothing about whether the amended Directive 15 will 
retain its dual interchangeable formats, one of which 
racializes the Hispanic classification, the other which treats 
Hispanics as an ethnic group.
    Third, Directive 15 must not include any prohibition on the 
use of a multiracial/multiethnic classification by any 
government agency. The Interagency Committee recommended 
against the addition of a multiracial/multiethnic 
classification but said nothing about explicitly prohibiting 
the use of such an identifier by any agency subject to 
Directive 15.
    The committee explained its position by saying that 
``Having a separate category would, in effect, create another 
population group, and no doubt add to racial tension and 
further fragmentation of our population.''
    We do not agree with this opinion of the Interagency 
Committee and still believe that a multiracial/multiethnic 
classification should be included, albeit only together with 
the multiple checkoffs that have been recommended. However, we 
believe that the probable intent of this opinion was to explain 
why they were not recommending a new classification in the 
directive itself and not a prohibition on its use.
    Several States and other public bodies have already 
legislated the use of a multiracial classification. We believe 
these laws should stand and that, prospectively, other public 
bodies be permitted to enact such laws, as long as they are 
amended or enacted to include multiple checkoffs.
    We disagree that a multiracial/multiethnic classification 
would ``create a new population group.'' The population group 
to which they refer already exists and is growing rapidly. We 
also take issue with the opinion that a multiracial/multiethnic 
classifier would ``add to racial tension'' and ``fragment our 
population.'' The essence of the multiracial/multiethnic 
population is one of racial and ethnic unity.
    As we have stated before, our community is specially 
situated to confront racial and interethnic issues, precisely 
because of the special experiences and understanding we acquire 
in the intimacy of our families and our personalities. Of all 
populations, ours has the unique potential to become the stable 
core around which the ethnic pluralism of the United States 
can, in fact, be united.
    We thank the subcommittee for hearing our views.
    [The prepared statement of Mr. Fernandez follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.398
    
    [GRAPHIC] [TIFF OMITTED] 45174.399
    
    [GRAPHIC] [TIFF OMITTED] 45174.400
    
    [GRAPHIC] [TIFF OMITTED] 45174.401
    
    [GRAPHIC] [TIFF OMITTED] 45174.402
    
    [GRAPHIC] [TIFF OMITTED] 45174.403
    
    Mr. Horn. We thank you very much for coming.
    Our next witness is Harold McDougall, the director of the 
Washington Bureau of the NAACP.
    You have the title of, I think, one of your predecessors, 
who was one of the finest people that ever walked Capitol Hill, 
and that was Clarence Mitchell. He happened to be one of my 
three mentors when I came to the Hill, in 1960, as a Senate 
staff person. So you are filling a very honorable office.
    Mr. McDougall. Thank you, Mr. Chairman.
    I'm also trying to fill very large shoes. As you mentioned, 
he was referred to as ``the 101st Senator'' and ``the Lion of 
the Lobby.''
    I am Harold McDougall, the director of the Washington 
Bureau of the NAACP, the Nation's oldest and largest civil 
rights organization, over 600,000 members in the 50 States and 
the District of Columbia, and around the world.
    I would like to summarize my testimony, Mr. Chairman, and 
have it incorporated into the record.
    Mr. Horn. Without objection, all testimony is automatically 
incorporated the minute I introduce you.
    Mr. McDougall. Certainly.
    Mr. Horn. Feel free to summarize.
    Mr. McDougall. Also, I will just make the formality of 
requesting that my May testimony be incorporated, as well.
    Mr. Horn. Absolutely. Without objection.
    [Note.--The information referred to can be found on p. 
307.]
    Mr. McDougall. Thank you.
    Currently, the Federal Government uses race data for 
statistical and administrative purposes, including monitoring 
civil rights compliance pursuant to OMB Directive 15. The data 
cumulated under OMB Directive 15 has been used to help enforce 
the Voting Rights Act, State redistricting plans, to monitor 
discrimination in the private sector, and to establish, 
evaluate, and monitor affirmative action plans.
    As Congressman Conyers indicated, the Home Mortgage 
Disclosure Act is impacted by census data, as well as the Equal 
Credit Opportunity Act, desegregation plans in the public 
schools, minority business development programs, the Fair 
Housing Act, and to monitor environmental degradation in 
communities of color, just to name a few.
    So this data, obviously, is very important. As I think some 
of the members in the previous panel indicated, much remains to 
be done with respect to racial discrimination in this country, 
and the data, of course, is so very important in that respect. 
Racial discrimination is still prevalent in American life, and 
the residual effects of past discrimination continue to limit 
the advancement of African-Americans and other racial 
minorities.
    I did get an opportunity to take a look at Mr. Gingrich's 
testimony. One of the things that he said was that it would be 
good if we could just call each other ``Americans'' and all 
this would be behind us. It's as if we could change reality by 
changing what we call ourselves.
    For those who say our society is color-blind, I have to 
reiterate that saying is not the same thing as doing. If we are 
to reach the deep roots of the legacy of slavery, involuntary 
servitude, segregation, discrimination, and hate violence, we 
must commit ourselves not merely to undo the words of forced 
division but also to undo the consequences of oppressive acts.
    The census has been critical in documenting for the 
American public the deep racial inequalities which still exist 
in virtually every dimension of American social, economic, and 
political life. Under these conditions, any effort that 
threatens to complicate, retard, or thwart the collection of 
this useful data will meet vigorous resistance from the NAACP.
    I want to talk briefly about the aspirations of individuals 
with multiple racial heritages.
    Mr. Horn. Why don't we, at that point, have a recess so 
that you can finish your statement.
    We are faced with this situation on the floor: We have one 
vote now. The 15 minutes will end in 4 or 5 minutes, and I need 
to get over there to vote. There will then be a series of 5-
minute votes. So I suggest--and I'm aware of Ms. Katzen's 
problem, and we will get you out of here by 12:40--but I think 
we're going to have to be in recess till at least 10 of 12.
    Mr. McDougall. Thank you, sir.
    Mr. Horn. So let's all relax, and we will come back to hear 
the rest of your testimony.
    [Recess.]
    Mr. Horn. The hearing will resume.
    Mr. McDougall, please pick up where you left off.
    Mr. McDougall. Maybe I'll let you catch your breath, Mr. 
Chairman.
    Mr. Horn. No, I'm in good shape.
    Mr. McDougall. OK. I was just emphasizing that, for us, the 
question of the integrity of data collection over time is of 
utmost importance in terms of the vigorous enforcement of the 
civil rights laws.
    I also wanted to make some comment about the aspirations of 
individuals with multiple racial heritages. The NAACP has 
always supported the right of individual self-determination and 
self-identification in defining one's racial makeup. For 
medical reasons and for reasons of possible discrimination 
against individuals precisely because they are of diverse 
racial backgrounds, the NAACP supports the legitimate 
aspirations of this community for a fair and accurate count of 
their numbers.
    I want to talk a little bit about the Interagency Committee 
recommendations of ``select one or more'' rather than a 
separate multiracial category. In Chapter 6, the committee 
recommended that the method for census respondents to report 
more than one race should take the form of multiple responses 
to a single question; i.e., select one or more rather than a 
separate multiracial category.
    The ``select one or more'' option, according to the 
committee, gives the most accurate picture of changing racial 
and ethnic identification among our citizens without creating 
discontinuities with historical data collection, such as those 
associated with a separate multiracial designation.
    This accords with my earlier testimony in which the NAACP 
expressed concern that creation of a separate multiracial 
category might disaggregate the apparent numbers of members of 
historically protected minority groups, diluting benefits to 
which they are entitled as a protected class under civil rights 
laws and under the Constitution itself.
    We know that a small minority of advocates from the 
community of persons of multiple racial backgrounds continue to 
advocate for a multiracial category exclusively, apparently 
because they wish to be considered a new race. The NAACP 
believes that all people of color, all facing discrimination 
and with similar aspirations, should, wherever possible, work 
together and not in opposition to one another.
    The proposal by the Interagency Committee of a ``select all 
that apply'' approach rather than a multiracial category 
approach facilitates that process. Let me reiterate the NAACP's 
continued opposition to the collection of the data, in the 
first instance, in any multiracial category.
    The Interagency Committee cautions that the use of a 
separate multiracial category rather than a ``select one or 
more'' approach would create needless confusion. It gives an 
example in the fact that the States of Georgia, Indiana, and 
Michigan define ``multiracial'' as having parents of different 
races; whereas, California is now considering legislation which 
would define ``multiracial'' as having parents, grandparents, 
or great-grandparents of different races.
    Now, under those definitions, I, myself, would be black in 
Georgia, Indiana, and Michigan, but I would be multiracial in 
California. So now I'm getting confused.
    So I think we have to be very careful about this. Speaker 
Gingrich, in his testimony, indicated that he wanted to avoid 
the creation of subgroups to further fractionate America. I 
would caution, then, about developing a multiracial group for 
that very reason. I guess, in that respect, the Speaker and I 
agree.
    We must take care not to recreate, reinforce, or even 
expand the caste system we are all trying so hard to overcome. 
The NAACP believes that most individuals of diverse racial and 
ethnic backgrounds do not think of themselves as a new race, 
but instead wish to celebrate all their heritages rather than 
blend them into a new category reminiscent of the ``colored'' 
category of South Africa's very sad history of apartheid. For 
those who treasure each and every forebear, a ``check one or 
more'' option should suffice.
    I want to talk a little bit about the methods of data 
tabulation and get past the cultural questions. The remaining 
question now is not the collection of data. The ``select one or 
more'' option of the Interagency Committee has admirably split 
the Gordian Knot that separated many of the traditional civil 
rights organizations from the emerging multiethnic and 
multiracial groups. As people of color, we greatly appreciate 
that.
    Now the question moves further down the pipeline of the 
data process to the point of tabulation. What is needed now are 
protocols to modify existing tabulation procedures to 
accommodate census responses reporting more than one race. Our 
concern, obviously, is that such protocols maintain the 
integrity of civil rights enforcement.
    In addition, we must bear in mind that multiple race 
respondents might encounter discrimination as people of mixed 
race, as people visually identified with one or more of the 
single-race categories, either, or both. Under those 
circumstances, we believe it is important to be able to count 
all the acts of discrimination that an individual might face.
    The interagency report identified three possible tabulation 
methods. There are some others, somewhat more esoteric, that we 
don't find satisfactory. I think my colleague, Dr. Waters from 
Harvard, will go more deeply into those.
    But the three that we found most interesting were presented 
by the interagency report as bridges between existing 
classification systems and those to be developed. And they are 
the single-race approach, the all-inclusive approach, and the 
historical series approach.
    The single-race approach approximates the use of a 
multiracial category. It involves assigning single-race 
responses to a single race category and multiple-race responses 
to a multiple-race category. Now, how the responses to the 
multiple race category would be then disaggregated and 
reaggregated, we don't have any guidance, and obviously that's 
something we would be very interested in finding out about.
    The all-inclusive approach, obviously, we like. Congressman 
Conyers indicated that adding up to more than 100 percent of a 
person is a problem for capitation, not for the ability to 
track instances of discrimination. The all-inclusive approach 
involves assigning all those who check more than one race into 
every category that they check off.
    Tiger Woods, ``Cablanasian,'' as he calls himself, 
Caucasian, black, Native American, and Asian, would be counted 
four times. Now, you know, I think a lot of us would like to 
see four Tigers out there.
    Each community of his diverse heritage would have the 
opportunity to claim him, without an unseemly parents' battle 
to be resolved Solomon-like by offering to cut him into 
quarters. Each community would also have the ability to protect 
him from each active institutional or individual discrimination 
he might face, whether as a member of a single race group or as 
a mixed race individual.
    As the committee notes, this would result in percentages 
for each of the four separate racial categories exceeding 100 
percent, because multiple-race responses would be counted in 
each reported racial category. Still, the report continues, the 
all-inclusive approach would provide information on the total 
number of times the racial category had been elected.
    It would also enable organizations like the NAACP to record 
the number of times that an individual might face different 
kinds of discrimination. So we, obviously, favor that approach. 
We wish to know each time such discrimination occurs, for 
whatever reason.
    The third approach, the historical series approach, seeks 
to fine-tune the tabulation so that multiple-race respondents 
are assigned to single race categories from the outset, based 
on the likelihood that persons who check off at least one of 
the historically protected categories, black, Asian or Pacific 
Islander, and Native American, will encounter discrimination.
    This approach meets many of the goals of the all-inclusive 
approach in keeping track of likely acts of discrimination, 
while also meeting many of the objectives of the single-race 
approach in keeping the capitation or head count at no more 
than 100 percent of the population. The only problem area, and 
it may be a small one, exists with regard to multiple-race 
respondents who check off more than one protected category. 
Tiger Woods, again, is our example.
    Tiger would not be assigned to white, because he also 
checked off a protected category. He would not be assigned to 
Asian, black, or Native American, because he could be claimed 
by all three, driving the capitation rate in each single race 
category over 100 percent. Instead, he would stay in a 
multiracial category. This, obviously, needs to be examined 
further.
    In conclusion, we can say that it may be that the single-
race, the all-inclusive, and the historical series approaches, 
singly or in combination, might be used by different agencies 
for different purposes, in the kind of aggregation and 
disaggregation exercises that Congressman Sawyer referred to 
earlier in the day.
    What is important for our purposes is that evidence of 
every act of discrimination be preserved. What would be 
important from the standpoint of the Census Bureau and the 
Federal agencies, and obviously Congressmen concerned about the 
size of their districts, is that protocols be adopted that 
would enable the different agencies and the different formulas 
to talk to one another and share data in a meaningful way.
    As a general matter, we favor the all-inclusive approach 
and would not favor the single-race approach, and the 
historical series approach appears to us to be a compromise. 
All in all, we appreciate the spirit of compromise and 
creativity the Interagency Committee has shown, and look 
forward to a successful resolution of the remaining questions.
    Surely this is a matter we would all like to get past and 
through, so that we can focus on issues of fair and accurate 
methods of assuring that the entire population is actually 
counted. In this regard, the issue of statistical sampling, 
which was mentioned earlier in the day, is key.
    Such modern methods of ensuring an accurate count are 
necessary in our ever-changing society. Just as we have been 
innovative in resolving the issue of how our citizens identify 
themselves, so, too, we hope for innovation in ensuring that 
all our citizens are fairly counted, especially minorities and 
the poor.
    I thank you for your time and for receiving my testimony.
    [The prepared statement of Mr. McDougall follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.404
    
    [GRAPHIC] [TIFF OMITTED] 45174.405
    
    [GRAPHIC] [TIFF OMITTED] 45174.406
    
    [GRAPHIC] [TIFF OMITTED] 45174.407
    
    [GRAPHIC] [TIFF OMITTED] 45174.408
    
    [GRAPHIC] [TIFF OMITTED] 45174.409
    
    [GRAPHIC] [TIFF OMITTED] 45174.410
    
    [GRAPHIC] [TIFF OMITTED] 45174.411
    
    Mr. Horn. We thank you.
    We are going to adjust panels. I had planned that Dr. 
Waters would sit with both panels. So if we can get some extra 
chairs in there, I'm going to have Ms. Katzen first, because 
I'm conscious of her time commitment. If the staff will move 
some extra chairs in there, we're going to keep this panel; 
we're going to add to it the administration panel; and we're 
going to get to a dialog once we get through the testimony and 
the formal statement each one wants to make.
    As I say, Dr. Waters, we're not going to forget you. You 
are going to help bring peace and harmony here.
    All government witnesses can come forward, and we will just 
integrate you. So we have Sally Katzen, the Administrator of 
the Office of Information and Regulatory Affairs, Office of 
Management and Budget; we have Isabelle Katz Pinzler, Acting 
Assistant Attorney General for Civil Rights, Department of 
Justice; and Nancy Gordon, Associate Director for Demographic 
Programs, Bureau of the Census.
    All who are going to be testifying, including staff backing 
you up--if you turn, for instance, to Ms. Wallman--I want them 
all taking the oath. So if you will all stand, with all staff 
that are going to be testifying sometime in the course of this 
hearing.
    [Witnesses sworn.]
    Mr. Horn. All witnesses have affirmed, including staff. The 
clerk will make a note.
    Dr. Katzen, I'm aware that you have a tight time schedule. 
You have appeared here many times, and you and I have talked 
privately on this, but let's get it on the record as to where 
we are, how we got there.
    I think the basic question that everyone has asked, the 
members of this panel as well as congressional Members, and Ms. 
Meek mentions it in her testimony, which I've put in the 
record--she couldn't make it this morning--and that is, how are 
we going to realistically use those data to help us in civil 
rights enforcement, in benefits received, and so forth?
    I am assuming that you will get into some of that.

     STATEMENTS OF SALLY KATZEN, ADMINISTRATOR, OFFICE OF 
 INFORMATION AND REGULATORY AFFAIRS, OFFICE OF MANAGEMENT AND 
 BUDGET; ISABELLE KATZ PINZLER, ASSISTANT ATTORNEY GENERAL FOR 
    CIVIL RIGHTS, DEPARTMENT OF JUSTICE; AND NANCY GORDON, 
  ASSOCIATE DIRECTOR FOR DEMOGRAPHIC PROGRAMS, BUREAU OF THE 
                             CENSUS

    Ms. Katzen. Thank you very much, Mr. Chairman.
    I appreciate your inviting me here today. As in the past, I 
want to commend you for your leadership in this area, and the 
series of hearings that you are holding. I think they are very 
beneficial.
    I have found sitting here and listening to the witnesses 
who preceded me to be very informative. I appreciate having the 
opportunity to add a little bit of background and perhaps a 
little bit of prognosis of where we are going from here to the 
discussion that we have had so far.
    As you will recall, the last time I testified was on April 
23. At that point I gave you a detailed report of our progress, 
but we had not yet received the results of the last of a series 
of tests in the research that was a very important part of our 
work.
    Our work was a two parallel track study: one of public 
comment and public suggestions, and one of research and 
testing. We received the results of the last research in May, 
and then I received from the Interagency Committee its 
recommendations and report, which we made available to the 
public in a Federal Register notice on July 9 of this year, 
requesting comments for a 60-day period.
    What you have heard this morning underscores some of the 
salient facts. First, this is the report of the Interagency 
Committee that consists of 30 Federal agencies that use or 
generate data. Second, the recommendations were unanimous. 
There was not a single dissent or separate concurrence, which 
is somewhat unusual when you gather 30 Federal agencies 
together on any issue of policy.
    Third, there has been a lot of discussion this morning 
about the recommendations. With the exception of Congressman 
Sawyer, who mentioned one or two of the others, the witness 
have been focusing on the treatment of persons who have 
multiple racial heritages.
    All of the recommendations of the Interagency Committee are 
set forth in Chapter 6 of the document. I would encourage those 
who have an interest in this area to look at Chapters 1 through 
5, as well, because I believe that they provide both a context 
and the basis for the Interagency Committee's recommendations.
    I also want to emphasize here, as I have in other 
instances, that while this hearing is talking about the 
implications for the decennial census, OMB Directive 15 applies 
to all Federal forms for statistical and administrative or 
programmatic reports.
    As a result, it is not just the census, but these 
standards, these minimum sets of categories that would be 
determined, would apply for housing assistance applications, 
for school registrations, and for medical research. It is not 
just the census, although that has been the sole issue that has 
been discussed to date.
    I also would like to mention, in light of some of the 
comments that I heard this morning, that this is the 
recommendation of the Interagency Committee. OMB has asked for 
public opinion on it. What I am saying now will be drawn from 
the report and recommendations.
    Ultimately, at the conclusion of the public comment period, 
I will be making a decision with respect to changes, if any, in 
the existing standards. I am assuring myself that I will keep 
an open mind and listen to all comments. Therefore, if I'm 
making a statement, it is drawn from the report that we have 
received rather than representing my own or OMB's views of 
this. Our views will be made known in October.
    I think, however, one comment that may be appropriate is to 
respond to the comment that this is an attempt to compromise, 
or that it is seeking to appease one group or another. My view 
is that this is the effort of professional statisticians 
wrestling with--and I think that is the appropriate verb to 
use--wrestling with a very difficult statistical policy issue, 
and that they were addressing it as professional statisticians.
    Indeed, over the 4-year period, we have had very little 
comment, and certainly very little negative comment about the 
process that we have used to keep this on that basis. The 
objective was not to read the tea leaves or figure out what 
might be a politically attractive solution, but actually to try 
to come up with the best policy for the government for 
statistical purposes.
    Therefore, rather than viewing this as a compromise, I 
believe they believe it is a principled accommodation of the 
legitimate interests that have been presented.
    I also would note in this connection that we have heard 
some talk about how long it has taken. I believe actually 
that's a sign of the seriousness of purpose that was addressed 
to this. It has been 4 years. There has been a comprehensive 
review, which is what I committed to in a congressional hearing 
when we started this.
    There was also some question in terms of the timing. The 
recommendation of the Interagency Committee is that all Federal 
agencies implement whatever changes are adopted no later than 
2003. In answer to Mr. Fernandez, yes, some can implement them 
sooner.
    The 2003 date was used because any changes will be 
reflected in the decennial census, and the results of the 
decennial census will not be available until the early part of 
the next millennium. Since they provide the denominator for 
many of the programmatic offices, it may be inappropriate for 
some of the Federal agencies to use the revised forms before 
then. But it is an outside date, not necessarily an end date.
    I guess the other comment I would make as a general comment 
is that we heard this morning a number of comments about the 
good work that was done. I want to emphasize that whatever 
kudos were given or compliments stated, they belong to the 
Interagency Committee, which is a group of professional 
statisticians from the civil service, under the leadership of 
Clyde Tucker, who is in the audience, from BLS, and under the 
supervision of Katherine Wallman, who is the Chief Statistician 
and head of my Statistical Policy branch.
    Whatever good has been done, it is to their credit, and not 
to mine or to OMB's generally. This is their effort and their 
work. I have been, in some instances, a spokesperson on this 
issue, but they deserve whatever credit is received on this.
    Now, you have already heard a lot about the actual 
recommendations, and I think it is not very useful to go 
through them again, except to underscore a few points that may 
clarify what many of the previous witnesses have been talking 
about.
    You have heard that there should not be a separate racial 
category, a box to be checked off, called ``multiracial.'' One 
of the findings, again, from the Interagency Committee report, 
is that the term ``multiracial'' frequently was misunderstood 
by respondents to mean not only persons of mixed race, using 
the four general categories of race that we have previously 
identified, but also to include multiethnic heritages.
    Irish-Americans, or someone with a parent who is Irish-
American and a parent who is Italian-American, identified 
themselves as multiracial, as did persons who had a Jewish 
parent and a non-Jewish parent, because they saw Judaism as not 
only a religion but a race. There were a number of different 
variations in the testing that showed that the term 
``multiracial'' had a variety of meanings.
    The other finding of the Interagency Committee was that 
``multiracial,'' standing alone, was not particularly 
informative, since even if it were limited to combinations of 
the four categories that are already provided for, it would be 
unclear from simply checking a box, ``multiracial,'' whether 
the person had a parent or heritage that was both black and 
white, or whether it was American Indian and Asian-American, or 
black and Asian-American, or one of the other combinations. So, 
standing alone, a multiracial box was not particularly 
informative.
    There was a call this morning for accuracy and clarity. The 
finding of the Interagency Committee was that a multiracial box 
standing alone did not provide that.
    On the other hand, the committee was very clear that 
individuals should be able to check one or more of the 
historical categories. This, I think, reflected the Interagency 
Committee's belief that, as you, Mr. Chairman, pointed out in 
your opening statement, this is a deeply personal, individual 
issue. On self-identification, persons should be able to 
celebrate their entire heritage and not be forced to choose. As 
a matter of principle, this was very important to the 
Interagency Committee.
    One of the recommendations of the committee that has gotten 
the most attention this morning is how these data will be 
reported. I think there is unanimity of opinion that that is 
the most telling point. Our goal is accuracy; our goal is 
clarity. So the recommendation of the Interagency Committee is 
that, when the data are reported, a minimum of one additional 
racial category designated ``more than one race,'' would be 
included, so long as the criteria for data quality and 
confidentiality are met.
    We also envision appreciably more data being available. In 
response to the questions that have been raised, I don't have 
answers, but I am aware of the importance of providing as much 
data as possible.
    I have said that I am from the Office of Information and 
Regulatory Affairs. ``Information'' is my first name, and I 
believe that we should have robust information that provides 
the kind of information that would be used in different 
circumstances. Remember, this applies to a variety of different 
types of forms, and therefore, in many different circumstances, 
different presentations of the data can be more informative 
than others.
    We are in the process, even as we speak, of compiling a 
group of experts, drawn from those who worked on the 
Interagency Committee in doing the research, to begin to put 
together recommendations for the tabulation. Our mandate or our 
charge to this group is to provide as much information as 
possible, in as many different ways as possible, so that we 
will have this information available for the purposes that we 
might like. And we need it to be done in a way, as Congressman 
Sawyer said, that is rational and consistent with historical 
data, so that we do not lose the data that we have over the 
last 20 years.
    This is a not insignificant issue, and I am not at all 
surprised by people who say, ``But you don't have all the 
answers yet, and yet you want us to comment on your proposal. 
We need more information.'' The reason for our proceeding as we 
have is because of the tremendous interest that was generated 
in the underlying report. Until the final research was 
concluded in May, we were not in a position to receive the 
basic recommendations. But as those are being formulated, as I 
say, we are putting together a group to do the follow-on work 
and present recommendations and guidance for the reporting and 
tabulating of this information.
    Because the time this morning is short, I will just 
identify other areas that are important for those who are 
interested in this issue.
    In addition to the multiracial question, there is the set 
of issues surrounding the request for information on ethnicity, 
Hispanic origin, not of Hispanic origin, and the sequencing of 
that question with the racial questions: whether it should be 
combined, whether it should be separate, and whether it should 
precede or follow. We have, again, interagency recommendations 
on that that are supported by the findings, that should produce 
more complete data, both on Hispanics and of non-Hispanics that 
would be very useful.
    There is another area of the report that deals with whether 
additional categories, apart from a multiracial category, 
should be included. We heard from Middle Easterners, Arabs, 
Cape Verdeans, European-Americans, German-Americans, Creoles, 
all asking that they have a box identifying them.
    The Interagency Committee's recommendation was that there 
should be no racial or ethnic categories added to the minimum 
standards, and I stress ``minimum,'' because in the long form 
on the census, we have a lot of national origin type questions. 
In other kinds of surveys, you can always ask additional 
classifications, so long as they can be reaggregated to the 
major categories.
    But if you set a minimum standard and you include 
additional boxes, if you will, then those additional boxes 
would have to appear on each and every Federal form. We have 
found that the size and the geographic concentration of several 
of these populations would mean that the inclusion of these in 
all of the forms would yield very little data. That's not to 
say they can't be included where they are needed or necessary.
    There also was a lot of discussion in the hearings that we 
had and this is reflected in the report on where Native 
Hawaiians should be included. I have already had one briefing 
with members of the Hawaiian congressional delegation on this 
issue. There were also questions about terminology that were 
raised.
    What I am trying to do here is simply reflect that, while 
the attention has been on the multiracial issue, this report 
goes well beyond that. This report speaks to a much broader 
base and covers a lot of other issues. Again, I would encourage 
those who are interested to read the whole report, and then 
comment. We are in the middle of a comment period. We want to 
hear what the American public thinks about what has been 
recommended to OMB.
    There is a set of general principles that has guided this 
review. They may well serve as a very good basis for people to 
comment, to see if we have met our principles. We think it is 
very important that what we end up with is something that the 
American people understand and appreciate and accept, because 
then we will have greater responsiveness and even more accurate 
data. So I cannot overemphasize how important the public 
comment period is.
    I'm sorry I've run over my time, but I wanted to respond to 
some of the issues that were raised this morning. I thank you 
again for your leadership in this area.
    [The prepared statement of Ms. Katzen follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.412
    
    [GRAPHIC] [TIFF OMITTED] 45174.413
    
    [GRAPHIC] [TIFF OMITTED] 45174.414
    
    [GRAPHIC] [TIFF OMITTED] 45174.415
    
    [GRAPHIC] [TIFF OMITTED] 45174.416
    
    [GRAPHIC] [TIFF OMITTED] 45174.417
    
    [GRAPHIC] [TIFF OMITTED] 45174.418
    
    [GRAPHIC] [TIFF OMITTED] 45174.419
    
    [GRAPHIC] [TIFF OMITTED] 45174.420
    
    [GRAPHIC] [TIFF OMITTED] 45174.421
    
    [GRAPHIC] [TIFF OMITTED] 45174.422
    
    Mr. Horn. Let me begin the questioning. Each Member will 
have 5 minutes. We will go a second round, if we can, and then 
we will get to the other witnesses.
    I know you have to leave. Let's just get a few facts 
straight. When you mentioned the national origin question, 
that's on the long form only.
    Ms. Katzen. Long form of the census, yes.
    Mr. Horn. And how many people get the long form, what 
percent of the American citizenry?
    Ms. Katzen. One-sixth.
    Mr. Horn. One-sixth get the long form. Is that national 
origin based on where they came from or where their parents and 
grandparents came from?
    Ms. Katzen. Nancy.
    Ms. Gordon. The question is left for the respondent to 
answer. It follows the same principle of self-identification, 
so it's the person's desire to express whatever national origin 
he or she identifies with.
    Mr. Horn. Has the Census Bureau, which you represent, ever 
followed up with an interview to see just how accurate that 
is--to know how people are interpreting it and whether the data 
of any use based on that variety of self-identification?
    Ms. Gordon. There was a small reinterview program for the 
1990 census, and I could get you the results of that for the 
record.
    Mr. Horn. Do you remember offhand just the general 
conclusion?
    Ms. Gordon. I'm sorry, I'm not familiar with it.
    Mr. Horn. Without objection, it will go in the record at 
this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.423
    
    Mr. Horn. Now I'm interested in who will make the 
decision--the President, the Director of OMB, or Administrator 
Katzen--after you summarize all the Federal Register comments? 
That's the hierarchy, isn't it?
    Ms. Katzen. That is the hierarchy. The Vice President is 
there as well.
    Mr. Horn. He is not in the hierarchy. Sorry, he is a 
legislative official. Presidents can give him assignments, but 
there is no Constitutional assignment for him.
    Ms. Katzen. The Director of OMB has asked me to supervise 
this process. On an issue like this, I fully expect to keep him 
well informed of my thought processes when we reach that stage. 
And I believe, actually, that this will be reflected in an OMB 
directive, which would then be signed by the Director of OMB.
    Mr. Horn. Very good. Now the real question everybody is 
sort of asking is, how do we avoid double counting? What is 
your view on that?
    Ms. Katzen. My view is that, where we provide different 
cuts of the information, we can use the information in a way 
that assures the most precise measure for the purposes needed. 
In some instances, one can provide, as we recommend here, at 
least one alternative that adds to 100, so there is no double 
counting. In other instances, I wouldn't call it double 
counting.
    If one were interested in finding out, for example, the 
aggregate number of persons in this country who view themselves 
as Asian-Americans, it would be fair, I believe, to include all 
of those who check Asian-American and only Asian-American, plus 
those who check Asian-American and one other or two others or 
three others, because such persons are saying they view 
themselves, in whole or in part, as Asian-American. If one is 
looking for a number, that is one way of presenting it.
    Now it is true, if you were to add up all the people who 
check all the boxes, but we don't need to get there, so 
depending upon the purposes for which the information is being 
used, you may have different cuts of the same data. One of the 
attractive features that we have heard or that I have heard 
spoken of about the Interagency Committee's recommendations is 
it provides those different cuts, so that the most appropriate 
tabulation would be used for the purposes needed.
    Mr. Horn. OK. On my time, Dr. Waters, since you are our 
expert witness on both panels, is there a question you would 
like to ask Ms. Katzen before she leaves, based on your own 
research?
    Ms. Waters. I don't think so. I think her testimony covered 
and the report covers everything.
    Mr. Horn. Very good. Would any other members of panel III 
like to ask Ms. Katzen a question while she is here?
    OK. Mr. Fernandez. Pull a chair up here, Mr. Fernandez. 
We're going to lose track of you. Just grab one of those 
chairs. We can do what we want with this room. We want our 
witnesses happy.
    Mr. Fernandez. Yes, I am interested in the handling of the 
so-called ``ethnic question.'' In essence, we're really 
discussing the Hispanic population, and in particular, with 
reference to those individuals who are both Hispanic and non-
Hispanic.
    Now, in the census, the question appears as a separate 
question, and it asks you to indicate whether you are Hispanic 
or non-Hispanic, in which instance, I would answer both 
questions. I would answer yes and no. And there are a growing 
number of individuals who could do that, and who could also 
give a multiple response on the race question. Many Mexicans 
are of Native American and Spanish or European ancestry, and 
many Puerto Ricans are part African and part European, as well, 
and understand this.
    What is not clear from the recommendations is the 
concentration on the racial categories in the discussion of new 
permissiveness, as far as the multiple checkoffs is concerned. 
I'm not sure that that was intended, but maybe it was. What I'm 
asking is for some clarity as to how you're going to handle 
that.
    Ms. Katzen. That is a very good question. I think the 
Interagency Committee took some steps toward providing 
information on that, but has not provided answers to all of 
your questions.
    One of the steps that they had talked about was that where 
there is self-identification there would be two separate 
questions. Where there is not self-identification, as in, for 
example, death certificates or emergency rooms, where a person 
is not able to self-identify, that you could have a combined, 
and then check all that may be appropriate.
    There has also been some significant discussion that would 
ensure that, regardless of how one responded on the ethnic 
question, one had full opportunity to choose among all of the 
different racial questions, as well.
    But those are, I think, several steps toward an answer to 
your question. It is not a complete answer. This is one of the 
issues that we would be very interested in receiving additional 
consultation and help as we go through the public comment 
period.
    Mr. Fernandez. I will be happy to provide that. There was 
one other aspect of that which I raised in my testimony and in 
other venues, and that relates to the ultimate appearance of 
the new OMB 15.
    The current OMB 15, as I understand it, is in two 
interchangeable formats. In other words, you are supposed to be 
able to integrate the two formats when you get the numbers 
together. In one of them the Hispanic category is treated as a 
race, and in the other it's treated as a so-called ``ethnic 
group.'' If that problem is not resolved regarding the multiple 
checkoffs applying or not applying to the Hispanic group, and 
the two interchangeable formats are retained, I think you're 
going to have a serious dilemma.
    Ms. Katzen. I think, on the latter point, the 
recommendation of the Interagency Committee would be that where 
there is self-identification to have two separate questions, 
with the ethnic question preceding the racial question. It 
would be only in the instance where self-identification is not 
possible that you would use a combined. So they wouldn't be 
interchangeable formats; they would be alternative formats, 
depending on whether it was self-identification or third-party 
identification.
    But, again, this is in the report and the recommendations, 
and this is an area in which, if there are issues that we have 
not anticipated, or if there are unintended consequences of 
some of the recommendations that have not yet been fully 
discussed, the purpose of the public comment period is to bring 
those to our attention. We very much would like to work with 
your group and other groups in answering those questions.
    Our objective is to enhance the accuracy and the utility of 
this information, not to confuse or complicate the issues. So 
we appreciate your assistance.
    Mr. Horn. We thank you.
    I now yield 5 minutes to Mrs. Maloney, the ranking 
Democrat. I'm sorry, we're going to have to, because of the 
timing, but we will try to get it in.
    Mrs. Maloney. Thank you.
    Ms. Katzen, we've heard from a number of witnesses that, 
while the interagency recommendations are indeed a step in the 
right direction, the problem of how this data will be used 
remains a major obstacle.
    It's my understanding that it will be sometime in 1999 
before that guidance will be offered. That concerns me for two 
reasons: First, it seems to be premature to change the way the 
information is collected prior to determining how it's going to 
be used. And second, it means another 2 years of uncertainty 
for those who rely on this data for enforcement purposes and 
for discrimination cases, and so forth. What can be done to 
shorten this timeframe?
    Ms. Katzen. We, too, were concerned about proceeding with a 
recommendation without having answered the followup questions 
regarding reporting and tabulation, therefore, we have chosen 
to accelerate that timeframe appreciably. We are already in the 
process of putting together the committee, and I have asked the 
chair of the committee to please do absolutely everything 
humanly possible to have preliminary recommendations for the 
reporting and tabulating guidance by October of this year, when 
we have to reach our final decisions.
    I got a sort of stony, cold, ``OK. We'll do what we can.'' 
But I think it is important, and I'm going to put as much 
emphasis on that as possible, because those questions need 
answers.
    Mrs. Maloney. Do we have any guidance from the courts 
regarding how they would evaluate statistics in discrimination 
cases which include people who claim mixed ancestry?
    Ms. Katzen. I would prefer to defer on this question to our 
witness from the Justice Department who may know of past cases. 
For the future, I hope we would be able to present to the court 
compelling reasons to look at the various ways in which we are 
tabulating this information and the justification for using the 
best information available.
    Ms. Pinzler. If you like, I can respond to that question. 
There is no case law specifically on that point. But I would 
echo what Ms. Katzen said, that we would obviously try to frame 
arguments to use this data in the best way possible for 
enforcement mechanisms.
    Mrs. Maloney. As you know, we have certain protected 
categories for civil rights and voting rights. My question is, 
how would those persons who check mixed ancestry be treated? 
Would they be treated as a protected status? Just to come down 
to a specific example, under your proposed guidelines from the 
Interagency Committee, how would you count a person who is 
half-black and half-Asian, for the purpose of litigating 
employment discrimination cases, for example, and other 
discrimination cases, for example? Would that be a protected 
category?
    Ms. Pinzler. Again, I think that that is part of the 
information that has to be developed, on how it is going to be 
tabulated. But I think that it would depend, frankly, on the 
particular kind of case, the facts of a particular case you 
were trying to develop, assuming that you had the data 
available, that a certain number of people were in both 
categories. It would also depend on the region of the country, 
whether there was a significant number of people who fell into 
that category to even register on the published data.
    Ms. Katzen. I would add that, in terms of the protections 
that have been afforded based on past discrimination, I do not 
belive a person should lose equal opportunity because he or she 
is a member of two different minority groups that have been 
discriminated against in different ways at different times.
    As I illustrated earlier, in the different ways of 
tabulating the information, it seems to me that, for purposes 
of determining whether there has been discrimination against 
Asian-Americans, one would look to see the number of Asian-
Americans who view themselves wholly as Asian-Americans and 
therefore checked only one box, but also include those who 
checked Asian-American along with whatever other categories 
they saw, because they do see themselves as Asian-American as 
part of their heritage which they want to celebrate and to 
defend.
    Mrs. Maloney. To simplify the question, for the purpose of 
litigating discrimination cases, is the option to check several 
racial categories more useful than a general multiracial 
category?
    Ms. Katzen. Absolutely, because it tells you which 
categories they are in. You would have much better, more 
precise information, and therefore I believe that you will have 
a more accurate picture; again, based on the findings and the 
recommendations that the Interagency Committee has presented, 
and still waiting to hear the public comment.
    Mrs. Maloney. Well, under the proposed changes, how would 
you count a person who indicated a black and white racial 
heritage, for the purpose of evaluating the impact on minority 
voting dilution under the Voting Rights Act?
    Ms. Katzen. For purposes of determining that, if they saw 
themselves as black, and black is a group that is, under these 
circumstances, protected?
    Mrs. Maloney. That would be protected.
    Ms. Katzen. They are protected. They are not less protected 
because they also claim white heritage.
    Mrs. Maloney. Now, just to clarify, who will be tabulating 
how this will be determined? Will your interagency task force 
do this?
    Ms. Katzen. These would be guidelines for how the Federal 
agencies and programs that have programmatic responsibilities 
for the particular areas are to treat the data. So I would look 
to the Civil Rights Division of the Justice Department, the 
Equal Opportunity Employment Commissions and others.
    Mrs. Maloney. Just to clarify, each agency, then, will be 
allowed to determine how to tabulate the data for civil rights 
programs; is that correct?
    Ms. Katzen. Subject to the overall guidance that will 
presumably be set to use the most accurate data for the 
purposes selected, but it is the Federal agency that will 
better understand the particular purposes for which it will be 
using this data.
    Mrs. Maloney. But if we go back to the agencies, won't we 
be going back to the same chaos that we had before we had 
Directive 15, with each agency determining. Didn't Directive 15 
come out to clarify?
    Ms. Katzen. Well, in that instance, they were using 
different definitions for the different categories.
    Mrs. Maloney. Oh, I see. So you will have the same 
definitions, but each agency will tabulate.
    Ms. Katzen. That's correct.
    Mrs. Maloney. OK. Thank you.
    Mr. Horn. Five minutes to the gentleman from Illinois, Mr. 
Davis, for questioning the witnesses.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Ms. Katzen, you indicated that you felt that the 
interagency task force had done an outstanding job, and I 
certainly share that. I think, from what we've heard, there are 
many others who also share that position. Do you feel that, 
professionally, they answered the main questions, seemingly, 
that individuals have raised in terms of the ability to 
identify, in a concrete way, with their racial roots?
    Ms. Katzen. Yes, sir, I do.
    Mr. Davis of Illinois. If that be the case, in terms of the 
additional information that would be generated as a result of 
the ability to generate that information, do you see any other 
useful--I mean, what other purposes, perhaps, could one suggest 
that information would be useful for?
    Ms. Katzen. One of the questions that the Interagency 
Committee struggled with initially was whether the number of 
persons who would choose a multiracial box, if there were an 
opportunity to do so, was large enough to acknowledge and was 
growing. I think what we might see, if this recommendation were 
accepted, would enable to better track the increase in 
immigration and in interracial marriages that are occurring.
    Some speak of the melting pot. We will now have, I think, 
better information. That's one form of information that may 
come from a ``mark one or more'' approach that is the essence 
of this.
    As to other types of use of this information, I would defer 
to the experts in the social sciences who may foresee other 
uses. But our attempt has been to, again, reflect, as 
accurately as possible, the demographics of this country and 
not create new categories or new protections or new areas in 
that regard.
    Mr. Davis of Illinois. Did I understand you to say or 
suggest or indicate that, in your mind, protected categories 
that already exist, in all probability, would not lose their 
protection, even though they may secondarily, or even not 
secondarily, designate that they are part of another race?
    Ms. Katzen. That would be my view, as I look at the 
materials that are being generated. I'm reflecting here what I 
believe to be the view of the Interagency Committee that sought 
to enhance the accuracy without diluting in any way the valid 
information that we have from the past, and without affecting 
in any way the protections that Congress has already decided.
    Mr. Davis of Illinois. I would suggest, if ultimately that 
was the case, and we had the acceptance of the task force's 
recommendation in terms of the ultimate, then those individuals 
would maintain their protection; other individuals will have 
had an opportunity to be accurately depicted, in terms of their 
sense of being. I think that this task force would have just 
done the American people a tremendous service. That's the 
position that I hold.
    I just have one other question, and that is, has there been 
much conversation about providing instructions for people in 
such a way that it would perhaps decrease the likelihood of 
their making an error because they just didn't quite understand 
what was being asked for?
    Ms. Katzen. Yes, and one of the tasks of this committee 
that we're pulling together now to work on the tabulation and 
reporting is to include training--actually the wording of the 
instructions on the forms themselves, as well as the training 
of those who would be administering them. This is, again, 
another effort that would be governmentwide, to enhance the 
accuracy of the information.
    Mr. Davis of Illinois. I thank you very much.
    I would like to ask Ms. Graham; Ms. Graham, from listening 
to the dialog today, do you feel that the interagency task 
force's recommendation takes care of some of the concerns that 
you have expressed?
    Ms. Graham. It does take care of some of the concerns. As I 
said in my testimony, it's as if we got half a loaf. It takes 
care of children like mine having the ability to check more 
than one, so that they don't have to choose to be the race of 
one of their parents or deny, actually, the race of one of 
their parents. But it still does not give them the ability to 
have a sanctioned category called ``multiracial,'' or even a 
sanctioned name called ``multiracial.''
    It's very interesting, the day after the interagency 
recommendation came out, the media started to say ``mixed 
race'' again. Up until that point, they were using 
``multiracial.'' And then the recommendation was no multiracial 
category, and it reverted back to ``mixed race,'' and some 
other things. But the word ``multiracial'' was suddenly gone, 
and that's what we are fighting to keep.
    Mr. Davis of Illinois. You were here when Representative 
Owens made a comment this morning relative to the creation of 
new races, in some instances. Did that bother you any, in terms 
of the possibility of not just the designation but actually the 
creation of a new racial group?
    Ms. Graham. That bothers me, as well, and that is not what 
we are trying to do at all. As a matter of fact, our 
recommendation has always been to have a multiracial identifier 
with ``check all the apply'' underneath that. So, actually, 
we're talking about the same thing and not creating a new 
racial category. We are in agreement.
    Mr. Davis of Illinois. I think the only concern would be 
that oftentimes intent is not the same thing as result. I'm 
saying, oftentimes we intend one set of things, but something 
other than what we were seeking ends up being the result.
    I thank you very much, and I have no further questions.
    Mrs. Maloney. And we have to go vote.
    Mr. Davis of Illinois. And we've got to go vote.
    Mr. Horn. Yes, I'm conscious that we have to vote here, and 
I'm conscious that the Assistant Attorney General also needs to 
be somewhere else. I do want to hear her testimony.
    Let me ask my colleagues. If we recessed until 2 o'clock, 
would that be convenient for you. Would you be here, or are you 
on an airplane?
    Would that solve the Assistant Attorney General's problem, 
if we could recess till 2 o'clock? We have got two or three 
votes here.
    Ms. Pinzler. Well, I'm already--my 1 o'clock appointment 
with the Attorney General is already--I'm late. That will be 
fine.
    Mr. Horn. All right. If we can, let me just end this 
session, before Ms. Katzen leaves, we appreciate very much your 
testimony. We know we've detained you here. Mr. McDougall did 
have a question, and I'd like him to be able to ask it.
    Mr. McDougall. Thank you very much, Mr. Chairman.
    I was just interested in Ms. Katzen's description of some 
of the instances in which self-identification would not be 
possible--for example, death certificates and emergency room 
certificates.
    I wondered, Ms. Katzen, if you could identify for us if 
there were any other circumstances in which self-identification 
would not be appropriate or possible?
    Ms. Katzen. I'm not aware of any offhand. Again, this would 
depend largely upon how the Federal forms are being used in 
different circumstances. One of our very important principles 
was self-identification, but we have to recognize that there 
are certain circumstances where it simply is not possible to 
rely upon the individual to respond.
    Mr. Horn. Well, we thank you. We are in recess until 2:05 
p.m.
    Ms. Katzen. Thank you very much, Mr. Chairman.
    [Recess.]
    Mr. Horn. The subcommittee will resume.
    We thank you for your patience today. We had an unusual 
series of votes on the floor, and I know it wrecked everybody's 
schedule, but that's democracy in action. Since this is 
democracy in action when we work in committee, we're glad we 
could have our key witnesses back.
    Assistant Attorney General Pinzler, I'm going to start with 
you, and then Ms. Gordon, and then Dr. Waters, since I'm using 
you as an expert on two panels. Please all stay there, and we 
can have a dialog and solve some problems, perhaps.
    So, as you know, we put your statements immediately in the 
record, and you can summarize them. Generally, we'd like you to 
do it in 5 or so minutes, so we can have time for questions. 
And I know you've got a busy day anyhow.
    So Attorney General Pinzler, if you will start.
    Ms. Pinzler. Mr. Chairman, members of the subcommittee, I 
am pleased to join my colleagues on this panel.
    The Department of Justice participated on the Interagency 
Committee and commend its efforts to address this difficult 
issue. We believe that the country will be well served by the 
changes recommended by the Interagency Committee.
    If adopted, they will address the concerns of those members 
of the public who find the existing standard does not allow 
them comfortably to report their identities, while at the same 
time allowing the Federal Government to continue to collect 
accurate and reliable data, thus enhancing the effectiveness of 
the enforcement of the civil rights laws.
    It will be necessary to evaluate this newly collected data 
so that their use is consistent with historical precedent. This 
will ensure that the information is presented in a fashion that 
is reliable and useful to agencies and organizations, such as 
the Department of Justice, that have law enforcement 
responsibilities.
    Since my administration colleagues have already presented 
the recommendations of the Interagency Committee and the work 
that is ongoing, I thought it would be helpful to tell you how 
the Department of Justice relies on racial and ethnic data to 
carry out its law enforcement mission.
    The Civil Rights Division of the department, of course, 
enforces the civil rights laws that were enacted by Congress to 
combat historical and continuing discrimination against racial 
and ethnic minorities, among others. The evidence of 
discrimination that served as a basis for enacting those laws 
has been compelling, as reflected in legislative history, and 
led to overwhelming support that these laws garnered when 
enacted.
    The division relies extensively on demographic data in the 
course of our efforts to identify and remedy violations of the 
civil rights laws for which we have enforcement responsibility, 
including the Civil Rights Act of 1964, the Voting Rights Act 
of 1965, the Fair Housing Act of 1968, and the Equal Credit 
Opportunity Act.
    Our law enforcement efforts depend heavily on demographic 
data that are accepted by the courts as reliable and presented 
in a usable format. They also depend on data that allow 
individuals to identify themselves as members of groups that 
are subjected to discrimination on the basis of race or 
ethnicity.
    I would like to just briefly outline some, but not all, of 
the ways that the division relies on race and ethnicity data in 
our law enforcement work. Obviously, I can't be exhaustive in 
the time allowed. We need accurate data for purposes of 
enforcing the Fair Housing Act and the Equal Credit Opportunity 
Act, both of which prohibit discrimination on the basis of race 
and national origin.
    The data assist in a variety of ways in determining whether 
a housing or a lending practice is unlawful. For example, 
having accurate information about the racial composition of 
neighborhoods is critical in determining whether a real estate 
company is steering minority homeseekers away from white 
neighborhoods.
    Racial and ethnic census data are particularly useful in 
our efforts to ensure that lenders do not discriminate in 
making home mortgages and other types of loans. This helps in 
determining, for example, whether a lender designating its 
geographical service areas has excluded areas where large 
concentrations of racial minorities live.
    Race and ethnic census data also assist in analyzing 
marketing practices. For example, we consider whether a lender 
used methods such as direct mail solicitation in select areas 
that avoid minority borrowers, or on the other hand, targeted 
minority borrowers for predatory lending practices, such as 
very high-priced mortgages.
    Our fair housing and lending cases require complex 
statistical analysis usually designed to determine the extent 
to which racial and ethnic differences in mortgage in prices or 
the denial rates could have occurred by chance. Here we control 
for various combinations of racial, ethnic, and economic data 
to assess their possible impact on the price or denial of rate 
differentials. Accurate identification of race and ethnicity of 
borrowers is critical to such analyses.
    Accurate data play an essential role in our enforcement of 
Title VII of the Civil Rights Act. As you may know Title VII 
prohibits employment discrimination, and we enforce Title VII 
as to State and local governments. Race and ethnic data are 
essential to establish a prima facie case that an employer has 
engaged in an employment practice that has either intentionally 
disadvantaged individuals or has had an illegal discriminatory 
impact on the basis of race or national origin.
    In general, a statistical prima facie case depends on 
comparison of, for example, the racial and ethnic composition 
of a relevant labor pool as compared to the racial and ethnic 
composition of those hired for a particular position. The 
absence of accurate aggregated race and ethnic data that can be 
used to determine the impact of an employment practice would 
hurt the department's ability to pursue cases of illegal 
employment discrimination.
    In the area of voting rights, these data are particularly 
important for the enforcement of Section 5 of the Voting Rights 
Act, which requires covered districts to obtain preclearance of 
proposed changes in election practices to ensure that they do 
not have the purpose or effect of disadvantaging minority 
voters on the basis of race and ethnicity. Under Section 5, 
census data provide decisive information in cases when it is 
alleged that the proposed election rules will have differential 
impact.
    Enforcement of Section 2 of the Voting Rights Act also 
requires accurate data, especially when courts must determine 
whether a State, county, or local redistricting plan has the 
effect of diluting minority voting strength. These data are 
also crucial to demonstrating polarized racial bloc voting 
patterns, which the Supreme Court has found to be of importance 
in proving a violation of Section 2.
    Mr. Chairman, I would like to briefly address the issue of 
the multiracial category versus the ``one or more'' races 
debate. The Division has been concerned that the inclusion of 
additional categories, such as ``multiracial,'' or ``other,'' 
or an open-ended response would fragment the racial and ethnic 
group data and make enforcement more difficult, because the 
additional categories would confuse respondents, lead to less 
reliable data, and make it difficult to prove that members of a 
particular racial and ethnic group are subject to 
discrimination.
    The research conducted by the Interagency Committee bore 
out our concerns. The committee concluded that the best means 
of measuring the growing multiracial population while 
continuing to conduct an accurate census and to collect 
reliable demographic data would be to choose, as appropriate, 
the ``one or more'' races rather than the single 
``multiracial'' category, and we agree.
    In addition, further work is needed, as has been pointed 
out, to ensure that these data will be used so as not to have 
adverse impact, in particular, on relatively small groups with 
relatively high intermarriage rates, such as AsianPacific 
Islanders, Native Americans, and Alaskan Natives, as indicated 
by the research conducted by the Interagency Committee.
    Federal statistical agencies who are members of the 
Interagency Committee will continue to look at how the newly 
collected and complex data will relate to the historical use of 
race and ethnic categories, and we look forward to working with 
these agencies to address these issues.
    The question has come up, as I've heard it, of double 
counting people. What it caused me to think about is that this 
``problem'' has been raised in the past with respect to women 
and minorities, whether black women are counted twice or 
Hispanic women are counted twice, and it simply hasn't been a 
problem.
    What we do is, we disaggregate the data. If we have a sex 
discrimination case, then all women, black or white, are 
regarded as women for those purposes. If we have a race 
discrimination case, then all members of whatever the protected 
minority in question is are counted for those purposes.
    In our litigation, I would presume that we would continue 
to handle the data in that fashion, to disaggregate it when 
necessary and not when it is not necessary. A lot of our cases, 
especially in the area of employment discrimination, are 
combined cases. Not only are they race and sex, but they may be 
on behalf of a number of racial minorities, and therefore this 
additional data can only help, actually.
    The questions raised by Federal measures of race and 
ethnicity are difficult and often emotional ones, and have been 
well addressed by the Interagency Committee, and we commend 
them. The bottom line for law enforcement for the Civil Rights 
Division is that we need complete, accurate, and reliable data 
in order to combat effectively the types of discrimination 
against racial and ethnic minorities that are prohibited by 
these vital laws passed by Congress.
    We look forward to continuing to work on the question of 
how to interpret the data that are collected. I look forward to 
any questions that you may have.
    [The prepared statement of Ms. Pinzler follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.424
    
    [GRAPHIC] [TIFF OMITTED] 45174.425
    
    [GRAPHIC] [TIFF OMITTED] 45174.426
    
    [GRAPHIC] [TIFF OMITTED] 45174.427
    
    [GRAPHIC] [TIFF OMITTED] 45174.428
    
    [GRAPHIC] [TIFF OMITTED] 45174.429
    
    [GRAPHIC] [TIFF OMITTED] 45174.430
    
    [GRAPHIC] [TIFF OMITTED] 45174.431
    
    [GRAPHIC] [TIFF OMITTED] 45174.432
    
    [GRAPHIC] [TIFF OMITTED] 45174.433
    
    [GRAPHIC] [TIFF OMITTED] 45174.434
    
    Mr. Horn. We will proceed with the two other witnesses, 
then we will have general questions.
    The next witness is Nancy Gordon, the Associate Director 
for Demographic Programs of the Bureau of the Census.
    Ms. Gordon.
    Ms. Gordon. Thank you very much, Mr. Chairman.
    It is a pleasure to appear before you again today to 
testify.
    Mr. Horn. Now remember, you did take the oath. Tell the 
truth now.
    Ms. Gordon. Yes, I do remember.
    Mr. Horn. OK.
    Ms. Gordon. And I promise that I will tell the truth, and 
it is a pleasure to be here again today. [Laughter.]
    What I think perhaps might be most useful, in terms of the 
time available--but I am seeking your advice here--is to make a 
brief opening remark or two, and then go directly to the 
section at the end of my testimony that deals with the 
implications of the recommendations of the Interagency 
Committee for the Census Bureau's programs.
    Mr. Horn. That's fine if you'd like to proceed that way.
    Ms. Gordon. Let me observe, then, that if the OMB does make 
any changes to Directive 15, the Census Bureau intends to 
collect and produce data consistent with those changes. We 
believe that it is essential that there be such standards for 
use by all Federal agencies to ensure that data are consistent 
and comparable.
    The Census Bureau's role in this process has been primarily 
to conduct research. The second of the major tests we conducted 
was the Race and Ethnic Targeted Test. Some results from that 
work that relate especially to recommendations of the 
Interagency Committee are summarized in my statement. If we 
turn to the bottom of page 7, that starts the section on 
implications of the recommendations for our programs, and in 
particular for the decennial census.
    We have reformatted the forms we currently plan to use in 
the Census 2000 dress rehearsal, which is planned for 1998, to 
determine the feasibility of accommodating the changes 
recommended by the Interagency Committee, should they be 
adopted by the OMB.
    We have, therefore, placed the Hispanic origin question 
before the race question, used the instruction ``mark one or 
more races,'' and made the proposed changes in terminology. We 
were able to do so without any technical difficulties or 
lengthening of the form. We published a Federal Register notice 
about questions on race and ethnicity on July 17, and public 
comments will be accepted during the following 60 days.
    We plan to capture multiple responses to the race question 
with the data capture hardware and imaging technology, 
regardless of whether or not Directive 15 is modified. We also 
expect to be able to capture unrequested multiple responses to 
the Hispanic origin question. Doing so was recommended by our 
Hispanic Advisory Committee and brought up earlier today by Mr. 
Fernandez. We plan to do that in order to provide the 
information for further analysis and research on the topic of 
multiethnic responses.
    This imaging technology can read written characters as well 
as marked circles. While some technical issues remain about the 
exact coding of the write-in responses and about the exact 
format of the permanent electronic census file, we intend to 
maximize the amount of information we retain.
    As in the past, Census 2000 will collect more detailed data 
on race than the minimum required by the Office of Management 
and Budget, and those data will be processed in such a way as 
to maintain maximum flexibility for data users. Census data, 
including those on race, will be available to users through the 
Census 2000 tabulation and publication series, all of which 
will follow whatever standards and guidelines the OMB 
ultimately issues.
    The Data Access and Dissemination System will allow even 
more options and broader access for users to generate 
customized tabulations. This system will be available through 
the Internet, so that people can either access tabulations that 
have already been produced by the Census Bureau, or they can 
create instructions and then automatically receive the tables 
that they are interested in.
    Selected micro data files will also be available, but the 
confidentiality of individual respondents will always be 
maintained.
    Mr. Chairman, I would be happy to answer any questions.
    [The prepared statement of Ms. Gordon follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.435
    
    [GRAPHIC] [TIFF OMITTED] 45174.436
    
    [GRAPHIC] [TIFF OMITTED] 45174.437
    
    [GRAPHIC] [TIFF OMITTED] 45174.438
    
    [GRAPHIC] [TIFF OMITTED] 45174.439
    
    [GRAPHIC] [TIFF OMITTED] 45174.440
    
    [GRAPHIC] [TIFF OMITTED] 45174.441
    
    [GRAPHIC] [TIFF OMITTED] 45174.442
    
    [GRAPHIC] [TIFF OMITTED] 45174.443
    
    Mr. Horn. We will get to that shortly.
    We now have Dr. Waters, professor of sociology, Harvard 
University.
    Dr. Waters.
    Ms. Waters. Thank you for inviting me to talk with the 
subcommittee today.
    I am just going to summarize my written statement and talk 
a little bit about some of the issues that have been brought up 
in earlier testimony.
    I think that the interagency report synthesizes an enormous 
amount of new research that the government has done in the last 
4 years, and that it will really be a while before we've been 
able to go through all of the research that they have come up 
with. But I was very impressed with the interagency report and 
the ways in which they incorporated that new research into 
their recommendations.
    I have three reactions to the interagency report. The first 
has to do with tabulating results. In my written statement, I 
went through five different methods of tabulating results that 
were mentioned, even if briefly, in the interagency report. The 
first three were discussed by Harold McDougall earlier in his 
testimony.
    The first was the single-race approach where everyone who 
checked more than one would go into a multiple response 
category. The second was an all-inclusive approach in which we 
would sum up to more than 100 percent. The third was the 
historical series approach, which was defined in detail in the 
rate report.
    The fourth was the proposal for an algorithm that 
distributes responses from a multiracial category in proportion 
to the distributions of the current single-race categories, and 
I think that was rightly dismissed in one sentence in the 
report.
    The fifth was the idea that there are algorithms currently 
which take people who either put themselves in an ``other'' 
category or, in some States, into a multiracial category, that 
use certain characteristics of people to try and match them to 
the existing historical categories. So that's another 
possibility.
    Then there were two others that I outlined in my written 
report that we have actually used looking at ancestry data, 
which does come in in multiple categories. One is to assign a 
weight to a person, and this is something statisticians and 
demographers do all the time, although it sounds kind of awful 
when you describe it as doing to a person. You're certainly not 
doing it to a person; you're doing it to a number.
    What you would do is count somebody in both, say, the Asian 
and the white categories, but you would give them a weight of 
0.5. Then you would add all of your percentages in the end, and 
you would come back out to 100 percent. You wouldn't have any 
more people counted than you had people.
    Then the seventh would be to just randomly assign people in 
proportion. So if you were half and half, half of the people 
who said that they were that combination would be put into one 
race and another.
    I'm sure there are other ways, actually, to tabulate. These 
are just some of the ones that were mentioned and a few that 
we've used before. I think that the issue which was raised by 
many people earlier this morning, the concern about double 
counting, is something which is definitely for professional 
demographers and statisticians to worry about how you would 
actually do it. It actually is common to have to do that for 
particular kinds of counts.
    In a way, actually, you can think about the Hispanic and 
the race question as already doing that, to some extent, 
because people are in the Hispanic question and they are in the 
race question. So sometimes, when you are looking at, say, 
incomes, people may appear in the Hispanic category, and they 
may also appear in the white or the black category, depending 
on how savvy the researcher is who is actually preparing those 
reports.
    So I think we do have some experience with dealing with 
this overlap, but of course it really will be a new question as 
to how those tabulations are done. Of course, there are a lot 
of political implications for what choice you make about how to 
do that.
    Let me just talk briefly about two other questions which 
came to my mind reading the interagency report. One is the 
issue of the implementation of how these data are actually 
gathered, and the question that was touched on briefly before 
about different agencies that collect data by observer and by 
self-identification. The question really is, and I'm not sure 
we have enough research to tell, whether or not observers might 
assign more races to people or less races to people than the 
people themselves would.
    The question would be, if you allow more than one race, how 
will that affect data that is gathered by observers? That 
happens, for instance, in school data. Often teachers will sum 
up how many kids of particular races there are. The error rate, 
I am sure, if somebody is guessing about multiple races, is 
going to be greater than if they are guessing about one race. 
So that's a question I think that we need some research on.
    Second, the instructions to respondents will be extremely 
important in how these data are collected. I think that there 
should be some attention paid to whether or not the word 
``identify'' is in there or not, sort of whether people feel 
like they are being asked for their genealogy or sort of who 
they think they are. Sometimes that has been confused in 
earlier questions on earlier censuses, so I think we need to 
pay attention to that.
    The third reaction I had to the report, and it's really 
just been reinforced sitting through everyone else's testimony 
today, is that, politically, all of the attention has been on 
blacks and whites. Most of the attention has been on African-
Americans and whites, and that's very understandable given our 
political history.
    But all of the research that is summarized in this report 
points to the fact that it's American Indians and Asians who 
will be most impacted by this change, because they have very 
high intermarriage rates, because they have a very high 
population that could claim more than one ancestry, and because 
they are small groups, so that a few people changing can have a 
greater proportional impact.
    The research actually finds that a lot of these changes 
won't have much effect at all on the overall counts of blacks 
and whites, but it will on American Indians and Asians. So I 
would stress that I would want to get reactions from the 
American Indian and Asian communities to this issue, because I 
think they really are the ones who stand to have the most 
impact.
    I think that the question that came up often today about 
the tabulation and how that will be handled really touches on 
the issue where there are competing principles at play here, 
which is the issue of historical continuity with earlier data 
and self-identification.
    That's kind of why the issue has come up in the first 
place. People are trying to say we have more than one race, and 
historically we haven't let that happen. So the question of how 
you bridge historical data to the current data that you're 
going to collect, which will allow people to have more than one 
race, is very important for this census.
    I think the thing I would also stress is to really think 
about the fact that you are also setting up for the censuses 
that will follow, so the 2010 census. One point that is very 
important to make is that, if you make a small change now, that 
will provide perhaps the bridge to the society that we will be 
in 2010, which may have even very different things that we 
can't even foresee. But putting off making the change would 
make a much greater disruption, I think, in the historical 
series.
    So there may be a real disjuncture between this issue of 
self-identification and historical continuity. It may play out, 
I think, in terms of this issue of responding categories and 
reporting categories. How you tabulate may be different than 
how you collect.
    That's a question that I would like to see the OMB describe 
the real--maybe even have a matrix. If you answer these 
particular categories, where will you end up, in what kind of 
tabulations?
    [The prepared statement of Ms. Waters follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.444
    
    [GRAPHIC] [TIFF OMITTED] 45174.445
    
    [GRAPHIC] [TIFF OMITTED] 45174.446
    
    [GRAPHIC] [TIFF OMITTED] 45174.447
    
    [GRAPHIC] [TIFF OMITTED] 45174.448
    
    [GRAPHIC] [TIFF OMITTED] 45174.449
    
    Mr. Horn. Well, thank you very much.
    Let me pose a basic question here. The whole reason for the 
census, very frankly, as we all know, the first one being done 
in 1790, is how you apportion the House of Representatives, so 
each representative truly does represent even numbers of 
people. What was 30,000 at one time is now 600,000 and we have, 
by our own action, stopped the size of the House at 435 
Members.
    Now, let me give you an example. Let's say this is a 
congressional district. And I'm particularly interested in the 
Justice Department, because this is what people that draw up 
reapportionment lines have to think of. To take California, the 
last time the majority in the legislature, their action, was 
vetoed by the Governor of an opposite party, and it was thrown 
into the Supreme Court of California. This was the 1990 census.
    The Supreme Court said, we really don't know much about it. 
Let's appoint three retired judges, representing both parties, 
and have them go and examine the evidence, draw the line. I 
call the 1990 apportionment the only honest apportionment since 
California became a State in 1850, because the three judges did 
a terrific job.
    But one question comes to mind, and that is the Voting 
Rights Act of 1965, as amended--I underline the ``as 
amended''--the judges felt they could not diminish the voting 
strength of a minority population. So they reached out to try 
to combine as much of that minority population as they could. 
In a sense, they diluted the strength of the minority 
population, because whereas it was in two congressional 
districts, it became overly focused in one congressional 
district.
    When you go at this situation of the historic racial 
discrimination in this country, I think the Supreme Court 
recognizes--and you can correct me if I'm wrong--that obviously 
the black African-American race has had the most 
discrimination. That doesn't mean Mexican-Americans aren't 
discriminated against; and it doesn't mean Asian-Americans 
weren't discriminated against. They were in California. They 
never were in voting, to my knowledge. Mexican-Americans in 
Texas were discriminated against.
    So there are different patterns for other minorities as to 
whether there was a historic discrimination that relate to 
certain areas of government policy. So I would be curious what 
you're thinking would be on; were the judges right to combine 
the minority population across several districts because they 
didn't want to dilute their voting power? Yet, they would have 
had more voting results by being spread over two congressional 
districts, or three congressional districts.
    How do you tackle that one?
    Ms. Pinzler. Well, as you rightly point out, this is a 
very, very complex question. There are a number of variables 
that anyone drawing districts has to consider. The first being 
one person, one vote.
    Mr. Horn. That's the easy one.
    Ms. Pinzler. Right. Then, not diluting minority voting 
strength or retrogression from previous strength, which is the 
Section 5 standard, I have to tell you that I'm not familiar 
enough, if at all, with the California reapportionment, so I 
don't really feel that I can comment on that with any degree of 
intelligence. I do think, apropos of what we're discussing 
here, which is the change in data collection, that how people 
will be tabulated for these purposes is a very key question and 
is the question which is still undergoing analysis.
    So I know this comes across as a dodge, but the truth of 
the matter is, I don't know the answer.
    Mr. Horn. Well, you're absolutely correct. It's a very 
difficult value judgment call. Maybe you could go at it this 
way, saying, based on your experience as a civil rights lawyer, 
what are the courts' standards when different cases come before 
it? For example, one basic question is, do women have the same 
imprimatur of the Constitution on their issues, compared to 
African-Americans? I wish you would give us a little summary 
there of how the court has, over the years, adopted sort of a 
hierarchy to worry about.
    Ms. Pinzler. Well, the 14th amendment's equal protection 
analysis, at one time, created basically two categories: those 
categories which were subject to the so-called ``strict 
scrutiny'' test, which was only race and national origin and 
religion, on the one hand, and all other kinds of categories or 
classifications that the legislature might do, which was 
absolutely everything else were subject to the ``rational 
basis'' test.
    In other words, urban versus rural, and income distinctions 
were all subject to the rational basis test, which is a fairly 
low test as compared to the strict scrutiny, which is a very 
stiff test. Over the years, starting around 1970, there was a 
so-called ``intermediate level'' test that was developed by the 
courts, which is referred to as heightened scrutiny or 
intermediate scrutiny, and that's the classification to which 
gender has been subjected.
    It is sometimes viewed as being between the two, although, 
with the most recent Supreme Court decision on this matter, the 
Virginia Military Institute case, moved it closer to strict 
scrutiny, it's not all the way there.
    So the short answer is that classifications or 
discrimination on the basis of gender does not have the same 
degree of scrutiny by the courts as discrimination on the base 
of race, national origin, and religion. Even though women, of 
course, didn't get the vote until 1920, they are not covered. 
Sex discrimination is not covered under the Voting Rights Act 
at all. Race discrimination and national origin discrimination 
are.
    On the other hand, just to sort of close the circle, gender 
is included, for instance, in Title VII of the Civil Rights Act 
of 1964, which prohibits employment discrimination. For those 
purposes, with one exception that doesn't really apply to this 
discussion, it's the same standard for gender and race, if that 
was what you were looking for.
    Mr. Horn. Well, it's just, as I'm saying, the court has had 
different values to review in different periods.
    Ms. Pinzler. Right.
    Mr. Horn. There is a steady evolution, however, and you 
sort of summed up where it is now. But when you have, let's 
say, a district of 14 percent white, 40 percent black, 35 
percent Hispanic, 10 percent Asian, 1 percent American Indian, 
that is not a myth. Those are real districts in the State of 
California.
    Then I would try to say, what does the tabulation from the 
various racial checkoffs mean when judges, in this case, 
retired judges, if we go that route again, or legislatures, 
have to look at it and say, well, which group in there seems to 
be the most discriminated against? Well, historically, you 
would have to say the black voter--or nonvoter, because they 
wouldn't let them register--was the most discriminated against.
    As I said, in Texas, Mexican-Americans were discriminated 
against in Texas. That was not true in California. Some might 
say it is, but the facts are, you didn't have a problem 
registering. And American Indians, for various other reasons, 
have probably a low registration turnout because of moving from 
reservation to urban America and back, and so forth.
    That's what they are going to have to deal with, and I just 
wonder if one would like to speculate on whether adding those 
checkoffs, that is now being recommended by the Interagency 
Committee, will either enlighten us and we will be able to make 
better reapportionment decisions, or simply confuse us.
    Ms. Pinzler. As I said in my testimony, I think, on 
balance, that it's a step in the right direction. The fact is 
that our society is more complex than it was previously, and 
that's a reality that the courts and Congress simply have to 
deal with.
    I also should say that, as I said, precisely that question 
of the tabulation, the use and interpretation that this data 
will be subjected to for purposes of redistricting, is not 
something that there is a specific recommendation on at this 
point.
    As an attorney, I always depend on demographers and 
statisticians, frankly, to tell me what the best approach is. 
I'm not an expert in that respect.
    Mr. Horn. Well, let me put another factor in here.
    After 13 years on the Civil Rights Commission and being on 
the drafting team for the Voting Rights Act of 1965 and the 
Civil Rights Act of 1964, the fact is, there is one basic 
factor that nobody ever faces up to, and that's socioeconomic 
class and income. They used to just look at me with glazed-over 
eyes when I would raise the obvious.
    What you have to do--you're not dealing with Ralph Bunche; 
you're dealing with the person that's poor. How do we relate 
those data? A lot of government programs are relevant to it. 
When we get to voting data, perhaps also economic class should 
be taken in to see if there is an under or overrepresentation 
in a particular area, and how are these people registered?
    Ms. Pinzler. Mr. Chairman, there is obviously an 
interaction of those factors, and socioeconomic status is very 
important. It's also true that Ralph Bunche could be subject to 
discrimination on the basis of race. In fact, Deval Patrick, 
the former assistant attorney general, you know, had taxicabs 
pass him by outside the White House. So we can't ignore race in 
these discussions, when we're discussing discrimination.
    Mr. Horn. I don't want to ignore it; I want to get it into 
realism though.
    Ms. Pinzler. Well, again, as I say, my eyes don't glaze 
over when you talk about socioeconomic data, because I do, in 
fact, believe that that's a very important factor. One of the 
things that these data allow you to do, by the way, is to see 
what the overlap is, to see to what degree race and poverty, 
frankly, correlate.
    Mr. Horn. Right.
    Ms. Pinzler. That's an important piece of information to 
have. It's true with educational data as well. I mean, just 
across the spectrum, it's very important, and we would use that 
kind of data for various purposes, in a regression analysis, 
for instance. So basically--I agree with you.
    Also, as I mentioned when I was talking about equal 
protection analysis, of course, the Supreme Court has 
steadfastly refused to take into account socioeconomic status 
and give it any form of heightened scrutiny, and that's the way 
the law is right now.
    Mr. Horn. Dr. Waters, do you want to comment on any of this 
discussion?
    Ms. Waters. Well, I think that one advantage of this way of 
collecting data is that, for the first time, we will actually 
have information on, say, whether people who are black and 
white, or Asian and white look similar to people who are black 
or people who are white, or have their own characteristics.
    One of the questions earlier was, should people who are 
part one race and part another be subject to equal protection? 
Should they be subject to antidiscrimination laws specifically 
for them? One of the problems up until now is that we haven't 
had the data to answer the question as to whether or not their 
incomes are higher or lower, whether their infant mortality 
rate is higher or lower. This proposal would actually allow you 
to begin to describe the demographic characteristics of those 
people.
    So it might actually reassure us that some things are 
better than we thought, or it might point us to some problems 
that we hadn't thought about before.
    Mr. Horn. Would anybody from some of the advocacy groups 
like to question the administration witnesses at all? Let's see 
what your concerns are and their answers, and vice-versa.
    Mr. McDougall. Yes. It's really more in the way of a 
comment. Thank you, Mr. Chairman, for the time.
    Mr. Horn. Mr. McDougall from the NAACP.
    Mr. McDougall. I want to thank Ms. Pinzler for her example 
of the cases in which women and minorities are discriminated 
against, because, for me, that crystallizes the whole issue. 
Mr. Conyers earlier today said it wasn't rocket science. And I 
was thinking to myself, au contraire, you know. But I think she 
just really broke it right down.
    I think the difficulty that everybody is having, and 
particularly the representatives who are concerned about 
apportionment.
    I think I said in my testimony that the interagency group 
had cut the Gordian Knot by moving the issue down the pipeline. 
In other words, we are now no longer concerned, or at least 
hopefully we won't be if some of these little nuances get 
fixed, we won't be concerned with the way the data is 
collected. And the data is going to be collected in a way that 
seems to meet everybody's concerns.
    The issue now is, how do you put Humpty Dumpty back 
together again? I mean, does he have an arm, all of those 
pieces? Is he now twins?
    As long as we understand that the data is going to be used 
for different purposes, I think we can kind of come away from 
this hearing with fairly clear heads. One of the principal 
purposes, of course, for census data is capitation or head 
count. There's nothing inconsistent with collecting data this 
way and having an exact tabulation of the number of people that 
there are who live in a certain area, in the United States 
generally, or a certain congressional district.
    You can then use the data, as it has been collected, to 
demonstrate that there are a certain number of women in the 
population in a certain metropolitan economic market area, and 
you can determine that they are overrepresented or 
underrepresented in terms of certain levels of employment.
    The same thing with race, as, you know, Ms. Pinzler so 
aptly pointed out. They have never had problems like this. This 
data has never created a problem. You can disaggregate the data 
to show all the women that there are. You can disaggregate the 
data to show all the members of minority groups that there are.
    And now, the way that the data is being collected, we will 
be able to show all the people who are of one race or who are 
partially of that race. And having that information might very 
well be useful. So I just want to emphasize that the double 
counting problem in some ways is a red herring. I think that 
the Census Bureau has already demonstrated that they are able 
to handle that.
    As I mentioned earlier, we continue to be concerned about 
instances in which people are identified by the observers 
rather than through interview, because once you are identified 
by an observer, we fall back into some of the problems that 
we've had before. I think we've heard already that those 
instances are situations where you're talking about a death 
certificate, or you're talking about an admission into the 
emergency room of a hospital, let's say. There might be other 
circumstances. Obviously, we would be very concerned about 
which ones those would be.
    Finally, just to emphasize the piece about wanting to be 
able to track all instances of discrimination, which is the 
NAACP's primary concern, again, Ms. Pinzler has given us, I 
think, the light that shines through that. I thought about this 
over lunch. Think about a guy, we'll call him Joe Walker, OK, 
who is part Native American, he's part black, and he's part 
Asian. He lives on a reservation in California, or he has 
family on the reservation. He has enough contact with the 
reservation so that he gets a certain allotment from the Bureau 
of Indian Affairs, and we need census data to make that 
allotment.
    He goes off the reservation and he looks for a job. He is 
discriminated against looking for the job because he's black, 
or he's part black. We want to know that.
    Let's say that he's part Asian, because his grandfather was 
Japanese, who was interned in an internment camp in California 
during World War II, and his grandfather was one of the people 
who was owed reparations under the Korematsu decision. We would 
want to make sure that he got what was coming to him.
    So the way that this data has been collected enables us to 
perform all three of those operations. And the notion that Joe 
Walker becomes three people instead of just one, I think Ms. 
Pinzler and the people from the OMB have demonstrated to us, is 
a statistical absurdity that we don't have to get into.
    So I stuck around here today because I wanted to hear what 
the rest of the folks had to say. I must say, I've been 
enlightened by their testimony.
    Thank you.
    Mr. Horn. Ms. Graham, do you have a comment?
    Ms. Graham. I agree with what Mr. McDougall said.
    Mr. Horn. Pull the microphone close to you. It's hard to 
hear with this system.
    Ms. Graham. I agree with what Mr. McDougall said on 
tracking all instances of discrimination, and I think that's 
very important. I'm not a lawyer, or a statistician, and I'm 
really trying to understand this. Maybe some people on the 
panel here can help me out.
    I'll give you a real live instance. You've met my son Ryan. 
He's been here; he's testified. He's testified twice before 
Congress. When he was in kindergarten, his kindergarten teacher 
decided, at the end of the school year, that he should not be 
passed to first grade.
    She also decided not to pass to first grade one other child 
in the class whose last name was Rodriguez, who had a black 
Hispanic father and a white mother. They were the only two 
multiracial children in the class.
    We went to the principal. We proved that Ryan was indeed 
able to be passed. He's now an honor student in middle school, 
so I think it worked out well for us. The Rodriguez child was 
put back into kindergarten again.
    Now, these children are both multiracial. It's important--
and I'm sure that Mr. McDougall will agree--to track black 
children, minority children in the schools to see who are 
placed into the remedial classes, who are put into the advanced 
classes. We do track those by race for a reason.
    In this instance, if I said, well, my child was 
discriminated against because two multiracial children were 
going to be held back out of the entire rest of the population 
of the class, from what I'm hearing, what I would get back is, 
no, one of them is black and white, and one of them is black 
and Hispanic, so they are not the same.
    This is not going to be acceptable to our part of 
discrimination problems, and I'm wondering how this would be 
worked out under the interagency recommendation.
    Ms. Pinzler. May I?
    Mr. Horn. Please.
    Ms. Pinzler. We should probably talk later. But may I ask 
you, were there black and white children in those classes, or 
were all the rest of the children white?
    Ms. Graham. Predominantly white.
    Ms. Pinzler. It is possible, and you can't really draw from 
a sample of two and make any kind of a statistical analysis, 
but if that were large, you might begin to see a pattern of 
discrimination against children who are mixed race, the animus 
being about that. There is nothing in this formulation that 
would keep us from making that analysis. In fact, it would be 
very helpful in making that analysis.
    Ms. Graham. You can look at all the children who are of 
mixed race as a whole, then?
    Ms. Pinzler. Absolutely. Yes, sure.
    Ms. Graham. OK.
    Ms. Pinzler. You could take all the various categories and 
do that, if that's what you thought was happening, if you had a 
large enough sample to believe that that was what was 
happening. This would present no problem with respect to that.
    Ms. Graham. Let's you and I talk later, then.
    Ms. Pinzler. As I said before, there are race and sex 
discrimination cases, and every once in a while you will have 
somebody being required to pick, was it race or sex 
discrimination that happened to you? And sometimes you don't 
know until you get into the process. Again, we can look at 
those kinds of cases and analyze it, and it may be both there, 
or it may be a combination.
    So I'm not troubled, from a perspective of making 
discrimination cases, by the fact that it would be reported in 
a more varied way, that you would have more information rather 
than less information.
    Ms. Graham. That's why, to us, seeing how this is going to 
be reported and tabulated is important.
    Ms. Pinzler. Oh, yes, and we all agree with that.
    Mr. Horn. Let me ask this question for the record and see 
what your response is to it. Assistant Attorney General 
Pinzler, the written testimony seems to mention a variety of 
areas in which data on race are used to enforce civil rights 
laws. Often you need to know the size of the minority 
population in an area, as we both noted, a labor pool, a 
housing market, for example, in order to see if the population 
is underrepresented and possibly facing discrimination.
    Now, how would you count a minority population, for these 
purposes, under the Interagency Committee recommendation? Would 
multiracials who check black as one of their races be counted 
as black? If this were the case, how would you avoid 
overcounting when you consider more than one minority group in 
the same area?
    Wouldn't firms find themselves vulnerable to charges of low 
minority representation even if they employ the right 
``percentage'' for their labor pool, because many in that labor 
pool will be counted twice or more; isn't that true?
    Ms. Pinzler. No, actually, I don't think so. I was actually 
heartened by what Ms. Katzen had to say about that, that you 
could disaggregate the data so you wouldn't be counting people 
more than once. You might have more and varied categories, but 
you wouldn't be counting people more than once, so you would 
know how many people of the various groups. Black and Asian or 
black and white, those might all be counted as minorities.
    It really depends on what the local labor market looks 
like, and what the employer's labor pool looks like, as to 
whether that even becomes a factor, statistically, frankly.
    Mr. Horn. Well, I can recall a State official in California 
coming to my campus. He was off-the-wall on his understanding 
of the Civil Rights Act. Since I'd had something to do with it, 
I knew it, and I just kept quiet. We just simply had everybody 
write a memo when he drifted around the university.
    What he said to one of our people was, ``I'm not interested 
in the discrimination against blacks. I'm not interested in the 
discrimination against American Indians. I'm here strictly to 
help women or to help Hispanics.'' Now, you know, this is a 
civil rights enforcement officer.
    Could not a firm simply play games, though, with this 
system, where if you're taking all the mixtures here, and they 
say, ``OK, they want to see Hispanics? Great. Run that 
tabulation through the pool where we've got people that are 
Hispanic. Give them that one, and see if that keeps them 
quiet.'' Or you could say, ``Run the black data census through 
the pool.'' Isn't that subject to manipulation?
    Ms. Pinzler. Well, again, no, I don't think so, if it's 
properly tabulated. And I'm sorry that a civil rights enforcer 
had that kind of view. It is, I think, a very unusual view 
among civil rights enforcers.
    Mr. Horn. That's what his supervisor told him after we got 
fully fed up with him.
    Ms. Pinzler. I imagine so.
    Mr. Horn. He said my interpretation of the law was correct.
    Ms. Pinzler. My experience with various groups or 
organizations that may represent specific groups is that they 
interact on that. I spent most of my career, prior to coming to 
the government, doing women's rights cases, sex discrimination 
cases. If we looked into a situation and saw that there might 
be data indicating race discrimination, we always took notice 
of that.
    I really don't know how else to answer your question. I'm 
put in mind of the famous quote from Sojourner Truth, ``Ain't I 
a woman?'' A black woman may be discriminated against because 
she's a woman, or she may be discriminated against because 
she's black. Any kind of sophisticated look at these situations 
will want to have as much information as possible.
    That's the best answer I can give you to that question. 
They are always, I suppose, subject to possible abuses with 
these things, but we would hope that that would be at a 
minimum.
    Mr. Horn. Dr. Waters.
    Ms. Waters. I think whenever you're dealing with multiple 
responses on any one question, you do have to be extremely 
careful about how you calculate the denominator and how you 
calculate the numerator. I would say that there is a danger, if 
you have different agencies using different methods of 
tabulating the denominators and numerators, and if you don't 
have some standardization from OMB.
    And maybe you need three sets of standardization for three 
different kinds of purposes: one for apportionment, one for 
discrimination, and one for something else. But you can get 
very confused. In fact, you can even see it sometimes if you 
look at reports that include Hispanics with racial categories, 
in terms of reporting things.
    Sometimes people themselves, analysts, are confused as to 
whether or not somebody is in both categories or not. So I 
think you're right to be worried that there is a potential for 
confusion there, but the potential is different, I think, than 
saying you can't do it.
    I think it really does rest on OMB or someone having some 
rules about--and maybe you have to have different sets of rules 
for different purposes, but you do need some rules so that 
agencies can talk to one another, especially since denominators 
often come from the Census Bureau, numerators come from 
National Health Statistics. If one is double counting and one 
is using weights, or something like that, it could be a 
statistical nightmare.
    So I do think you have to pay attention to it. That's not 
to say that you can't do it at all.
    Mr. Horn. Now, we don't have anybody here representing, 
say, the Centers for Disease Control, but to what degree have 
they been involved in approving of this interagency report? Ms. 
Wallman might know.
    I think it would be important to get that on the record, 
since some diseases are ethnic or race-related. It would be 
helpful, I think, in health data to know that. Perhaps this is 
one way to go, as a result.
    Ms. Wallman. Why don't you identify yourself for the 
record.
    Ms. Wallman. Thank you. I'm Katherine Wallman, from the 
Office of Management and Budget, and I was sworn in.
    Mr. Horn. Chief Statistician of the United States.
    Ms. Wallman. Thank you, sir.
    Mr. Horn. It has a nice ring to it.
    Ms. Wallman. Thank you.
    Mr. Horn. Go ahead.
    Ms. Wallman. I would like to confirm that multiple parts of 
the Department of Health and Human Services were involved in 
this 30-agency task force, including the National Center for 
Health Statistics, which is part of the Centers for Disease 
Control. There was actually another representative directly 
from CDC, as well. There were other folks from the department 
overall.
    So the health agencies, indeed, were quite well covered in 
this initiative and were part of the 30-agency group that has 
been referred to.
    Mr. Horn. So they are very supportive of this 
recommendation?
    Ms. Wallman. Indeed they are.
    Mr. Horn. OK. Any other questions any of you would like to 
ask?
    I have two things left to do, then. I'm going to read into 
the record the Speaker's remarks. He's still in negotiations 
with the Senate, and we're trying to clear a few things out of 
here to prove we did cut taxes, we did cut spending, and we did 
save Medicare.
    So let me just read his statement, and then I want to thank 
the staff that has been involved with this hearing. And I thank 
all of you as witnesses. I'm sorry we had to go through all 
these votes on the House floor, but you've been very patient, 
and we appreciate getting your thoughts in the record.
    The Speaker's comments are these:
    ``Mr. Chairman, America is a Nation of immigrants. We have 
in America people who have, for various reasons, come to 
America for a better opportunity. Before there was a Nation 
called the United States, Pilgrims, fleeing religious 
persecution, landed in a place they called the New World.
    ``In the 1800's, the Irish came to these shores fleeing a 
famine which had devastated their country. As recently as the 
1970's, Vietnamese fled a homeland wounded by decades of war. 
These and so many others saw hope and opportunity in America. 
They came here for a chance to succeed. They made the conscious 
decision to become a part of a new family, to become Americans. 
And becoming an American is a unique experience which comes 
with certain responsibilities, certain habits that one has to 
absorb and accept to successfully finish the process.
    ``An American is not `French' the way the French are, or 
`German' the way the Germans are. You can live in either of 
these countries for years and never become French or German. I 
think one of the reasons Tiger Woods has had such a big impact 
is because he is an American. He defines himself as an 
American. As Tiger described himself, `I just am who I am, 
whatever you see in front of you.'
    ``I think we need to be prepared to say, the truth is, we 
want all American to be, quite simply, Americans. That doesn't 
deprive anyone of the right to further define their heritage. I 
go to celebrations such as the Greek festival in my district 
every year.
    ``It doesn't deprive us of the right to have ethnic pride, 
to have some sense of our origins. But it is wrong for some 
Americans to begin creating subgroups to which they have higher 
loyalty than to America at large. The genius of America has 
always been its ability to draw people from everywhere and to 
give all of them an opportunity to pursue happiness in a way 
that no other society has been able to manage.
    ``Andria Brown, writing in the Chicago Tribune on April 18, 
1997, wrote about Tiger Woods: `We might be saved by the 
amazing grace of golf. And by a kid with a swing whose mixed 
heritage could be a recipe for hope, proving to the world that 
it's not what color you are but the way you carry yourself, the 
way you persist to reach your dreams. When he steps to the tee, 
Tiger Woods does not represent the struggle of African-
Americans. When he sinks a putt, the athletic future of 
Chinese-Americans does not rest on his shoulders. Rather, what 
Tiger Woods does embody each time he walks a golf course is the 
potential of youth and the reward of diligence. What Tiger 
Woods typifies is the best of what we all can be.'
    ``America,'' says the Speaker, ``is too big and too diverse 
to categorize each and every one of us into four rigid racial 
categories. The administration has made a decision to force us 
to choose artificial categories that do not accurately reflect 
the racial identity of America. Millions of Americans like 
Tiger Woods or my constituent, Ryan Graham, who testified 
before you earlier this year, have moved beyond the Census 
Bureau's divisive and inaccurate labels. We live in a 
technicolor world where the government continues to view us as 
only black and white.
    ``It is time for the government to stop perpetuating racial 
divisiveness. It is time to treat individuals as individuals 
and to adopt the attitude about or fellow Americans that Lou 
Ann Mullen, a Native American Texan who fought valiantly to be 
allowed to adopt two black children, expressed about her own 
family when asked about their multiracial makeup.'' said Ms. 
Mullen, `` `We are often described that way, but I don't think 
of us that way. To me we are just my family.' ''
    Said the Speaker, ``That should be our goal for the way we 
as Americans feel about one another. That is why, ideally, I 
believe we should have one box on Federal forms that simply 
reads, `American.'
    ``But if that is not possible at this point, we should at 
least stop forcing Americans into inaccurate categories aimed 
at building divisive subgroups and allow them the option of 
selecting the category `multiracial,' which I believe will be 
an important step toward transcending racial division and 
reflecting the melting pot which is America.''
    [The prepared statement of Hon. Newt Gingrich follows:]
    [GRAPHIC] [TIFF OMITTED] 45174.450
    
    [GRAPHIC] [TIFF OMITTED] 45174.451
    
    Mr. Horn. Now I would like to thank the following people 
that have prepared this hearing: Our staff director and counsel 
for the Subcommittee on Government Management, Information, and 
Technology is Russell George. The one directly responsible for 
most of this hearing is John Hynes, professional staff member, 
on your right, my left. Andrea Miller, our clerk, and her staff 
of interns I thank as well.
    David McMillen for the minority, professional staff member; 
Jean Gosa, clerk for the minority. The interns are Darren 
Carlson, Jeff Cobb, John Kim, and Grant Newmann. Our court 
reporter is Barbara Smith.
    Thank you very much. With that, this hearing is adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

                                   - 
[GRAPHIC] [TIFF OMITTED] 45174.452

[GRAPHIC] [TIFF OMITTED] 45174.453

[GRAPHIC] [TIFF OMITTED] 45174.454

[GRAPHIC] [TIFF OMITTED] 45174.455

[GRAPHIC] [TIFF OMITTED] 45174.456

[GRAPHIC] [TIFF OMITTED] 45174.457

[GRAPHIC] [TIFF OMITTED] 45174.458

[GRAPHIC] [TIFF OMITTED] 45174.459

[GRAPHIC] [TIFF OMITTED] 45174.460

[GRAPHIC] [TIFF OMITTED] 45174.461

[GRAPHIC] [TIFF OMITTED] 45174.462

[GRAPHIC] [TIFF OMITTED] 45174.463

[GRAPHIC] [TIFF OMITTED] 45174.464

[GRAPHIC] [TIFF OMITTED] 45174.465

[GRAPHIC] [TIFF OMITTED] 45174.466

[GRAPHIC] [TIFF OMITTED] 45174.467

[GRAPHIC] [TIFF OMITTED] 45174.468

[GRAPHIC] [TIFF OMITTED] 45174.469

[GRAPHIC] [TIFF OMITTED] 45174.470

[GRAPHIC] [TIFF OMITTED] 45174.471

[GRAPHIC] [TIFF OMITTED] 45174.472

[GRAPHIC] [TIFF OMITTED] 45174.473

[GRAPHIC] [TIFF OMITTED] 45174.474

[GRAPHIC] [TIFF OMITTED] 45174.475

[GRAPHIC] [TIFF OMITTED] 45174.476

[GRAPHIC] [TIFF OMITTED] 45174.477

[GRAPHIC] [TIFF OMITTED] 45174.478

[GRAPHIC] [TIFF OMITTED] 45174.479

[GRAPHIC] [TIFF OMITTED] 45174.480

[GRAPHIC] [TIFF OMITTED] 45174.481

[GRAPHIC] [TIFF OMITTED] 45174.482

[GRAPHIC] [TIFF OMITTED] 45174.483

[GRAPHIC] [TIFF OMITTED] 45174.484

[GRAPHIC] [TIFF OMITTED] 45174.485

[GRAPHIC] [TIFF OMITTED] 45174.486

[GRAPHIC] [TIFF OMITTED] 45174.487

[GRAPHIC] [TIFF OMITTED] 45174.488

[GRAPHIC] [TIFF OMITTED] 45174.489

[GRAPHIC] [TIFF OMITTED] 45174.490


</pre></body></html>
